<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2007</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
AGRICULTURE, RURAL DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2007

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Agriculture, Rural Development, and Related 
Agencies for inclusion in the record. The submitted materials 
relate to the fiscal year 2007 budget request for programs 
within the subcommittee's jurisdiction.]

       Prepared Statement of the American Farm Bureau Federation

    The Farm Security and Rural Investment Act of 2002 (FSRIA) was 
enacted 4 years ago following 2 years of exhaustive debate in the House 
and Senate. The new farm law represents a delicate balance by 
effectively addressing the stability of our agricultural production 
base, protecting our important natural resources and enhancing 
nutrition and food assistance programs in our Nation.
    The mandatory programs administered by the Department of 
Agriculture such as commodity, conservation, crop insurance, export 
promotion programs, nutrition and forestry are of enormous importance 
to farmers, ranchers, rural businesses, low-income Americans and our 
Nation's children. Therefore, we respectfully ask the Appropriations 
Committee to avoid making any changes to mandatory programs within the 
USDA budget.
    Contract-based working lands conservation programs such as the 
Environmental Quality Incentives Program (EQIP), Conservation Security 
Program (CSP), Wildlife Habitat Incentives Program (WHIP) and Forest 
Land Enhancement Program (FLEP) are a priority within the agricultural 
and landowner community, as shown by current levels of 
oversubscription. Farm Bureau is concerned that many of these programs 
have not been funded at optimum levels, especially the Conservation 
Security Program. This has led to a level of confusion among farmers 
and ranchers of when and how the program will be implemented within 
their particular watershed, and whether or not the financial incentives 
will be adequate to encourage participation. As we move forward in this 
budget process, Farm Bureau encourages Congress to find an appropriate 
balance of funding for targeted land idling programs, such as the 
General and Continuous Conservation Reserve Programs, with our current 
working lands conservation programs.
    Farm Bureau supports the farm bill's energy title that includes 
provisions for Federal procurement of bio-based products, bio-refinery 
development grants, a biodiesel fuel education program, renewable 
energy development program, renewable energy systems, a bioenergy 
program, biomass research and development and value-added agricultural 
product development and marketing. These programs play a critical role 
in assisting in rural economic development as well as in increasing our 
Nation's energy independence and should be fully funded at authorized 
levels.
    Farm Bureau has identified three areas as priorities for 
discretionary funding in fiscal year 2006. They are funding for animal 
identification implementation, programs that maintain the use of 
agriculture inputs and programs that increase agriculture exports.
     programs necessary for implementation of animal identification
    The threat of bioterrorism and the discovery of bovine spongiform 
encephalopathy (BSE) in the United States has prompted increased action 
by USDA and others to step up animal disease surveillance and funding 
for critical programs such as animal identification. Farm Bureau places 
great priority on efforts to safeguard our livestock and food supply 
and requests increased resources be appropriated to the National Animal 
Identification System (NAIS) for these activities.
    We have serious concerns about the adequacy of the administration's 
proposal for $33 million for the Animal and Plant Health Inspection 
Service (APHIS) to continue implementation of the NAIS. Industry 
estimates of the U.S. Animal Identification Plan (USAIP), upon which 
the NAIS is based, forecast an ongoing cost of about $100 million per 
year to effectively implement such a system. USDA has expended just $84 
million total in the first 2 years of development of the NAIS. When 
added to this year's budget request, the total Federal fund commitment 
amounts to approximately $117 million. This is significantly short of 
the department's own cost estimate of $550 million for the first 5 
years of NAIS operation.
    If the government were to fund $33 million each year (the same as 
their budget requests during the first 3 years of operation), two-
thirds of the cost of the NAIS would have to be funded by producers and 
affected industries in order for the NAIS to proceed on the timeline 
originally proposed by both USDA and the livestock industry. Farmers 
and ranchers cannot afford to bear the brunt of the cost of this 
program, which is essentially a public good. Although participating in 
the NAIS does provide some insurance to producers in the event of an 
animal health incident, this program also assists Federal animal health 
officials and is an important tool against the effects of accidental or 
intentional introduction of zoonotic disease. Given the benefits of the 
NAIS to the general public and our overall national biosecurity, a 
larger portion of the cost must be borne by the government.
    If the industry bears the cost of identification devices and 
application of those devices, and the Federal Government were to fund 
the majority of the cost of database maintenance, program 
administration, and retro-fitting for data collection at large co-
mingling sites (i.e., markets and processing facilities), the end 
result would be an almost equal funding distribution between industry 
and government. However, the current budget request will not support 
this funding split under the timeline proposed in USDA's NAIS Draft 
Strategic Plan. Under the fiscal year 2007 budget proposal, States and 
industry would have to bear a greater share of the cost burden in order 
to maintain the timeline through full implementation in 2009, although 
States and industry cannot afford to pay for the majority of the 
system, the United States cannot afford to delay implementation of the 
system. A delay could be economically devastating in the case of an 
animal disease outbreak such as foot-and-mouth disease (FMD), both in 
terms of the impact on the domestic herd and the implications from the 
loss of trading partners.
    We appreciate the inclusion of NAIS funding in the fiscal year 2005 
and fiscal year 2006 agriculture funding bills, and strongly encourage 
the committee to significantly increase that amount in this year's 
version of the agriculture appropriations bill. Progress has been seen 
in making premises registration available in all 50 States and multiple 
tribes. Nationally, just over 10 percent of all livestock premises are 
now identified, but much work remains to bring the remaining 90 percent 
into the system. Outreach and education are key to inform producers 
about the purpose of the NAIS; it is critical to immediately correct 
the many misconceptions that have circulated and may discourage 
producers from participating. In addition to continuing funding for 
APHIS's premises registration activities in cooperation with State 
animal health officials, we believe it is important to proceed with the 
next phases of the NAIS--the individual identification of animals or 
groups of animals, and the tracking of animal movements. The department 
has turned to the private sector to provide the data repository 
necessary for animal tracking; therefore, we encourage the committee to 
consider a cost-share funding allocation for privately managed, non-
profit animal ID databases maintained by agricultural organizations. 
Such databases should be capable of providing multi-species data 
repository services and access to that data by State and Federal 
veterinary officials in the event of an animal health issue in order to 
meet public needs and justify a Federal funding appropriation.
    While there are still some major issues to be resolved, primarily 
data confidentiality, AFBF strongly supports the NAIS. Timely 
implementation of this critical program will not only add to our 
ability to trace a diseased animal back to the source but will also 
reassure the public and our trading partners of a safe food supply 
system.

               PROGRAMS TO INCREASE AGRICULTURAL EXPORTS

    Creating new and expanding existing overseas markets for U.S. 
agricultural and food products is essential for a healthy agricultural 
economy anytime, but especially in 2006/07 when the USDA is forecasting 
a reduction in net U.S. farm income of $15 billion. We recommend full 
funding of all export development and expansion programs consistent 
with our WTO commitments.
    Export Development and Expansion Programs.--The Market Access 
Program, the Foreign Market Development Program, the Emerging Markets 
Program and the Technical Assistance for Specialty Crops program are 
all very effective export development and expansion programs that have 
demonstrated substantial increases in demand for U.S. agriculture and 
food products abroad. These programs are also important because they 
attract larger amounts of private sector funding into development and 
expansion activities for U.S. agriculture and food exports. We 
recommend full funding of these programs
    Farm Bureau also supports General Sales Manager credit guarantee 
programs. These programs are important because they make available 
commercial financing to buyers of U.S. food and agricultural exports 
that might otherwise not be available. They should be funded at fully 
authorized levels.
    Direct assistance for U.S. agricultural exports is also authorized 
by the Export Enhancement Program, a program to counter unfair trading 
practices of foreign countries. Farm Bureau supports the funding and 
use of this program in all countries and for all commodities where the 
United States faces unfair competition. The Dairy Export Incentive 
Program is another similar program that allows U.S. dairy producers to 
compete with foreign nations that subsidize their diary exports. We 
recommend full funding of this program as well.
    Food Aid Programs.--We urge full funding of Public Law 480 that 
serves as the primary means by which the United States provides needed 
foreign food assistance through the purchase of U.S. commodities. In 
addition to providing short-term humanitarian assistance, the program 
helps to develop long-term commercial export markets. We oppose any 
efforts to reduce funding of Public Law 480, especially efforts to 
transfer funding to other food aid and development programs outside the 
jurisdiction of USDA. Further, the International Food for Education 
Program will be an effective platform for delivering severely needed 
food aid and educational assistance and we urge its full support.
    Plant and Animal Health Monitoring, Pest Detection and Control.--
USDA services and programs that facilitate U.S. exports by certifying 
plant and animal health to foreign customers, that protect U.S. 
agricultural production from foreign pests and diseases, and fight 
against unsound non-tariff trade barriers by foreign governments should 
be funding priorities. Plant and animal health monitoring, surveillance 
and inspection are crucial. We support funding increases for improved 
plant pest detection and eradication, management of animal health 
emergencies and to increase the availability of animal vaccines. 
Expansion of Plant Protection and Quarantine personnel and facilities 
is necessary to protect U.S. agriculture from new, oftentimes virulent 
and costly pest problems that enter the United States from foreign 
lands.
    APHIS Trade Issues Resolution and Management.--Full funding is 
needed for APHIS trade issues resolution and management. As Federal 
negotiators and U.S. industry try to open foreign markets to U.S. 
exports, they consistently find that other countries are raising pest 
and disease concerns (i.e., sanitary and phytosanitary measures), real 
or contrived, to resist or prohibit the entry of American products into 
their markets. Only APHIS has the technical capability to respond 
effectively to this resistance. It requires however, placing more APHIS 
officers at U.S. ports and in overseas locations where they can monitor 
pest and disease conditions, negotiate trading protocols with other 
countries and intervene when foreign officials wrongfully prevent the 
entry of American imports. It is essential that APHIS be positioned to 
swiftly and forcefully respond to such issues when and where they 
arise.
    APHIS Biotech Regulatory Service (BRS).--Agricultural biotechnology 
is an extremely promising technology and all reasonable efforts must be 
made to allow continued availability and marketability of biotech tools 
for farmers. BRS plays an important role in overseeing the permit 
process for products of biotechnology. Funding for BRS personnel and 
activities are essential for ensuring public confidence and 
international acceptance of biotechnology products. AFBF supports an 
increase in spending to $11.417 million ($8.584 in 2006) for BRS 
because it will enable the USDA to increase inspections of genetically-
modified crop field test sites and enhance its capacity to regulate 
transgenic animals, arthropods, and disease agents.
    Foreign Agricultural Service (FAS).--The USDA's Foreign 
Agricultural Service will require sufficient funding to expand services 
to cover all existing and potential market posts. We support 
continuance of funding at the 2006 appropriations level for the office 
of the secretary for cross-cutting trade negotiations and biotechnology 
resources.

          PROGRAMS THAT MAINTAIN THE USE OF AGRICULTURE INPUTS

    USDA must continue to work with EPA, agricultural producers, food 
processors and registrants to provide farm data required to ensure that 
agricultural interests are properly considered and fully represented in 
all pesticide registration, tolerance reassessment re-registration, and 
registration review processes. In order to participate effectively in 
the process of ensuring that crop protection tools are safe and remain 
available to agriculture, USDA must have all the resources necessary to 
provide economic benefit, scientific analysis and usage information to 
EPA. To this end, funding should be maintained or increased, and in 
some cases restored, to the following offices and programs:
    Office of Pest Management Policy (OPMP).--OPMP has the primary 
responsibility for coordination of USDA's Food Quality Protection Act 
(FQPA) and crop protection obligations and interaction with EPA. Proper 
funding is vital for the review of tolerance reassessments, 
particularly dietary and worker exposure information; to identify 
critical uses, benefits and alternatives information; and to work with 
grower organizations to develop strategic pest management plans. The 
funding to OPMP should be designated under the secretary of 
agriculture's office, rather than as an add-on to the Agricultural 
Research Service budget.
    Agriculture Research Service (ARS).--Integrated Pest Management 
(IPM) research, minor use tolerance research (IR-4) must have funding 
maintained, and research on alternatives to methyl bromide must have 
funding restored and receive future funding to satisfactorily address 
the unique concerns of these programs. Research is also needed to 
identify new biological pest control measures and to control pesticide 
migration.
    Cooperative State Research, Education and Extension Service 
(CSREES).--Funding must be maintained, in some cases restored, and full 
future funding provided for Integrated Pest Management research grants, 
IPM application work, pest management alternatives program, expert IPM 
decision support system, minor crop pest management project (IR-4), 
crops at risk from FQPA implementation, FQPA risk avoidance and 
mitigation program for major food crop systems, methyl bromide 
transition program, regional crop information and policy centers and 
the pesticide applicator training program.
    Economic Research Service (ERS).--USDA and EPA rely on ERS programs 
to provide unique data information and they should be properly funded 
including IPM research, pesticide use analysis program and the National 
Agriculture Pesticide Impact Assessment Program.
    Food Quality and Crop Protection Regulation.--Additional funding 
for proper regulation of pesticides is needed in the following 
programs: National Agriculture Statistics Service pesticide use 
surveys; Food Safety Inspection Service increased residue sampling and 
analysis; Agricultural Marketing Service; and the Pesticide Data 
Program.
                                 ______
                                 

 Prepared Statement of the American Indian Higher Education Consortium

    Mr. Chairman and Members of the Subcommittee, on behalf of the 
American Indian Higher Education Consortium (AIHEC) and the 33 Tribal 
Colleges and Universities that comprise the list of 1994 Land Grant 
Institutions, thank you for this opportunity to share our funding 
requests for fiscal year 2007 (fiscal year 2007).
    This statement is presented in three parts: (a) a summary of our 
fiscal year 2007 funding recommendation, (b) a brief background on 
Tribal Colleges and Universities, and (c) an outline of the 1994 Tribal 
College Land Grant Institutions' plan for using our land grant programs 
to fulfill the agricultural potential of American Indian communities, 
and to ensure that American Indians have the skills and support needed 
to maximize the economic development potential of their resources.

Summary of Requests
    We respectfully request the following funding levels for fiscal 
year 2007 for our land grant programs established within the USDA 
Cooperative State Research, Education, and Extension Service (CSREES) 
and Rural Development mission areas. In CSREES, we specifically 
request: $12 million payment into the Native American endowment fund; 
$3.3 million for the higher education equity grants; $5 million for the 
1994 institutions' competitive extension grants program; $3 million for 
the 1994 Institutions' competitive research grants program; and in 
Rural Development--Rural Community Advancement Program (RCAP), that $5 
million be provided for each of the next 5 fiscal years for the tribal 
college community facilities grants program. RCAP grants help to 
address the critical facilities and infrastructure needs at the 
colleges that impede our ability to participate fully as land grant 
partners.

 Background on Tribal Colleges and Universities
    The first Morrill Act was enacted in 1862 specifically to bring 
education to the people and to serve their fundamental needs. Today, 
over 140 years after enactment of the first land grant legislation, the 
1994 Land Grant Institutions, as much as any other higher education 
institutions, exemplify the original intent of the land grant 
legislation, as they are truly community-based institutions.
    The Tribal College Movement was launched in 1968 with the 
establishment of Navajo Community College, now Dine College, serving 
the Navajo Nation. Rapid growth of tribal colleges soon followed, 
primarily in the Northern Plains region. In 1972, the first six 
tribally controlled colleges established the American Indian Higher 
Education Consortium to provide a support network for member 
institutions. Today, AIHEC represents 34 Tribal Colleges and 
Universities 3 of which comprise the list of 1994 Land Grant 
Institutions located in 12 States--created specifically to serve the 
higher education needs of American Indian students. Annually, they 
serve approximately 30,000 full- and part-time students from over 250 
Federally recognized tribes.
    All of the 1994 Land Grant Institutions are accredited by 
independent, regional accreditation agencies and like all institutions 
of higher education, must undergo stringent performance reviews to 
retain their accreditation status. Tribal colleges serve as community 
centers by providing libraries, tribal archives, career centers, 
economic development and business centers, public meeting places, and 
child care centers. Despite their many obligations, functions, and 
notable achievements, tribal colleges remain the most poorly funded 
institutions of higher education in this country. Most of the 1994 Land 
Grant Institutions are located on Federal trust territory. Therefore, 
States have no obligation and in most cases, provide no funding to 
tribal colleges. In fact, most States do not even fund our institutions 
for the non-Indian State residents attending our colleges, leaving the 
tribal colleges to absorb the per student operational costs for non-
Indian students enrolled in our institutions, accounting for 
approximately 20 percent of our student population. Under these 
inequitable financing conditions and unlike our State land grant 
partners, our institutions do not benefit from economies of scale--
where the cost per student to operate an institution is diminished by 
the increased size of the student body.
    As a result of 200 years of Federal Indian policy--including 
policies of termination, assimilation and relocation--many reservation 
residents live in abject poverty comparable to that found in Third 
World nations. Through the efforts of Tribal Colleges and Universities, 
American Indian communities are receiving services they need to 
reestablish themselves as responsible, productive, and self-reliant 
citizens. It would be regrettable not to expand the very modest 
investment in, and capitalize on, the human resources that will help 
open new avenues to economic development, specifically through 
enhancing the 1994 Institutions' land grant programs, and securing 
adequate access to information technology.

1994 Land Grant Programs--Ambitious Efforts to Reach Economic 
        Development Potential
    Tragically, due to lack of expertise and training, millions of 
acres on our reservations lie fallow, under used, or have been 
developed through methods that render the resources nonrenewable. The 
Equity in Educational Land Grant Status Act of 1994 is starting to 
rectify this situation and is our hope for future advancement.
    Our current land grant programs are small, yet very important to 
us. It is essential that American Indians explore and adopt new and 
evolving technologies for managing our lands. We have the potential of 
becoming significant contributors to the agricultural base of the 
Nation and the world.
    Native American Endowment Fund.--Endowment installments that are 
paid into the 1994 Institutions' account remain with the U.S. Treasury. 
Only the annual interest, less the USDA's administrative fee, is 
distributed to the colleges. The latest gross annual interest yield 
(fiscal year 2005) is $2,577,357 after the USDA's administrative fee of 
$103,094 is deducted; $2,474,263 is the amount available to be 
distributed among all of the eligible 1994 Land Grant Institutions by 
statutory formula. While we have not yet been provided the latest 
breakdown of funds distributed to each of the 1994 institutions, last 
year USDA's administrative fee amounted to more than the payment 
amounts to 75 percent of the 1994 Land Grant Institutions. After the 
distribution amounts are determined for this year's disbursement, we 
fully expect similar results. We respectfully ask that the Subcommittee 
review the Department's administrative fee and consider reducing it for 
this program, so that more of these already limited funds can be 
utilized to conduct vital 1994 Land Grant community based programs.
    Just as other land grant institutions historically received large 
grants of land or endowments in lieu of land, this endowment assists 
1994 Land Grant Institutions in establishing and strengthening our 
academic programs in such areas as curricula development, faculty 
preparation, instruction delivery, and to help address critical 
facilities and infrastructure issues. Many of the colleges have used 
the endowment funds in conjunction with the Education Equity Grant 
funds to develop and implement their academic programs. As earlier 
stated, tribal colleges often serve as primary community centers and 
although conditions at some have improved substantially, many of the 
colleges still operate under less than satisfactory conditions. In fact 
most of the tribal colleges cite improved facilities as one of their 
highest priorities. Several of the colleges have indicated the need for 
immediate and substantial renovations to replace buildings that have 
long exceeded their effective life spans and to upgrade existing 
facilities to address accessibility and safety concerns.
    Endowment payments increase the size of the corpus held by the U.S. 
Treasury and thereby increase the annual interest yield disbursed to 
the 1994 land grant institutions. This additional funding would be very 
helpful in our efforts to continue to support faculty and staff 
positions and program needs within Agriculture and Natural Resources 
departments, as well as to continue to help address the critical and 
very expensive facilities needs at our institutions. Currently, the 
amount that each college receives from this endowment is not adequate 
to address curricula development and instruction delivery, as well as 
make even a dent in the necessary facilities projects at the colleges. 
In order for the 1994 Institutions to become full partners in this 
Nation's great land grant system, we need and frankly, under treaty 
obligations, warrant the facilities and infrastructure necessary to 
fully engage in education and research programs vital to the future 
health and well being of our reservation communities. We respectfully 
request the subcommittee fund the fiscal year 2007 endowment payment at 
$12 million, $120,000 above fiscal year 2006 and the in the President's 
Budget recommendation--restoring the across-the-board cut imposed on 
fiscal year 2006 appropriated levels. 1994 Institutions' Educational 
Equity Grant Program: Closely linked with the endowment fund, this 
program is designed to assist 1994 land grant institutions with 
academic programs. Through the modest appropriations made available 
since fiscal year 2001, the tribal colleges have been able to begin to 
support courses and plan activities specifically targeting the unique 
needs of their respective communities.
    The 1994 Institutions have developed and implemented courses and 
programs in natural resource management; environmental sciences; 
horticulture; forestry; bison production and management; and especially 
food science and nutrition to address epidemic rates of diabetes and 
cardiovascular disease on reservations. If more funds were available 
through the Educational Equity Grant Program, tribal colleges could 
channel more of their endowment yield to supplement other facilities 
funds to address their critical infrastructure issues. Authorized at 
$100,000 per eligible 1994 Institutions, in fiscal year 2006, 
approximately $68,000 or two-thirds of the authorized level was 
available to the 1994 institutions, after across-the-board cuts and 
Department fees were applied to the initial appropriated level of 
$2,250,000. We respectfully request full funding of $3.3 million to 
allow the tribal colleges to build upon the courses and successful 
activities that have been launched.
    Extension Programs.--The 1994 Institutions' extension programs 
strengthen communities through outreach programs designed to bolster 
economic development; community resources; family and youth 
development; natural resources development; agriculture; as well as 
health and nutrition awareness.
    In fiscal year 2006, $3,273,000 was appropriated for the 1994 
Institutions' competitive extension grants, a slight increase over 
fiscal year 2005. Without adequate funding, 1994 Institutions' ability 
to maintain existing programs and to respond to emerging issues such as 
food safety and homeland security, especially on border reservations, 
is severely limited. Increases in funding are needed to support these 
vital programs designed to address the inadequate extension services 
provided to Indian reservations by their respective State programs. It 
is important to note that the 1994 extension program is designed to 
complement the Indian Reservation Extension Agent program and does not 
duplicate extension activities. 1994 Land Grant programs are funded at 
very modest levels. The tribal college land grants have applied their 
ingenuity for making the most of every dollar they have at their 
disposal by leveraging funds to maximize their programs whenever 
possible. For example, College of Menominee Nation (CMN) in Keshena, 
Wisconsin, has a multiyear program that leverages funding from several 
activities to expand its extension program, which focuses on 
strengthening the economic capacity of the local community. Partnering 
with U.S. Department of Health and Human Services, CMN is designing 
curriculum that involves tribal elders, relevant service providers, 
local schools, the Commission on Aging, and health clinics designed to 
encourage minority youth to enter Allied Health fields. With a grant 
from the Wisconsin Department of Transportation, the college's 
extension and outreach offers the Transportation Alliance for New 
Solutions (TrANS) program. This is a 120 hour program designed to train 
women and minorities in roads construction. In addition, the Federal 
Highway Administration and the Wisconsin Department of Transportation 
have provided grant funds to CMN extension and outreach to conduct a 
Summer Transportation Institute focusing on middle school students. 
Students spend 4 weeks exploring various careers within the 
transportation industry. CMN is just one example of the innovative 
programs being conducted at 1994 Institutions. To continue and expand 
these successful programs, we request the Subcommittee support this 
competitive program by appropriating $5 million to sustain the growth 
and further success of these essential community based programs.
    1994 Research Program.--As the 1994 Land Grant Institutions have 
begun to enter into partnerships with 1862/1890 land grant institutions 
through collaborative research projects, impressive efforts to address 
economic development through land use have come to light. Our research 
program illustrates an ideal combination of Federal resources and 
tribal college-state institutional expertise, with the overall impact 
being far greater than the sum of its parts. We recognize the budget 
constraints under which Congress is functioning. However, $1,039,000, 
the fiscal year 2006 appropriated level, is a 4.4 percent decrease in 
funding that was already grossly inadequate. This research program is 
vital to ensuring that tribal colleges may finally become full partners 
in the Nation's land grant system. Many of our institutions are 
currently conducting agriculture based applied research, yet finding 
the resources to conduct this research to meet their communities' needs 
is a constant challenge. This research authority opens the door to new 
funding opportunities to maintain and expand the research projects 
begun at the 1994 Institutions, but only if adequate funds are 
appropriated. $1,039,000 for 33 institutions to compete for is clearly 
inadequate. Project areas being studied include soil and water quality, 
amphibian propagation, pesticide and wildlife research, range cattle 
species enhancement, and native plant preservation for medicinal and 
economic purposes. We strongly urge the Subcommittee to fund this 
program at a minimum of $3 million to enable our institutions to 
develop and strengthen their research potential.
    Rural Community Advancement Program (RCAP).--In fiscal year 2006, 
$4,464,000 of the RCAP funds appropriated for loans and grants to 
benefit Federally recognized American Indian tribes were targeted for 
community facility grants for improvements at Tribal Colleges and 
Universities. This amounts to an increase of $464,000 over the level 
that had been allocated to the program each year since it began in 
fiscal year 2001. This program requires a minimum 25 percent non-
Federal match. Tribal colleges are chartered by their respective 
tribes, which enjoy a government-to-government relationship with the 
Federal Government. Due to this relationship, tribal colleges have very 
limited access to non-Federal dollars making non-Federal matching 
requirements a significant barrier to our colleges' ability to compete 
for much needed funds. The 2002 Farm Security and Rural Investment Act, 
(Public Law 107-171) included language limiting the non-Federal match 
requirement for the Rural Cooperative Development Grants to no more 
than 5 percent in the case of a 1994 institution. We would like to have 
this same language applied to the RCAP community facilities grants for 
tribal colleges to open the door to more 1994 Institutions to compete 
for these dollars.
    We urge the Subcommittee to designate $5 million for each of the 
next 5 fiscal years to afford the 1994 institutions the means to 
aggressively address critical facilities needs, thereby allowing them 
to better serve their students and respective communities. 
Additionally, we request that Congress include language directing the 
agency to limit the non-Federal matching requirement to not more than 5 
percent, the same level as applied to the Rural Cooperative Development 
Grants program, to help the 1994 land grant institutions to effectively 
address critical facilities and construction issues at their 
institutions.

Conclusion
    The 1994 Land Grant Institutions have proven to be efficient and 
effective vehicles for bringing educational opportunities to American 
Indians and hope for self-sufficiency to some of this Nation's poorest 
regions. The modest Federal investment in the 1994 Land Grant 
Institutions has already paid great dividends in terms of increased 
employment, education, and economic development. Continuation of this 
investment makes sound moral and fiscal sense. American Indian 
reservation communities are second to none in their potential for 
benefiting from effective land grant programs and as earlier stated no 
institutions better exemplify the original intent of the land grant 
concept than the 1994 Land Grant Institutions.
    We appreciate your support of the Tribal Colleges and Universities 
and we ask you to renew your commitment to help move our communities 
toward self-sufficiency. We look forward to continuing our partnership 
with you, the U.S. Department of Agriculture, and the other members of 
the Nation's land grant system--a partnership that will bring equitable 
educational, agricultural, and economic opportunities to Indian 
Country.
    Thank you for this opportunity to present our funding proposals to 
this Subcommittee. We respectfully request your continued support an
                                 ______
                                 

      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other state and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to one of every seven electricity consumers (approximately 
43 million people), serving some of the nation's largest cities. 
However, the vast majority of APPA's members serve communities with 
populations of 10,000 people or less.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2007 funding priorities within the jurisdiction of the 
Agriculture, Rural Development, and Related Agencies Subcommittee.

Department of Agriculture: Rural Utility Service Rural Broadband Loan 
        Program
    APPA urges the Subcommittee to fully fund the Rural Utility 
Service's (RUS) Rural Broadband Loan Program at $10 million, as 
authorized in the 2002 Farm Bill. A funding level of $10 million would 
produce approximately $356 million in RUS loans for fiscal year 2007.
    APPA believes it is important to provide incentives for the 
deployment of broadband to rural communities, many of which lack 
broadband service. Increasingly, access to advanced communications 
services is considered vital to a community's economic and educational 
development. In addition, the availability of broadband service enables 
rural communities to provide advanced health care through telemedicine 
and to promote regional competitiveness and other benefits that 
contribute to a high quality of life. Approximately one-fourth of 
APPA's members are currently providing broadband service in their 
communities. Several APPA members are planning to apply for RUS 
broadband loans to help them finance their broadband projects.
                                 ______
                                 

 Prepared Statement of the American Society of Agronomy, Crop Science 
        Society of America, and Soil Science Society of America

    Dear Chairman Bennett, Ranking Member Kohl and Members of the 
Subcommittee: On behalf of the American Society of Agronomy, Crop 
Science Society of America, Soil Science Society of America (ASA/CSSA/
SSSA), we are pleased to submit comments in strong support of enhanced 
public investment in food and agricultural research, extension and 
education as a critical component of federal appropriations for fiscal 
year 2007 and beyond. With nearly 18,000 members, ASA/CSSA/SSSA are the 
largest life science professional societies in the United States 
dedicated to the agronomic, crop and soil sciences. ASA/CSSA/SSSA play 
a major role in promoting progress in these sciences through the 
publication of quality journals and books, convening meetings and 
workshops, developing educational, training, and public information 
programs, providing scientific advice to inform public policy, and 
promoting ethical conduct among practitioners of agronomy and crop and 
soil sciences. The programs and activities of ASA/CSSA/SSSA are 
tailored not only to our members' interests and scientific advancement, 
but also serve the public interest. ASA/CSSA/SSSA publish six peer-
reviewed journals in which over 1100 scientific articles are published 
yearly. The peer-review procedures for manuscripts published in ASA/
CSSA/SSSA journals as well as our activities and procedures for 
publishing ensure the highest quality and integrity in our scientific 
literature.
    ASA/CSSA/SSSA understand the challenges the Senate Agriculture 
Appropriations Subcommittee faces with the tight agriculture budget for 
fiscal year 2007. We also recognize that the Agriculture Appropriations 
bill has many valuable and necessary components, and we applaud the 
efforts of the Subcommittee to fund mission-critical research through 
the USDA-Cooperative State, Research, Education and Extension Service 
as well as its intramural research portfolio funded through the 
Agricultural Research Service. We are particularly grateful to the 
Subcommittee for funding the NRI at $181 million in fiscal year 2006. 
Below we have highlighted recommendations for the fiscal year 2007 
appropriations cycle.

Agricultural Research Service
    ASA/CSSA/SSSA understand the agency's need to reprogram 
approximately $49.1 million in funding to higher priority areas such as 
homeland security, emerging diseases, food safety, obesity, climate 
change, invasive species, and genomics and genetics. ASA/CSSA/SSSA 
applaud ARS's ability to respond quickly and flexibly to rapidly 
changing national needs. The proposed increase of $57.7 in new monies 
for these high priority areas is also commended. However, ASA/CSSA/SSSA 
are concerned that the proposed overall cut in total funding for ARS of 
$123, or 11 percent, from fiscal year 2006 enacted, could result in 
decreased research capacity and/or the elimination of important 
research programs currently underway. ASA/CSSA/SSSA urge the 
Subcommittee to act judiciously and not implement such drastic funding 
cuts for this critical research agency.

Cooperative State Research, Education, and Extension Service
    National Research Initiative.--ASA/CSSA/SSSA strongly endorse the 
President's proposed fiscal year 2007 budget increase of $66.3 million 
for the National Research Initiative Competitive Grants Program (NRI) 
which would bring total funding for this important research program to 
$247.5 million. However, we do not support the President's proposal to 
transfer the $42.3 million Sec 406 (Integrated Research, Education, and 
Extension program) program into the NRI. This transfer may result in 
the loss of critical programs such as the Organic Transitions Program.
    NRI Integrated Research.--ASA/CSSA/SSSA request that any new monies 
appropriated for the NRI, as requested by the administration, allow the 
Secretary the discretion to apply up to 30 percent towards carrying out 
the NRI integrated research, extension and education competitive grants 
program.
    Sustainable Agriculture Research and Education Programs.--ASA/CSSA/
SSSA oppose the administration's request to cut funding for SARE by 
more than $3 million. At a minimum, the Subcommittee should fund SARE 
at the fiscal year 2006 enacted (pre-rescission) level of $12.4 
million.
    Indirect Costs.--ASA/CSSA/SSSA applaud the administration's 
proposal to eliminate the indirect cost cap on the NRI, set at 20 
percent for fiscal year 2006, which will broaden its appeal by putting 
the NRI on equal footing with other federal competitive grants programs 
such as those of NSF and NIH. However, we are concerned that new 
funding was not provided to cover this change.
    Research Formula Funding.--ASA/CSSA/SSSA oppose the 
administration's proposal to change the methodology for distributing 
Hatch Funds and McIntire-Stennis Funds through a multistate, 
competitively awarded proposal program. Such drastic changes would be 
detrimental to the entire USDA research portfolio. Because of their 
timing and potential regional and intra-state impacts, much of the 
infrastructure needed to conduct competitively funded research could be 
compromised if formula funds were to be redirected as proposed, and 
could irreparably damage programs housed at each land-grant university. 
This would mean a huge and potentially damaging loss of national 
infrastructure to conduct agricultural research. The private sector 
depends heavily on the agricultural technology and training provided by 
the U.S. land grant system, and the impact of such a drastic transfer 
of formula funds to a competitive grants program would affect not only 
the viability of U.S. industry but also the health and survival of 
millions of people across the globe. Moreover, as noted below, 
investments in formula funded research show an excellent annual rate of 
return.
    Agrosecurity.--ASA/CSSA/SSSA support the request of the 
administration that $12 million be provided for the Animal and Plant 
Diagnostic Labs and EDEN to facilitate protecting America's 
agricultural production systems. ASA/CSSA/SSSA also endorse the 
administration's request ($5.0 million) for the Agrosecurity Curricula 
Development, which we consider to be a critical new initiative. Recent 
security threats facing America require new and expanded agricultural 
research to protect our nation's natural resources, food processing and 
distribution network, and rural communities that will secure America's 
food and fiber system.
    Higher Education.--ASA/CSSA/SSSA urge the Subcommittee to fund the 
Institution Challenge Grants at $6 million which will restore some of 
the funding lost due to the 2006 rescission. We applaud the 
Administration's budget request of $4.445 million for the Graduate 
Fellowships Grants.
    Extension Formula Funding.--Extension forms a critical part of the 
research, education and extension program integration, the hallmark of 
CSREES which in not seen in other agencies. Unfortunately, the Smith 
Lever 3(b) and 3(c) account has been flat-funded (in constant dollars, 
this account has seen a gradual erosion in funding), in recent years. 
Moreover, the current trend of annual rescissions has resulted in an 
even lower funding level for this and other vital extension programs. 
ASA/CSSA/SSSA proposes, at a minimum, that the Subcommittee restore 
funding for Smith Lever 3(b) and 3(c) to the fiscal year 2006 pre-
rescission enacted level of $275.73 million.
    A balance of funding mechanisms, including intramural, competitive 
and formula funding, is essential to maintain the capacity of the 
United States to conduct both basic and applied agricultural research, 
improve crop and livestock quality, and deliver safe and nutritious 
food products, while protecting and enhancing the Nation's environment 
and natural resources. In order to address these challenges and 
maintain our position in an increasingly competitive world, we must 
continue to support research programs funded through ARS and CSREES. 
Congress must enhance funding for agricultural research to assure 
Americans of a safe and nutritious food supply and to provide for the 
next generation of research scientists. According to the USDA's 
Economic Research Service (Agricultural Economic Report Number 735), 
publicly funded agricultural research has earned an annual rate of 
return of 35 percent. This rate of return suggests that additional 
allocation of funds to support research in the food and agricultural 
sciences would be beneficial to the U.S. economy. We must also continue 
support for CSREES-funded education programs which will help ensure 
that a new generation of educators and researchers is produced. 
Finally, we need to ensure support for extension at CSREES to guarantee 
that these important new tools and technologies reach and are utilized 
by producers and other stakeholders.
    As you lead the Congress in deliberation on funding levels for 
agricultural research, please consider American Society of Agronomy, 
Crop Science Society of America, Soil Science Society of America as 
supportive resources. We hope you will call on our membership and 
scientific expertise whenever the need arises.
                                 ______
                                 

     Prepared Statement of the American Society of Civil Engineers

    The American Society of Civil Engineers (ASCE) is pleased to offer 
this testimony on the President's proposed budget for the Natural 
Resources Conservation Service (NRCS) for fiscal year 2007.
    ASCE was founded in 1852 and is the country's oldest national civil 
engineering organization. It represents more than 139,000 civil 
engineers in private practice, government, industry and academia who 
are dedicated to the advancement of the science and profession of civil 
engineering. ASCE is a 501(c)(3) non-profit educational and 
professional society.
    The Administration's proposed fiscal year 2007 budget includes only 
$15.3 million in discretionary appropriations to fund rehabilitation of 
unsafe and seriously deficient dams that were originally constructed 
under USDA Watershed Programs. This is more than a 50 percent reduction 
from the fiscal year 2006 when $31.5 million was appropriated by 
Congress.
    ASCE respectfully requests that this Subcommittee increase the 
Administration's proposed appropriation to $75 million. This amount is 
$60 million less than the total $135 million authorized in the 2002 
Farm Bill which includes discretionary funds and Commodity Credit 
Corporation (CCC) mandatory funding.
    Of the 78,000 dams in the United States, 95 percent are regulated 
by the states. Approximately 10,400 of these dams are small watershed 
structures built under the United States Department of Agriculture 
programs authorized by Congress beginning in the 1940s (primarily the 
Flood Control Act of 1944, Public Law 78-534 and the Watershed 
Protection and Flood Control Act of 1953, Public Law 83-566). By the 
year 2020, more than 85 percent of all dams in the United States will 
be more than 50 years old, the typical useful life span.

                   THE URGENT NEED FOR FEDERAL ACTION

    The benefits from the 11,000 improved watershed dams are enormous. 
The dams provide downstream flood protection, water quality, 
irrigation, local water supplies and needed recreation. Yet these 
benefits to lives and property are threatened. The small watershed dams 
are approaching the end of their useful lives as critical components 
deteriorate. The reservoirs become completely filled with sediment, 
downstream development increases the potential hazards and 
significantly changes the design standards, and many dams do not meet 
State dam safety standards.
    Although these dams were constructed with technical and financial 
assistance from the Department of Agriculture, local sponsors were then 
responsible for operation and maintenance of the structures. Now these 
dams are approaching the end of their useful lives, yet the resource 
need is still great. The flood control benefits, the irrigation needs, 
the water supply, the recreation and the conservation demands do not 
end. In fact, they are more necessary than ever as downstream 
development has dramatically increased the number of people, properties 
and infrastructure that are protected by the flood control functions of 
these dams. The Federal Government has a critical leadership role in 
assuring that these dams continue to provide critical safety and 
resource needs.
    The NRCS in the Department of Agriculture has estimated the cost of 
rehabilitating the small watershed dams at $542 million. While the 
average rehabilitation cost per dam is approximately $242,000, the 
local sponsors typically do not have sufficient financial resources to 
complete these necessary repairs to assure the safety and critical 
functions of these dams. The Federal Government must recognize the 
urgent need to provide assistance to maintain these dams. Congress 
should reinforce its earlier commitment to the goals of the Flood 
Control Acts of 1944 and 1953.
    Since the program began, there have been 136 watershed 
rehabilitation projects initiated in 21 States, which include 47 
completed rehabilitation projects and 89 projects either in the 
planning, design or construction phase. It is clear from these 136 
projects as well as the 76 projects, which requested assistance but 
were unable to be funded in fiscal year 2006, just how much demand 
exists; and how successful this USDA program is.

                         EXTENT OF THE PROBLEM

    ASCE views the funding of dam safety repairs as a critical need for 
the nation. In ASCE's 2005 Report Card for America's Infrastructure 
dams received a grade of D. Nearly 3,500 unsafe dams have been 
identified in this country and many of the owners do not have 
sufficient funding sources.
    More that 900 watershed dams across the nation will need 
rehabilitation in just the next five years at a cost of over $570 
million. These numbers will increase as dams get older and thousands of 
people and millions of dollars of property could be at risk if these 
dams should fail. That is why Congress authorized $600 million for 
rehabilitation for 2003-2007 in the last Farm Bill. Local watershed 
project sponsors provide 35 percent of the cost of the rehabilitation 
projects and many have local cost-share funds ready for projects that 
could be lost if the Federal money isn't made available.
    Many of these urgent repairs and modifications are needed because 
of the following: downstream development within the dam failure flood 
zone, replacement of critical dam components, inadequate spillway 
capacity due to significant watershed development and increased design 
criteria due to downstream development.
    Many of the small watershed dams do not meet minimum State dam 
safety standards and many that are being counted on for flood 
protection can no longer provide flood protection due to excessive 
sedimentation and significant increases in runoff from development 
within the watershed. The dams suffer from cracked concrete spillways, 
failing spillways, inoperable lake drains and other problems that 
require major repairs that are beyond the capability of the local 
sponsors.

                         THE COST OF NO ACTION

    These small watershed dams have been a silent and beneficial part 
of the landscape. Failure to make the necessary upgrades, repairs and 
modifications will increase the likelihood of dam failures. Continued 
neglect of these structures may easily result in reduced flood control 
capacity causing increased downstream flooding. Failure of a dam 
providing water supply would result in a lack of drinking water or 
important irrigation water.
    The recent dam failures in Hawaii and Missouri, and the near 
failure in Massachusetts last year have brought into tragic focus for 
the public the impact aging and under-funded dams can have on a 
community. The floods in Georgia in 1993 and in the Midwest in 1994 are 
recent reminders of natural events that can cause enormous disasters, 
including dam failures. The failure to act quickly will clearly result 
in continued deterioration and a greater number of unsafe dams until a 
dam failure disaster occurs. The failure of a 38-foot tall dam in New 
Hampshire in 1996, which caused $5.5 million in damage and one death, 
should be a constant reminder that dam failures happen and can have 
tragic consequences.
    Completion of the needed repairs will result in safer dams, as well 
as continued benefits. Failure to establish a mechanism to reinvest in 
these structures will greatly increase the chances of dam failures and 
loss of benefits, both having significant economic and human 
consequences. Costs resulting from flood damage and dam failure damage 
are high and unnecessarily tap the Federal Government through disaster 
relief funds or the National Flood Insurance Program.

                             RECOMMENDATION

    ASCE asks that the Subcommittee view funding the Rehabilitation of 
Watershed Dams as a significant re-investment in the benefits of the 
program and an investment in the safety of these dams. Therefore, ASCE 
respectfully requests that this Subcommittee provide additional 
appropriations beyond the Administration's request to $75 million for 
fiscal year 2006.
    The condition of our Nation's dams, and the need for watershed 
structure rehabilitation, should be a national priority before we have 
to clean up after dam failures that we know are likely to happen if 
nothing is done.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) appreciates the 
opportunity to submit testimony on the fiscal year 2007 appropriation 
for the United States Department of Agriculture (USDA). The ASM is the 
largest single life science organization in the world, with more than 
42,000 members who work in academic, industrial, medical, and 
governmental institutions. The ASM's mission is to enhance the science 
of microbiology, to gain a better understanding of life processes, and 
to promote the application of this knowledge for improved plant, animal 
and human health, and for economic and environmental well-being.
    The USDA sponsors research and education programs, which meet the 
USDA's strategic goals of enhancing competitiveness and sustainability 
of U.S. agriculture; increasing economic opportunities and improving 
quality of life in rural America; enhancing protection and safety of 
the Nation's agriculture and food supply; improving the Nation's 
nutrition and health; and protecting and enhancing the Nation's natural 
resource base and environment. U.S. agriculture faces new challenges, 
including threats from emerging infectious diseases in plants and 
animals such as avian influenza, as well as threats from climate 
change, and public concern about food safety and security. It is 
critical to increase the visibility and investment in agriculture 
research to respond to these challenges. The ASM urges Congress to 
provide increased funding for research programs within the USDA in 
fiscal year 2007.
    Microbiological research in agriculture is vital to understanding 
and finding solutions to foodborne diseases, endemic diseases of long 
standing, new and emerging plant and animal diseases, development of 
new agriculture products and processes and addressing existing and 
emerging environmental challenges. Unfortunately, Federal investment in 
agricultural research has not kept pace with the need for additional 
agricultural research to solve emerging problems. The USDA funds more 
than 90 percent of all Federal support for the agricultural sciences. 
According to the USDA Economic Research Service (ERS) report, 
Agricultural Research and Development: Public and Private Investments 
Under Alternative Markets and Institutions, the rate of return on 
public investment in basic agricultural research is estimated to be 
between 60 and 90 percent.

USDA National Research Initiative Competitive Grants Program
    The National Research Initiative Competitive Grants Program (NRI) 
was established in 1991 in response to recommendations outlined in 
Investing in Research: A Proposal to Strengthen the Agricultural, Food 
and Environmental System, a 1989 report by the National Research 
Council's (NRC) Board on Agriculture. This publication called for 
increased funding of high priority research that is supported by the 
USDA through a competitive peer-review process directed at:
  --Increasing the competitiveness of U.S. agriculture.
  --Improving human health and well-being through an abundant, safe, 
        and high-quality food supply.
  --Sustaining the quality and productivity of the natural resources 
        and the environment upon which agriculture depends.
    Continued interest in and support of the NRI is reflected in two 
subsequent NRC reports, Investing in the National Research Initiative: 
An Update of the Competitive Grants Program of the U.S. Department of 
Agriculture, published in 1994, and National Research Initiative: A 
Vital Competitive Grants Program in Food, Fiber, and Natural Resources 
Research, published in 2000.
    Today, the NRI, housed within the USDA Cooperative State Research, 
Education, and Extension Service (CSREES), supports research on key 
problems of national and regional importance in biological, 
environmental, physical, and social sciences relevant to agriculture, 
food, and the environment on a peer-reviewed, competitive basis. 
Additionally, the NRI enables the USDA to develop new partnerships with 
other Federal agencies that advance agricultural science. Examples of 
such collaborations include the USDA's involvement in the Microbial 
Genome Sequencing Program, the Maize Genome Program, the Microbial 
Observatories program, the Plant Feedstock Genomics for Bioenergy 
program, the Metabolic Engineering program, and the Climate Change 
Science Plan.
    The ASM urges Congress to support the Administration's requested 
increase for the NRI in fiscal year 2007. NRI's proposed increase comes 
from shifting the CSREES Integrated Activities, such as food safety, 
pest management, and water quality, making up $42.7 million of the 
proposed increase, providing a net increase of $24 million for the NRI 
including the additional responsibility of the Integrated Programs. The 
ASM supports the Administration's effort to increase competitively 
awarded funding mechanisms and believes that competitive grants ensure 
the best science.
    Additional funding for the NRI is needed to expand research in 
microbial genomics and to provide more funding for merit reviewed basic 
research with long-term potential for new discoveries and products. It 
is critical to increase the visibility and investment in agriculture 
research to respond to these challenges and we appreciate Congress's 
efforts to fund the NRI at $181 million in fiscal year 2006 and urge 
Congress to support the Administration's fiscal year 2007 request of 
$247.5 million for this program.

Agricultural Research Service
    The Agricultural Research Service (ARS) is the USDA's chief 
scientific research agency, which conducts research to develop new 
scientific knowledge, transfers technology to the private sector to 
solve critical agricultural problems of broad scope and high national 
priority, and provides access to scientific data. The ARS supports 
approximately 1,200 individual research projects conducted by 
scientists from the USDA at over 100 Federal facilities. The 
Administration requests approximately $1.03 billion for the ARS in 
fiscal year 2007, a 20 percent decrease from fiscal year 2006. The ASM 
urges Congress to strongly support the ARS in fiscal year 2007.

USDA Food and Agriculture Defense Initiative
    The Food and Agriculture Defense Initiative is an interagency 
initiative to improve the Federal Government's capability to rapidly 
identify and characterize a bioterrorist attack, by improving the 
national surveillance capabilities in human health, food, agriculture, 
and environmental monitoring. The ASM supports the Administration's 
request for this initiative of $322 million for fiscal year 2007, an 
increase of $127 million over fiscal year 2006. This does not include 
funding for construction of the Ames, Iowa facility for animal research 
and diagnostics, which was fully funded in fiscal year 2006. Of the 
total amount, an increase of approximately $30 million for Food Defense 
would enhance the Food Safety and Inspection Service's (FSIS) ability 
to detect and respond to food emergencies and for the USDA's research 
agencies to conduct related research. For Agriculture Defense, the 
budget includes a $97 million increase to improve the Animal and Plant 
Health Inspection Service's (APHIS) monitoring and surveillance of 
plant and animal health, including wildlife; response capabilities, 
including provisions for the National Veterinary Stockpile; and further 
research on emerging and exotic diseases.
    The ASM supports this greater emphasis on research in the Food and 
Agriculture Defense Initiative and recommends an increase in funding, 
both extramural and intramural, for research on pathogenic 
microorganisms as part of the Food and Agriculture Defense Initiative.

Food Safety
    The Centers for Disease Control (CDC) estimates that each year 76 
million people get sick, more than 300,000 are hospitalized, and 5,000 
die because of foodborne illnesses. Primarily the very young, the 
elderly, and the immunocompromised are affected. Recent changes in 
human demographics and food preferences, changes in food production and 
distribution systems, microbial adaptation, and lack of support for 
public health resources and infrastructure have led to the emergence of 
novel as well as traditional foodborne diseases. With increasing travel 
and trade opportunities, it is not surprising that now there is a 
greater risk of contracting and spreading a foodborne illness locally, 
regionally, and even globally. (MMWR 2004;53[No. RR-04]). The USDA's 
Economic Research Service (ERS) estimates that the medical costs, 
productivity losses, and costs of premature deaths for diseases caused 
by just five types of foodborne pathogens exceeds $6.9 billion per year 
in the United States. The USDA plays a vital role in the government's 
effort to reduce the incidence of foodborne illness. Continued and 
sustained research is important to safeguarding the Nation's food 
supply and focusing on methods and technologies to prevent microbial 
foodborne disease and emerging pathogens. The ASM supports the 
requested increases for the Food and Agriculture Defense Initiative and 
the Food Safety and Inspection Service. Without sustained significant 
increases in the level of food safety research funding, meeting the 
National Health Objectives for 2010 in all likelihood will not become 
reality. The ASM recommends a substantial increase in food safety 
research, which is essential to ensure the protection of the Nation's 
health.

Genomics Initiative
    The NRI and the ARS fund the USDA collaborative efforts in the 
field of genomics. There are opportunities to leverage the USDA's 
investments with those of the National Institutes of Health (NIH), the 
Department of Energy (DOE), and the National Science Foundation (NSF) 
in projects to map and sequence the genomes of agriculturally important 
species of plants, animals, and microbes. Determining the function of 
the sequenced genomes (functional genomics) and analyses of the data 
(bioinformatics) now need investment for new management techniques and 
tools. The USDA plays an important role in coordinating and 
participating in interagency workgroups on domestic animal, microbial, 
and plant genomics. Access to genomic information and the new tools to 
utilize it have implications for virtually all aspects of agriculture. 
The ASM urges Congress to provide strong support for the USDA genomics 
initiative.

Emerging Infectious Diseases in Plants and Animals
    The food production and distribution system in the United States is 
vulnerable to the introduction of pathogens and toxins through natural 
processes, global commerce, and intentional means. The ASM supports 
increases in the USDA research budget for emerging diseases and 
invasive species. Nearly 200 zoonotic diseases can be naturally 
transmitted from animals to man and opportunistic plant pathogens and 
soil-inhabiting microorganisms can be causal agents of infection and 
disease in humans. For emerging diseases to be effectively detected and 
controlled the biology, ecology, and mechanisms for pathogenicity of 
the causal pathogens must be understood and weaknesses exploited to 
limit their impact. This research will help address the risk to humans 
from emerging diseases and opportunistic pathogens, and will ensure the 
safety of plant and animal products. Additionally, expanded research is 
needed to accelerate the development of information and technologies 
for the protection of United States agricultural commodities, wildlife 
and human health against emerging diseases.

Antimicrobial Resistance Research
    The USDA plays a key role in addressing the national and global 
increase in antimicrobial resistance and the complex issues surrounding 
this public health threat. The ARS Strategic Plan for 2003-2007 states 
the need to ``determine how antimicrobial resistance is acquired, 
transmitted, maintained, in food-producing animals, and develop 
technologies or altered management strategies to control its 
occurrence.'' In 1996, the Department of Health and Human Services 
(HHS) and the USDA established the National Antimicrobial Resistance 
Monitoring System (NARMS) to monitor trends in antimicrobial resistance 
in foodborne pathogens; the USDA has expanded monitoring to include the 
Collaboration on Animal Health Food Safety Epidemiology (CAHFSE) 
program. The USDA support for these projects should continue and the 
ASM urges Congress to increase support for antimicrobial resistance 
surveillance, research, prevention, and control programs.

Conclusion
    The USDA's mission and goals of leadership on food, agriculture, 
and natural resources, based on sound public policy, the best available 
science, and efficient management should be strongly supported. With a 
significant investment in research, the USDA will be better able to 
meet its goals. The ASM urges Congress to increase funding for 
agricultural research programs to enable the USDA to help ensure a 
safe, nutritious and plentiful food supply for America. This includes 
providing $247.5 million for the NRI in fiscal year 2007.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the Subcommittee as the Department of 
Agriculture bill is considered throughout the appropriations process.
                                 ______
                                 

      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is submitting the 
following statement in support of increased funding for the fiscal year 
2007 budget of the Food and Drug Administration (FDA). The ASM is the 
largest single life science society in the world with over 42,000 
members who are involved in basic and applied research and testing in 
university, industry, government and clinical laboratories.
    The Administration's fiscal year 2007 budget request of $1.95 
billion for the FDA includes $1.55 billion in budget authority and $402 
million in industry user fees, a total increase of $70.8 million or 3.8 
percent over the fiscal year 2006 budget. Despite the proposed 
increase, the FDA's budget continues to be constrained, especially in 
view of the increasing demands on the FDA related to food safety, 
pandemic influenza, new and emerging infectious diseases, such as West 
Nile and Mad Cow Disease, drug safety, and initiatives to advance 
innovation in medical product development. The ASM recommends that 
Congress provide additional funding for the FDA to increase its fiscal 
year 2007 proposed budget. Increased support for the FDA will enable 
the Agency to enhance programs that protect against unsafe healthcare 
products, unhealthy foods, and health challenges from bioterrorism or 
natural disasters. The FDA regulates products that account for almost 
25 percent of U.S. consumer spending, including 80 percent of our 
national food supply and all human drugs, vaccines, medical devices, 
tissues for transplantation, equipment that emits radiation, cosmetics, 
and animal drugs and feed. Together these products are worth nearly 
$1.5 trillion annually and affect the daily lives of people.

Protecting America's Health--Pandemic Preparedness
    The specter of a potential influenza pandemic requires increased 
resources for preparedness. Recent research has found that viruses 
responsible for the three influenza pandemics in the past century 
carried genes from avian influenza viruses. In the current H5N1 
outbreak, the World Health Organization has confirmed about 186 human 
cases although thus far the virus does not spread readily from human to 
human. If viral mutations make human-to-human transmission a tragic 
reality, however, a deadly pandemic could cause millions of human 
deaths and billions in economic costs. The FDA request for fiscal year 
2007 asks for $55.3 million for pandemic preparedness, an amount $30.5 
million more than the fiscal year 2006 level.
    The FDA provides unique support to the recently launched National 
Strategy for Pandemic Influenza, a broad, multi-agency effort to better 
prepare the United States for any pandemic influenza. This Federal 
response targets three primary goals: detect and contain outbreaks 
wherever they occur; ensure that Federal, State, and local communities 
are prepared; and stockpile vaccines and antiviral drugs through 
accelerated development of new vaccine technologies and greatly 
increased U.S. production capacity. Last December, when the Department 
of Health and Human Services (DHHS) announced its Pandemic Influenza 
Plan as part of the Federal strategy, the ASM endorsed its priority of 
increased vaccine manufacturing capacity (enough vaccine for all 
Americans within 6 months of a domestic outbreak). At present, there 
are not nearly enough vaccines and antiviral drugs to meet Federal 
goals. The ASM is concerned that adequate funding be given to the FDA, 
which will be a central figure in vaccine and antiviral development and 
manufacturing. Heightened output using new technologies will further 
burden the FDA's product evaluation process, already stretched by 
research responses to emerging infectious pathogens like SARS and West 
Nile virus.
    Scientists at the FDA's Center for Biologics Evaluation and 
Research (CBER) and Center for Drug Evaluation and Research (CDER) will 
shoulder much of the Agency's growing vaccine and antiviral 
contribution towards pandemic preparedness. Researchers from the FDA 
and their private-industry partners will tackle the critical issues of 
expanding U.S. capacity for traditional egg-based vaccine production, 
the technological transition to cell-culture-based vaccine production, 
and development of innovative vaccines and therapeutic drugs. Through 
the FDA's Critical Path Initiative to get products to market more 
quickly, accelerated approval can help expedite the Federal stockpile 
of vaccines and antivirals needed to counter pandemic influenza.
    The FDA not only assures the safety and efficacy of new products, 
but agency personnel also provide technical support to manufacturers 
from laboratory to market. In early March, the FDA issued two sets of 
draft recommendations to aid manufacturers in developing vaccines, one 
for seasonal, one for pandemic influenza. Seasonal influenza is an ever 
present threat to American health and with pneumonia, it remains the 
leading infectious cause of U.S. deaths. The two guidances also address 
some promising higher-output technologies for vaccine production, such 
as cell culture and recombinant manufacturing. The scientific advances 
from the FDA's influenza activities will undoubtedly heighten 
protection against infectious diseases in general, as well as 
production of antiviral vaccines and drugs in particular. Efforts by 
the influenza preparedness programs also will improve the safety of our 
national food supply. Scientists from the FDA are developing new 
methods to detect antiviral drug residues in food, while FDA 
communications personnel are creating public guidelines on food 
preparation in the event that avian influenza reaches poultry flocks in 
the United States.

Protecting America's Health--Food Security and Safety
    The FDA oversees about 80 percent of the nation's entire food 
supply, with only the exception of meat, poultry, and some egg products 
regulated by the Department of Agriculture (USDA). Within the FDA, the 
Center for Food Safety and Applied Nutrition (CFSAN) and the Office of 
Regulatory Affairs are responsible each year for goods worth $417 
billion in domestically produced foods and $49 billion in imported 
foods. In fiscal year 2007, the agency's Prior Notice Center is 
expecting to process daily up to 20,000 notifications of food import 
shipments. The FDA's food safety efforts involve reams of regulations, 
constant laboratory testing with the latest methods, and field 
inspections of producers and handlers from among the 420,000 FDA-
registered food establishments here and abroad. The Administration's 
proposed fiscal year 2007 budget requests about $450 million for the 
FDA foods program, an increase of $11 million over last fiscal year. 
Within this total, $178 million is earmarked for protecting our food 
against deliberate attacks, a $20 million increase over fiscal year 
2006.
    The CFSAN conducts research typically not conducted by industry or 
other research agencies, which provides the basis for regulating the 
food-producing and processing industries to ensure a safe and 
nutritious food supply from farm to table. It provides the scientific 
basis for nutrition labeling regulations and guidance, identification 
of foodborne pathogens, the development of mitigation and prevention 
strategies, as well as identifying and recommending the adoption of 
innovative technologies that reduce public health concerns related to 
foodborne pathogens. The ASM is concerned with the proposed $5.2 
million reduction for the CFSAN in fiscal year 2007, and the 
redirection of resources from base programs that includes cuts to the 
CFSAN's research program and the loss of 64 full-time employees (FTE). 
With the current increasing trends in importation of produce, the FDA 
needs to strengthen its role in this area, including better sampling 
and real-time microbiological testing procedures, and more inspectors 
to provide a greater assurance of public health protection.
    Protecting the nation's food supply from bioterrorism is one of the 
FDA's priority initiatives for fiscal year 2007, specifically through 
improved prevention strategies and plans, advanced screening methods to 
detect microbial food contamination, and outreach to industry, State, 
and local stakeholders. The FDA's Food Defense Initiative is part of an 
interagency strategy involving the Department of Homeland Security, the 
USDA, and other government entities. Because of countless possibilities 
for intentional and accidental food contamination, the ASM supports the 
aggressive measures taken by the FDA to inspect, detect, and prevent 
unsafe foods. For example, in fiscal year 2005, the FDA conducted more 
than 86,000 import security reviews to identify any imported food and 
feed products that might be intentionally contaminated. Much of the 
fiscal year 2007 budget increase would expand the FDA's Food Emergency 
Response Network (FERN) and the Internet-based data exchange system 
used by health labs at all levels, the Electronic Laboratory Exchange 
Network (eLEXNET). FERN is a network of Federal and State laboratories 
designed to guarantee the analytic surge capacity to respond to any 
attack on the U.S. food system. By the end of fiscal year 2006, the 
network will incorporate 10 Federal and 10 State labs; the additional 
fiscal year 2007 funds will expand the network into 6 more State labs. 
Funds also support related basic food defense research and other 
surveillance linkages among Federal, State, and local responders.
    Although impressive in its quantity, quality and diversity, the 
food supply system in the United States nonetheless remains vulnerable 
to accidental cases of foodborne infectious diseases. Health officials 
report that each year these diseases are responsible for an estimated 
76 million illnesses, more than 300,000 hospitalizations, and 5,000 
deaths. The USDA has estimated that each year the most common foodborne 
pathogens cost the U.S. economy as much as $6 billion through direct 
medical costs (acute and chronic cases) and lost productivity. The ASM 
commends the FDA regulatory and research programs that address health 
risks related to foods, cosmetics, and animal feed and drugs, many of 
which involve microbial pathogens. Globalization of our food sources 
has diversified American diets, but it also greatly increases the 
possibilities for contamination as we eat more fresh produce, once-
unfamiliar foods, and products from less-regulated import sources. 
Oversight of the new genetically engineered foods and recent dramatic 
growth in the diet supplement industry also stretches limited FDA food 
safety resources.
    An estimated 118,000 illnesses occur each year in the United States 
due to eggs contaminated with Salmonella bacteria (Salmonella caused 
infections alone account for $1 billion yearly in direct and indirect 
costs). In 2006, the FDA expects to publish its final rule to the 
States and the egg industry to prevent Salmonella contamination during 
production, with the intent of reducing the annual human cases by at 
least 33,500. The agency uses on-going surveillance of U.S. foodborne 
disease outbreaks to detect any incidents with products regulated by 
the FDA. It also has several emergency response plans to address sudden 
threats to food safety, for example, post-Katrina deployment to assess 
stored-food sources in the Gulf Coast, and the BSE Emergency Response 
Plan to quickly evaluate with the USDA any report of bovine spongiform 
encephalopathy in US cattle. For fiscal year 2007, BSE research/
detection will be one of the two highest-priority programs at the FDA's 
Center for Veterinary Medicine, along with reduction of antimicrobial 
resistance in humans now linked to antibiotics fed to food animals.

Protecting America's Health--Biomedical Frontiers
    The new Critical Path to Personalized Medicine will be the FDA's 
top scientific policy initiative for at least the next 5 years, created 
``to accelerate the field of personalized, predictive, and preemptive 
medicine.'' Economic experts predict that by 2015 the United States 
will pay out about 20 percent of its gross domestic product on health 
spending. The FDA is seeking to more efficiently evaluate pre-market 
biomedical products. The critical path initiative is the Agency's 
response to recent stagnation in new product development due to 
problematic clinical trials or manufacturing procedures that disallow 
approval FDA from the FDA. By using cutting-edge molecular biology 
technologies, the FDA expects to modernize the medical product 
development process with cooperation from private industry. These 
technologies also will enable scientists from the FDA to evaluate and 
encourage superior therapies personalized or tailored to individual 
groups of patients, reducing the time-consuming need to approve 
products for broad use and paving the way to less-expensive clinical 
trials and more effective drugs. The new molecular-based technologies 
also are expected to help predict which patients would benefit from a 
particular therapy and which might suffer ill effects. The ASM agrees 
with the FDA intent to stimulate private industry use of new 
generations of scientific tools, in order to expedite technology 
transfer and to help maintain U.S. science-based competitiveness in an 
expanding global healthcare market.
Conclusion
    The ASM strongly recommends an increased budget for the FDA, which 
would benefit its important programs and provided need resources for 
priority initiatives.
                                 ______
                                 

 Prepared Statement of the American Society of Plant Biologists (ASPB)

    The American Society of Plant Biologists (ASPB), a non-profit 
society representing nearly 6,000 plant scientists, urges the 
Subcommittee to support the President's fiscal year 2007 budget request 
of $247.5 million for the Department of Agriculture National Research 
Initiative Competitive Grants Program (NRI). We urge a significant 
increase for the Cooperative State Research Education, and Extension 
Service (CSREES) and Agricultural Research Service (ARS) over the 
fiscal year 2006 appropriation.
    Basic plant research supported by USDA-ARS and CSREES, including 
the NRI, provides new knowledge that leads to improved and value-added 
crops. This enhances economic opportunities for America's farmers. This 
in turn benefits rural economies and the quality of life in rural 
communities.
    As ASPB Committee on Public Affairs Chair Roger Innes, Professor, 
Indiana University, noted, NRI-funded research performed by ASPB 
members has led to major advances in enhancing and protecting the 
safety of the Nation's agriculture and food supply. ASPB members are 
also studying how plants accumulate nutrients in order to develop crop 
plants with higher nutrient content and are learning how plants utilize 
water and soil nutrients (e.g. nitrogen and phosphorous) in an effort 
to develop crops that require less fertilizer, which would have major 
environmental, economic and health benefits.
    Advances in science made possible through the NRI will enable 
farmers to reduce their dependency on pesticides and antibiotics and to 
protect the water supply, soils and fragile ecosystems, noted ASPB 
Committee on Public Affairs Chair Pamela Ronald, Professor, University 
of California, Davis.
    Research sponsored by the NRI contributes to higher yields and 
safer foods. The NRI contributes to the talent pool of agricultural 
scientists in the states and Nation to better serve the needs of 
producers and consumers. Without grant support from the NRI, the 
agricultural research community in our Nation would be severely 
weakened, commented ASPB President Michael Thomashow, Professor, 
Michigan State University.
    Research leading to improved energy crops could boost economies in 
rural and urban areas of America while reducing dependence on foreign 
oil. USDA and DOE reported in April how more than 33 percent of our 
Nation's transportation fuels could be supplied by homegrown biofuels 
compared to the current two percent. This would help cut the Nation's 
trade deficit, while also reducing carbon emissions. We applaud the 
Department of Agriculture for its own and collaborative efforts with 
the Department of Energy and National Science Foundation to increase 
basic understanding of plants for enhanced production of biofuels. 
Advances in plant research that have helped farmers give Americans the 
world's lowest cost for food (as the share of personal income) could 
also lower fuel costs and stabilize energy supplies.
    The majority of ASPB members perform research that addresses 
fundamental questions in plant biology. It is this basic research that 
leads to unexpected breakthroughs and new approaches to improving crop 
production. For example, the discovery of RNA interference arose from 
basic research on the control of gene expression and on virus 
resistance in plants, but is now revolutionizing research and 
applications in both plant and human biology. ASPB urges the 
Subcommittee to continue supporting USDA-sponsored world leading basic 
plant biology research. New enhanced crops result from research 
directly on crops and on simpler model plants with shared traits, such 
as Arabidopsis.
    Tremendous advancements in our understanding of plant genomes have 
been made in the last 5 years. These advancements have greatly 
accelerated our ability to identify genes controlling important 
agricultural traits such as disease resistance, flowering time, and 
drought tolerance. These genomic resources have also greatly enhanced 
our abilities to use molecular breeding tools to develop superior crop 
varieties, Innes commented.
    We have recommended in the past that the NRI increase funding 
awarded for individual research grants for both direct and indirect 
costs, but not decrease the total number of grants awarded. This 
requires substantial additional funding for the NRI program. Due to 
overall budget constraints, the NRI budget for existing programs has 
not increased at a rate to keep pace with the higher grant award 
levels, that are more comparable now to award levels from other 
research agencies. As a result, to accomplish an increase in award 
sizes, the NRI has had to fund fewer grants. This has caused funding 
rates to plummet.
    If such low funding rates are maintained, it will cause many 
research labs to close and make it difficult for universities to 
justify maintaining faculty in these areas. It will also make it very 
difficult to attract new students and faculty into plant biology, just 
at a time when the opportunities for rapid advancement are 
unprecedented. A substantial increase as requested by the President for 
the NRI would lead to a higher number of awards in plant biology and 
other areas. This will result in more benefits in crop yields, human 
health and nutrition, environmental quality, clean energy production 
and farming practices.
    Continued support for a balanced research portfolio in the 
Department including extramural and intramural research is needed to 
address the many and sometimes devastating problems farmers face in 
growing crops. CSREES and ARS continue to address very effectively many 
important research questions for American agriculture.
    We deeply appreciate the Subcommittee's support for research 
sponsored by the Department of Agriculture. The Subcommittee's support 
has been essential to producing and securing the Nation's food supply.
Disclosure statement on Federal grant support
    The American Society of Plant Biologists (ASPB) received Federal 
grants from USDA-CSREES in the amount of $7,000 in each of fiscal years 
2005 and 2006 to help coordinate the USDA-CSREES Plant and Pest Biology 
Stakeholders' Workshop and print the subsequent workshop report. Many 
associations representing growers of commodity crops; science societies 
representing the research community; and officials administering 
Federal research programs participated.
                                 ______
                                 

 Prepared Statement of the California Industry and Government Central 
                    California Ozone Study Coalition

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
California Industry and Government Central California Ozone Study 
(CCOS) Coalition, we are pleased to submit this statement for the 
record in support of our fiscal year 2007 funding request of $400,000 
from the Department of Agriculture for CCOS. These funds are necessary 
for the State of California to address the very significant challenges 
it faces to comply with new national ambient air quality standards for 
ozone and fine particulate matter. The study design incorporates recent 
technical recommendations from the National Academy of Sciences (NAS) 
on how to most effectively comply with Federal Clean Air Act 
requirements.
    First, we want to thank you for your past assistance in obtaining 
Federal funding for the Central California Ozone Study (CCOS) and 
California Regional PM<INF>10</INF>/PM<INF>2.5</INF> Air Quality Study 
(CRPAQS). Your support of these studies has been instrumental in 
improving the scientific understanding of the nature and cause of ozone 
and particulate matter air pollution in Central California and the 
Nation. Information gained from these two studies is forming the basis 
for the 8-hour ozone, PM<INF>2.5</INF>, and regional haze State 
Implementation Plans (SIPs) that are due in 2007 (ozone) and 2008 
(particulate matter/haze). As with California's previous SIPs, the 
2007-2008 SIPs will need to be updated and refined due to the 
scientific complexity of our air pollution problem. Our request this 
year would fund the completion of CCOS to address important questions 
that won't be answered with results from previously funded research 
projects.
    To date, our understanding of air pollution and the technical basis 
for SIPs has largely been founded on pollutant-specific studies, like 
CCOS. These studies are conducted over a single season or single year 
and have relied on modeling and analysis of selected days with high 
concentrations. Future SIPs will be more complex than they were in the 
past. The National Academy of Sciences (NAS) is now recommending a 
weight-of-evidence approach that will involve utilizing more broad-
based, integrated methods, such as data analysis in combination with 
seasonal and annual photochemical modeling, to assess compliance with 
Federal Clean Air Act requirements. This will involve the analysis of a 
larger number of days and possibly an entire season. In addition, 
because ozone and particulate matter are formed from some of the same 
emissions precursors, there is a need to address both pollutants in 
combination, which CCOS will do.
    Consistent with the new NAS recommendations, the CCOS study 
includes corroborative analyses with the extensive data provided by 
past studies, advances the state-of-science in air quality modeling, 
and addresses the integration of ozone and particulate pollution 
studies. In addition, the study will incorporate further refinements to 
emission inventories, address the development of observation-based 
analyses with sound theoretical bases, and includes the following four 
general components:

------------------------------------------------------------------------

------------------------------------------------------------------------
Performing SIP modeling analyses........................       2005-2011
Conducting weight-of-evidence data analyses.............       2006-2008
Making emission inventory improvements..................       2006-2010
Performing seasonal and annual modeling.................       2008-2011
------------------------------------------------------------------------

    CCOS is directed by Policy and Technical Committees consisting of 
representatives from Federal, State, and local governments, as well as 
private industry. These committees, which managed the San Joaquin 
Valley Ozone Study and are currently managing the California Regional 
Particulate Air Quality Study, are landmark examples of collaborative 
environmental management. The proven methods and established teamwork 
provide a solid foundation for CCOS.
    For fiscal year 2007, our Coalition is seeking funding of $400,000 
from the Department of Agriculture/CSREES in support of CCOS. Domestic 
agriculture is facing increasing international competition. Costs of 
production and processing are becoming increasingly more critical. With 
the current SJV PM<INF>10</INF> SIP and the upcoming ozone and 
PM<INF>2.5</INF> SIPs, the agricultural industry within the study area 
is facing many new requirements to manage and reduce their air quality 
impacts. The identification of scientifically validated, cost-effective 
options for reducing the environmental impacts of on-field and 
livestock related air emissions will contribute significantly to the 
long-term health and economic stability of local agriculture. Funding 
will support livestock and crop-related research that will help 
maintain a vital agricultural industry within the state. Research will 
be focused to measure baseline emissions, and to study the most 
economical and effective approaches for reducing the impacts of 
agriculture on air quality. These studies also have nationwide 
benefits.
    The funding request is for: (1) Study of agricultural VOC emissions 
from pesticide application that will help answer questions relevant to 
farmers and regulators throughout the Nation, (2) Evaluation of 
baseline livestock emissions (VOCs, PM<INF>10</INF>, ammonia) and 
effective methods to reduce these emissions, (3) Development of 
livestock facility emissions models as recommended by the National 
Academy of Sciences and (4) Improvement of emissions estimates for 
agricultural related diesel engines, both on-road and off-road. This 
includes emission factors, activity data, fleet characteristics, 
seasonality of emissions, and benefits of incentive programs to 
accelerate the introduction of cleaner engines.
    Thank you very much for your consideration of our request.
                                 ______
                                 

 Prepared Statement of the Coalition on Funding Agricultural Research 
                           Missions (CoFARM)

    The Coalition on Funding Agricultural Research Missions (CoFARM) 
appreciates the opportunity to submit testimony on the fiscal year 2007 
appropriation for the United States Department of Agriculture (USDA). 
CoFARM is a coalition of 23 professional scientific organizations with 
130,000 members dedicated to advancing and sustaining a balanced 
investment in our Nation's research portfolio.
    The USDA sponsors research and education programs which contribute 
to solving agricultural problems of high national priority and ensuring 
food availability, nutrition, quality and safety, as well as a 
competitive agricultural economy. U.S. agriculture faces new 
challenges, including threats from emerging infectious diseases in 
plants and animals, climate change, and public concern about food 
safety and security. It is critical to increase the visibility and 
investment in agriculture research to respond to these challenges and 
we appreciate the Subcommittee's efforts to fund the National Research 
Initiative at $181 million in fiscal year 2006 and urge the 
Subcommittee to support the Administration's fiscal year 2007 request 
of $247.5 million for this program.

USDA National Research Initiative Competitive Grants Program
    The National Research Initiative Competitive Grants Program (NRI) 
was established in 1991 in response to recommendations outlined in 
Investing in Research: A Proposal to Strengthen the Agricultural, Food 
and Environmental System, a 1989 report by the National Research 
Council's (NRC) Board on Agriculture. This publication called for 
increased funding of high priority research that is supported by USDA 
through a competitive peer-review process directed at:
  --Increasing the competitiveness of U.S. agriculture.
  --Improving human health and well-being through an abundant, safe, 
        and high-quality food supply.
  --Sustaining the quality and productivity of the natural resources 
        and the environment upon which agriculture depends.
    Continued interest in and support of the NRI is reflected in two 
subsequent NRC reports, Investing in the National Research Initiative: 
An Update of the Competitive Grants Program of the U.S. Department of 
Agriculture, published in 1994, and National Research Initiative: A 
Vital Competitive Grants Program in Food, Fiber, and Natural Resources 
Research, published in 2000.
    Today, the NRI, housed within USDA's Cooperative State Research, 
Education, and Extension Service (CSREES), supports research on key 
problems of national and regional importance in biological, 
environmental, physical, and social sciences relevant to agriculture, 
food, and the environment on a peer-reviewed, competitive basis. 
Additionally, NRI enables USDA to develop new partnerships with other 
Federal agencies that advance agricultural science. Examples of such 
collaborations include USDA's involvement in the Microbial Genome 
Sequencing Program, the Maize Genome Program, the Microbial 
Observatories program, the Plant Feedstock Genomics for Bioenergy 
program, the Metabolic Engineering program, and the Climate Change 
Science Plan.
    CoFARM Urges Congress To Support the Administration's Requested 
Increase or NRI in Fiscal Year 2007.--NRI's proposed increase comes 
from the shifting of CSREES Integrated Activities, such as food safety, 
pest management, and water quality, making up $42.7 million of the 
proposed increase, providing a net increase of $24 million for NRI 
including the additional responsibility of the Integrated Programs. 
CoFARM supports the Administration's effort to increase competitively 
awarded funding mechanisms and believes that competitive grants ensure 
the best science.
    Past investments in agricultural research have yielded many 
breakthroughs in American agricultural productivity, including these 
few Hatch and NRI funded research success stories:
  --Pennsylvania researchers are developing rapid diagnostic tests to 
        curb avian influenza, a disease that could cripple the state's 
        $700 million poultry industry.
  --University of Maryland researchers have created an advanced machine 
        vision technology to detect bone fragments and foreign objects 
        in meat.
  --Researchers in Florida have tested a common fern's ability to soak 
        up arsenic, a cancer-causing heavy metal, from contaminated 
        soils. The market for plant-based remediation of wastes is 
        estimated to be $370 million in 2005.
  --Entomologists and Nematologists developed a vaccine for the 
        protection of cattle from the horn fly, a major insect pest in 
        many parts of the world costing the North American cattle 
        industry alone more than $1 billion annually.
  --As a result of NRI funding, a group of economists found that the 
        competitive environment of supermarket retailers encourages 
        patterns of adoption of food products using technologies that 
        are new to the market.
  --Through NRI funded research, scientists developed a new assay that 
        allows for rapid identification of Clostridium perfringens, 
        which is associated with common food-borne illness, in hospital 
        outbreaks and has resulted in improved diagnostic procedures.
  --Florida family and youth researchers have shed light on crime and 
        violence trends in schools and evaluated prevention programs. 
        The result has been a decline in disruptive behavior in 
        classrooms by 40 percent over 2 years. The work is a national 
        model for improving school safety.
    Congress must enhance funding for agricultural research to assure 
Americans of a safe and nutritious food supply and to provide for the 
next generation of research scientists.
    CoFARM appreciates the opportunity to provide written testimony and 
would be pleased to assist the Subcommittee as the Department of 
Agriculture bill is considered throughout the appropriations process.
                                 ______
                                 

   Prepared Statement of the Coalition to Promote U.S. Agricultural 
                                Exports

    As members of the Coalition to Promote U.S. Agricultural Exports, 
we commend the Chairman and members of the Subcommittee for their 
interest and support of U.S. agriculture and express our appreciation 
for this opportunity to share our views.
    The Coalition to Promote U.S. Agricultural Exports is an ad hoc 
coalition of over 100 organizations, representing farmers and ranchers, 
fishermen and forest product producers, cooperatives, small businesses, 
regional trade organizations, and the State Departments of Agriculture 
(see attached). We believe the United States must continue to have in 
place policies and programs that help maintain the ability of American 
agriculture to compete effectively in a global marketplace still 
characterized by highly subsidized foreign competition.
    With the 2002 Farm Bill, Congress sought to bolster U.S. trade 
expansion efforts by approving an increase in funding for the Market 
Access Program (MAP) and the Foreign Market Development (FMD) Program. 
This commitment began to reverse the decline in funding for these 
important export programs that occurred over the previous decade. For 
fiscal year 2007, the Farm Bill authorizes funding for MAP at $200 
million, and FMD is authorized at $34.5 million. The Coalition strongly 
urges that both programs be funded at the full authorized levels in 
order to carry out important market development activities. These are 
the same levels of funding included in the fiscal year 2006 Agriculture 
Appropriations bill that was signed into law last November.
    Farm income and agriculture's economic well-being depend heavily on 
exports, which account for over 25 percent of U.S. producers' cash 
receipts, provide jobs for nearly one million Americans, and make a 
positive contribution to our nation's overall trade balance. In fiscal 
year 2006, U.S. agriculture exports are projected to reach $64.5 
billion which, if realized, would make it the highest export sales year 
ever. However, exports could be significantly higher if it were not for 
a combination of factors, including continued high levels of subsidized 
foreign competition and related steep artificial trade barriers. 
Agricultural imports are also forecast to be a record $63.5 billion, 
continuing a 35-year upward trend that has increased at a faster pace 
recently. If these projections hold, then agriculture's trade surplus 
is only expected to be about $1 billion, a huge decline from the 
roughly $27 billion surplus of fiscal year 1996. In fiscal year 1999, 
the U.S. recorded its first agricultural trade deficit with the EU of 
$1 billion. In fiscal year 2006, USDA forecasts that the trade deficit 
with the EU will grow to $6.8 billion, the largest agriculture deficit 
the United States runs with any market.
    America's agricultural industry is willing to continue doing its 
best to offset the alarming trade deficit confronting our country. 
However, the support provided by MAP and FMD (both green box programs) 
is essential to this effort.
    According to USDA, the European Union (EU) spent more than $3.25 
billion on agricultural export subsidies in 2003, compared to 
approximately $30 million by the United States. In other words, the 
United States is being outspent by more than 100 to 1 by the EU alone 
with regard to the use of export subsidies.
    In recent years, the EU, the Cairns group, and other foreign 
competitors also devoted approximately $1.2 billion on various market 
development activities to promote their exports of agricultural, 
forestry, and fishery products. A significant portion of this is 
carried out in the United States. Market promotion is permitted under 
World Trade Organization (WTO) rules, with no limit on public or 
producer funding, and is not expected to be subject to any disciplines 
in the Doha Round negotiations. As a result, it is increasingly seen as 
a centerpiece of a winning strategy in the future trade battleground. 
Many competitor countries have announced ambitious trade goals and are 
shaping export strategies to target promising growth markets and bring 
new companies into the export arena. European countries are expanding 
their promotional activities in Asia, Latin America, and Eastern 
Europe. Canada, Australia, New Zealand, and Brazil have also budgeted 
significant investments in export promotion expenditures worldwide in 
recent years. As the EU and our other foreign competitors have made 
clear, they intend to continue to be aggressive in their export 
efforts.
    Both MAP and FMD are administered on a cost-share basis with 
farmers and other participants required to contribute up to 50 percent 
of their own resources. These programs are among the few tools 
specifically allowed in unlimited amounts under WTO rules to help 
American agriculture and American workers remain competitive in a 
global marketplace still characterized by highly subsidized foreign 
competition. The over 70 U.S. agricultural groups that share in the 
costs of the MAP and FMD programs fully recognize the export benefits 
of market development activities. Since 1992, MAP participants have 
increased their contributions from 30 percent (30 cents for every 
dollar contributed by USDA) to 166 percent ($1.66 in industry funds for 
every USDA dollar). For FMD, the contribution rate has risen from 76 
percent to the current level of 139 percent. By any measure, such 
programs have been tremendously successful and extremely cost-effective 
in helping maintain and expand U.S. agricultural exports, protect 
American jobs, and strengthen farm income.
    Competing in the agricultural export market carries new challenges 
and opportunities for U.S. agriculture. Not only is the competition 
becoming more intense with increased funding being brought to bear, but 
we also face a world where new trade agreements are being developed 
almost daily. The United States is also negotiating trade agreements 
with the goal of opening new market opportunities for U.S. agriculture. 
In addition, the opening of the Iraq market and the markets of other 
previously sanctioned countries will offer further opportunities and 
challenges.
    For all these reasons, we want to emphasize again the need to 
strengthen the ability of U.S. agriculture to compete effectively in 
the global marketplace. American agriculture is among the most 
competitive industries in the world, but it cannot and should not be 
expected to compete alone in export markets against the treasuries of 
foreign governments. As a Nation, we can work to export our products, 
or we can export our jobs. Eliminating or reducing funding for MAP and 
FMD in the face of continued subsidized foreign competition, and during 
ongoing Doha Round trade negotiations, would put American farmers and 
workers at a substantial competitive disadvantage and would be nothing 
short of unilateral disarmament. USDA's export programs, such as MAP 
and FMD, are a key part of an overall trade strategy that is pro-
growth, pro-trade and pro-job.
    Again, as members of the Coalition to Promote U.S. Agricultural 
Exports, we appreciate very much this opportunity to share our views 
and we ask that this statement be included in the official hearing 
record.
                                 ______
                                 

 Prepared Statement of the Colorado River Basin Salinity Control Forum

    The Congress concluded that the Colorado River Basin Salinity 
Control Program (Program) should be implemented in the most cost-
effective way. Realizing that agricultural on-farm strategies were some 
of the most cost-effective strategies, the Congress authorized a 
program for the United States Department of Agriculture (USDA) through 
amendment of the Colorado River Basin Salinity Control Act in 1984. 
With the enactment of the Federal Agriculture Improvement and Reform 
Act of 1996 (FAIRA), the Congress directed that the Program should 
continue to be implemented as one of the components of the 
Environmental Quality Incentives Program (EQIP). Since the enactment of 
the Farm Security and Rural Investment Act (FSRIA) in 2002, there have 
been, for the first time in a number of years, opportunities to 
adequately fund the Program within the EQIP.
    The Program, as set forth in the Colorado River Basin Salinity 
Control Act, is to benefit Lower Basin water users hundreds of miles 
downstream from salt sources in the Upper Basin as the salinity of 
Colorado River water increases as the water flows downstream. There are 
very significant economic damages caused by high salt levels in this 
water source. Agriculturalists in the Upper Basin where the salt must 
be controlled, however, don't first look to downstream water quality 
standards but look for local benefits. These local benefits are in the 
form of enhanced beneficial use and improved crop yields. They submit 
cost-effective proposals to the State Conservationists in Utah, Wyoming 
and Colorado and offer to cost share in the acquisition of new 
irrigation equipment. The Colorado River Basin Salinity Control Act 
provides that the seven Colorado River Basin States will also cost 
share with the Federal funds for this effort. This has brought together 
a remarkable partnership.
    After longstanding urgings from the States and directives from the 
Congress, the USDA has concluded that this program is different than 
small watershed enhancement efforts common to the EQIP. In this case, 
the watershed to be considered stretches more than 1,200 miles from the 
river's headwater in the Rocky Mountains to the river's terminus in the 
Gulf of California in Mexico and receives water from numerous 
tributaries. The USDA has determined that this effort should receive a 
special funding designation and has appointed a coordinator for this 
multi-state effort.
    In recent fiscal years, the Natural Resources Conservation Service 
(NRCS) has directed that over $19 million be used for the Program. The 
Forum appreciates the efforts of the NRCS leadership and the support of 
this subcommittee. The plan for water quality control of the Colorado 
River was prepared by the Colorado River Basin Salinity Control Forum 
(Forum), adopted by the States, and approved by the United States 
Environmental Protection Agency (EPA). The Colorado River Basin 
Salinity Control Advisory Council has taken the position that the 
funding for the salinity control program should not be below $20 
million per year. Over the last 3 fiscal years, for the first time, 
funding almost reached the needed level. State and local cost-sharing 
is triggered by the Federal appropriation. In fiscal year 2006, it is 
anticipated that the States will cost share with about $8.3 million and 
local agriculture producers will add another $7.5 million. Hence, it is 
anticipated that in fiscal year 2005 the State and local contributions 
will be 45 percent of the total program cost.
    Over the past few years, the NRCS has designated that about 2.5 
percent of the EQIP funds be allocated to the Colorado River salinity 
control program. The Forum believes this is the appropriate future 
level of funding as long as the total EQIP funding nationwide is around 
$1 billion. Funding above this level assists in offsetting pre-fiscal 
year 2003 funding below this level. The Basin States have cost sharing 
dollars available to participate in funding on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are waiting for 
their applications to be considered so that they might improve their 
irrigation equipment and also cost share in the Program.

                                OVERVIEW

    The Program was authorized by the Congress in 1974. The Title I 
portion of the Colorado River Basin Salinity Control Act responded to 
commitments that the United States made, through a Minute of the 
International Boundary and Water Commission, to Mexico specific to the 
quality of water being delivered to Mexico below Imperial Dam. Title II 
of the Act established a program to respond to salinity control needs 
of Colorado River water users in the United States and to comply with 
the mandates of the then newly-enacted Clean Water Act. This testimony 
is in support of funding for the Title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. The Congress agreed and revised the Act in 1984. That 
revision, while keeping the Department of the Interior as lead 
coordinator for Colorado River Basin salinity control efforts, also 
gave new salinity control responsibilities to the USDA. The Congress 
has charged the Administration with implementing the most cost-
effective program practicable (measured in dollars per ton of salt 
controlled). It has been determined that the agricultural efforts are 
some of the most cost-effective opportunities.
    Since Congressional mandates of nearly 3 decades ago, much has been 
learned about the impact of salts in the Colorado River system. The 
Bureau of Reclamation (Reclamation) has conducted studies on the 
economic impact of these salts. Reclamation recognizes that the damages 
to United States' water users alone are hundreds of millions of dollars 
per year.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-state coordinating body for interfacing with 
Federal agencies and the Congress in support of the implementation of 
the Salinity Control Program. In close cooperation with the EPA and 
pursuant to requirements of the Clean Water Act, every 3 years the 
Forum prepares a formal report evaluating the salinity of the Colorado 
River, its anticipated future salinity, and the program elements 
necessary to keep the salinity concentrations (measured in Total 
Dissolved Solids--TDS) at or below the levels measured in the river 
system in 1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations in 1972 have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2005 Review of water quality standards 
includes an updated Plan of Implementation. In order to eliminate the 
shortfall in salinity control resulting from inadequate Federal funding 
for a number of years from the USDA, the Forum has determined that 
implementation of the Program needs to be accelerated. The level of 
appropriation requested in this testimony is in keeping with the agreed 
upon plan. If adequate funds are not appropriated, significant damages 
from the higher salt concentrations in the water will be more 
widespread in the United States and Mexico.
    Concentrations of salts in the river cause $330 million in 
quantified damages and significantly more in unquantified damages in 
the United States and result in poorer quality water being delivered by 
the United States to Mexico. Damages occur from:
  --a reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector,
  --a reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector,
  --an increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector,
  --an increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector,
  --a decrease in the life of treatment facilities and pipelines in the 
        utility sector,
  --difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and
  --increased use of imported water for leaching and cost of 
        desalination and brine disposal for recycled water.
    For every 30 mg/L increase in salinity concentrations, there is $75 
million in additional damages in the United States. The Forum, 
therefore, believes implementation of the USDA program needs to be 
funded at 2.5 percent of the total EQIP funding.
    Although the Program thus far has been able to implement salinity 
control measures that comply with the approved plan, recent drought 
years have caused salinity levels to rise in the river. Predictions are 
that this will be the trend for the next several years. This places an 
added urgency for acceleration of the implementation of the Program.

              STATE COST-SHARING AND TECHNICAL ASSISTANCE

    The authorized cost sharing by the Basin States, as provided by 
FAIRA, was at first difficult to implement as attorneys for the USDA 
concluded that the Basin States were authorized to cost share in the 
effort, but the Congress had not given the USDA authority to receive 
the Basin States' funds. After almost a year of exploring every 
possible solution as to how the cost sharing was to occur, the States, 
in agreement with Reclamation, State officials in Utah, Colorado and 
Wyoming and with NRCS State Conservationists in Utah, Colorado and 
Wyoming, agreed upon a program parallel to the salinity control 
activities provided by the EQIP wherein the States' cost sharing funds 
are being contributed and used. We are now several years into that 
program and, at this moment in time, this solution to how cost sharing 
can be implemented appears to be satisfactory.
    With respect to the States' cost sharing funds, the Basin States 
felt that it was most essential that a portion of the Program be 
associated with technical assistance and education activities in the 
field. Without this necessary support, there is no advanced planning, 
proposals are not well prepared, assertions in the proposals cannot be 
verified, implementation of contracts cannot be observed, and valuable 
partnering and education efforts cannot occur. Recognizing these 
values, the ``parallel'' State cost sharing program expends 40 percent 
of the funds available on these needed support activities made possible 
by contracts with the NRCS. Initially, it was acknowledged that the 
Federal portion of the Program funded through EQIP was starved with 
respect to needed technical assistance and education support. The Forum 
is encouraged with a recent Administration acknowledgment that 
technical assistance must be better funded.
                                 ______
                                 

  Prepared Statement of the Council on Food, Agricultural, & Resource 
 Economics (C-FARE) and the Consortium of Social Science Associations 
                                (COSSA)

    Dear Chairman Bennett, Ranking Member Kohl and Members of the 
Subcommittee: The Council on Food, Agricultural, and Resource Economics 
(C-FARE) and the Consortium of Social Science Associations (COSSA) 
appreciate the opportunity to submit testimony on the fiscal year 2007 
appropriation for the United States Department of Agriculture. C-FARE 
is a non-profit, non-partisan organization dedicated to strengthening 
the presence of the agricultural, natural resources, and applied 
economics profession to matters of science policy and Federal budget 
determination, and we represent approximately 3,500 economists 
nationwide. COSSA is an advocacy organization for the social and 
behavioral sciences supported by more than 100 professional 
associations, scientific societies, universities, and research 
institutes.
    Our organizations understand the challenges the Senate Agriculture 
Appropriations Subcommittee faces given the tight fiscal year 2007 
agriculture budget. We also recognize that the Agriculture 
Appropriations bill has many valuable and necessary components, and we 
applaud the efforts of the Subcommittee to fund mission-critical 
research. Below are listed recommendations for the fiscal year 2007 
appropriations cycle.

   USDA COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE 
                                (CSREES)

National Research Initiative
    C-FARE and COSSA endorse funding for the National Research 
Initiative Competitive Grants Program (NRI) at the President's proposed 
level of $247.5 million. The NRI encourages high quality research that 
is conducted through a peer reviewed format. In particular, the 
research issues addressed by Markets and Trade and Rural Development 
are diverse and multi-faceted. Social Science research also enhances 
ideas and technologies from other fields of science and research which 
adds value to their role in the NRI.
    C-FARE and COSSA requests that any new monies appropriated for the 
NRI, as requested by the administration, allow the Secretary the 
discretion to apply up to 30 percent towards carrying out the NRI 
integrated research, extension and education competitive grants 
program.
    Our organizations applaud the administration's proposal to 
eliminate the indirect cost cap on the NRI, set at 20 percent for 
fiscal year 2005, which will broaden its appeal by putting the NRI on 
equal footing with other Federal competitive grants programs.
    Social Science research is highly valued by USDA and much of what 
our scientists offer can help meet the strategic goals of CSREES. For 
example, social science research meets CSREES strategic goal number 1, 
``Enhance Economic Opportunities for Agricultural Producers'' by 
providing science-based information, knowledge, and education to help 
farmers and ranchers understand risk management, and the long-term 
impacts of trade barriers. Research by our members also meets CSREES 
goal number 2, ``Support Increased Economic Opportunities and Improved 
Quality of Life in Rural America,'' by providing information to help 
inform decisions affecting the quality of life in rural America. 
Therefore, we request that the Committee encourage CSREES to fund the 
social science research components of the NRI at a level sufficient to 
allowing scientists to address these unmet research needs. Within the 
last year, USDA changed funding for these core congressionally-mandated 
programs to every other year, rather than on a yearly basis.
    Formula Funding.--Cuts to and proposed elimination of CSREES' 
formula-funded research programs can be detrimental to the entire USDA 
research portfolio. Formula Funds support the continuing costs of 
research activities while providing for long-term commitments to 
research that is often essential. Because of their timing and potential 
regional and intra-state impacts, much of the infrastructure needed to 
conduct competitively award research would be compromised if formula 
funds were cut. This would mean a huge and potentially damaging loss of 
research data nationwide. A balance of funding mechanisms, including 
competitive awards and formula funding, is essential if the capacity of 
the United States to conduct agricultural research, both basic and 
applied, is to be maintained and the country is to continue to excel in 
areas such as agricultural production and expanding the quality of 
rural life.

USDA Economic Research Service (ERS)
    C-FARE and COSSA support the President's proposed fiscal year 2007 
funding level for the Economic Research Service (ERS) initiatives. The 
President's budget includes $5.0 million towards the Agricultural and 
Rural Development Information System (ARDIS) to help ERS establish and 
maintain data collection on the demographic, economic, government 
program participation, and other household well-being information from 
samples of non-farm rural households and rural-based farm households, 
over time. The scientists our organizations represent need exactly such 
new and valuable data for a variety of purposes, including estimating 
impacts of farm policy changes. Simultaneously collecting the same data 
and information from panels of farm and non-farm households in the same 
rural area makes it possible to determine just how farm and non-farm 
rural households are different from or similar to one another, and 
provides a far more definitive than currently available basis for 
judging whether and to what extent farm policy changes spill over into 
the rural economy. We urge full funding of this initiative to assure 
that agricultural and rural economic analysts can reap the minimum 
necessary value added that will, in turn, enhance their contributions 
to a sound farm policy and robust rural economies throughout the 
Nation. We also support the President's proposal of $1.6 million for 
the ERS Consumer Data and Information System at ERS. The funding will 
include a comprehensive food data system that will be used to obtain 
food away from home information. C-FARE and COSSA believe funding this 
program is an important contribution to the government wide effort to 
fight obesity.

USDA National Agricultural Statistics Service (NASS)
    C-FARE and COSSA recommend supporting the President's priority 
activities for NASS. These include a net increase of $14 million for 
funding for agricultural estimates, Census of Agriculture, and pay 
costs. Of the proposed increase, it is necessary to support $3.9 
million for Agricultural Estimates Restoration and Modernization. This 
initiative will continue NASS' efforts to restore quality and 
modernization of the basic USDA agricultural estimates program that 
supports the U.S. agricultural market system. The increase will also 
include $7.3 million for the 2007 Census of Agriculture. The census 
data are relied upon to measure trends and new developments in the 
agricultural sector.

USDA Agriculture Marketing Service (AMS)
    C-FARE and COSSA encourage Congress to continue supporting USDA's 
AMS at a level that will allow them to continue offering the high value 
programs they provide. As economists and social scientists we 
appreciate that the AMS programs promote a competitive and efficient 
marketplace. AMS services such as standardization, grading, market 
news, commodity procurement, and other market-facilitating activities 
benefit both consumers and producers. For the research community 
specifically, AMS market news services provide in-depth data regarding 
a wide range of commodities and modes of transportation; such basic 
information is invaluable for analysis. AMS also supports research on 
marketing and transportation issues through cooperative agreements and 
through the Federal-State Marketing Improvement Program.

USDA Grain Inspection, Packers, and Stockyards Administration (GIPSA)
    C-FARE and COSSA also value the vital work of GIPSA to help USDA 
enhance economic opportunities for agricultural producers by promoting 
fair and competitive trade practices and financial integrity in the 
grain, livestock, meat and poultry industries. GIPSA reports provide 
information that aid in the development of industry standards and 
policy decision-making. Several of these reports are used in the 
research conducted by social scientists. In particular, the Packers and 
Stockyards Statistical Report provides researchers with data on 
industry concentration, plant size, and other industry economic 
information. The data helps social science researchers study important 
social and economic issues, including concentration in the meat packing 
industry. We encourage Congress to continue providing appropriate 
support for GIPSA and their important programs.

USDA Natural Resources Conservation Service (NRCS)
    Our organizations also support sustained investment in our Nation's 
natural resources and environment. We applaud USDA NRCS for promoting 
conservation and sustainable use of natural resources on the Nation's 
private lands. NRCS helps provide science-based knowledge to improve 
the management of forests, rangelands, soil, air and water resources. 
Social science researchers use this vital information to develop policy 
recommendations that impact the future of our agricultural sector, as 
well as life in rural America.

Conclusion
    Recent security threats facing America require new and expanded 
agricultural research to protect our Nation's forests, water supplies, 
food processing and distribution network, and rural communities and 
insure the future security, safety and sustainability of America's food 
and fiber system. In order to address these challenges and maintain our 
position in an increasingly competitive world, we must continue to 
support research programs such as the NRI and formula funding, and 
information systems such as those provided by ERS.
    Thank you for the opportunity to present our recommendations. As 
you know, past investments in agricultural research have yielded many 
breakthroughs in American agricultural productivity. If you have any 
questions or concerns regarding our priorities please do not hesitate 
to contact us.

                         C-FARE DISCLOSURE OF GOVERNMENT CONTRACTS AND GRANTS 2004-2006
----------------------------------------------------------------------------------------------------------------
               Agency                    Year                               Background
----------------------------------------------------------------------------------------------------------------
USDA CSREES.........................       2005  $10,000 to help support C-FARE's Educational Outreach
                                                  Activities by funding a 2004 conference on ``Partnering for
                                                  Agricultural Research.'' The conference invited in scientists
                                                  from universities, government and private sector to discuss
                                                  ways to partner for enhanced research.
USDA ERS............................       2004  $25,000 to help support C-FARE's Educational Outreach
                                                  Activities by funding a 2004 conference on ``Partnering for
                                                  Agricultural Research.'' The conference invited in scientists
                                                  from universities, government and private sector to discuss
                                                  ways to partner for enhanced research. Other portions of the
                                                  funding were dedicated to other education activities with
                                                  academic scientists.
USDA ERS............................       2005  $25,000 to help support C-FARE's Educational Outreach
                                                  Activities by helping provide funding for C-FARE's intern
                                                  briefings, and other educational seminars.
USDA NASS...........................       2004  $7,500 to help support C-FARE's Educational Outreach Activities
                                                  by funding a 2004 conference on ``Partnering for Agricultural
                                                  Research.'' The conference invited in scientists from
                                                  universities, government and private sector to discuss ways to
                                                  partner for enhanced research.
USDA NASS...........................       2005  $7,500 in funding helped provide educational seminars to
                                                  college students about careers in Washington, DC and other
                                                  educational seminars
EPA.................................       2004  $5,000 to help support a 2003 conference on how to use various
                                                  database systems.
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

              Prepared Statement of Defenders of Wildlife

    On behalf of our members and supporters, Defenders of Wildlife 
appreciates the opportunity to comment upon the fiscal year 2007 budget 
for the U.S. Department of Agriculture. Defenders of Wildlife is a 
national nonprofit conservation organization committed to preserving 
the integrity and diversity of natural ecosystems, preventing the 
decline of native species, and restoration of threatened habitats and 
wildlife populations.
    Defenders of Wildlife has concerns about the administration's 
fiscal year 2007 budget and we strongly oppose a number of changes the 
Bush Administration's proposed fiscal year 2007 budget would make to 
Farm Bill conservation programs. While we applaud the administration's 
recommendations to fully fund the Wetlands Reserve Program, the Bush 
Administration's proposal continues to attempt to rewrite the Farm Bill 
to the great detriment of the suite of USDA voluntary conservation 
programs. We make recommendations in the following priority areas. 2002 

Farm Bill Conservation Title Programs
    Resource conservation programs within the Farm Security and Rural 
Investment Act of 2002 (Public Law 107-171) (Farm Bill) provide an 
integrated approach, through incentives and technical assistance, to 
both production and stewardship of farm and ranch lands and the 
environment. Further, these programs have been particularly valuable in 
providing resources for addressing threatened and endangered species 
conservation issues. The 2002 Farm Bill tried to achieve a balance 
between farm commodity provisions and critical conservation, nutrition, 
research and rural development programs that reach far more Americans 
than the traditional commodity programs. But, in every year since the 
passage of the Farm Bill, conservation programs continue to be funded 
well under authorized levels. This comes at the expense of meaningful 
benefits to both sustainable farmers and ranchers and the environment. 
The conservation title specifically has bourn the brunt of the cuts.
    Since the passage of the 2002 farm bill, congressional and 
administrative actions have shortchanged promised conservation title 
funding for programs administered by the National Resource Conservation 
Service (NRCS) by $1.444 billion over fiscal year 2003 through fiscal 
year 2006. The President's proposed budget for 2007 unfortunately 
continues this trend. We are pleased that the President's budget this 
year again contains a promising proposal to limit environmentally 
harmful agricultural commodity subsidies by capping payments at 
$250,000 per farmer, and for the first time since he came to office, a 
request to fully fund the Wetlands Reserve Program. Unfortunately, his 
request still cuts critical conservation programs not just from the 
mandated Farm Bill funding, but actually below even the fiscal year 
2006 level.
    Thus, Defenders of Wildlife urges Congress to restore balance to 
the Farm Bill and to not shortchange progressive voluntary conservation 
programs. National Farm Bill legislation has a profound impact on 
native species and wildlife habitat conservation choices of individual 
private landowners who practice crop, livestock, and forestry 
activities. Almost 60 percent of at risk species (as defined by The 
Nature Conservancy) are on private or state lands. Nearly 40 percent of 
plant and animal species listed as threatened or endangered are found 
only on private or state lands. Seventy percent of the land in the 
United States is held in private ownership in the form of range, 
forestry, or agricultural use. As of 1995, nearly 84 percent of the 
plants and animals listed as endangered or threatened were listed in 
part due to agricultural activities. Specifically, we urge Congress to 
restore balance by protecting funding allocations for the following 
programs

The Conservation Security Program
    The Bush Administration's proposed fiscal year 2007 budget 
continues to cripple the landmark Conservation Security Program (CSP). 
CSP is an innovative and important initiative that is meant to support 
farmers and ranchers who implement and maintain effective stewardship 
practices on their working farm and ranch lands. However, every year 
since passage it has been a target for cuts thus limiting its ability 
to be implemented as intended. Furthermore, the baseline for CSP was 
dramatically slashed by $1 billion in the fiscal year 2006 budget 
reconciliation. Yet, the administration's fiscal year 2007 budget cuts 
CSP by a further 8 percent. As originally enacted, CSP should have 
received $846 million in 2007, compared to the $342 million requested 
in the President's 2007 budget.
    The President's fiscal year 2007 budget reduces the CSP 
substantially below the original and intended level authorized in the 
Farm Bill, but with the reduced baseline it amounts to an 8 percent 
decrease. Moreover, because a significant portion of fiscal year 2006 
funding will go to fund the continuation of contracts signed in 2004 
and 2005, the proposed funding level will severely curtail the number 
of watersheds where the program can be offered to well below the intent 
of the 2002 Farm Bill. Current funding levels have permitted enrollment 
of only about 10 percent of the Nation's watersheds in the first 2 
years of program implementation. In the spring of 2006 the CSP sign-up 
was cut in half because there was not enough money. Many farmers who 
had been told that their watershed would be funded under CSP were 
suddenly told there was no money. This inconsistency turns away many 
good stewards of the land.
    The Conservation Security Program offers long term benefits for 
continued management of lands to promote environmental health. CSP is 
structured to reward farmers who have already invested in environmental 
stewardship, and to encourage them to go even farther to implement 
stewardship practices on their working lands through the enhancement 
payment structure. CSP is an essential part of the USDA portfolio of 
conservation programs to protect our water, soil, and wildlife 
resources. In order to achieve its promise of continuous income support 
to all of the country's best stewards, the program must be available to 
all producers nationwide, and must be implemented on a schedule that 
permits farmers to re-enroll when their contracts are up. Thus 
Defenders urges Congress to consider the benefits that these programs 
can provide to sustainable farmers in all types of agriculture and in 
all regions of the country, and appropriate at authorized levels. At 
this point, perpetual cuts have the effect of rewriting the Farm Bill 
and changing CSP from the first-ever working lands conservation 
entitlement program envisioned by Congress, to a program with limited 
enrollment, preferential bidding, and waiting lists.

The Wildlife Habitat Incentives Program
    In the President's fiscal year 2007 budget the Wildlife Habitat 
Incentives Program (WHIP) gets slashed by 35 percent--$30 million less 
then fiscal year 2007 authorized level mandated in the 2002 Farm Bill 
and $5 million less then the administration requested last year. WHIP 
provides cost sharing and technical assistance for the development of 
wildlife habitat on private lands. Though small in size, the program 
provides significant benefits for wildlife and wildlife habitat and 
provides proactive solutions to dealing with endangered habitat and 
species issues before they become critical. More than 8,400 projects 
affecting some 1.4 million acres have been approved under WHIP through 
fiscal year 2004 (source: http://www.nrcs.usda.gov/programs/farmbill/
2002/pdf/WHIPFct.pdf, fiscal year 2005 data still unavailable) There is 
demand for more as backlog statistics from NRCS show us: nationwide, 
according to figures through fiscal year 2004 (fiscal year 2005 data 
unavailable), over 3,000 qualified applicants were turned away. The 
value of the backlogged applications that could be going to these 
stewards totals $10 million.
    Defenders urges Congress to restore full funding to this program 
and protect the allocation of this program to continue to provide 
meaningful benefits to sustainable farmers and ranchers and to 
wildlife.

Other Important Conservation Programs in the Farm Bill
    Several other critical programs, that are part of the forward 
thinking conservation initiatives in the Farm Bill, will also be 
significantly cut, which in turn will undermine progressive efforts by 
farmers and ranchers to steward land, conserve soil and water, and 
provide habitat for wildlife. The Environmental Quality Incentives 
Program (EQIP), which provides technical assistance, cost-share/
incentive funding to assist crop and livestock producers with 
environmental and conservation improvements on their farms and ranches, 
is cut by 21 percent--and is $17 million below 2006 funding levels. And 
the Farm and Ranch Land Protection Program (FRPP), which keeps working 
farms and ranches in production and puts cash in the pockets of farmers 
and ranchers, is slashed by a whopping 48 percent--$23.5 million below 
the fiscal year 2006 level. Defenders again urges Congress to protect 
the restore funding and protect the allocation for these programs, as 
well as the Conservation Reserve program. Farm Bill conservation 
programs should be appropriated at authorized levels as intended by the 
2002 Farm Bill. Overall, the President's request cuts 21 percent of the 
Farm Bill's mandatory fiscal year 2007 funding for NRCS programs.
    This pattern has real consequences both for environmental quality 
and for the farmers and ranchers who need assistance. In 2004 alone, 
nearly 152,000 qualified applications for farm conservation programs 
had to be turned away--an astonishing unmet conservation need of almost 
$4.5 billion! Defenders again urges Congress to protect the restore 
funding and protect the allocation for these programs.

Farm Bill Energy Title Programs
    Inclusion of an Energy Title in the 2002 Farm Bill was a huge 
bipartisan victory for renewable energy and for rural America. However, 
the program was allocated $23 million per year in mandatory funding for 
fiscal years 2003-2007. The President's fiscal year 20067 budget 
request provides only $10 million in discretionary funding. This title 
provides programs to spur the growth of renewable energy within the 
agriculture sector, an immense potential energy source. Sec. 9006 is 
the only provision specific to renewable energy project development 
within the Farm Bill. It provides grants, and eventually loans and loan 
guarantees, to farmers, ranchers, and rural small businesses for the 
development of renewable energy projects and energy efficiency 
improvements. The program is designed to help farmers develop much 
needed new income streams from renewable energy generation, including 
wind, biomass, geothermal, hydrogen and solar energy, as well as 
helping to meet the Nation's critical energy needs in an 
environmentally sustainable way, and generate economic development in 
every region of the country. Defenders urges Congress to restore full 
funding to the Renewable energy program as mandated by the Farm Bill.

USDA Invasive Species Prevention and Rapid Response
    Defenders of Wildlife is pleased that the President's budget for 
fiscal year 2007 includes a $28 million increase over 2006 for the 
Animal and Plant Health and Inspection Service's Pest and Disease 
exclusion program (page 83). Many of the pests, weeds, and diseases 
that threaten livestock, crops and rangelands area are also problematic 
for wildlife and wildlife habitats, and exclusion of these pests is the 
safest and most cost-effective way to prevent these impacts. 
Unfortunately, this foresightedness does not appear to extend to other 
areas of the Agriculture budget. For instance: while the Agriculture 
Research Service budget text promises ``increased emphasis'' on 
diseases, crop pests and invasive species, many of the line items 
related to these functions have been substantially decreased from 2006 
levels: Food safety by $9 million, Livestock Protection by $7 million, 
Crop Protection by $32 million, and Environmental Stewardship by $51 
million (page 74-75). We note that the Homeland Security line item 
receives a $45 million increase; however, the vast majority of damaging 
organisms that have entered the United States have arrived 
accidentally, or were deliberately imported for perceived benefit, not 
through malicious intent. The Forest Service's Research and Development 
program also promises ``increased funding'' for ``invasive species 
research vital to a rapid management response'' but overall funding for 
Forest and Rangeland Research is decreased by $56 million (pages 181-
182). Furthermore, State and Private Forestry programs, which provide 
technical and financial assistance to states for invasive species 
issues that impact forest health, is also cut by $39 million from 2006 
levels (page 182).
    Given the serious economic and ecological problems associated with 
invasive species, which are particularly prevalent in agriculture, 
rangelands and forests, we urge Congress to fund all of these programs 
at their 2006 levels or higher.

Animal and Plant Health and Inspection Service and Wildlife Services
            Livestock Protection
    The Wildlife Services (WS) program, housed under the Animal and 
Plant Health and Inspection Service (APHIS), continues to spend a 
disproportionate amount of its annual allocation for livestock 
protection activities, which translates generally into the killing of 
predators primarily on behalf of sheep and cattle producers. But 
according to a recent study by the Wildlife Conservation Society (WCS), 
decades of U.S. government-subsidized predator control has failed to 
prevent a long-term decline in the sheep industry. The study says that 
more than 80 years of federally subsidized predator control with a 
total investment of more than $1.6 billion have not been able to stave 
off an 85 percent decline in the sheep industry since its peak of 56.2 
million animals in 1942.
    According to the study, predation by coyotes is often cited as the 
primary cause of the decline. However, 80 years of historical data 
reveal that a variety of market trends ranging from fluctuating hay 
prices and rising wages for livestock workers, to the drop in wholesale 
prices of lamb and wool, are the real culprits behind the industry's 
drop-off. According to the study's author, ``If predation losses are 
responsible for the decline in the U.S. sheep industry and Federal 
predator control has been effective at reducing these losses, then we'd 
expect to see a strong, positive relationship between efforts to 
control predators and trends in sheep numbers and that is just not the 
case.'' While predation is not the industry's primary threat, it is one 
of the few factors over which ranchers feel they have some degree of 
control. In fiscal year 2004 alone, Federal agents killed more than 
80,000 mammalian carnivores, including 75,674 coyotes, 359 mountain 
lions and 397 black bears. The study suggests that Federal funding for 
predator control in the sheep industry should be re-evaluated given the 
program's failure to prevent the industry's decline. We support such a 
reevaluation and urge the Committee to direct Wildlife Services to 
modernize its livestock protection program to focus on assisting 
ranchers by providing them with a range of more effective means of 
reducing predation, many of which have been developed by the program's 
research facility, the National Wildlife Research Center, rather than 
concentrating on killing predators. Specifically, Defenders is 
concerned with the consistent lack of attention paid to repeated 
Congressional directives to the Wildlife Services program that deal 
with modernizing the field activities of its staff. Defenders 
recommends that Congress ask for a report on Wildlife Services' 
documenting its compliance with the directives dealing with the 
increased use of non-lethal methods. Defenders of Wildlife requests 
also that the Committee's report include the following language: ``The 
Committee expects that Wildlife Services will make use of the non-
lethal methods developed by the National Wildlife Research Center and 
will make non-lethal controls as the method of choice and resort to 
lethal means only as a last resort.''
    Defenders of Wildlife appreciates this opportunity to provide 
testimony on the fiscal year 2007 USDA budget. Thank you for your 
consideration of these comments.
                                 ______
                                 

  Prepared Statement of the Duchesne County Water Conservancy District

    The Duchesne County Water Conservancy District is requesting your 
support for continued funding for the Colorado River Salinity Control 
Title II Program. This program has greatly assisted in removal of many 
tons of salt from the Colorado River, but there is still a great deal 
of work to be completed that will require an adequate level of funding. 
The seven Colorado River Basin States, as well as Mexico, have greatly 
benefitted from this important program. For many years high 
concentrations of salt in the Colorado River had severely damaged 
agricultural production in the West as well as resulting in poor 
quality water being delivered to Mexico.
    Great strides have been made in improving water quality in the 
Colorado River since the inception of this program but we strongly feel 
that there is still a great deal to be done. We understand that the 
Colorado River Basin Salinity Control Forum is requesting $17,500,000 
in funds be appropriated for this program for fiscal year 2007 and we 
would like to add our full support to that funding level request. We 
would also like to express support for the continued funding of the 
Natural Resource Conservation Service program, the Environmental 
Quality Incentive Program (EQIP) which works closely with the Salinity 
Program. It is very important that adequate funding levels be 
maintained for it also.
    We request the Subcommittee's assistance to ensure that the 
Colorado River Salinity Control Title II program and EQIP program are 
provided with continued adequate funding.
                                 ______
                                 

             Prepared Statement of Florida State University

    Mr. Chairman, I would like to thank you and the Members of the 
Subcommittee for this opportunity to present testimony before this 
Committee. I would like to take a moment to briefly acquaint you with 
Florida State University.
    Located in Tallahassee, Florida's capitol, FSU is a comprehensive 
Research I university with a rapidly growing research base. The 
University serves as a center for advanced graduate and professional 
studies, exemplary research, and top-quality undergraduate programs. 
Faculty members at FSU maintain a strong commitment to quality in 
teaching, to performance of research and creative activities, and have 
a strong commitment to public service. Among the current or former 
faculty are numerous recipients of national and international honors 
including Nobel laureates, Pulitzer Prize winners, and several members 
of the National Academy of Sciences. Our scientists and engineers do 
excellent research, have strong interdisciplinary interests, and often 
work closely with industrial partners in the commercialization of the 
results of their research. Florida State University had over $182 
million this past year in research awards.
    Florida State University attracts students from every state in the 
nation and more than 100 foreign countries. The University is committed 
to high admission standards that ensure quality in its student body, 
which currently includes National Merit and National Achievement 
Scholars, as well as students with superior creative talent. We 
consistently rank in the top 25 among U.S. colleges and universities in 
attracting National Merit Scholars to our campus.
    At Florida State University, we are very proud of our successes as 
well as our emerging reputation as one of the nation's top public 
research universities.
    Mr. Chairman, let me summarize our primary interests today. The 
Southeast Climate Consortium (SECC), which consists of Florida State 
University, the University of Florida, the University of Miami, the 
University of Georgia, Auburn University, and University of Alabama at 
Huntsville, has been at the forefront of research and extension for the 
applications of climate predictions to risk reduction for agriculture. 
With support from NOAA and USDA, the SECC has developed new methods to 
predict the consequences of climate variability for agricultural crops, 
forests, and water resources in the southeast United States. In recent 
real-life tests, these methods have been applied to the problems that 
farmers raising specialty crops face arising from variable rainfall, 
temperature, and wild fires. By the use of these methods, these initial 
challenges have been successfully met.
    In the SECC, Florida State University will provide the climate 
forecasts and risk reduction methodology. The University of Florida and 
University of Georgia will translate this climate information into 
risks associated environmental impacts on agriculture and, with Auburn 
University, will work with Extension Services to provide information to 
the agricultural community. The University of Miami will provide 
economic modeling of agricultural systems. Together UM, UF, and the 
University of Alabama-Huntsville are developing new tools to help 
minimize climate risks to water quality and quantity, especially for 
agriculture. FSU, on behalf of the SECC, seeks $4,500,000 in fiscal 
year 2007 for this activity. Utilization of these tools and their 
application to agricultural problems in this project has the strong 
support of extension managers.
    The new tasks for fiscal year 2007 are to develop flood forecasting 
methods to help farmers and producers plan for reducing risks of 
economic losses and environmental damage; to develop partnerships and 
methods for incorporating climate forecasts and other climate 
information into agricultural and water policy decisions, and to begin 
development of a prototype decision support system for the application 
of climate forecasts to water resource management, especially for 
agricultural water use.
    Mr. Chairman, we believe this research is vitally important to our 
country and would appreciate your support.
                                 ______
                                 

                Prepared Statement of Food & Water Watch

    My name is Wenonah Hauter. I am the Executive Director of Food & 
Water Watch, a non-profit consumer organization. We welcome this 
opportunity to present our views on the fiscal year 2007 Agriculture, 
Rural Development, Food and Drug Administration and Related Agencies 
Appropriations Bill.

            USDA--FOOD SAFETY AND INSPECTION SERVICE (FSIS)

    The Food Safety and Inspection Service (FSIS) is proposing a shift 
to a risk-based inspection system. We have the following concerns about 
this proposal:
    The Agency lacks the statutory authority to execute a risk-based 
inspection scheme that would require less than daily inspection. 
According to both the Federal Meat Inspection Act (21 U.S.C. 603) and 
the Poultry Inspection Act (21 U.S.C. 455), the United States 
Department of Agriculture is required to provide continuous inspection 
in all establishments that produce meat and poultry products that enter 
the food supply.
    Furthermore, the FSIS' own glossary defines continuous inspection 
as:
    Continuous Inspection.--USDA's meat and poultry inspection system 
is often called ``continuous'' because no animal destined for human 
food may be slaughtered or dressed unless an inspector is present to 
examine it before slaughter (antemortem inspection), and its carcass 
and parts after slaughter (postmortem inspection). In processing 
plants, as opposed to slaughter plants, inspectors need not be present 
at all times, but they do visit at least once daily. Processing 
inspection is also considered continuous.\1\
---------------------------------------------------------------------------
    \1\ See http://www.fsis.usda.gov/Help/glossary-C/index.asp.
---------------------------------------------------------------------------
    Risk-based inspection needs to have a reliable database upon which 
to make judgments about which meat and poultry plants meet or exceed 
performance standards. At the present time, there are problems with the 
data collection within the Food Safety and Inspection Service. The USDA 
Inspector General, in a November 2004 audit report, stated the 
following about the Performance Based Inspection System (PBIS) 
database:
    Due to the lack of controls noted during our audit, FSIS cannot be 
assured that PBIS data is complete, accurate, and reliable. As a 
result, FSIS management may not have the information it needs to 
effectively manage its inspection activities. Without effective 
controls over data integrity, the PBIS system may be an unreliable 
repository that gives FSIS management a false sense that inspection 
activities are adequately carried out and sanitation of plant 
operations is accurately reported.\2\
---------------------------------------------------------------------------
    \2\ See http://www.usda.gov/oig/webdocs/2451-01-FM.pdf.
---------------------------------------------------------------------------
    The Hazard Analysis Critical Control Points (HACCP) inspection 
system still has problems. The authority of inspectors to prevent 
adulterated products from entering the food supply has been severely 
hampered. Company HACCP plans do not require pre-approval from FSIS 
before they are implemented. Under HACCP, inspectors have been 
relegated to verifying whether company-written HACCP plans are being 
followed. Even when FSIS issues directives to companies to reassess 
their HACCP plans to take into account new food safety policies (e.g., 
the 2002 directive requiring companies to deal with E. coli 0157:H7 as 
an adulterant likely to occur in beef processing), companies often take 
long periods of time to implement the new policy.
    The HACCP-Based Inspection Models Project (HIMP) in poultry 
slaughter still has fewer than two dozen plants participating in the 
program. The Government Accountability Office issued the last 
comprehensive analysis of this project in December 2001 and pointed out 
a number of serious problems.\3\ Inspectors assigned to these plants 
report that they are not able to perform food safety functions because 
they are assigned to stationary positions on the slaughter lines (e.g., 
they are not able to look inside the cavity of poultry carcasses where 
there may be contamination). Furthermore, defects that are considered 
to be ``other consumer protection,'' such as blemishes, scabs, tumors, 
feathers, and bruises, and would not pass muster in processing plants 
using conventional inspection techniques are being permitted to enter 
commerce under the HIMP system. We do not believe that they Agency is 
prepared to extend this inspection model to the entire poultry industry 
at this time. There should be a thorough examination of the HIMP 
project before it is expanded.
---------------------------------------------------------------------------
    \3\ See http://gao.gov/new.items/d0259.pddf.
---------------------------------------------------------------------------
    Because there has not been a full evaluation of HIMP recently, we 
filed a Freedom of Information Act request on December 14, 2005 
requesting certain documents so that we could conduct our own study. 
FSIS responded that they wanted us to pay more than $10,000 for the 
information. We have since scaled back the request, and yet they are 
still requesting the exorbitant sum of $2,858 for the records. We are a 
non-profit consumer group and we do have access to such large sums of 
money. Furthermore, we believe that this information should be 
available at no cost to requesters since the agency is proposing to 
expand this pilot project that will radically change our inspection 
system in slaughter establishments. We believe that Congress should 
request full disclosure of this information.
    In January 2006, the USDA Inspector General released an audit 
report entitled, ``Food Safety and Inspection Service Assessment of the 
Equivalence of the Canadian Inspection System'' (Report No. 24601-05-
Hy). The report indicates that Canada was continually exporting meat 
and poultry products to the United States that had been subject to less 
than daily inspection--in violation of U.S. standards. While those 
responsible for enforcing our equivalency agreements at FSIS 
recommended taking disciplinary action against Canada for their 
repeated violations, they were overruled by the Secretary in 2004. We 
find this most troubling. FSIS has repeatedly testified before Congress 
that countries that wish to export their meat and poultry products to 
the United States must maintain inspection standards that are identical 
to those for domestic producers. Yet, in this instance, USDA has chosen 
to look the other way.
    While Canada has agreed to institute daily inspection in those 
establishments that export to the United States, we have learned that 
FSIS has been in discussions with the Canadian Food Inspection Agency 
(CFIA) to establish a pilot project with a subset of Canadian plants 
that would be able to export products that have been subject to less 
than daily inspection. This pilot program is being created without the 
benefit of congressional input or discussion through rulemaking. We 
believe that instituting such a pilot project would be a violation of 
the Federal Meat Inspection Act (FMIA) and the Federal Poultry Products 
Inspection Act (FPPIA) and it should be stopped before it is 
implemented.
    We have also learned that Australia is in the process of 
considering a ``trial'' of its controversial Meat Safety Enhancement 
Program (MSEP) for a beef processor that would like to export its 
products to the United States. MSEP is a privatized inspection system 
for beef for which there is no comparable system here in the United 
States. MSEP trials were last conducted in 1999, but were stopped since 
the inspection system raised consumer concerns both here in the United 
States and in Europe. We can only surmise that someone at USDA has 
signaled to Australia that we would accept beef products produced under 
a privatized inspection system.
    We view both the Canadian pilot project and the Australian MSEP 
trial as vehicles by the current USDA policymakers to institute 
backdoor changes to our inspection system through our international 
trading partners. Congress has already had to step in to warn USDA on 
changing the programs authorized under the 2002 Farm Security and Rural 
Development Act through the Doha round of WTO negotiations; it may be 
time for Congress to send another shot across the bow to prevent the 
undermining of the FMIA and FPPIA through international discussions 
that have not had the benefit of congressional or public scrutiny.
    For all of these reasons, we do not believe that the Agency is 
prepared to make radical changes to the current inspection system, no 
matter what terms they use to describe it. The concept of 
``continuous'' government inspection has been the core of our meat 
inspection system for 100 years, and the Agency should not be permitted 
to abandon this principle.
                                 ______
                                 

                Prepared Statement of The Humane Society

    As the largest animal protection organization in the country, we 
appreciate the opportunity to provide testimony to the Agriculture, 
Rural Development, Food and Drug Administration, and Related Agencies 
Subcommittee on fiscal year 2007 funding items of great importance to 
The Humane Society of the United States (HSUS) and its more than 9.5 
million supporters nationwide.

                   ENFORCEMENT OF ANIMAL WELFARE LAWS

    We thank you for your outstanding support during recent years for 
improved enforcement by the U.S. Department of Agriculture (USDA) of 
key animal welfare laws and we urge you to sustain this effort in 
fiscal year 2007. Your leadership is making a great difference in 
helping to protect the welfare of millions of animals across the 
country. As you know, better enforcement will also benefit people by 
helping to prevent: (1) orchestrated dogfights and cockfights that 
often involve illegal gambling, drug trafficking, and human violence, 
and can contribute to the spread of costly illnesses such as Exotic 
Newcastle Disease and bird flu; (2) injuries to slaughterhouse workers 
from animals that are still conscious; (3) the sale of unhealthy pets 
by commercial breeders, commonly referred to as ``puppy mills''; (4) 
laboratory conditions that may impair the scientific integrity of 
animal based research; (5) risks of disease transmission from, and 
dangerous encounters with, wild animals in or during public exhibition; 
and (6) injuries and deaths of pets on commercial airline flights due 
to mishandling and exposure to adverse environmental conditions. In 
order to continue the important work made possible by the fiscal year 
2006 budget, we request the following for fiscal year 2007:

               APHIS/ANIMAL WELFARE ACT (AWA) ENFORCEMENT

    We request that you support the President's request of $19,142,640 
for AWA enforcement under APHIS. We commend the Committee for 
responding in recent years to the urgent need for increased funding for 
the Animal Care division to improve its inspections of more than 13,000 
sites, including commercial breeding facilities, laboratories, zoos, 
circuses, and airlines, to ensure compliance with AWA standards. Animal 
Care now has 100 inspectors (with four vacancies that the agency is in 
the process of filling), compared to 64 inspectors at the end of the 
1990s. We are pleased that the President's budget recommends an 
increase of $1,481,420 (plus allowance for pay costs) to cover hiring 
15 new staff to further improve AWA enforcement in fiscal year 2007. 
This increase will enable the agency to handle additional 
responsibilities as the number of licensed/registered facilities has 
grown by 12 percent from fiscal year 2004 to fiscal year 2005.

              APHIS/INVESTIGATIVE AND ENFORCEMENT SERVICES

    We request that you support the President's request of $11,738,430 
for APHIS Investigative and Enforcement Services. We appreciate the 
Committee's consistent support for this division, which handles many 
important responsibilities including animal welfare. The President's 
budget recommends an increase of $1,235,000 (plus allowance for pay 
costs) and 12 staff years for IES in fiscal year 2007. A portion of 
this increase will be used to improve enforcement of federal animal 
welfare laws. The volume of animal welfare cases is rising 
significantly as new facilities become licensed and registered. In 
fiscal year 2005, IES conducted 575 animal care investigations, with 
169 cases resolved through either civil penalty stipulations or 
Administrative Law Judge decisions and a total of $1.1 million assessed 
in fines (compared to 288 investigations and 97 cases resolved through 
stipulations or ALJ decisions and $548,614 in fines during fiscal year 
2004).

        OFFICE OF INSPECTOR GENERAL/ANIMAL FIGHTING ENFORCEMENT

    We request sustained funding of $800,000 for the Office of 
Inspector General to focus on enforcement of animal fighting laws (this 
amount is incorporated in the President's request for OIG base 
funding). We appreciate the inclusion of $800,000 in each of the past 
three fiscal years for USDA's Office of Inspector General to focus on 
animal fighting cases. Congress first prohibited most interstate and 
foreign commerce of animals for fighting in 1976 and tightened 
loopholes in the law in 2002. Since then, USDA has begun to take 
seriously its responsibility to enforce this law, working with state 
and local agencies to complement their efforts. Dogfighting and 
cockfighting are barbaric (but still surprisingly widespread) practices 
in which animals are drugged to heighten their aggression and forced to 
keep fighting even after they've suffered grievous injuries. Animal 
fighting is almost always associated with illegal gambling, and also 
often involves illegal drug trafficking and violence toward people. 
Dogs bred and trained to fight endanger public safety, and some 
dogfighters steal pets to use as bait for training their dogs. 
Cockfighting was linked to an outbreak of Exotic Newcastle Disease in 
2002-2003 that cost taxpayers more than $200 million to contain. It's 
also been linked to the death of at least eight people in Asia 
reportedly exposed through cockfighting activity to bird flu. Given the 
potential for further costly disease transmission, as well as the 
animal cruelty involved, we believe it would be a sound investment for 
the federal government to increase its efforts to combat illegal animal 
fighting activity.

  FOOD SAFETY AND INSPECTION SERVICE/HUMANE METHODS OF SLAUGHTER ACT 
                           (HMSA) ENFORCEMENT

    We request sustained funding of no less than $5,000,000 and no 
fewer than 63 staff years for HMSA enforcement (this amount is 
incorporated in the President's request for FSIS base funding) and 
continued funding of $4,000,000 as provided in fiscal year 2006 for 
further implementation of the new tracking system. We are grateful that 
Congress provided $5 million in fiscal year 2006 to sustain at least 63 
full time equivalent positions dedicated solely to inspections and 
enforcement related to the Humane Methods of Slaughter Act, plus $4 
million to incorporate a new tracking system to ensure compliance with 
this law. The HMSA is designed to ensure that livestock are treated 
humanely and rendered unconscious before they are killed. The effort to 
target funds for this purpose was undertaken following reports of lax 
enforcement of the HMSA and animals being skinned, dismembered, and 
scalded while still alive and conscious. Implementation of the Humane 
Animal Tracking System is ongoing; continued funding of $4 million will 
be used to equip remaining facilities.

COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE/VETERINARY 
                        STUDENT LOAN FORGIVENESS

    We request $1,000,000 to continue a pilot program for the National 
Veterinary Medical Service Act, authorized in 2003, that received 
initial funding of $500,000 in fiscal year 2006. We appreciate that 
Congress has begun to address the critical shortage of veterinarians 
practicing in rural and inner-city areas, as well as in government 
positions such as at FSIS and APHIS. Having adequate veterinary care is 
a core animal welfare concern. There are only 70 veterinarians engaged 
in poultry practice to address the needs of approximately nine billion 
chickens raised each year in the United States, and only 75 
veterinarians addressing the needs of 30 million beef cattle and 102 
million pigs, respectively. Veterinarians support our Nation's defense 
against bioterrorism (the Centers for Disease Control estimate that 80 
percent of potential bioterrorism agents are zoonotic--transmitted from 
animals to human). They are also on the front lines addressing public 
health problems associated with pet overpopulation, parasites, rabies, 
chronic wasting disease, bovine spongiform encephalopathy (``mad cow'' 
disease), and a host of other concerns. Veterinary school graduates 
face a crushing debt burden of $80,000 on average, and the lowest pay 
of any of the medical professions, with an average starting salary of 
$43,000. For those who choose employment in underserved rural or inner-
city areas or public health practice, the National Veterinary Medical 
Service Act authorizes the Secretary of Agriculture to forgive student 
debt. It also authorizes financial assistance for those who provide 
services during Federal emergency situations such as disease outbreaks 
or disasters. We hope you will build on the initial funding provided 
last year to expand this needed program under CSREES or such other 
account as the Committee deems appropriate.

                 APHIS/HORSE PROTECTION ACT ENFORCEMENT

    We hope you will provide the $492,030 requested by the President 
for fiscal year 2007, and we urge the Committee to oppose any effort to 
restrict USDA from enforcing this law to the maximum extent possible. 
Congress enacted the Horse Protection Act in 1970 to end the obvious 
cruelty of physically soring the feet and legs of show horses. In an 
effort to exaggerate the high-stepping gate of Tennessee Walking 
Horses, unscrupulous trainers use a variety of methods to inflict pain 
on sensitive areas of the feet and legs for the effect of the leg-jerk 
reaction that is popular among many in the show-horse industry. This 
cruel practice continues unabated by the well-intentioned but seriously 
understaffed APHIS inspection program. We appreciate the Committee's 
help providing modest increases to bring this program close to its 
authorized annual funding ceiling of $500,000.

                         DOWNED ANIMALS AND BSE

    We are pleased that the Bush Administration proposed an interim 
final rule in January 2004 to ban the use of downed cattle for human 
food, in the wake of the discovery of a cow in Washington State that 
was infected with Bovine Spongiform Encephalopathy (BSE). We hope the 
Committee will codify this ban--and extend it to other livestock 
besides cattle--with language barring the Food Safety and Inspection 
Service from spending funds to certify meat from downed livestock for 
human consumption. While the science to date on BSE has only indicated 
transmission from infected cows to people, downer pigs and other downer 
livestock are at a significantly higher risk of transmitting other 
serious and sometimes fatal illnesses through their meat, such as E. 
coli and Salmonella, and these animals, too, suffer when they are moved 
en route to slaughter.
    As the Committee is aware, some segments of industry and members of 
Congress have recommended weakening the USDA downed cattle ban. They 
claim that animals unable to walk because of injury pose no health 
risk. But injury and illness are often interrelated--an animal may 
stumble and break a leg because of disease that causes weakness and 
disorientation. And USDA inspectors would have a difficult--if not 
impossible--task trying to sort out the reason an animal became non-
ambulatory. Major consumer groups including Consumers Union and 
Consumer Federation of America, support groups for victims of food-
borne illness such as Safe Tables Our Priority (S.T.O.P.), Creutzfeldt-
Jakob Disease Foundation, and CJD Voice, food safety organizations, 
companies such as McDonald's and Wendy's, and many others have all 
pointed out how reckless such a system would be. Of the BSE cases 
identified in Canada and the United States to date, 7 out of 8 have 
involved downers, and at least 3 of these were identified as downed due 
to injuries, including the Washington State case (``calving injuries'') 
and a January 2005 case in Canada (``slipped on ice/broken leg'').
    From an animal welfare perspective, a comprehensive ban is needed 
because a downer cow with a broken leg would suffer just as much as a 
sick one if it's dragged through a slaughterplant--maybe even more. A 
ban on use of all downers for human food also provides an incentive for 
producers to treat animals humanely and prevent livestock from going 
down. Even before the administrative ban, USDA estimated that only 0.4 
percent to 0.8 percent of all cows processed annually were non-
ambulatory. The downer ban encourages producers and transporters to 
engage in responsible husbandry and handling practices, so that this 
percentage may be reduced to levels approaching zero. Temple Grandin--
advisor to the American Meat Institute and others in the meat 
industry--has noted that as many as ninety percent of all downers are 
preventable. Cases that involve broken bones and other injuries are 
perhaps the most preventable with improved husbandry.
    Most Americans had no idea that animals too sick or injured to walk 
were being dragged with chains or hauled by bulldozer en route to the 
food supply. When that fact came to light in December 2003, USDA's 
prompt decision to ban all downer cattle from human food calmed 
consumers. Unraveling the ban would undermine consumer confidence. More 
than 99 percent of the 22,000+ public comments USDA received on its 
downer ban called on the agency to maintain and strengthen its downer 
ban, with most asking that other species be included. For a report on 
the comments received by the agency, please go to: http://
files.hsus.org/web-files/PDF/2004_06_16_rept_USDA_comments.pdf.
    USDA testimony before various congressional committees has made 
clear that the agency need not rely on slaughterplant testing of 
downers for BSE surveillance purposes. Surveillance of downers can and 
should be conducted at rendering plants and on farms.
    In addition to the downer issue, we urge the Committee to provide 
adequate funding to ensure meaningful enforcement by the Food and Drug 
Administration of its ``feed ban,'' designed to prevent BSE-
contaminated animal products from being fed to other animals. We are 
concerned that inspectors visit facilities infrequently and rely on 
self-reporting by those facilities and paperwork checking rather than 
first-hand evaluation of feed content and dedicated production lines. 
We are also concerned that FDA relies a great deal on state agencies to 
conduct this oversight, when most states face severe budget constraints 
that may compromise their ability to handle this job. Preventing the 
spread of BSE is vital to the Nation as a whole, for public health, the 
agricultural industry, and animal welfare. Vigorous enforcement of the 
feed ban is an essential component of this effort. We hope adequate 
Federal funds will be provided in fiscal year 2007 to meet this 
challenge.
    Again, we appreciate the opportunity to share our views and 
priorities for the Agriculture, Rural Development, and Related Agencies 
Appropriation Act of fiscal year 2007. We appreciate the Committee's 
past support, and hope you will be able to accommodate these modest 
requests to address some very pressing problems affecting millions of 
animals in the United States. Thank you for your consideration.
                                 ______
                                 

       Prepared Statement of Interregional Research Project No. 4

    The Interregional Research Project No. 4 (IR-4 Project) was 
organized 43 years ago by the Directors of the State Agricultural 
Experiment Stations (SAES) to obtain regulatory clearances for crop 
protection chemicals on specialty or minor food crops when the economic 
incentives for the registrants precluded private sector investment. IR-
4 has been administered by the United States Department of 
Agriculture's (USDA's) Cooperative State Research, Education, and 
Extension Service (CSREES) since its inception in 1963. The 
Agricultural Research Service (ARS) component of the USDA established a 
companion minor use program in 1976 to provide further program support. 
The objectives of the IR-4 Project were expanded in 1977 to include 
registration of pest control products for the protection of nursery, 
floral, Christmas tree, and turf crops and again in 1982 when the 
objective of clearance of biological control agents or biopesticides 
was added.
    The IR-4 Project works as a model government program that fosters 
cooperative partnerships between the USDA (CSREES and ARS), the IR-4 
Headquarters and Regional staff, the land grant university system, the 
crop protection industry, commodity and grower groups, the 
Environmental Protection Agency (EPA), and the California Department of 
Pesticide Regulation (CDPR) to bring crop protection solutions to 
specialty crop growers.
    The Food Use Program is the primary focus of the IR-4 Project. To 
streamline the project request process, growers, commodity groups, 
university researchers and extension personnel, USDA researchers and 
other interested parties can submit on-line requests directly from our 
website at: http://www.ir4.rutgers.edu/FOODRequestForm.htm. The 
requests are recorded and reviewed by IR-4 Headquarters staff. At the 
annual Food Use Workshop, growers, commodity groups, university and 
USDA researchers, extension personnel, and EPA staff discuss and 
prioritize the projects by consensus. The high priority projects are 
finalized the following month at the annual National Research Planning 
Meeting where field residue and analytical laboratory assignments are 
made based on the best use of available USDA-ARS and land grant 
university personnel within the funding provided by Congress. For more 
information concerning the food use program and the status of on-going 
projects or studies, access the IR-4 website at: http://
www.ir4.rutgers.edu/foodcrops.html. All IR-4 food use residue research 
is carried out by EPA approved Good Laboratory Practices (GLP's) with 
coordination and implementation by the Quality Assurance Unit (QAU). 
Annual training of the Field Research Directors, laboratory personnel 
and support staff involved in the conduct of work is essential to the 
success of the IR-4 Project. GLP compliance audits of facilities and of 
ongoing field and laboratory procedures, provides assurance that IR-4 
food safety data will be accepted by the crop protection industry, 
growers and the EPA.
    The 991 food use clearances obtained in 2005 boosted the 43 year 
total to over 9,300 clearances. It is interesting to note that 53 
percent (4,949) of all clearances in the program's history have been 
obtained in the last 8 years. In pursuit of this remarkable 
accomplishment, IR-4 continues its commitment to producing high 
quality, compliant scientific data in order to meet EPA's GLP 
requirements and strive to further enhance our effectiveness and 
efficiency by providing continuing GLP education and/or QA training 
sessions for IR-4 personnel and cooperators, audit data and reports, as 
well as, review and revise Standard Operating Procedures (SOP's).
    The research program for year 2006 consists of approximately 110 
studies supported by 701 field trials. One hundred and six (106) of 
these studies will require the collection of residue samples and 4 
studies will be for collecting efficacy and/or crop safety data to 
support specific data needs. The smaller efficacy program this year is 
a result of the reduced budget in 2006 thereby eliminating the pilot 
efficacy program. Five hundred and twenty-eight (528) of the field 
trials will be conducted by regional State agricultural research 
stations, while USDA-ARS will be conducting 115 field trials and Canada 
has agreed to cooperate on 58 trials.
    The Section 18 Economic Benefits/Loss Avoidance Project to document 
potential economic impact (loss) data from state submitted Section 18's 
approved by the EPA and supported by IR-4 residue data was initiated in 
1998. Since this initiative began, a total of 205 Section 18's have 
been converted to full Section 3 labels as a result of IR-4 petitions. 
This is the result of IR-4's commitment to minimize the number of years 
that Section 18's are needed on new crop protection products before 
Section 3 labels are approved by the EPA. The total over the eight year 
period from 1998 to 2005 (where the data are available) bring the total 
economic impact/loss avoidance to $12.589 billion from 1,229 Section 
18's covering 47 States.
    The ornamental industry is an extremely important component of 
specialty crop agriculture with over $15 billion in annual sales which 
comprise over 35 percent of all specialty crop sales. The research to 
develop efficacy and crop safety data to support registration of both 
traditional chemicals and biopesticides as pest control tools on 
ornamentals continues to be an important component of our overall 
program. The industry presents a formidable challenge since it involves 
a diverse array of crops in various markets such as floral, bulbs, 
forestry seedlings, Christmas trees, nursery, turf, commercial and 
interior landscapes, greenhouses, etc.
    Like the Food Use Program, requests are received, recorded and 
reviewed by IR-4 Headquarters. At the annual Ornamental Horticulture 
Workshop, growers, commodity groups, university and USDA researchers, 
extension personnel and EPA staff discuss and prioritize the projects 
by consensus. The efficacy and crop safety trials are planned in 
discussions between the IR-4 Headquarters Ornamental Horticulture 
Manager, regional field coordinators and ARS leadership. In 2006, the 
Ornamental Horticulture research program will focus on the high 
priority projects established at the annual workshop: Phytophthora 
Efficacy, Pythium Efficacy, Thrips Efficacy, Coleopteran Efficacy, and 
Broadleaf Weed and Sedge Management Tools Crop Safety. The research 
program also enables each regional field coordinator to focus some 
discretionary funds on trials of specific regional interest. The 
Northeast and Southern regions are coordinating their funding on 
herbicide fern safety, while the Western region enhanced the testing 
program for the high priority herbicide project.
    The Biopesticide Research Program continued its 8 year of 
competitive grant funding of projects for $400,000 and amounting to 
over $3,325,000 since its inception. In addition to funding projects 
that have focused in recent years on the biopesticides considered 
Advanced Stage (near commercialization or commercialized but expanding 
uses to specialty crops), IR-4 has continued to help biopesticide 
registrants with regulatory support needs.
    For the 2006 Biopesticide Research Program, IR-4 received a total 
of 113 proposals requesting approximately $1.2 million. Of the 113 
proposals, 21 were Early Stage, 64 were Advanced Stage and 28 were 
Demonstration Stage of which 70 involved disease management, 24 were 
for insect/mite management, 5 were for weed control, 11 were for 
nematode control, 2 were plant growth regulators and 1 involved bird 
management. The 2006 program will fund 42 of the project proposals.
    Without the existence of the IR-4 Project, fewer safe and effective 
crop protection chemicals and biological alternatives would be 
available for use on specialty crops today. The crop protection 
industry has continued to be an excellent partner in working with IR-4 
to provide their latest technologies, both chemical and biological, for 
specialty crop uses. However, the Project must continue to evolve in 
order to stay relevant. To this end, the importance of the continued 
special research grant funding and strategic plan implementation will 
be critical to the future of IR-4.
    Three hot topics' for the fiscal year 2007 Congressional 
Appropriations hearings were recently posed to the Cooperative State 
Research, Education and Extension Service concerning the IR-4 Project. 
The questions asked and answers provided are as follows:
    Question. What has the Inter-regional Project #4 (IR-4) done to 
provide safe and effective pest management solutions for growers of 
specialty crops in the United States?
    Answer. By cooperating with researchers, producers, the 
agrichemical industry and Federal agencies, IR-4 has achieved over 
9,300 food crop and 10,000 ornamental crop registrations for pest 
management products since the project began in 1963. In 2004 and 2005 
alone, there were over 2,000 clearances for these specialty crops which 
are collectively valued at $43 Billion. Priorities for future research 
and future registrations are established at IR-4's annual Food Use and 
Ornamental Horticulture Workshops and a record attendance of over 325 
stakeholders participated in defining IR-4's workplan for 2006.
    Question. Since horticultural/specialty crops are an important part 
of U.S. agriculture, what is being done to improve export opportunities 
for the producers of these crops?
    Answer. Over the past decade, the agrichemical industry has 
developed a range of new, safer products and IR-4 has been very 
successful in expanding the registrations of these products 
facilitating their use on specialty crops. This has significantly 
benefited growers producing food for domestic markets. However, some of 
their new lower risk products are not approved by some of the U.S. 
trading partners resulting in U.S. growers not being able to use some 
of these products if their produce is going to be shipped to countries 
that do not have Maximum Residue Limits (MRLs) established for these 
new products. Therefore, it has become critically important for a 
product to be available globally in order to level the playing field 
for United States specialty crop growers who wish to export their 
crops. IR-4 is in a unique position to facilitate the Global Specialty 
Crop Initiative where existing data in the IR-4 Library can be used to 
solve some of the trade issues. This initiative would enhance global 
registrations and reduce trade barriers, while at the same time further 
promote the use of new, safer pest management products both 
domestically and world wide.
    Question. What is the economic impact of the IR-4 Project on United 
States specialty crop growers?
    Answer. Using economic loss avoidance data submitted to the EPA by 
47 states covering over 1225 Section 18 requests supported by IR-4 
specialty crop residue data, the economic loss avoidance between 1998 
and 2005 has been $12.6 billion.
                                 ______
                                 

   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    The Metropolitan Water District of Southern California is writing 
in support of the following Federal program under the Department of 
Agriculture's (USDA) budget that we believe is deserving of your 
Subcommittee's support during the fiscal year 2007 budget process:
    Natural Resources and Environment Mission Area--Agency: Natural 
Resources Conservation Service (NRCS)--Farm Bill Programs (Funded by 
the Commodity Credit Corporation)--Environmental Quality Incentives 
Program:
  --$1 billion requested by the President nationwide with $25 million 
        designated by the NRCS for the Colorado River Basin Salinity 
        Control Program.
    The Metropolitan Water District of Southern California is a public 
agency that was created in 1928 to meet the supplemental water demands 
of people living in what is now portions of a six-county region of 
southern California. Today, the region served by Metropolitan includes 
approximately 18 million people living on the coastal plain between 
Ventura and the international boundary with Mexico.
    Included in our region are more than 300 cities and unincorporated 
areas in the counties of Los Angeles, Orange, San Diego, Riverside, San 
Bernardino, and Ventura. We provide over half of the water used in our 
5,200-square-mile service area and help our members to develop local 
supplies through increased water conservation, recycling, storage and 
other resource-management programs. Metropolitan's imported water 
supplies come from the Colorado River via our Colorado River Aqueduct 
and from northern California via the State Water Project's California 
Aqueduct.
    MWD continues to support USDA implementation of conservation 
programs. MWD firmly believes that interagency coordination, along with 
incentive-based cooperative conservation programs that facilitate the 
development of partnerships, are critical to addressing natural 
resources concerns, such as water quality degradation, wetlands loss 
and wildlife habitat destruction. It is vital that the Congress 
provides USDA with the funding necessary to successfully carry out its 
commitment to natural resources conservation.

Environmental Quality Incentives Program (EQIP)
    An important program for MWD has been the Colorado River Basin 
Salinity Control Program, which is funded by USDA at the Federal level 
through the Environmental Quality Incentives Program. MWD recommends 
that EQIP be funded at $1 billion in fiscal year 2007, as proposed in 
the President' Budget, with the Colorado River Basin Salinity Control 
Program funded at $25 million, 2.5 percent of the EQIP budget, as 
requested by the seven Colorado River Basin states through the Colorado 
River Basin Salinity Control Forum.
    EQIP provides assistance to farmers and ranchers who face threats 
to soil, water, air and related natural resources on their land. EQIP 
provides assistance in a manner that will promote agricultural 
production and environmental quality as compatible goals. NRCS offers 
the program throughout the Nation.
    In Public Law 104-127, Congress amended the Colorado River Basin 
Salinity Control Act to direct the Secretary of Agriculture to carry 
out salinity control measures in the Colorado River Basin as part of 
EQIP. Beginning with the first full year of EQIP funding in 1997 
through 2001, USDA's participation in the Colorado River Basin Salinity 
Control Program (Salinity Control Program) had significantly diminished 
as compared to the 1996 level of funding for salinity control. After 
requests had been made by the Colorado River Basin Salinity Control 
Forum (Forum), the interstate organization responsible for coordinating 
the seven Basin states' salinity control efforts, and others, as well 
as directives from the Congress, USDA concluded that the Salinity 
Control Program warranted a multi-state river basin approach. The Forum 
is composed of Gubernatorial appointees from Arizona, California, 
Colorado, Nevada, New Mexico, Utah, and Wyoming. Clearly, Colorado 
River Basin salinity control has benefits that are not merely local or 
intrastate in nature, but continue downstream. EQIP is also important 
because it provides funding for agricultural source water protection 
measures that protect and improve the quality of Metropolitan's 
imported supplies from Northern California.
    The Colorado River is a large component of Southern California's 
regional water supply and its relatively high salinity causes 
significant economic impacts on water customers in MWD's service area, 
as well as throughout the Lower Colorado River Basin (Lower Basin). MWD 
and the Bureau of Reclamation (Reclamation) completed a Salinity 
Management Study for Southern California in June 1999. The study 
concluded that the high salinity from the Colorado River continues to 
cause significant impacts to residential, industrial and agricultural 
water users. Furthermore, high salinity adversely affects the region's 
progressive water recycling programs, diminishes the effectiveness of 
water conservation efforts, and is contributing to an adverse salt 
buildup through infiltration into Southern California's irreplaceable 
groundwater basins.
    In April 1999, MWD's Board of Directors authorized implementation 
of a comprehensive Action Plan to carry out MWD's policy for management 
of salinity. The Action Plan focuses on reducing salinity 
concentrations in Southern California's water supplies through 
collaborative actions with pertinent agencies, recognizing that an 
effective solution requires a regional commitment. MWD, the Association 
of Groundwater Agencies, the Southern California Association of 
Publicly Owned Treatment Works, and the WateReuse Association of 
California have formed a Salinity Management Coalition.
    During 2002, the Coalition was expanded to include major water and 
wastewater agencies throughout Southern California. Presently, the ten 
members of the coalition are working to implement a Strategic Action 
Plan that focuses primarily on local contributions to southern 
California's high-salinity problem.
    In addition, Southern California leaders are working with urban 
areas in Arizona, Nevada, New Mexico, and Texas to find solutions to 
mutual problems with salinity in imported supplies, such as from the 
Colorado River, and other sources. These agencies participate in the 
annual National Salinity Summit to examine and coordinate salinity 
management activities.
    Concentrations of salts in the Colorado River cause hundreds of 
millions of dollars in damage in the United States according to the 
U.S. Department of the Interior. Implementation of salinity control 
measures:
  --increases the yield of salt sensitive crops and decreases water use 
        for leaching in the agricultural sector,
  --increases the useful life of galvanized water pipe systems, water 
        heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and decreases the use of bottled water and water 
        softeners in the household sector,
  --decreases the use of water for cooling, and the cost of water 
        softening, and increases equipment service life in the 
        commercial sector,
  --decreases the use of water and the cost of water treatment, and 
        decreases sewer fees in the industrial sector,
  --increases the life of treatment facilities and pipelines in the 
        utility sector,
  --eases the meeting of wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and decreases desalination and brine 
        disposal costs due to less accumulation of salts in groundwater 
        basins, and
  --decreases use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    Absent the Salinity Control Program, impacts would progressively 
increase with continued agricultural and urban development upstream of 
California's points of Colorado River diversion. Droughts will cause 
spikes in salinity levels in the future that will be highly disruptive 
to Southern California water management and commerce. The Salinity 
Control Program has proven to be a very cost-effective approach to help 
mitigate the impacts of higher salinity. Adequate Federal funding of 
the Salinity Control Program is essential.
    The Forum issued its 2005 Review, Water Quality Standards for 
Salinity, Colorado River System (2005 Review) in October 2005. The 2005 
Review found over 900,000 tons of salinity needs to be controlled 
annually to maintain 2004 salinity levels through 2025. From 1994 
through 2003, funding for USDA's salinity control program did not equal 
the Forum-identified funding need for the portion of the program the 
Federal Government is responsible to implement. While NRCS has 
designated Colorado River Basin salinity control as an area of special 
interest, appointed a multi-state coordinator, and allocated about 
$19.5 million in fiscal years 2005 and 2006, it is essential that 
implementation of salinity control efforts through EQIP continue to be 
accelerated to reduce economic impacts. The Basin states and farmers 
continue to stand ready to pay their share of the implementation costs 
of EQIP.
    The Forum has determined that allocation of 2.5 percent of the EQIP 
funds, that is $25 million, is needed in fiscal year 2007 for on-farm 
measures to control Colorado River Basin salinity. Funding at this 
level will permit the state adopted and U.S. Environmental Protection 
Agency approved water quality standards to be met. With 2.5 percent of 
the EQIP cost share financial assistance, monitoring, and technical 
assistance funding requested by the President allocated to the Salinity 
Control Program, an additional $21 million in states and local cost 
sharing could be committed.
    MWD urges the Subcommittee to support funding of $1 billion for 
EQIP, the amount requested in the President's Budget, and advise USDA 
that $25 million, or 2.5 percent of the EQIP funds, be designated for 
the Salinity Control Program. Thank you for your consideration of our 
testimony. USDA's conservation programs are critical for achieving 
Colorado River Basin salinity control objectives, as well as broader 
source water quality protection objectives in the Colorado River Basin 
and California.
    We look forward to working with you and your Subcommittee. Please 
contact me at (213) 217-6211, if I can answer any questions or provide 
additional information.
                                 ______
                                 

Prepared Statement of the Midwest Advanced Food Manufacturing Alliance 
                                (MAFMA)

    The Midwest Advanced Food Manufacturing Alliance (MAFMA) is a 
research consortium involving 13 leading Midwestern universities 
(University of Illinois, Indiana University, Iowa State University, 
Kansas State University, Michigan State University, University of 
Minnesota, University of Missouri, University of Nebraska, North Dakota 
State University, Ohio State University, Purdue University, South 
Dakota State University, University of Wisconsin). MAFMA expedites the 
development of new manufacturing and processing technologies for food 
and related products derived from U.S. produced crops and livestock and 
thus contributes to the economic development of the U.S. food industry, 
one of this country's premier industry sectors. The research of MAFMA 
is conducted by scientists in food science and technology, food 
engineering, nutrition, microbiology, and other relevant disciplines 
from universities participating in the MAFMA consortium. MAFMA sponsors 
an annual peer-reviewed research competition where superior research 
proposals are selected from among the submissions of scientists from 
these 13 universities. Specific research proposals are funded on a 
competitive basis to university scientists who must also demonstrate 
matching funds from non-Federal sources (primarily the food industry) 
for research involving processing, packaging, storage, and 
transportation of food products. The close cooperation between 
university and corporate researchers assures that the latest scientific 
advances are applied to the most relevant problems and that any 
solutions will be efficiently transferred and used by the private 
sector. MAFMA research proposals are peer-reviewed by scientists from 
academia and industry who are not affiliated with the 13 institutions 
or any of the companies providing matching funds which assures that the 
proposed research is sound and likely to contribute valuable scientific 
information. The MAFMA project has been funded for 12 years and this 
proposal will fund the 13th year of competition. During the past 12 
years, the MAFMA consortium has funded 136 projects for a total of 
$4,327,570 of USDA funds and an impressive total of $6,369,623 in 
matching funds from non-Federal (primarily food industry) sources 
involving 193 companies and other entities.
                                 ______
                                 

   Prepared Statement of the National Association of State Foresters

                              INTRODUCTION

    The National Association of State Foresters (NASF) is pleased to 
provide testimony on the U.S. Department of Agriculture (USDA) budget 
request for fiscal year 2007. Representing the directors of State 
forestry agencies from all 50 States, eight U.S. territories, and the 
District of Columbia, our testimony centers around those program areas 
most relevant to the long-term forestry operations of our constituents: 
Research, Education, and Economics, as well as Natural Resources and 
Environment. We believe the USDA budget for fiscal year 2007, which 
offers opportunities for advancing the sustainable management of 
private forestland nationwide, can be strengthened through our 
recommendations.

   USDA COOPERATIVE STATE RESEARCH, EDUCATION, AND EXTENSION SERVICE 
                           (CSREES) PROGRAMS

    Cooperative Forestry Research (Mcintire-Stennis) Program.--The 
Cooperative Forestry Research (McIntire-Stennis) Program (CFRP) is a 
crucial part of the foundation that underlies academic and scientific 
understanding of the Nation's forest resources. McIntire-Stennis CFRP 
was originally enacted in order to provide universities with formula 
funds for the explicit purpose of research in the field of forestry, 
which was not provided for in similar research funding programs. For 
more than 40 years, CFRP has equipped both private and land-grant 
universities with the ability to produce invaluable research concerning 
forest productivity, environmental quality, and technologies for 
monitoring and extending the natural resource base. The program also 
provides rigorous scientific education and training for university 
students--the future managers of the Nation's forest resources.
    Universities, supported by base funds from the Federal Government, 
have consistently supplied science-based forestry research not 
affiliated with any particular resource use or interest group. Without 
sufficient base funds from the Federal Government, society will lose 
the benefits wrought by this productive partnership.
    NASF recommends $24.5 million for the Cooperative Forestry Research 
(McIntire-Stennis) Program. The proposed increase in CFRP will help the 
program continue to serve as the cornerstone of forest research in 
universities, providing knowledge central to sound management from 
environmental, economic, and social perspectives. In addition, we 
strongly urge the Subcommittee to reject the President's proposal to 
shift 59 percent of the program to competitive funding.
    The Renewable Resources Extension Act (Rrea).--The Renewable 
Resources Extension Act (RREA) facilitates the transfer of needed 
forestry information and technology to non-industrial private forest 
landowners, as well as loggers and small businesses involved with 
forest resource management.
    Extension's education programs aid private landowners in 
understanding their management options and responsibilities, and 
encourage them to take advantage of other technical and financial 
assistance programs.
    NASF recommends funding RREA at $4.1 million for fiscal year 2007, 
in order to sustain the program's ability to address critical extension 
and stewardship needs.

                    FARM BILL CONSERVATION PROGRAMS

    NASF believes that the conservation programs enacted in the 2002 
Farm Bill are integral for protecting water quality, erodible soils, 
wildlife habitat, and wetlands associated with agricultural and 
forestry operations. Trees and forestry practices are often the best 
solution to many of the conservation challenges arising from these 
operations.
    NASF recommends funding for the Environmental Quality Incentives 
Program (EQIP) at the fiscal year 2006 level of $1.2 billion, full 
funding for the Conservation Reserve Program (CRP), and $85 million for 
the Wildlife Habitat Improvement Program (WHIP). NASF supports the 
President's fiscal year 2007 funding proposal of $342 million for the 
Conservation Security Program (CSP). NASF recommends that the 
Subcommittee encourage the Secretary of Agriculture and the NRCS to 
expand the emphasis on forestry practices in EQIP and the other Farm 
Bill Conservation Programs.
    These programs are important for landowners with both forest and 
agricultural land, as well as farmers who wish to plant trees for 
conservation purposes on their agricultural lands. Nearly two thirds of 
the land in the United States is forested, the majority of which is 
privately owned. Investing Federal funds in conservation practices on 
private forest lands produces benefits for all, not simply landowners. 
These benefits include abundant clean water for drinking and 
recreation, improved wildlife habitat, open space, viable rural 
economies, and many other tangible and intangible public benefits.

                               CONCLUSION

    The National Association of State Foresters seeks the 
Subcommittee's support for a USDA fiscal year 2007 budget that will 
make sure the public's conservation needs--provided by private 
landowners--are met. Thank you for the opportunity to provide our 
testimony.
                                 ______
                                 

Prepared Statement of the National Coalition for Food and Agricultural 
                                Research

    Dear Mr. Chairman, Ranking Member Kohl and Members of the 
Subcommittee: On behalf of the National Coalition for Food and 
Agricultural Research \1\ (National C-FAR), we are pleased to submit 
comments in strong support of enhanced public investment in food and 
agricultural research, extension and education as a critical component 
of Federal appropriations for fiscal year 2007 and beyond. National C-
FAR serves as a forum and a unified voice in support of sustaining and 
increasing public investment at the national level in food and 
agricultural research, extension and education. National C-FAR is a 
nonprofit, nonpartisan, consensus-based and customer-led coalition 
established in 2001 that brings food, agriculture, nutrition, 
conservation and natural resource organizations together with the food 
and agriculture research and extension community.
---------------------------------------------------------------------------
    \1\ As part of its mission, National C-FAR seeks to increase 
awareness about the value of food and agricultural research, extension 
and education. For example, National C-FAR is hosting an educational 
series of ``Lunch-N-Learn'' seminars on the hill, featuring leading-
edge researchers on timely topics to help demonstrate the value of 
public investment in food and agricultural research, extension and 
education. More information about National C-FAR and its programs is 
available at http://www.ncfar.org.
---------------------------------------------------------------------------
Support for Fiscal Year 2007 Funding for Food & Agricultural Research, 
        Extension & Education
    CSREES--National C-FAR urges the Subcommittee and Committee to 
support the Administration's fiscal year 2007 request for USDA's 
Cooperative State Research, Education, and Extension Service (CSREES) 
of $1.038 billion, and to augment funding to the extent practicable 
since it represents a represents a significant decrease from fiscal 
year 2006 funding levels. In particular, National C-FAR supports the 
Administration's $247.5 million request for the National Research 
Initiative (NRI). This represents a significant increase over fiscal 
year 2006 levels. While a portion of the proposed increase occurs 
through the shifting of Section 406 Integrated Activities funding and 
responsibilities (such as food safety, pest management, and water 
quality) to NRI, funding for NRI would still realize a net increase of 
$24 million. Significantly, the Administration's proposal increases the 
cap for Integrated Activities funding, providing more funding for 
projects that include both research and extension components.
    The NRI supports research on key problems of national and regional 
importance in biological, environmental, physical, and social sciences 
relevant to agriculture, food, and the environment on a peer-reviewed, 
competitive basis. Additionally, the NRI enables USDA to leverage a 
portion of its funds for food and agricultural research, extension and 
education by fostering the development of new partnerships with other 
Federal agencies that advance agricultural science. Examples of 
successful collaborations include USDA's involvement in the Microbial 
Genome Sequencing Program, the Maize Genome Program, the Microbial 
Observatories program, the Plant Feedstock Genomics for Bioenergy 
program, the Metabolic Engineering program, and the Climate Change 
Science Plan.
    ARS.--National C-FAR is concerned about the Administration's 
proposed $123 million cut in funding for the USDA Agricultural Research 
Service (ARS), as compared with fiscal year 2006 funding levels. Indeed 
ARS funding has been cut each of the past several years. Research 
conducted by ARS helps to ensure high-quality, safe food, and other 
agricultural products, assess the nutritional needs of Americans, 
sustain a competitive agricultural economy and enhance the natural 
resource base and the environment. The steady erosion in ARS funding 
could jeopardize the ability of the agency to carry out its important 
mission.
    ERS.--National C-FAR urges the Subcommittee and Committee to 
support the Administration's fiscal year 2007 request of $83 million 
for the USDA, Economic Research Service (ERS), which represents a 
modest increase over the fiscal year 2006 level. Many of the research 
outcomes generated through ERS efforts provide value in both policy and 
business application terms far in excess of what the modest size of the 
ERS budget might suggest. An important part of the Administration's 
budget includes $5 million for the ERS to establish and maintain data 
collection on the demographic, economic, government program 
participation, and other information from samples of non-farm rural 
households and rural-based farm households, over time. National C-FAR 
believes such new and valuable data is necessary for a variety of 
purposes, including estimating impacts of farm policy changes. National 
C-FAR urges full funding of this initiative to assure that agricultural 
and rural economic analysts can reap the minimum necessary value added 
that will, in turn, enhance contributions to a sound farm policy and 
more robust rural economies throughout the Nation.
    National C-FAR urges that funding for food and agricultural 
research, extension and education be augmented to the maximum extent 
practicable, as an important next step toward building the funding 
levels needed to meet identified food and agricultural research, 
extension and education needs.
    As a coalition representing stakeholders in both the research, 
extension and education community and the customers' who need and 
depend upon their outcomes, National C-FAR urges expanded public 
participation in the Administration's research priority setting and 
funding decision process and stands ready to work with the 
Administration and other interested stakeholders toward that end.

   DEMONSTRATED VALUE OF PUBLIC INVESTMENTS IN FOOD AND AGRICULTURAL 
                   RESEARCH, EXTENSION AND EDUCATION

    Public and private investments in U.S. agricultural research and 
practical application of results have paid huge dividends to the United 
States and the world, especially in the latter part of the 20th 
century. However, these dividends are the result of past investments in 
agricultural research.
    If similar research dividends are to be realized in the future, 
then the Nation must commit to a continuing investment that reflects 
the long-term benefits of food and agricultural research.
    Food and agricultural research, extension and education to date 
have helped provide the United States with an agricultural system that 
consistently produces high quality, affordable food and natural fiber, 
while at the same time:
  --Creating Jobs And Income.--The food and agricultural sector and 
        related industries provide over 20 million jobs, about 17 
        percent of U.S. jobs, and account for nearly $1 trillion or 13 
        percent of GDP.
  --Helping Reduce The Trade Deficit.--Agricultural exports average 
        more than $50 billion annually compared to $38 billion of 
        imports, contributing some $12 billion to reducing the $350 
        billion trade deficit in the nonagricultural sector.
  --Providing Many Valuable Aesthetic And Environmental Amenities To 
        The Public.--The proximity to open space enhances the value of 
        nearby residential property. Farmland is a natural wastewater 
        treatment system. Unpaved land allows the recharge of the 
        ground water that urban residents need. Farms are stopovers for 
        migratory birds. Farmers are stewards for 65 percent of non-
        Federal lands and provide habitat for 75 percent of wildlife.
  --Sustaining Important Strategic Resources.--This Nation's abundant 
        food supply bolsters national security and eases world tension 
        and turmoil. Science-based improvements in agriculture have 
        saved over a billion people from starvation and countless 
        millions more from the ravages of disease and malnutrition.
    Publicly financed research, extension and education are necessary 
complements to private sector research, focusing in areas where the 
private sector does not have an incentive to invest, when (1) the pay-
off is over a long term, (2) the potential market is more speculative, 
(3) the effort is during the pre-technology stage; and (4) where the 
benefits are widely diffused. Public research, extension and education 
help provide oversight and measure long-term progress. Public research, 
extension and education also act as a means to detect and resolve 
problems in an early stage, thus saving American taxpayer dollars in 
remedial and corrective actions.
    By any standard, the contributions of publicly supported 
agricultural research, extension and education to advances in food 
production and productivity and the resulting public benefits are well 
documented. For example, an analysis by the International Food Policy 
Research Institute of 292 studies of the impacts of agricultural 
research and extension published since 1953 (Julian M. Austin, et al, A 
Meta-Analysis of Rates of Return to Agricultural Research, 2000) showed 
an average annual rate of return on public investments in agricultural 
research and extension of 81 percent!

NATIONAL C-FAR URGES ENHANCED FEDERAL FUNDING FOR FOOD AND AGRICULTURAL 
                   RESEARCH, EXTENSION AND EDUCATION

    National C-FAR appreciates the longstanding support this 
Subcommittee and the full Committee have demonstrated through funding 
food and agricultural research, extension and education programs over 
the years that have helped the U.S. food and agricultural sector be a 
world leader and provide unprecedented value to U.S. citizens, and 
indeed the world community.
    National C-FAR is deeply concerned that shortfalls in funding in 
recent years for food and agricultural research, extension and 
education jeopardize the food and agricultural community's continued 
ability to maintain its leadership role and more importantly respond to 
the multiple, demanding challenges that lie ahead. Federal funding for 
food and agricultural research, extension and education has been flat 
for over 20 years, while support for other Federal research has 
increased substantially. Public funding of agricultural research in the 
rest of the world during the same time period has reportedly increased 
at a nearly 30 percent faster pace.
    Reduced public investment in food and agricultural research, 
extension and education may well be a result of a view that the U.S. 
food and agricultural system is an unprecedented success story. 
However, societal demands and expectations placed upon the food and 
agricultural system are ever-changing and growing. Simply stated, 
Federal funding has not kept pace with identified priority needs.
    National C-FAR believes it is imperative to lay the groundwork now 
to respond to the many challenges and promising opportunities ahead 
through Federal policies and programs needed to promote the long-term 
health and vitality of food and agriculture for the benefit of both 
consumers and producers. Stronger public investment in food and 
agricultural research, extension and education is essential in 
producing research outcomes needed to help bring about beneficial and 
timely solutions to multiple challenges. Multiple examples, such as 
those listed below, serve to illustrate current and future needs that 
arguably merit enhanced public investment in research, extension and 
education so that the food and agricultural system can respond to these 
challenges on a sustainable basis:
  --Strengthened bio-security is a pressing national priority. There is 
        a compelling need for improved bio-security and bio-safety 
        tools and policies to protect against bio-terrorism and dreaded 
        problems such as foot-and-mouth and ``mad cow'' diseases and 
        other exotic plant and animal pests, and protection of range 
        lands from invasive species.
  --Energy costs are escalating, dependence on petroleum imports is 
        growing and concerns about greenhouse gases are rising. 
        Research, extension and education can enhance agriculture's 
        ability to provide renewable sources of energy and cleaner 
        burning fuels, sequester carbon, and provide other 
        environmental benefits to help address these challenges, and 
        indeed generate value-added income for producers and stimulate 
        rural economic development.
  --Food-linked health costs are high. Some $100 billion of annual U.S. 
        health costs are linked to poor diets, obesity, food borne 
        pathogens and allergens. Opportunities exist to create 
        healthier diets through fortification and enrichment.
  --Research, extension and education are key to providing to solutions 
        to environmental issues related to global warming, limited 
        water resources, enhanced wildlife habitat, and competing 
        demands for land and other agricultural resources.
  --There was considerable debate during the last farm bill 
        reauthorization about how expanded food and agricultural 
        research, extension and education could enhance farm income and 
        rural revitalization by improving competitiveness and value-
        added opportunities.
  --Population and income growth are expanding the world demand for 
        food and natural fiber and improved diets. World food demand is 
        projected to double in 25 years. Most of this growth will occur 
        in the developing nations where yields are low, land is scarce, 
        and diets are inadequate. Without a vigorous response, demand 
        will only be met at a great global ecological cost.
  --Regardless of one's views about biotechnology and genetic 
        resources, an effective publicly funded research role is needed 
        for oversight and to ensure public benefits.
    Translational education (extension) is a vital link connecting the 
research community to those who need and use research outcomes. The 
extension and education system helps translate basic and applied 
research outcomes into practical applications and more timely 
implementation by the end user community, thus helping to realize 
positive economic, environmental, health, food security and a host of 
other benefits in the food and agricultural system, and for the 
consuming public. The extension community is evolving its mission in a 
positive direction, seeking to engage constituents in a way that not 
only fulfills the traditional extension role but also actively solicits 
feedback concerning research and extension needs as identified by the 
customers' who need research outcomes. This is consistent with National 
C-FAR's mission of increasing stakeholder involvement in decision 
making about research priorities and funding. The USDA NRI has made 
significant progress in recognizing the extension role, through funding 
of projects that undertake an integrated research and extension 
approach. National C-FAR strongly supports funding for extension and 
education.
    Finally, there is a continuing need to build the human capacity of 
expertise to do quality food and agricultural research, extension and 
education, and to implement research outcomes in the field and 
laboratory. The food and agricultural sciences face a daunting task of 
supplying the Nation with the next generation of scientists and 
educators. If these basic human resource needs are not met, then the 
Nation will face a shortage of trained and qualified individuals.
    Public investment in food and agricultural research, extension and 
education today and in the future must simultaneously satisfy needs for 
food quality and quantity, resource preservation, producer 
profitability and social acceptability. National C-FAR supports the 
public funding needed to help assure that these interdependent needs 
are met.
    A Sense of the Congress resolution endorsed by National C-FAR to 
double funding in food and agricultural research, extension and 
education within five years was incorporated into the 2002 Farm Bill 
that was enacted into law. However, the major commitment to expanded 
research has not yet materialized. At the four-year mark, the larger 
reality is the threat of funding cuts.

                               CONCLUSION

    In conclusion, National C-FAR respectfully submits that--
  --The food and agricultural sector merits Federal attention and 
        support;
  --Food and agricultural research, extension and education have paid 
        huge dividends in the past, not only to farmers, but to the 
        entire Nation and the world;
  --There is an appropriate and recognized role for Federal support of 
        research, extension and education;
  --Recent funding levels for food and agricultural research, extension 
        and education have been inadequate to meet pressing needs;
  --Federal investments in food and agricultural research, extension 
        and education should be enhanced in fiscal year 2007 and 
        beyond; and
  --The Administration should provide for expanded public 
        participation, including during review of programs being 
        considered for possible reforms or cuts.
    National C-FAR appreciates the opportunity to share its views and 
stands ready to work with the Chair and members of this Subcommittee 
and Committee in support of these important funding objectives.
                                 ______
                                 

  Prepared Statement of the National Cooperative Business Association

    The National Cooperative Business Association appreciates the 
opportunity to submit testimony on the importance of the Rural 
Cooperative Development Grant program and the need for increased 
funding. NCBA is the Nation's only national organization representing 
cooperatives across all economic sectors--including agriculture, 
childcare, electricity, finance, food retailing and distribution, 
healthcare, housing, insurance, purchasing and shared services, 
telecommunications and many others.
    The Rural Cooperative Development Grant program, which NCBA helped 
to establish, is the only dedicated source of Federal funding 
supporting the network of more than 20 cooperative development centers 
serving more than 40 States. This funding leverages much more from 
State and local as well as private sources. The program also includes 
money for economic research on the impact of cooperatives, research 
needed to inform policymakers and cooperatives about how best co-ops 
can address issues facing this Nation such as senior services and rural 
housing.
    Congress recognized the importance of the work of cooperative 
development centers when it enacted the program in 1996 and authorized 
$50 million annually to help create businesses and jobs in rural 
America. In 2002, Congress reauthorized the program at the same level. 
Unfortunately, chronic underfunding has limited the ability of centers 
to capitalize on opportunities to revitalize rural areas. A first step 
to address this problem is for this Subcommittee to appropriate $8.5 
million in this year's appropriations bill and maintain the President's 
funding for research on the economic impact of cooperatives.
Rural Cooperative Development Grants--Revitalizing Rural Economies
    Cooperatives are businesses owned and controlled by the people who 
buy their products or use their services. Tens of thousands of 
cooperatives in this country range in size from small storefronts to 
Fortune 500 companies. Credit unions, electric cooperatives, telephone 
co-ops, agricultural cooperatives, purchasing cooperatives, and worker 
cooperatives all serve the needs of millions of members.
    Cooperatives represent a flexible business model that can be 
developed by the community to address its economic needs. Co-ops 
provide an opportunity for entrepreneurial ideas to become reality. 
Since members own the cooperative, they participate in the earnings of 
the cooperative. Rather than leaving the community, patronage refunds--
money paid to members based on their use in the cooperative--remains, 
refueling the economy as members use their refunds to purchase goods 
locally.
    The Rural Cooperative Development Grants program funds the 
establishment and operation of centers for rural cooperative 
development to improve economic conditions in rural areas. Grants are 
competitive, require a 25 percent non-Federal match in most cases, and 
can be provided to nonprofits or institutions of higher education. For 
the past few years, USDA has funded only half of all applications 
received due to budget constraints. The program is authorized at $50 
million.
    Cooperative development centers are on the front lines of efforts 
to revitalize struggling rural economies. They use Rural Cooperative 
Development Grants to conduct feasibility studies, develop business 
plans, launch new businesses, and provide education and training to 
help ensure the success of these businesses. Through CooperationWorks!, 
a national organization of more than 20 centers, centers share their 
knowledge and experience. This network allows centers to maximize 
resources, avoid duplication and bring the greatest benefit to their 
communities.
    The work of the centers translates into jobs and money in these 
rural communities. Since the 1990s, the centers have helped start or 
expand almost 400 cooperative businesses with more than 47,000 members, 
creating more than 5,800 new rural jobs in virtually every sector of 
the economy, including energy, housing, agriculture, forestry, food, 
senior and childcare services, and health care. Investment in these 
cooperatives exceeds $900 million.

The Need for Cooperative Development
    Cooperative development centers address a growing need. Rural areas 
in this country, especially in the Midwest, have not benefited from the 
recent economic expansion. This has worsened an outmigration problem 
that has ravaged the center of our country over the last few years.
    For example, despite 3 years of economic expansion, 1.5 million 
people were added to the poverty rolls in the Midwest between 2001 and 
2004. In all non-metropolitan areas, the poverty rate has remained 
stuck at 14.2 percent despite the economic recovery.
    With the help of RCDG grants, cooperative development centers are 
working with communities to create economic sustainability. For 
example, the Georgia Cooperative Development Center helped 27 local 
farmers create a co-op to get access to wholesale buyers who had 
previously denied them business. The Farmers Fresh Food Network now 
markets to agriculture members, local restaurants and farmers markets 
and soon plans to provide local schools with fresh produce.
    The Missouri Farmers Union Family Farm Opportunity Center helped 
families turn seemingly profitless land into a sustainable business by 
forming a co-op to mill their trees into high quality boards. Not only 
are they practicing sustainable development with the project but the 
estimated return to the community could jump from $35 million to $3.4 
billion.
    The centers also respond to communities in crises, such as those 
devastated by Katrina. The Federation of Southern Cooperatives and the 
Mississippi Association of Cooperatives have been working with farmers 
to stabilize farms and homes destroyed by the storm, to provide 
shelter, basic supplies and financial assistance. They are also working 
long term to train people at their facilities and create cooperatives 
that address basic economic needs of these hard-hit communities, such 
as housing.
    The common thread through these stories is economic sustainability 
and revitalization. Substantial amounts of money generated by these 
cooperatives are being put back into the local economy by members.

Cooperative Research--Filling a Gap
    The number of jobs and other data collected by the cooperative 
development centers and the success stories indicate that cooperatives 
have great potential to address many of the problems facing rural 
America. There is a serious gap, however, in the information about 
cooperatives. Though economic data was collected on cooperatives many 
years ago, there has been no comprehensive data collection effort to 
find out the impact of all types of cooperatives on the United States 
and regional economies.
    The President's budget this year includes $495,000 for research on 
the economic impact of cooperatives. The funding is for a cooperative 
research agreement between USDA and a qualified academic institution to 
direct research on the national economic impact of cooperatives. The 
research can assess how cooperatives can address emerging economic 
development needs in all sectors of the economy. The research funded 
for fiscal year 2007 will build on the research currently underway on 
the economic impact of all types of cooperatives. In addition, this 
research is essential to assess the impact and cost effectiveness of 
the Federal program on efforts to revitalize rural economies.
    The limited studies available indicate the potential is significant 
for cooperatives to address economic needs. According to the National 
Co-op Month Planning Committee's ``2005 Snapshot,'' a quick survey of 
co-ops, annual revenues for cooperatives are in excess of $211.9 
billion. In Wisconsin, a study funded by USDA found cooperatives 
supported close to 30,000 full time jobs. The South Dakota Rural 
Electric Association found that the electric co-ops there generated 800 
new jobs and $11 million in economic development over a 5 year period. 
The Alabama Credit Union League found that their State's credit unions 
generated 8,777 jobs, $288 million in household income and $24.1 
million in tax receipts.
    These types of studies need to be replicated on a nationwide basis 
for all types of cooperatives. This country needs data such as:
  --The number of jobs created by cooperatives both directly and 
        indirectly.
  --The level of economic activity created by cooperatives.
  --The tax revenue generated by the level of economic activity.
  --A definitive census on the number of cooperatives and the types of 
        good and services that are being offered.
  --The amount of patronage dividends that are returned to the members 
        from their cooperatives.
  --The extent of the economic and social benefit where cooperatives 
        can meet the needs of communities that are not adequately met 
        by other types of businesses.
    As Liz Bailey, Executive Director of the Cooperative Development 
Fund noted:

    We all know that there is a basic lack of understanding about 
cooperatives in all levels of government, in the business community, in 
the academic world, in the philanthropic world and among the general 
public. Too few understand how cooperatives function and the role they 
play in the Nation's economy. We all use anecdotal stories to tell of 
successful cooperative enterprises, but we don't have access to the 
kind of aggregated economic data that is routinely used by economic and 
business analysts to map U.S. economic activity and interpret the data 
for those who make or influence public policy. Government, through its 
support of university research, has traditionally been the source of 
this kind of basic research . . . It's also important to have data that 
is continually updated. It can't be a one time snapshot . . . it's data 
that needs to be tracked and reported on a regular basis. (emphasis 
added) Testimony of Liz Bailey, USDA Public Meeting on Cooperative 
Research Agenda, September 27, 2005

Chronic Underfunding Limits Opportunities
    The need for rural economic development and cooperative development 
is clear. Congress recognized the need when it developed the program:

    The Managers intend to target the limited funds available for the 
Rural Cooperative Development Grant program on cooperative development 
centers that operate on a regional or statewide basis. By focusing this 
grant program on regional centers rather than on small local projects, 
the Committee hopes to link cooperatives from different communities and 
different sectors of the economy to strengthen the cooperative movement 
as a whole. (emphasis added) Federal Agriculture Improvement and Reform 
Act of 1996, Conf.Rep., p. 432

    One of the ways Congress tried ``to strengthen the cooperative 
movement as a whole'' with the program was to ``emphasiz[e] job 
creation in rural areas through the development of rural cooperatives, 
value added processing, and rural businesses.'' (Conf.Rep., p. 431) The 
centers provide a cost effective and efficient way to deliver technical 
assistance that creates businesses, jobs and opportunities. But the 
program's funding has not kept up with the demand, which limits both 
the ability of current centers to provide assistance to create jobs and 
the development of new centers to ensure national coverage.
    Last year, for example, many projects that could have created jobs 
and economic opportunities were denied funding. Centers with proven 
track records, with business development expertise, were turned down. 
Though the program serves more than 40 States, the program was intended 
to cover the entire country. More funding is needed to ensure that all 
States are served by a center that can address the economic and 
entrepreneurial needs of the area.
    Private dollars also go into cooperative development. But these 
funds struggle to meet the need as well. The Cooperative Development 
Fund's Mutual Service Cooperative Fund, which makes grants for 
feasibility studies, educational programming and technical assistance 
projects, knows how great the demand for dollars is. In 2004, with 
$90,000 in available funds for grants, CDF received 44 applications 
requesting a total of $980,000. In 2005 the trustees narrowed the focus 
of the Fund and still received over $300,000 in proposals, 3 times the 
funds available.
    Cooperative development centers also would benefit from multi-year 
funding. Many times efforts to develop a business are halted due to a 
lack of commitment for funds in the future. Since businesses typically 
take at least 3 years from concept to operation, there is great need to 
have funds available during that period.
    The program's recent funding history shows little to no increase in 
the program over the past 5 years despite the continued growing demand.
  --Fiscal year 2006--$6.5 million (includes $500,000 for research 
        agreement)
  --Fiscal year 2005--$6 million
  --Fiscal year 2004--$6.5 million
  --Fiscal year 2003--$6.5 million
  --Fiscal year 2002--$5.25 million
    This funding also is only a small portion of the program's 
authorized level of $50 million. The program's sponsors intended there 
to be enough funds to address the rural economic needs of the whole 
country.
Request for Increased Appropriation for RCDG
    The President's fiscal year 2007 budget includes $7 million for the 
RCDG program, including $495,000 for research on the economic impact of 
cooperatives. We seek an increase in funding to at least $8.5 million, 
which would help provide funding for four to six additional centers and 
help fulfill the goal of serving all States. The $8.5 million would 
also ensure that sufficient funds are available to help build the 
research capacity to provide policymakers with information to assess 
the value of RCDG and how cooperatives can address economic issues 
facing the country. This would be a first step toward achieving the 
goals Congress intended for the program. Thank you for the opportunity 
to submit testimony on this important topic.
                                 ______
                                 

Prepared Statement of the National Commodity Supplemental Food Program 
                              Association

    Mr. Chairman and Subcommittee members, I am Tim Robertson, 
President of the National Commodity Supplemental Food Program 
Association (NCSFPA). Thank you for this opportunity to present 
information regarding the Commodity Supplemental Food Program (CSFP).
    CSFP was our Nation's first food assistance effort with monthly 
food packages designed to provide protein, calcium, iron, and vitamins 
A and C. CSFP began in 1969 for low-income mothers and children, 
preceding the Special Supplemental Nutrition Program for Women, 
Infants, and Children known as WIC. CSFP pilot programs in 1983 added 
low-income seniors to the list of eligible participants and they now 
comprise nearly 90 percent of all participants.
    CSFP is a unique Federal/State and public/private effort. The USDA 
purchases specific nutrient-rich foods at wholesale prices for 
distribution. State agencies such as the department of health, 
agriculture or education provide administration and oversight. These 
agency's contract with community and faith based organizations to 
warehouse and distribute food, certify eligibility and educate 
participants. The local organizations build broad collaboration among 
non-profits, health units, and area agencies on aging so that seniors 
and others can quickly qualify for and receive their monthly 
supplemental food package along with nutrition education to improve 
their health and quality of life. This unique public/private 
partnership reaches even homebound seniors with vital nutrition.
    The foods provided through CSFP includes canned fruits and 
vegetables, juices, meats, fish, peanut butter, cereals and grain 
products, cheese, and other dairy products. The availability of these 
goods increases healthy food consumption among these low-income 
populations.
    The CSFP is also an important ``market'' for commodities supported 
under various farm programs, as well as an increasingly important 
instrument in meeting the nutritional and dietary needs of special low-
income populations.
    In fiscal year 2006, the CSFP provided services through 150 non-
profit community and faith-based organizations at over 1,800 sites 
located in 32 States, the District of Columbia, and two Indian 
reservations (Red Lake, Minnesota and Oglala Sioux, South Dakota). On 
behalf of those organizations the NCSFPA would like to express our 
concern and disappointment regarding the reduction of available CSFP 
resources for fiscal year 2006.
  --Congress in the fiscal year 2006 Agricultural Appropriations bill 
        strongly encouraged USDA to make every effort to maintain the 
        fiscal year 2005 caseload by making full use of CSFP inventory 
        and carryover from preceding years and to access all available 
        resources from bonus commodity holdings and CCC stocks.
  --It is not clear from the ``CSFP 2006 Final Caseload Assignments'' 
        memorandum whether USDA has made full use of all available 
        resources, especially since States were instructed to cut 
        program participation by 6.26 percent (32,902 seniors 
        nationally).
  --The prospect of seniors not receiving needed CSFP food in a year 
        when USDA has forecast in excess of $35.4 million in carryover 
        inventory at the end of the fiscal year 2006 is disturbing. 
        Clearly these inventories could and should be used to serve the 
        full fiscal year 2006 caseload.
  --Other resources such as $4 million included for CSFP Gulf Coast 
        operators in the defense bill, and full use of Commodity Credit 
        Corporation (CCC) inventory appears not to have been factored 
        into the CSFP 2006 final caseload assignments.
  --At a time when many Americans must choose between food or their 
        medicine, utilities, and other basic expenses, the Federal 
        Government should not be reducing benefits for our most 
        vulnerable citizens. We respectfully request your review of 
        USDA's adherence to your directive in the Agriculture 
        Appropriation Bill.
    CSFP's 36 years of service stands as testimony to the power of 
partnerships among community and faith-based organizations, farmers, 
private industry and government agencies. The CSFP offers a unique 
combination of unparalleled advantages.
  --The CSFP specifically targets our Nation's most nutritionally 
        vulnerable populations: seniors and young children.
  --The CSFP provides a monthly selection of food packages tailored to 
        the nutritional needs of the population served. Eligible 
        participants are guaranteed [by law] a certain level of 
        nutritional assistance every month in addition to nutrition 
        education regarding how to prepare and incorporate these foods 
        into their diets.
  --The CSFP purchases foods at wholesale prices, which directly 
        supports the farming community. The cost of the average food 
        package for fiscal year 2006 is $15.04, but the retail value is 
        approximately $50.00.
  --The CSFP involves the entire community in confronting the problem 
        of hunger. There are thousands of volunteers as well as many 
        private companies who donate money, equipment, and most 
        importantly time and effort to deliver food to needy and 
        homebound seniors. These volunteers not only bring food but 
        companionship and other assistance to seniors who might have no 
        other source of support. (See Attachment 1)
    The White House proposed budget for fiscal year 2007, released on 
Monday, February 6, 2006, would eliminate the CSFP completely, and 
would eliminate all of this effort and support of those 36 years. This 
proposal has shocked the entire CSFP community as well as legislators, 
anti-hunger and senior service organizations and concerned citizens. 
America's Second Harvest, AARP, FRAC, and others have all voiced their 
opposition to the elimination of CSFP. It is unconscionable to 
eliminate benefits for some of our most vulnerable citizens and to 
eliminate hope of those waiting for participation in the program. It is 
the cruelest cut for the greatest generation.
    In a recent CSFP survey, more than half of seniors living alone 
reported an income of less than $750 per month. Of those respondents 
from two-person households, more than half reported an income of less 
than $1,000 per month. Fewer than 25 percent reported being enrolled in 
the Food Stamp Program. Over 50 percent said they ran out of food 
during the month. Also, close to 70 percent senior respondents say they 
use money for medical bills not food.
    The Senate Agriculture Appropriations Subcommittee has consistently 
supported CSFP, acknowledging it as a cost-effective way of providing 
nutritious supplemental foods. This year, your support is needed 
urgently to provide adequate resources for the 536,196 mothers, 
children and seniors currently receiving benefits, 20,500 low-income 
participants currently waiting in five new States and 154,259 seniors 
waiting in current States for this vital nutrition program.
    There is no discernible plan to address the long-term needs of 
those affected by the elimination of CSFP. The proposed transition plan 
provides that seniors being removed from CSFP will be provided a Food 
Stamp Program (FSP) benefit of $20 per month for up to 6 months, or 
until the participant actually enrolls in the FSP, whichever comes 
first. As referenced earlier, CSFP provides a food package that costs 
USDA about $15 per month. It has a retail value of approximately $50. 
How does someone use $20 to purchase approximately $50 worth of 
nutritious foods? What happens at the end of 6 months? Simply 
transferring seniors to the FSP is an inadequate solution. It is 
essential for seniors to have access to services which they
    feel is offered with dignity and respect. Many will outright reject 
the idea of applying for FSP benefits. According to the ERS Evaluation 
of the USDA Elderly Nutrition Demonstrations: Volume I:

    ``The Commodity alternative benefit demonstration in North Carolina 
was popular both among new applicants and among existing FSP 
participants. Clients eligible for low FSP benefits were more likely to 
get the commodity packages, which had a retail value substantially 
greater than their FSP benefits''. In particular, seniors described the 
anxiety of using FSP benefits in stores, where they felt shoppers and 
store clerks looked down on them. The demonstrations attracted a 
particularly large share of clients eligible for the $10 benefit 
because the retail value of the commodity packages was worth $60-$70''.

    Depending on their non-cash assets, seniors may not qualify for a 
FSP benefit level equivalent to the CSFP food package. Seniors 
receiving the minimum benefit would not be eligible for the $20/month 
transitional benefit. The 25 percent of current CSFP participants who 
already enrolled in the FSP will lose the benefits of CSFP and those 
benefits will not be replaced at a time when they are struggling to 
make ends meet. CSFP and FSP are supplemental programs. They work 
together to make up the shortfall that many of our seniors are facing 
each month. Both programs need to be available as part of the ``safety 
net'' for our low-income participants.
    USDA reports that the average FSP benefit paid to senior citizens 
is about $65 per month, but in reality, many senior citizens receive 
only the minimum monthly benefit of $10, which has not been updated 
since 1975. USDA figures also report households rather than individual 
participants and include households with disabled family members.
    The proposed transition plan for women, infants and children 
enrolled in the CSFP is to transfer them to WIC. However, due to 
increasing coordination between WIC and CSFP at the State and community 
levels, the number of WIC-eligible mothers and children enrolled in the 
CSFP is steadily declining. In some States, this figure is less than 2 
percent of all enrolled women and children, eradicating supplemental 
food and nutrition benefits for that population as well. Further, the 
majority of women and children receiving CSFP food are 6 month 
postpartum women and 5 year old children who are not eligible for the 
WIC Program.
    The National Commodity Supplemental Food Program Association 
requests the Senate Agriculture Appropriations Subcommittee take the 
appropriate actions to fund CSFP for fiscal year 2007 at $160 million 
as illustrated below:

                          [Dollars in millions]
------------------------------------------------------------------------
            Description               People (caseload)       Funding
------------------------------------------------------------------------
Maintain fiscal year 2005 Caseload  536,196.............          $128.0
 Requirements in Existing States.
Five New States (AK, DE, OK, NJ,    20,500..............             3.7
 UT).
Current States Senior Needs.......  154,259.............            27.6
USDA Costs for Procuring            ....................              .7
 Commodities.
                                   -------------------------------------
      Total CSFP Request for        710,955.............           160.0
       fiscal year 2007.
------------------------------------------------------------------------

    With the aging of America, CSFP must be an integral part of USDA 
Senior Nutrition Policy as well as comprehensive plans to support the 
productivity, health, independence, and quality of life for America's 
seniors.
    Measures to show the positive outcomes of nutrition assistance to 
seniors must be strengthened. A 1997 report by the National Policy and 
Resource Center on Nutrition and Aging at Florida International 
University, Miami--Elder Insecurities: Poverty, Hunger, and 
Malnutrition indicated that malnourished elderly patients experience 2 
to 20 times more medical complications, have up to 100 percent longer 
hospital stays, and incurs hospital costs $2,000 to $10,000 higher per 
stay. Proper nutrition promotes health, treats chronic disease, 
decreases hospital length of stay and saves health care dollars.
    Rather than eliminating the program, the NCSFPA recommends the 
following initiatives to strengthen CSFP:
  --Develop a formal evaluation process to demonstrate individual and 
        program outcomes of CSFP with Federal, State, and local CSFP 
        managers included in the study design.
  --Restore financial guidelines for seniors to the original level of 
        185 percent of poverty.
  --Set ``greatest need within a project area'' as the priority for 
        service or let each State set its priority for service under a 
        plan approved by the Secretary of Agriculture.
  --Support and expand the program in those States that have 
        demonstrated an interest in the CSFP, including the 5 States 
        that already have USDA-approved plans to operate CSFP 
        (Arkansas, Delaware, New Jersey, Oklahoma, and Utah) or that 
        have demonstrated a willingness to continue and expand current 
        CSFP services.
    This program continues with committed grassroots operators and 
dedicated volunteers. CSFP's mission is to provide quality nutrition 
assistance economically, efficiently, and responsibly always keeping 
the needs and dignity of our participants first. We commend the Food 
and Nutrition Service of the Department of Agriculture and particularly 
the Food Distribution Division for their continued innovations to 
strengthen the quality of the food package and streamline 
administration. We also remain committed to providing quality services 
in collaboration with the community organizations and volunteers that 
contribute more than 50 percent of the resources used in providing 
these services.

                                                ATTACHMENT 1.--NATIONAL CSFP ASSOCIATION ADMINISTRATIVE EXPENSE/VALUE SURVEY FOR FISCAL YEAR 2005
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                      Goods &                                                       Extra Goods
                                                                       USDA       Not Reimbursed       CSFP          Services        Volunteer     Annual Total    Percent Paid     donated to
                            Programs                                Reimbursed     by USDA Cash    Expenditures     donated to      Labor Hours    Program Value      by USDA          CSFP
                                                                       Cash                            Cash        agency Value        Value                                       participants
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
New Hampshire...................................................        $425,689         $16,902        $442,591  ..............        $117,370        $559,961              76          $1,668
New York........................................................       1,896,086          85,500       1,981,586         $20,000           9,126       2,010,712              94          10,425
Vermont.........................................................         257,950         318,327         576,277           1,200          96,578         674,055              38  ..............
Washington DC...................................................         449,139       1,500,000       1,949,139       1,600,000          12,513       3,561,652              13  ..............
Pennsylvania....................................................         834,444         147,234         981,678         332,604         234,310       1,548,592              54         278,303
Kentucky........................................................         912,417          35,538         947,955           5,000         376,799       1,329,754              69  ..............
Mississippi.....................................................         402,779  ..............         402,779  ..............         189,540         592,319              68  ..............
North Carolina..................................................          79,849          40,000         119,849  ..............           3,438         123,287              65          20,000
South Carolina..................................................         215,880         113,827         329,707          66,000          98,456         494,163              44          14,500
Tennessee.......................................................         827,805  ..............         827,805  ..............  ..............         827,805             100  ..............
Illinois........................................................         903,174           3,000         906,174  ..............         341,172       1,247,346              72  ..............
Indiana.........................................................         264,831          32,020         296,851          19,440         369,603         685,894              39             100
Michigan........................................................       4,535,044       2,237,705       6,772,749         296,000       3,696,683      10,765,433              42         577,199
Minnesota.......................................................         806,379         277,890       1,084,269          28,000         798,525       1,910,794              42         497,700
Red Lake, MN....................................................           5,937           5,937          11,874  ..............  ..............          11,874              50  ..............
Ohio............................................................         713,807         250,997         964,804          54,800         442,629       1,462,233              49         166,590
Wisconsin.......................................................         287,026          15,000         302,026  ..............         305,370         607,396              47          79,797
Louisiana.......................................................       4,672,088  ..............       4,672,088         377,479       1,483,387       6,532,955              72           2,500
New Mexico......................................................       1,120,106         195,000       1,315,106          78,719         231,800       1,625,625              69       1,208,353
Texas...........................................................         706,534          85,000         791,534           1,500         115,830         908,864              78          12,000
Colorado........................................................       1,196,217         425,963       1,622,180          13,375         174,254       1,809,809              66         650,425
Iowa............................................................         228,563         286,543         515,106  ..............          67,247         582,353              39         108,510
Kansas..........................................................         342,332          69,019         411,351         329,960         255,881         997,192              34          81,424
Missouri........................................................         539,700         109,072         648,772           2,000         398,455       1,049,227              51  ..............
Montana.........................................................          81,528          29,649         411,177         115,929         515,022       1,042,128              37          37,800
Nebraska........................................................         761,247         116,207         877,454          46,449         276,044       1,199,947              63          74,960
North Dakota....................................................         161,155          43,208         204,363  ..............         192,594         396,957              41           1,695
South Dakota....................................................         161,911           5,005         166,916          36,875          87,785         291,576              56          12,480
Oglala Sioux, SD................................................          37,779  ..............          37,779  ..............  ..............          37,779             100  ..............
Alaska..........................................................         138,798  ..............         138,798  ..............          35,100         173,898              80
Arizona.........................................................         968,788         640,636       1,609,424         442,950       1,030,066       3,082,440              31         655,000
California......................................................       3,095,354       1,036,699       4,132,053         242,424       3,532,078       7,906,555              39         588,868
Nevada..........................................................         401,133          16,000         417,133           2,000           1,123         420,256              95           4,000
Oregon..........................................................          72,603  ..............          72,603  ..............  ..............          72,603             100  ..............
Washington......................................................         134,426          31,000         165,426          12,600           6,318         184,344              73  ..............
                                                                 -------------------------------------------------------------------------------------------------------------------------------
      Grand Total...............................................      28,938,498       8,168,878      37,107,376       4,125,304      15,495,096      56,727,776              51       5,084,297
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Prepared Statement of the National Turfgrass Evaluation Program

    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Turfgrass Evaluation Program (NTEP), I appreciate the 
opportunity to present to you the turfgrass industry's need and 
justification for continuation of the $490,000 appropriated in the 
fiscal year 2006 budget for turfgrass research within the Agricultural 
Research Service (ARS) at Beltsville, MD. Secondly, we ask that the 
committee support and accept the $1,880,000 for Drought Mitigation in 
the President's budget request. This funding will be used by ARS to 
conduct turfgrass water conservation and salinity research at Phoenix, 
AZ and Riverside, CA. Thirdly, to implement the most critical needs 
within the National Turfgrass Research Initiative, we are asking for 
five individual research positions of $450,000 each. This amount is 
being requested by senators in the states where the positions are 
located. We appreciate the support of research funding at Beaver, WV 
($330,000) provided by the committee in fiscal year 2006 and request 
that funding be restored in fiscal year 2007. All funding provided by 
the Committee is requested to go directly to ARS/Beltsville, not the 
industry per se.

Restoration of funding for the existing ARS Scientist Position and 
        related support activities at Beltsville, MD ($490,000)
    NTEP and the turfgrass industry are requesting the Subcommittee's 
support for $490,000 to continue funding for the full-time scientist 
staff position within the USDA, ARS at Beltsville, MD, focusing on 
turfgrass research, that was provided by the Committee in the fiscal 
year 2006 budget, and in the four previous budget cycles. We consider 
this funding our Congressional ``baseline'', i.e. that funding which is 
central to and critical for the mission of the National Turfgrass 
Research Initiative. We are very grateful for this support and hope the 
Committee will continue this funding.
    Turfgrass provides multiple benefits to society including child 
safety on athletic fields, environmental protection of groundwater, 
reduction of silt and other contaminants in runoff, and green space in 
home lawns, parks and golf courses. Therefore, by cooperating with 
NTEP, USDA has a unique opportunity to take positive action in support 
of the turfgrass industry. While the vast majority of the USDA's funds 
have been and will continue to be directed toward traditional ``food 
and fiber'' segments of U.S. agriculture, it is important to note that 
turfgrasses (e.g., sod production) are defined as agriculture in the 
Farm Bill and by many other departments and agencies. It should also be 
noted that the turfgrass industry is the fastest growing segment of 
U.S. agriculture, while it receives essentially no federal support. 
There are no subsidy programs for turfgrass, nor are any desired.
    For the past 70 years, the USDA's support for the turfgrass 
industry has been modest at best. The turfgrass industry's rapid 
growth, importance to our urban environments, and impact on our daily 
lives warrant more commitment and support from USDA.
    A new turfgrass research scientist position within USDA/ARS was 
created by Congress in the fiscal year 2001 budget. Additional funding 
was added in fiscal year 2002 with the total at $490,000. A research 
scientist was hired, and is now working at the ARS, Beltsville, MD 
center. A research plan was developed and approved by ARS. This 
scientist has used the funding for a full-time technician, equipment 
and supplies to initiate the research plan and for collaborative 
research with universities. We have an excellent scientist in place, 
and he is making good progress in establishing a solid program. At this 
point, losing the funding for the position would be devastating to the 
turf industry, as significant research has begun.
Support the President's budget request for Drought Mitigation research 
        as proposed by ARS (See ARS Explanatory Notes, pages 10-82, 10-
        83) ($1,880,000)
    The turfgrass industry is excited that for the first time, the 
President's budget contains funding for turfgrass research within ARS. 
This funding will be used to hire scientists in two very important 
locations, Riverside, CA and Phoenix, AZ, focusing on water 
conservation, wastewater reuse and salinity research. These issues are 
the most critical research needs for the survival of the turf industry. 
Following is a brief description of the research that ARS will conduct 
with this funding:
    ARS will:
    Develop Technology and Management Systems to Use Non-Potable Water 
to Reduce Agriculture's Vulnerability to Drought ($1,880,000 Total).--
In the process, ARS will develop systems to safely reuse wastewater and 
low-quality water as a means of irrigating agricultural, horticultural 
and turf-based enterprises in an environmentally and economically 
sustainable manner
    As noted in USDA's Explanatory Notes accompanying this budget 
request, this funding will be directed to the following two critical 
locations:

Phoenix, AZ, ($940,000)
    The U.S. Water Conservation Lab in Phoenix will determine the on-
site impacts and movement in the air, soil, plant, and ground water of 
biological and chemical substances contained in treated and untreated 
waste water used for irrigation of turfgrass. They will also develop 
irrigation technologies and management systems to mitigate the impact 
of elevated levels of these compounds and nutrients when wastewater is 
used in the production of turf and specialty crops.

Riverside, CA, ($940,000)
    This research will be conducted at the world-renowned U.S. Salinity 
Lab. The Riverside lab will focus on the development of new irrigation 
technologies and systems to either mitigate or manage the effect of 
saline irrigation on the production of turf and specialty crops.
Request funding of Congressional earmarks for five ARS scientist 
        positions at four ARS installations @ $450,000 each (Total: 
        $2,250,000)
    The turfgrass industry also requests that the Subcommittee 
appropriate an additional $2,250,000 for the National Turfgrass 
Research Initiative. This Initiative has been developed by USDA/ARS in 
partnership with the turfgrass industry. We are asking for five 
priority research positions at four locations across the United States. 
These five positions address the most pressing research needs, namely 
water use/efficiency and environmental issues. $450,000 is being 
requested for each location.
    The USDA needs to initiate and maintain ongoing research on 
turfgrass development and improvement for the following reasons:
    The value of the turfgrass industry in the United States is $40 
billion annually. There are an estimated 50,000,000 acres of turfgrass 
in the United States. Turfgrass is the number one or two agricultural 
crop in value and acreage in many States (e.g., MD, PA, FL, NJ, NC).
    As our society becomes more urbanized, the acreage of turfgrass 
will increase significantly. In addition, State and local 
municipalities are requiring the reduction of water, pesticides and 
fertilizers on turfgrass. However, demand on recreational facilities 
will increase while these facilities will still be required to provide 
safe turfgrass surfaces.
    Currently, the industry itself spends about $10 million annually on 
applied and proprietary turfgrass research. However, private and 
university research programs do not have the time nor the resources to 
conduct basic research and to identify completely new sources of 
beneficial genes for stress tolerance. ARS turfgrass scientists will 
enhance the ongoing research currently underway in the public and 
private sectors. Because of its mission to conduct the Nation's 
research for agricultural commodities, ARS is the proper delivery 
system for this research.
    Water management is a key component of healthy turf and has direct 
impact on nutrient and pesticide losses into the environment. 
Increasing demands and competition for potable water make it necessary 
to use water more efficiently. Also, drought situations in many regions 
have limited the water available and, therefore, have severely impacted 
the turf industry as well as homeowners and young athletes. Therefore, 
new and improved technologies are needed to monitor turf stresses and 
to schedule irrigation to achieve the desired quality. Technologies are 
also needed to more efficiently and uniformly irrigate turfgrasses. 
Drought tolerant grasses need to be developed. In addition, to increase 
water available for irrigation, waste water (treated and untreated) 
must be utilized. Some of these waste waters contain contaminants such 
as pathogens, heavy metals, and organic compounds. The movement and 
accumulation of these contaminants in the environment must be 
determined.
    USDA conducted significant turfgrass research from 1920-1988. 
However, since 1988, no full-time scientist has been employed by USDA, 
Agricultural Research Service (ARS) to conduct turfgrass research 
specifically, until the recently appropriated funds became available.
    ARS and the turfgrass industry enjoy a special, collaborative 
relationship, and have even entered into a cooperative Memorandum of 
Understanding (MOU). The turfgrass industry has met on numerous 
occasions with USDA/ARS officials to discuss the new turfgrass 
scientist positions, necessary facilities, and future research 
opportunities. In January 2002, ARS held a customer workshop to gain 
valuable input from turfgrass researchers, golf course superintendents, 
sod producers, lawn care operators, athletic field managers and others 
on the research needs of the turfgrass industry. As a result of the 
workshop, ARS and the turfgrass industry have developed the National 
Turfgrass Research Initiative. The highlights of this strategy are as 
follows:
    ARS, as the lead agency at USDA for this initiative, has graciously 
devoted a significant amount of time to the effort. Like the industry, 
ARS is in this research endeavor for the long-term. To ARS' credit, the 
agency has committed staff, planning and technical resources to this 
effort. This year is the first time ARS has been able to include some 
funding in the President's budget for the Turfgrass Research 
Initiative. However, there are so many issues and needs, that the 
industry is desperate for answers. Thus, to address the critical 
research needs, the industry is left with no alternative but to come 
directly to Congress for assistance through the appropriations process.
    The role and leadership of the Federal Government and USDA in this 
research are justifiable and grounded in solid public policy rationale. 
ARS is poised and prepared to work with the turfgrass industry in this 
major research initiative. However, ARS needs additional resources to 
undertake this mission.
    The turfgrass industry is very excited about this new proposal and 
wholeheartedly supports the efforts of ARS. Since the customers at the 
workshop identified turfgrass genetics/germplasm and water quality/use 
as their top priority areas for ARS research, for fiscal year 2007, the 
turfgrass industry requests that the following positions be established 
within USDA/ARS:

------------------------------------------------------------------------

------------------------------------------------------------------------
Position 1: Component II: Germplasm: Molecular                  $450,000
 Biologist: Southwest--Lubbock, TX
Position 2: Component I: Water: Agricultural Engineer--          450,000
 Irrigation: Transition Zone--Florence, SC
Position 3: Component IV: Environment: Agricultural              450,000
 Engineer--Fate & Transport: Northeast--University Park,
 PA
Position 4: Component III: Pest Management: Weed                 450,000
 Scientist: Northeast--University Park, PA
Position 5: Component II: Germplasm: Geneticist--                 50,000
 Biodiversity: Upper West--Logan, UT
                                                         ---------------
      Total.............................................       2,250,000
------------------------------------------------------------------------

    For this research we propose an ARS-University partnership, with 
funding allocated to ARS for in-house research as well as in 
cooperation with university partners. For each of the individual 
scientist positions, we are requesting $300,000 for each ARS scientist 
position with an additional $150,000 attached to each position to be 
distributed to university partners, for a total of $450,000 per 
position. We are also asking that the funding be directed to ARS and 
then distributed by ARS to those university partners selected by ARS 
and industry representatives.
Request restoration of funding for the ARS lab in Beaver, WV that was 
        appropriated in fiscal year 2006 ($330,000)
    In the last 2 fiscal years, the Subcommittee has generously 
provided funding for turfgrass research at the Appalachian Farming 
Systems Research Center in Beaver, WV. The Subcommittee allocated 
$150,000 in fiscal year 2005 and an additional $180,000 in fiscal year 
2006, bringing the total to $330,000. As the Beaver lab has expertise 
in soils research, the turf industry has embraced this funding and the 
research possibilities. The turf industry is now working with the lab 
to construct a research program on soil issues that affect turfgrass 
production. This research fits very nicely within the framework of the 
National Turfgrass Research Initiative. Therefore, we appreciate the 
support of the Subcommittee for this new funding in the last 2 fiscal 
years and ask for your continued support of that funding in fiscal year 
2007.
    In addition, the Committee should be receiving Member requests for 
funding of each of the five positions described above. We appreciate 
your strong consideration of each individual member request for the 
turfgrass research position in his or her respective state.
    In conclusion, on behalf of the National Turfgrass Evaluation 
Program and the turfgrass industry across America, I respectfully 
request that the Subcommittee continue the funding appropriated in 
fiscal year 2006 for Beltsville, MD, ($490,000) and Beaver, WV 
($330,000) within the Agricultural Research Service. I also request 
that the committee support the President's budget request of $1,880,000 
for Drought Mitigation. Finally, I request that the Subcommittee 
appropriate an additional $2,250,000 for five new turfgrass scientist 
positions around the country, with $450,000 provided for each location.
    Thank you very much for your assistance and support.
                                 ______
                                 

    Prepared Statement of the National Fish and Wildlife Foundation

    Mr. Chairman and Members of the Subcommittee: I appreciate the 
opportunity to submit testimony regarding the fiscal year 2007 funding 
request for the National Fish and Wildlife Foundation (Foundation). 
Included in this testimony is a summary of our history and fiscal year 
2005 accomplishments, as well as the new and innovative programs we 
hope to accomplish with the funding provided by this Committee.
    Congress established the Foundation 22 years ago, and since that 
time the Foundation's vision for more healthy and abundant populations 
of fish, wildlife and plants has flourished through the creation of 
numerous valuable partnerships. The breadth of our partnerships is 
highlighted through our active agreements with 14 Federal agencies, as 
well as various corporations, foundations and individual grantees. 
Through these unique arrangements, we are able to leverage Federal 
funds, bring agencies and industry together and produce tangible, 
measurable results. Our history of collaboration has given way to 
programs and initiatives such as the North American Waterfowl 
Management Plan, the Neotropical Migratory Bird Conservation Program, 
the Chesapeake Bay Small Watershed Grants Program and the Pulling 
Together Initiative. With the support of the Committee in fiscal year 
2007, we can continue to uphold our mission of enriching fish, wildlife 
and the habitat on which they depend.
    Federal dollars appropriated by this Committee allow the Foundation 
to be highly successful in assisting the Natural Resources Conservation 
Service (NRCS) in accomplishing its mission to help people conserve, 
maintain and improve our natural resources and environment. Whether it 
involves farm, range or grassland conservation, species management or 
conservation education, the Foundation strategically invests the 
Federal funds entrusted to us in sound projects. The Foundation 
respectfully requests that this Subcommittee fund the Foundation at $4 
million through the U.S. Natural Resources Conservation Service 
Appropriation.
    This request would allow the Foundation to expand its highly 
successful grant program to better assist NRCS in maximizing private 
land conservation.
    Since the grants partnership began in 2000, the Foundation has 
received $18 million in NRCS Federal funds ($3 million per fiscal 
year), which it has dedicated to a matching grant program focused on 
private land conservation. The Foundation has supported over 400 
projects in 49 states by leveraging the $18 million in NRCS funds into 
more than $75 million in on-the-ground conservation. These projects 
have led to the direct restoration of more than 200,000 acres of 
farmland and rangeland and 775 miles of streams and rivers. In fiscal 
year 2005, the Foundation received $3 million in NRCS Federal funds, 
which it leveraged into more than $12 million in on-the-ground 
conservation. With the funds provided by the Committee in fiscal year 
2006, we are on track to successfully continue leveraging NRCS funds to 
increase on-the-ground conservation benefits.
    The Foundation's achievements are based on a competitive grant 
process where Federal funds are matched by the grantee with non-Federal 
funds and in-kind services. Grantees include Resource Conservation and 
Development Areas, conservation districts, universities and non-profit 
organizations who partner with farmers and ranchers to support 
conservation efforts on private land. The Foundation also works to 
further maximize Federal funds by providing private funds through the 
generosity of our growing number of corporate and foundation partners. 
These funds are in addition to the non-Federal funds that are provided 
by the Foundation's grantees. In the Foundation's partnership with 
NRCS, Federal funds have been supplemented with funding from Shell Oil 
Company, FMC Corporation, Anheuser-Busch Companies, Inc., Southern 
Company, Summer T. McKnight Foundation, Charles Stewart Mott 
Foundation, William Penn Foundation and the David and Lucile Packard 
Foundation. The Foundation is also pleased to report that the Kellogg 
Foundation has agreed to a multi-year partnership beginning in fiscal 
year 2006 to further the Foundation's agriculture conservation work.
    Working Landscapes.--Through our partnership, the Foundation works 
with NRCS to identify and fund projects that have strong support in 
affected agricultural and rural communities. We place our highest 
priority on projects integrating conservation practices on ongoing 
agricultural, ranching and forestry operations with the goal of 
improving the ecological health of working lands. We fund partners and 
provide expertise by engaging watershed experts, ranchers, foresters, 
farmers, local governments and non-profits to undertake on-the-ground 
private land activities with willing landowners. Through these efforts, 
the Foundation has helped to reduce agricultural runoff, remove 
invasive species and restore native ecosystems.
    Conserving Fish, Wildlife and Plants.--With our NRCS dollars, the 
Foundation funds projects that directly benefit diverse fish and 
wildlife species, including salmon in the West, migratory birds in the 
Midwest and grassland birds in the South. Habitat for native fish has 
been restored on private lands throughout the United States through 
vegetative planting, streambank stabilization, livestock fencing and 
nutrient reduction efforts. In addition to improving water quality, 
efforts have been undertaken by our grantees to reduce water loss 
caused by invasive species or from outdated irrigation systems. By 
reducing the water taken from rivers, there is less chance that drought 
will negatively impact aquatic life.
    We also measure our success, in part, by preventing the listing of 
species under the Endangered Species Act and by stabilizing and 
hopefully moving others off the list. Some species that have received 
support through our NRCS grant program include salmonids, golden-
cheeked warblers, black-capped vireos, Southwestern willow flycatchers, 
whooping cranes, sage grouse, lesser prairie chickens, aplomado 
falcons, black-tailed prairie dogs, Louisiana black bears, bog turtles, 
tiger salamanders and Karner blue butterflies. We invest in common 
sense and innovative cooperative approaches to endangered species, 
building bridges between the government and the private sector.
    Expanding Conservation Education Opportunities.--Our grantees also 
use our NRCS dollars to expand conservation education opportunities. Of 
our fiscal year 2005 NRCS partnership grants, over one-fourth contained 
an environmental education or outreach component. Some of the 
conservation education projects supported through our NRCS grant 
program seek to educate farmers and ranchers on conservation practices, 
while demonstrating how best management practices and wildlife 
incentives provide both environmental and economic benefits. Other 
projects have provided training to secondary school teachers on the 
ecological, economic and cultural benefits of rangeland and farmland 
conservation.
    Special Grant Programs.--In fiscal year 2005, NRCS joined the 
Foundation's Pulling Together Initiative, a grant program that supports 
the creation of local cooperative Weed Management Area partnerships. 
These partnerships bring together local landowners, citizens groups and 
weed experts to develop and implement strategies for managing weed 
infestations on public lands, natural areas and private working lands. 
Through this collaborative program, NRCS staff is able to join invasive 
species experts from the U.S. Fish and Wildlife Service, USDA-Forest 
Service, Bureau of Land Management, Animal and Plant Health Inspection 
Service and the Department of Defense to review and jointly select the 
most innovative weed management projects. This collaborative model has 
proven so successful that in late fiscal year 2005, the Foundation 
launched a new strategically focused grant program targeting the Great 
Lakes Watershed. The partners in this program include the Environmental 
Protection Agency, U.S. Fish and Wildlife Service, National Oceanic and 
Atmospheric Administration and the USDA-Forest Service. The Foundation 
is currently in discussions with NRCS regarding their formal 
participation in the program for the next grant cycle.
    The Foundation is currently developing two additional Special Grant 
Programs that will be launched later this year. The purpose of the 
first grant program is to implement the National Fish Habitat 
Initiative Action Plan. The National Fish Habitat Initiative is a 
multi-agency, multi-partner initiative to improve our Nation's aquatic 
resources. The Foundation's grant program will bring together Federal 
and non-Federal funds to strategically invest in priority fish habitat 
grants. The Foundation's second grant program will focus on the Upper 
Mississippi River Watershed. The program is being launched at the 
direction of the USDA-Forest Service with the goal of restoring private 
land streambanks with native trees and grasses. The Foundation is 
hoping to expand this program into a multi-partnered effort in fiscal 
year 2007.
    Evaluation.--The Foundation has become a leader in evaluation and 
adaptive management among its peers. The Foundation's goal is to build 
the capacity of both itself and its partners to undertake more 
effective evaluation, to assist in both measuring performance and 
adapting methods and funding strategies for more effective 
conservation. To address these goals, the Foundation is implementing 
several evaluation strategies simultaneously. First, the Foundation has 
instituted new protocols within its application process to provide the 
measurable indicators needed to evaluate the impacts of our programs. 
Second, the Foundation has convened discussions among our agencies 
partners to identify and coordinate potential opportunities for 
collaboration within evaluation. One of the initial results of these 
meetings has been an interest in piloting new evaluation indicators, to 
better articulate the Federal investment for GPRA and PART 
requirements.
    Third, the Foundation has commissioned several third-party 
evaluations targeting standard methods like culvert removal to full 
program evaluations to learn where we have been successful and where 
past methods have not provided the desired impact. As an example, in 
fiscal year 2006, the Foundation's Chesapeake Bay Small Watershed 
Grants Program will be evaluated for the first 5 years of grant-making. 
The evaluation will include 355 projects associated with about $10.6 
million in Federal funds. The Federal legislation accompanying this 
program included 10-year goals, and this evaluation presents an 
opportunity to assess the mid-way mark in helping the Foundation and 
its partners better focus their resources over the next 5 years. To 
capture the evaluations and lessons learned, the Foundation is taking a 
fourth key step by developing a new searchable project website where 
users will be able to query information and learn more about funded 
projects, including how to adapt projects for higher rates of success.
    Continued Need.--The Foundation is uniquely positioned to continue 
assisting NRCS in implementing beneficial conservation practices on our 
Nation's farms and ranches by leveraging NRCS's scarce Federal 
resources to maximize on-the-ground conservation benefits. The 
Foundation's matching grant program has the flexibility to address many 
agricultural conservation needs. These include, but are not limited to, 
increasing instream flow for rivers while continuing to support 
agricultural irrigation, promoting the recovery of specific threatened 
or endangered animals on private lands, implementing critical 
conservation practices on private lands that do not qualify for funding 
under a Farm Bill program, working with non-traditional partners such 
as the Amish and Mennonites and by forging broad community-based 
partnerships. Additional resources are needed in fiscal year 2007 to 
continue meeting the growing demand for private land conservation, 
while expanding the participation of NRCS into new multi-partner 
programs.
    Accountability and Grantsmanship.--The Foundation constantly 
strives to improve the grant making process while maintaining a healthy 
level of oversight. To improve ease of use for potential applicants, 
Foundation applications are now completed and reviewed electronically. 
In early 2006, to further improve efficiency, the Foundation released a 
revised application, grant contract template and reporting form. Even 
with these efficiencies, the Foundation still requires strict financial 
reporting by grantees and has once again received an unqualified audit 
in fiscal year 2005.
    In addition to the evaluation requirements described earlier, all 
potential grants are subject to a peer review process. This involves 
five external reviews representing state agencies, Federal agencies, 
affected industry, environmental non-profits and academics. Before 
being recommended to the Foundation's Board of Directors, grants are 
also reviewed internally by staff, including our conservation 
scientists. The internal review process examines the project's 
conservation need, technical merit, the support of the local community, 
the variety of partners and the amount of proposed non-Federal cost 
share. The Foundation also provides a 30-day notification to the 
Members of Congress for the congressional district and state in which a 
grant will be funded, prior to making a funding decision.
    Basic Facts About the Foundation.--The Foundation is governed by a 
25-member Board of Directors, appointed by the Secretary of the 
Interior and in consultation with the Secretary of Commerce. At the 
direction of Congress, the Board operates on a nonpartisan basis. 
Directors do not receive any financial compensation for service on the 
Board; in fact, all of our directors make financial contributions to 
the Foundation. It is a diverse Board, representing the corporate, 
philanthropic and conservation communities; all with a tenacious 
commitment to fish and wildlife conservation. I took over the 
chairmanship in January, after serving on the Board for 10 years. It is 
an honor to lead such a prestigious board.
    The National Fish and Wildlife Foundation continues to be one of, 
if not the most, cost-effective conservation programs funded in part by 
the Federal government. Since our inception in 1984 through fiscal year 
2005, the Foundation has supported over 8,190 grants and leveraged $339 
million in Federal funds into more than $1 billion in on-the-ground 
conservation. None of our Federally appropriated funds are used for 
lobbying, litigation or the Foundation's administrative expenses. By 
implementing real-world solutions with the private sector while 
avoiding regulatory or advocacy activity, our approach is more 
consistent with this Congress' philosophy than ever before. We are 
confident that the money you appropriate to the Foundation will 
continue to make a difference.
                                 ______
                                 

          Prepared Statement of the National Organic Coalition

    Chairman Bennett, Ranking Member Kohl, and Members of the 
Subcommittee: My name is Steven Etka. I am submitting this testimony on 
behalf of the National Organic Coalition (NOC) to detail our requests 
for fiscal year 2007 funding for several USDA marketing, research, and 
conservation programs of importance to organic agriculture.
    The National Organic Coalition (NOC) is a national alliance of 
organizations working to provide a voice for farmers, ranchers, 
environmentalists, consumers and others involved in organic 
agriculture. The current members of NOC are the Center for Food Safety, 
Rural Advancement Foundation International-USA, National Cooperative 
Grocers Association, and the Northeast Organic Farming Association-
Interstate Council.
    We urge the Subcommittee's strong consideration of the following 
funding requests for various USDA programs of importance to organic 
farmers, marketers and consumers:
USDA/Agricultural Marketing Service (AMS)
            National Organic Certification Cost-Share Program Request: 
                    $1.5 million
    In recognition of the costs to farmers and handlers associated with 
the process of organic certification, the National Organic 
Certification Cost Share program was authorized by Section 10606 of the 
Food Security and Rural Investment Act of 2002. In fiscal year 2002 
initial funding of $5 million was provided for this program through the 
Commodity Credit Corporation (CCC) to AMS. The assistance provided by 
this program has been particularly critical to small-to-medium scale 
farmers and handlers struggling with the costs of mandatory organic 
certification and required annual updates. Unfortunately, the initial 
CCC funding for this program has been fully expended. Therefore, we are 
seeking stop-gap funding of $1.5 million from the CCC to keep the 
program running until the program can be reauthorized.
            Organic Standards Request: 3.13 million
    In fiscal year 2006, Congress specified funding of $2.026 million 
for the AMS category of ``Organic Standards.'' In the President's 
fiscal year 2007 budget submittal, a request was made for $3.13 million 
for AMS ``Organic Standards.'' We support the President's budget, in 
order to provide the National Organic Program with greater resources 
for certifier training, National Organic Standards Board support, 
enforcement, and public outreach and education on upcoming rulemaking 
processes.
    For several years, report language has been included in the Senate 
report strongly urging the National Organic Program to take action on 
several unfulfilled statutory requirements. Specifically, the Senate 
report language in fiscal years 2004, 2005, and 2006 called on the NOP 
to hire an Executive Director for the National Organic Standards Board 
and to establish an on-going Peer Review Panel, as called for in OFPA, 
to provide oversight and advice to the NOP regarding the accreditation 
process for organic certifiers.
    While progress has been slow in complying with these statutory 
requirements, the members of the National Organic Coalition are very 
pleased that an Executive Director for the National Organic Standards 
Board has been hired by USDA. This position is critical in helping the 
NOSB fulfill its statutory role, especially at time of such heavy 
workload for the Board. We congratulate the NOP for taking this action.
    In contrast, the requirements of Section 2117 of OFPA to establish 
a Peer Review Panel and the further requirement of Section 205.509 of 
the Organic rule to establish an annual Peer Review Panel have not been 
met by the NOP. However, we are pleased that the NOP contracted with 
the American National Standards Institute (ANSI) to perform an outside 
audit of the NOP, the results of which were presented in late 2004. The 
ANSI audit noted numerous technical and procedural deficiencies in the 
NOP's operations and suggested corrective actions in several areas. In 
addition, USDA's own Inspector General's office released an audit 
report regarding the National Organic Program in July of 2005, which 
was very critical of the National Organic Program's operations, and 
also suggested several corrective actions that could be taken by the 
Agency to resolve the problems. The Members of the National Organic 
Coalition concur with the recommendations of the ANSI and Office of 
Inspector General (OIG) audits, and believe that if the NOP were to 
implement these recommendations, it would be a significant step to 
resolving many of the concerns that have been raised by the organic 
community regard the NOP's operations.
    Recently, a new National Organic Program Director was hired with 
significant expertise in the area of quality systems management and ISO 
compliance. We are very encouraged that the new Director's expertise 
will be helpful in guiding the NOP in implementing the ANSI and OIG 
audit recommendations. However, we also believe that the House and 
Senate Agriculture Appropriations Subcommittees should be kept informed 
by NOP with regular reports on their progress in complying with these 
recommendations. Therefore, in addition to supporting the 
Administration's budget request of $3.13 million for AMS/organic 
standards, we are requesting that the following report language be 
included:
    The Committee is encouraged that the Agency has hired an Executive 
Director for the National Organic Standards Board (NOSB), as well as a 
new Director for the National Organic Program. The Committee also notes 
that the audits performed by the American National Standards Institute 
(ANSI) in 2004 and by the USDA Office of Inspector General (OIG) in 
2005 made strong recommendations about changes needed in the 
administration of the National Organic Program. The Committee expects 
the Agency to take the necessary actions to comply with these 
recommendations, and to provide a written report to the Committee by 
December of 2006 regarding the progress in implementing these 
recommendations. In addition, the Committee expects a report regarding 
the complaints that the NOP has received about violations of the 
organic standards, and the progress of the Agency in investigating and 
responding to those complaints. Finally, the Committee expects the NOP 
to work closely with the NOSB to implement the Peer Review Panel 
requirements of OPFA and USDA's organic regulations.
USDA
            Organic Data Initiatives
    Authorized by Section 7407 of the 2002 Farm Bill, the Organic 
Production and Marketing Data Initiative States that the ``Secretary 
shall ensure that segregated data on the production and marketing of 
organic agricultural products is included in the ongoing baseline of 
data collection regarding agricultural production and marketing.'' As 
the organic industry matures and grows at a rapid rate, the lack of 
national data for the production, pricing, and marketing of organic 
products has been an impediment to further development of the industry 
and to the effective functioning of many organic programs within USDA. 
Because of the multi-agency nature of data collection within USDA, the 
effort to improve organic data collection and analysis must also be 
undertaken by several different agencies within the Department:
Economic Research Service (ERS)
            Collection and Analysis of Organic Economic Data Request: 
                    $750,000
    In fiscal year 2006, Congress appropriated $500,000 to USDA's 
Economic Research Service to continue the collection of valuable 
acreage and production data, as required by Section 7407 of the 2002 
farm bill. Because increased ability to conduct economic analysis for 
the organic farming sector is greatly needed, we request $750,000 to be 
appropriated to the USDA ERS to implement the ``Organic Production and 
Market Data Initiative'' included in Section 7407 of the 2002 farm 
bill.
Agricultural Marketing Service (AMS)
            Organic Price Collection Request: $1 million
    Accurate, public reporting of agricultural price ranges and trends 
helps to level the playing field for producers. Wholesale and retail 
price information on a regional basis is critical to farmers and 
ranchers, but organic producers have fewer sources of price information 
available to them than conventional producers. Additionally, the lack 
of appropriate actuarial data has made it difficult for organic farmers 
to apply for and receive equitable Federal crop insurance. AMS Market 
News is involved in tracking product prices for conventional 
agricultural products, and with funding, could broaden their efforts to 
include organic price data as well. We request $1 million to be 
appropriated to the USDA Agricultural Marketing Service for collection 
of organic price information.
National Agriculture Statistics Service (NASS)
            Census Follow-up/Organic Grower Survey Request: $1 million
    The mission of USDA's National Agricultural Statistics Service 
(NASS) is to provide timely, accurate, and useful statistics in service 
to U.S. agriculture. NASS is making an effort to expand the quantity of 
organic questions in the 2007 census. However, they will need to 
conduct a follow-up survey to collect more in-depth information on 
acreage, yield/production, inventory, production practices, sales and 
expenses, marketing channels, and demographics. Therefore, we are 
requesting $1 million for USDA NASS.
USDA/CSREES
            Organic Transitions Program Request: $5 million
    The Organic Transition Program, funded through the CSREES budget, 
is a research grant program that helps farmers surmount some of the 
challenges of organic production and marketing. As the organic industry 
grows, the demand for research on topics related to organic agriculture 
is experiencing significant growth as well. The benefits of this 
research are far-reaching, with broad applications to all sectors of 
U.S. agriculture, even beyond the organic sector. Yet funding for 
organic research is minuscule in relation to the relative economic 
importance of organic agriculture and marketing in this nation.
    The CSREES Organic Transition Program was funded at $2.1 million in 
fiscal year 2003, $1.9 million in fiscal year 2004, and $1.88 million 
for both fiscal years 2005 and 2006. Given the rapid increase in demand 
for organic foods and other products, and the growing importance of 
organic agriculture, the research needs of the organic community are 
expanding commensurately. Therefore, we are requesting that the program 
be funded at $5 million in fiscal year 2007. In addition, we are 
requesting that the Organic Transition Program remain a separate 
program, and not be subsumed within the National Research Initiative, 
as proposed in the President's budget.
USDA/CSREES
            National Research Initiative (NRI) Request: Language 
                    directing CSREES to add a new NRI program area to 
                    foster classical plant and animal breeding
    In recent decades, public resources for classical plant and animal 
breeding have dwindled, while resources have shifted toward genomics 
and biotechnology, with a focus on a limited set of major crops and 
breeds. Unfortunately, this shift has significantly curtailed the 
public access to plant and animal germplasm, and limited the diversity 
of seed variety and animal breed development. This problem has been 
particularly acute for organic and sustainable farmers, who seek access 
to germplasm well suited to their unique cropping systems and their 
local environment. Without renewed funding in this arena, the public 
capacity for plant and animal breeding will disappear.
    In both of fiscal years 2005 and 2006, the Senate Agriculture 
Appropriations Subcommittee included report language raising concerns 
about this problem, and urging CSREES to give greater consideration to 
research needs related to classical plant and animal breeding, when 
setting priorities within the National Research Initiative. Despite 
this report language, research proposals for classical plant and animal 
breeding that have sought NRI funding in the past couple of years have 
been consistently declined. Further, the shift in NRI toward work on 
genomics and biotechnology continues, to the exclusion of classical 
plant and animal breeding.
    As the nation's preeminent agricultural competitive grants program, 
the National Research Initiative should be funding classical plant and 
animal breeding activities. The NRI currently has over 30 program areas 
of focus. We are requesting that an additional program area be created 
within the NRI to foster this important research, and that this new 
program area be entitled, ``Classical Plant and Animal Breeding to 
Foster More Diverse, Energy Efficient and Environmentally Sustainable 
Agricultural Systems.''
USDA/CSREES
            Sustainable Agriculture Research Request: $15 million 
                    (Chapter 1) and Education (SARE) and $5 million 
                    (Chapter 3)
    The SARE program has been very successful in funding on-farm 
research on environmentally sound and profitable practices and systems, 
including organic production. The reliable information developed and 
distributed through SARE grants have been invaluable to organic 
farmers. We are requesting $15 million for Chapter 1 and $5 million for 
Chapter 3 for fiscal year 2007.
USDA/Rural Business Cooperative Service Appropriate Technology Transfer 
        for Rural Areas (ATTRA) Request: $3.1 million
    ATTRA is a national sustainable agriculture information service, 
which provides practical information and technical assistance to 
farmers, ranchers, Extension agents, educators and others interested in 
sustainable agriculture. ATTRA interacts with the public, not only 
through its call-in service and website, but also provides numerous 
publications written to help address some of the most frequently asked 
questions of farmers and educators. Much of the real-world assistance 
provided by ATTRA is extremely helpful to the organic community. As a 
result, the growth in demand for ATTRA services has increased 
significantly, both through the website-based information services and 
through the growing requests for workshops. We are requesting $3.1 
million for ATTRA for fiscal year 2007, representing a $600,000 
increase over fiscal year 2005 and fiscal year 2006 levels. These funds 
would be used to initiate a Farm Energy Initiative, to respond to the 
high demand for information and technical assistance from farmers about 
ways to increase their energy efficiency in response to high energy 
costs.
USDA/ARS
            Strategic Regional Programming for Organic Agricultural 
                    Research Request: $10 million, divided between 
                    regions
    In 2005, USDA-ARS spent about $3.5 million on organic-specific 
projects, or about 0.35 percent of the overall ARS budget for fiscal 
year 2005. Given its growing importance in the overall agricultural 
economy, the commitment by ARS to organic research must be greatly 
enhanced.
    Distributed among the 7 Regional Areas and the ARS National Program 
Office, this funding would provide needed flexibility to better address 
the broad needs and opportunities of the organic production and 
processing sector. Funding will be allocated by the Area Directors to: 
(1) maintain and enhance existing CRIS projects, scientists and 
technicians whose objectives are specific to organic production and 
processing; and (2) provide support to integrate organic agriculture 
objectives into other projects, when such capacity exists.
USDA/NRCS
            Conservation Security Program Request: No Funding 
                    Limitation
USDA/Rural Business Cooperative Service
            Value-Added Producer Grants Request: No Funding Limitation
    The Conservation Security Program (authorized by Section 2001 of 
the 2002 farm bill) and the Value-Added Producer Grant (authorized by 
Section 6401 of the 2002 farm bill) have great potential to benefit 
organic producers in their efforts to conserve natural resources and to 
explore new, value-added enterprises as part of their operations. 
Unfortunately, while these programs were authorized to operate with 
mandatory funding, their usefulness has been limited by funding 
restrictions imposed through the annual appropriations process. We are 
urging that the Conservation Security Program and the Value-Added 
Producer Grant Program be permitted to operate with unrestricted 
mandatory funding, as authorized.
    Thank you for this opportunity to testify and for your 
consideration on these critical funding requests.
                                 ______
                                 

             Prepared Statement of National Potato Council

    My name is Ed Schneider. I am a potato farmer from Pasco, 
Washington and current Vice President, Legislative/Government Affairs 
for the National Potato Council (NPC). On behalf of the NPC, we thank 
you for your attention to the needs of our potato growers.
    The NPC is the only trade association representing commercial 
growers in 50 States. Our growers produce both seed potatoes and 
potatoes for consumption in a variety of forms. Annual production is 
estimated at 437,888,000 cwt. with a farm value of $3.2 billion. Total 
value is substantially increased through processing. The potato crop 
clearly has a positive impact on the U.S. economy.
    The potato is the most popular of all vegetables grown and consumed 
in the United States and one of the most popular in the world. Annual 
per capita consumption was 136.5 pounds in 2003, up from 104 pounds in 
1962 and is increasing due to the advent of new products and heightened 
public awareness of the potato's excellent nutritional value. Potatoes 
are considered a nutritious consumer commodity and an integral, 
delicious component of the American diet.
    The NPC's fiscal year 2007 appropriations priorities are as 
follows:
Potato Research
            Cooperative State Research Education and Extension Service 
                    (CSREES)
    The NPC urges the Congress not to support the President's fiscal 
year 2007 budget request to eliminate the CSREES Special Grant Programs 
and the formula funds under the Hatch Act. Both of these programs 
support important university research work that helps our growers 
remain competitive in today's domestic and world marketplace.
    The NPC supports an appropriation of $1.8 million for the Special 
Potato Grant program for fiscal year 2007. The Congress appropriated 
$1.417 million in fiscal year 2004, a decrease from the fiscal year 
2003 level of $1.584 million and $1.509 million in fiscal year 2005. 
This has been a highly successful program and the number of funding 
requests from various potato-producing regions is increasing.

    The NPC also urges that the Congress include Committee report 
language as follows:
    ``Potato research.--The Committee expects the Department to ensure 
that funds provided to CSREES for potato research are utilized for 
varietal development testing. Further, these funds are to be awarded 
after review by the Potato Industry Working Group.''
Agricultural Research Service (ARS)
    The NPC urges that the Congress not support the Administration's 
fiscal year 2007 budget request to rescind all fiscal year 2005 
Congressional increases for research projects.
    The Congress provided funds for a number of important ARS projects 
and, due to previous direction by the Congress, the ARS continues to 
work with the NPC on how overall research funds can best be utilized 
for grower priorities.
Foreign Market Development: Market Access Program (MAP)
    The NPC also urges that the Congress maintain the spending level 
for the Market Access Program (MAP) at its authorized level of $200 
million for fiscal year 2007 and not support the Administration's 
budget request to cap this valuable export program at the $125 million 
level.
            Foreign Agriculture Service (FAS)
    The NPC supports the President's fiscal year 2007 budget request of 
$152.4 million for the USDA Foreign Agriculture Service (FAS). This 
level is the minimum necessary for the agency given the multitude of 
trade negotiations and discussions currently underway.
Food Aid Programs
            Mcgovern-Dole
    The NPC supports the Administration's fiscal year 2007 budget 
request of $100 million for the McGovern-Dole International Food Aid 
Program. PVO's have been including potato products in their 
applications for this program.
            Public Law 480
    The President's fiscal year 2007 budget requests $1.2 billion for 
USAID programs, including $964 million for USAID Public Law 480 Title 
II programs. The President's budget also transfers $300 million from 
USAID Title II activities funded under the Agriculture Budget to the 
Foreign Operations Budget. The NPC urges that the $300 million be 
reinstated in the regular USAID Public Law 480 Title II budget to avoid 
a significant loss of applications for dehydrated potatoes in Title II 
programs and procurement of U.S. food commodities for food aid.
Pest and Disease Management
            Animal and Plant Health Inspection Service (APHIS)
    Golden Nematode Quarantine.--The NPC supports an appropriation of 
$1,266,000 for this quarantine which is what is believed to be 
necessary for USDA and the State of New York to assure official control 
of this pest. Failure to do so could adversely impact potato exports.
    Given the transfer of Agriculture Quarantine Inspection (AQI) 
personnel at U.S. ports to the Department of Homeland Security, it is 
important that certain USDAAPHIS programs be adequately funded to 
ensure progress on export petitions and protection of the U.S. potato 
growers from invasive and harmful pests and diseases.
    Pest Detection.--The NPC supports $45 million in fiscal year 2007, 
which is the Administration's budget request. Now that the Agriculture 
Quarantine Inspection (AQI) program is within the new Homeland Security 
Agency, this increase is essential for the Plant Protection and 
Quarantine Service's (PPQ) efforts against potato pests and diseases 
such as Ralstonia.
    Emerging Plant Pests.--$101 million was appropriated in fiscal year 
2005. The President requests $127 million in fiscal year 2007 which the 
NPC supports.
    The NPC supports having the Congress once again include language to 
prohibit the issuance of a final rule that shifts the costs of pest and 
disease eradication and control to the States and cooperators.
    Trade Issues Resolution Management.--$12,578,000 was appropriated 
in fiscal year 2005 and the President requests $18 million in fiscal 
year 2007. The NPC supports this increase only if it is specifically 
earmarked for plant protection and quarantine activities. These 
activities are of increased importance yet none of these funds are used 
directly for plant protection activities. As new trade agreements are 
negotiated, the agency must have the necessary staff and technology to 
work on plant related import/export issues. The NPC also relies heavily 
on APHIS-PPQ resources to resolve phytosanitary trade barriers in a 
timely manner.
Agricultural Statistics
            National Agricultural Statistics Service (NASS)
    The NPC supports sufficient funds and guiding language to assure 
that the potato objective yield and grade and size surveys are 
continued.
Rural Development Grants
    Since potato growers do not receive direct payments, the 2002 Farm 
Bill provided for, among other things, grants to allow our growers to 
expand their business opportunities. One program that has been used by 
our growers is the value-added grant program. The NPC would urge that 
the Farm Bill funding level for this program be maintained. In 
addition, maintaining adequate farm labor is also important to our 
growers. The NPC urges that farm labor housing grants be maintained and 
not reduced as proposed by the Administration's budget request.
                                 ______
                                 

      Prepared Statement of the National Rural Telecom Association

    Project Involved.--Telecommunications lending programs administered 
by the Rural Utilities Service of the U.S. Department of Agriculture
    Actions Proposed.--Supporting loan levels for fiscal year 2007 in 
the amounts requested in the President's budget for 5 percent direct 
($144 million) and cost of-money ($247 million) and the associated 
subsidy, as required, to fund those programs at the requested levels.
  --Supporting Sec. 306 guaranteed loans in the amount ($299 million) 
        requested in the budget.
  --Opposing the budget request that would cut direct loans for 
        broadband facilities and internet service access by almost 30 
        percent from the fiscal year 2006 enacted level of $500 million 
        to $356 million. Supporting the request to fund the program 
        through discretionary funding and the budget proposal to 
        provide $30 million of the authorized level in broadband loans 
        at an interest rate of 4 percent.
  --Supporting the completion of the dissolution of the Rural Telephone 
        Bank in fiscal year 2006 in accordance with the 
        administration's budget assumption.
  --Supporting continued funding, as requested in the President's 
        budget, in the amount of $25 million in grant authority 
        designated for distance learning and medical link purposes.
    Mr. Chairman, Members of the Committee: My name is John F. O'Neal. 
I am General Counsel of the National Rural Telecom Association. NRTA is 
comprised of commercial telephone companies that borrow their capital 
needs from the Rural Utilities Service of the U.S. Department of 
Agriculture (RUS) to furnish and improve telephone service in rural 
areas. Approximately 1000, or 71 percent of the Nation's local 
telephone systems borrow from RUS. About three-fourths of these are 
commercial telephone companies. RUS borrowers serve almost 6 million 
subscribers in 46 states and employ over 22,000 people. In accepting 
loan funds, borrowers assume an obligation under the act to serve the 
widest practical number of rural users within their service area.
Program Background
    Rural telephone systems have an ongoing need for long-term, fixed 
rate capital at affordable interest rates. Since 1949, that capital has 
been provided through telecommunications lending programs administered 
by the Rural Utilities Service and its predecessor, the Rural 
Electrification Agency (REA).
    RUS loans are made exclusively for capital improvements and loan 
funds are segregated from borrower operating revenues. Loans are not 
made to fund operating revenues or profits of the borrower system. 
There is a proscription in the Act against loans duplicating existing 
facilities that provide adequate service and state authority to 
regulate telephone service is expressly preserved under the Rural 
Electrification Act.
    Rural telephone systems operate at a severe geographical handicap 
when compared with other telephone companies. While almost 6 million 
rural telephone subscribers receive telephone service from RUS borrower 
systems, they account for only 4 percent of total U.S. subscribers. On 
the other hand, borrower service territories total 37 percent of the 
land area--nearly 12 million squares miles. RUS borrowers average about 
six subscribers per mile of telephone line and have an average of more 
than 1,000 route miles of lines in their systems.
    Because of low-density and the inherent high cost of serving these 
areas, Congress made long-term, fixed rate loans available at 
reasonable rates of interest to assure that rural telephone 
subscribers, the ultimate beneficiaries of these programs, have 
comparable telephone service with their urban counterparts at 
affordable subscriber rates. This principle is especially valid today 
as this administration endeavors to deploy broadband technology and as 
customers and regulators constantly demand improved and enhanced 
services. At the same time, the underlying statutory authority 
governing the current program has undergone significant change. In 
1993, telecommunications lending was refocused toward facilities 
modernization. Much of the subsidy cost has been eliminated from the 
program. In fact, most telecommunications lending programs now generate 
revenue for the government. The subsidy that remains has been targeted 
to the highest cost, lowest density systems in accordance with this 
administration's stated objectives.
    We are proud to state once again for the record that there has 
never been a loan default by a rural telephone system! All of their 
loans have been repaid in accordance with their terms: $13 billion in 
principal and interest at the end of the last fiscal year.
Need for RUS Telecommunications Lending Continues
    The need for rural telecommunications lending is great today, 
possibly even greater than in the past. Technological advances make it 
imperative that rural telephone companies upgrade their systems to keep 
pace with improvements and provide the latest available technology to 
their subscribers. And 5 years ago, Congress established a national 
policy initiative mandating access to broadband for rural areas. But 
rapid technological changes and the inherently higher costs to serve 
rural areas have not abated, and targeted support remains essential.
    Competition among telephone systems and other technological 
platforms have increased pressures to shift more costs onto rural 
ratepayers. These led to increases in both interstate subscriber line 
charges and universal service surcharges on end users to recover the 
costs of interstate providers' assessments to fund the Federal 
mechanisms. Pressures to recover more of the higher costs of rural 
service from rural customers to compete in urban markets continue to 
burden rural consumers. There is a growing funding crisis for the 
statutory safeguards adopted in 1996 to ensure that rates, services and 
network development in rural America will be reasonably comparable to 
urban telecommunications opportunities.
Ongoing Congressional Mandates for Rural Telecommunications
    Considerable loan demand is being generated because of the mandates 
for enhanced rural telecommunications standards contained in the 
authorizing legislation. We are, therefore, recommending the following 
loan levels for fiscal year 2007 and the appropriation of the 
associated subsidy costs, as required, to support these levels:

------------------------------------------------------------------------

------------------------------------------------------------------------
5 percent Direct Loans..................................    $144,000,000
Cost-of-Money Loans.....................................     247,000,000
Guaranteed Loans........................................     299,000,000
Broadband Loans.........................................     500,000,000
                                                         ---------------
      Total.............................................   1,190,000,000
------------------------------------------------------------------------

    These are the same levels for 5 percent direct, cost-of-money loans 
and guaranteed loans, as requested in the President's budget for fiscal 
year 2007 and the enacted amount for broadband loans in the fiscal year 
2006 appropriations act. The authorized levels of loans in each of 
these programs were substantially obligated in fiscal year 2005 and 
current estimates are that authorized program levels will be met in 
fiscal year 2006. We believe that the needs of this program balanced 
with the minimal cost to the taxpayer make the case for its 
continuation at the stated levels.
Rural Telephone Bank Dissolution Initiative
    Congress established the Rural Telephone Bank in 1971 to provide 
supplemental financing for rural telephone systems with the objective 
that the bank ultimately would be owned and operated by its private 
shareholders. However, changed circumstances in the rural telephone 
industry and difficulties associated with accelerating privatization of 
the Rural Telephone Bank have made this transition to private ownership 
and control problematic raising difficult questions about the viability 
of a privatized bank and its future support among rural telephone 
systems.
    In recognition of these factors, the administration, subject to 
congressional approval, determined to dissolve the bank in fiscal year 
2006 pursuant to Sec. 411 of the RTB enabling act. We continue to 
support this action as well as the budget recommendation to transfer 
the historic lending authority of the RTB ($175 million) to the 
guaranteed loan program so that rural telephone systems will continue 
to have adequate loan resources available for rural telecommunications 
infrastructure development at the levels intended by the Congress. We 
share the assumption in the fiscal year 2007 budget that the bank's 
dissolution will be completed during the current fiscal year.
The Broadband Loan Program
    The broadband loan program was funded last year for the current 
fiscal year at $500 million. Very little subsidy cost is associated 
with this program since most of the loans are made at the government's 
cost-of-money. Despite that, the President's budget recommends reducing 
the loan levels for fiscal year 2007 by almost 30 percent to $356 
million. We are opposed to that and recommend to the committee that the 
fiscal year 2007 appropriations bill continue to fund the program at 
enacted levels. The demand for this program is still quite strong and 
if the President's stated objective of deploying this technology to all 
rural areas of this country is to be met, the $500 million funding 
level must be maintained.
    At the same time, this year's budget recognizes that given the high 
costs involved in the more sparsely populated areas requires subsidy 
assistance and recommends that $30 million of the authorized level of 
these loans be made at a 4 percent interest rate. We support that 
initiative as well as the budget request to fund the program through 
discretionary rather than mandatory funding.
Grants for Medical Link and Distance Learning Purposes
    We support the continuation in fiscal year 2007 of the $25 million 
in grant authority provided in the President's budget for medical link 
and distance learning purposes and the decision to not request 
additional loan funds for these programs. The purpose of these grants 
is to accelerate deployment of medical link and distance learning 
technologies in rural areas through the use of telecommunications, 
computer networks, and related advanced technologies by students, 
teachers, medical professionals, and rural residents. We agree with the 
conclusion in the budget that these projects are more feasible when 
provided through grants to eligible recipients rather than loans.
Conclusion
    Thank you for the opportunity to present the association's views 
concerning this vital program. The telecommunications lending programs 
of RUS continue to work effectively and accomplish the objectives 
established by Congress at a minimal cost to the taxpayer. They serve 
to assure that America's rural inhabitants will never become second-
class citizens in this modern information age of telecommunications 
technology.
                                 ______
                                 

           Prepared Statement of the National WIC Association

    Dear Chairman Bennett and Ranking Member Kohl: We write on behalf 
of the National WIC Association, NWA, to present comments on the 
President's proposal to fund the Special Supplemental Nutrition Program 
for Women, Infants and Children, known as WIC, for the fiscal year 
2007.
    We write on behalf of the thousands of nationally recognized WIC 
health professionals, nutritionists and dietitians who are committed to 
addressing the nutrition and healthcare needs of WIC families. Our 
members serve over 8.0 million low and moderate-income women and 
children with, or at risk of developing, nutrition-related health 
problems through 2,100 WIC agencies in 10,000 WIC clinics each month. 
WIC serves almost one-half of all infants born in this country and 
roughly 1 in 4 of all children between 1 and 5 years of age. Our 
members are the front lines battling to improve the quality of life for 
our most vulnerable populations.
    At the outset, we would like to compliment both of you and members 
of the Subcommittee for your long-term commitment to WIC. The future of 
our Nation's low-income women, infants and children depend upon your 
support. NWA is proud of the strong bi-partisan commitment WIC has 
engendered since its inception.
    As well, we compliment the President, Secretary Mike Johanns, Under 
Secretary for Food, Nutrition, and Consumer Services Eric Bost and 
their teams for their past support of WIC.
    We applaud the President for proposing to provide $15 million for 
breastfeeding initiatives, $14 million for infrastructure funds, $125 
million to restore the contingency fund, and to maintain the moratorium 
on new WIC-Only vendors.
    In contrast to the President's budget proposal of $5.2 billion, NWA 
strongly recommends that WIC be funded at $5.388 billion. NWA's 
recommended funding level is $188 million above the President's request 
and redresses the damages from the proposed cap on NSA funding ($152 
million), the proposal to cap Medicaid adjunctive eligibility ($3 
million), a failure to provide funding for essential MIS needs ($30 
million) and important health outcomes research ($3 million).
    We are dismayed that the President has again offered his proposal 
to cap nutrition services funding (NSA) at 25 percent of the total 
amount provided--that Congress wisely defeated in the 1st Session of 
the 109th Congress. This proposal will reduce services for all mothers 
and children and because States are highly unlikely to be able to 
further reduce per participant costs, 850,000 mothers and children 
could potentially lose essential nutrition services benefits.
    Nutrition services include nutrition assessment, counseling and 
education, obesity prevention efforts, breastfeeding support and 
promotion efforts, on-going interventions of nutrition related 
complications of pregnancy, complex feeding and growth issues of 
infants and children, follow-up of special metabolic formulas, pre-
natal and pediatric healthcare referrals and follow-up, spousal and 
child abuse referral, drug and alcohol counseling referral, 
immunization screening assessment and referral and a host of other 
client benefits. Simply put, the President's proposal to cap nutrition 
services funding, NSA, represents a significant benefit cut to WIC 
mothers and children.
    The Government Accountability Office, GAO, in its mandated report 
to Congress entitled ``Food Assistance: WIC Faces Challenges in 
Providing Nutrition Services,'' published in December 2001, writes 
that: ``WIC has been faced with the challenge of meeting additional 
program requirements with available resources. Since the late 1980's, a 
number of requirements have been placed on the program aimed at, among 
other things, containing the cost of food benefits, promoting 
breastfeeding, encouraging immunizations, and controlling program 
abuse. While these requirements have placed additional service delivery 
and administrative demands on WIC staff, they have not been accompanied 
by more funding per participant; the NSA grant per participant was 
established in 1989 and since then has only been adjusted for 
inflation. There is also evidence that nonfederal support for NSA may 
have decreased since fiscal year 1992. Nor have the additional demands 
been offset by reductions in other responsibilities. As a result, WIC 
agencies have had to cut costs and make changes in service delivery 
that potentially will have a negative impact on the quality of WIC 
services (GAO-02-142, p. 31).''
    Balancing increased program demands and available resources has 
forced WIC Programs across the nation to cut costs despite increasing 
needs.
    Indeed, local agencies have been forced to consolidate or close 
clinics and in some cases dramatically increase participant to staff 
ratios to unacceptable levels of 1,000:1 or 1,200:1 from 300:1. The GAO 
quotes 1998 and 2001 USDA studies that found that ``22 percent of local 
agencies serving almost 25 percent of all WIC participants reported 
having inadequate office space. Additionally, 30 percent of local 
agencies serving about 41 percent of all WIC participants reported 
having insufficient numbers of professional staff. Finally, 56 percent 
of State WIC agency automated management information systems were not 
capable of performing, or efficiently performing, 1 or more of 19 
essential program tasks (GAO-02-142, p. 37).'' Evidence suggests that 
this situation has only gotten worse.
    It is important to note that State cost containment efforts have 
significantly contributed to reducing WIC food package costs. Indeed, 
savings from infant formula cost containment efforts allow WIC to cover 
the food benefits provided to roughly 20 percent of WIC mothers and 
children and saved the Subcommittee and Federal tax payers over $23 
billion since 1989. ``If rebate savings are considered, NSA has 
remained roughly 20 percent of total program costs from 1988 through 
1999 (GAO-02-142, p. 34).'' In essence, cost containment has 
effectively capped NSA at unreasonably low levels. A legislated cap has 
the potential to further diminish the success and savings the Program 
has achieved.
    It takes NSA resources to prescribe and distribute WIC food 
packages and maintain program integrity. The President's proposed cap 
on WIC NSA funding will result in unspent WIC food resources and unmet 
participant needs, increasing the vulnerability of all ready food 
insecure mothers and children. We cannot imagine that the President 
intends this result when in previous years he was so committed to 
ensuring that WIC received additional overall Program funding.
    WIC's population, like the general population, has experienced 
dramatic increases in the prevalence of overweight and obesity and 
related health issues. A study released by the Department of Health and 
Human Services' Centers for Disease Control and Prevention shows that 
deaths due to poor diet and physical inactivity rose by 33 percent over 
the past decade and may soon overtake tobacco use as the leading 
preventable cause of death. WIC Programs across the Nation have been 
actively engaged in obesity prevention efforts since the turn of the 
millennium and WIC is recognized for its role in addressing the 
Nation's obesity health crisis.
    WIC uses multiple key nutrition services strategies in the 
Program's nearly 10,000 clinics to combat the growing national obesity 
epidemic. These include:
  --Individualized nutrition assessments provided to mothers and 
        children to identify overweight or obesity among other 
        nutrition risks;
  --Individualized nutrition counseling provided for at-risk mothers 
        and children;
  --Prescribed, tailored, reduced fat and low-sugar WIC food packages 
        provided to all WIC mothers and children that include reduced 
        or non-fat milk, reduced-fat cheese, and cereals with 6 grams 
        of sugar or less;
  --Counseling to promote increased physical activity;
  --Counseling for eating and life-style behaviors that may contribute 
        to overweight and obesity;
  --Instruction on how to select and prepare healthy foods;
  --Active promotion and support of breastfeeding as the best form of 
        infant feeding--acknowledged to aid in preventing childhood 
        overweight and obesity.
    Inadequate nutrition services and administration funding will 
stifle WIC's efforts to achieve positive nutrition outcomes.
    The net result of the President's proposal to cap nutrition 
services funding, NSA, would be to harm the Program and to erode 
benefits and services for mothers and children.
    We urge the Subcommittee to once again exempt WIC from the proposed 
cap on Nutrition Services funding to protect critical WIC participant 
benefits.
    NWA urges the Subcommittee not to override WIC's authorizing 
statute and to provide $30 million annually outside of the regular NSA 
grant to implement MIS core functions, upgrade and maintain WIC 
technology systems, achieve program efficiencies and economies, and 
render systems EBT ready. This will fulfill the President's own WIC 
technology initiative, embodied in the Child Nutrition and WIC 
Reauthorization Act of 2004.
    The President, in his WIC reauthorization agenda, recognized that 
technology provides a critical foundation for quality WIC services and 
Program Integrity. He recognized that funding WIC technology from 
existing resources compromises WIC's ability to deliver services and 
develop responsive MIS systems. Current limits on funding prevent more 
than half--56 percent--of WIC State agencies from meeting USDA core 
functions. Among these core functions are those that are critical for 
States to effectively manage grant funds and food cost containment 
efforts.
    To develop and maintain MIS and electronic service delivery 
systems, and to link with other health data systems the President urged 
Congress during reauthorization to earmark and provide a funding level 
of $30 million annually outside the regular NSA grant to implement MIS 
core functions, upgrade WIC technology systems, maintain MIS and 
electronic services and expedite the joint NWA/USDA 5 year plan for 
State MIS systems. This funding level is a mere down payment for the 
actual costs of improving outdated and outmoded MIS systems--USDA 
reported in 2001 that ``the cost of bringing WIC's essential program 
tasks up to standard in all States over the next 6 years is between 
$147 million and $267 million (GAO-02-142, p. 22).''
    The President's fiscal year 2007 proposal provides no monies for 
MIS, seriously jeopardizing mandated vendor cost containment 
requirements and impending changes to the WIC food packages essential 
to combating obesity. We urge the Subcommittee to act to fund MIS and 
electronic service delivery systems at $30 million in its 
appropriations bill.
    NWA urges that Congress continue to save Medicaid funds by ensuring 
that all Medicaid recipients remain automatically income eligible for 
WIC. The President has again proposed a cap on Medicaid adjunctive 
eligibility, freezing that eligibility level at 250 percent. This 
proposal, wisely rejected by Congress last year, most directly affects 
MD, MO, MN, NH, RI and VT.
    This proposal flies in the face of the Administration's purported 
efforts to reduce NSA costs by driving up the expense of doing WIC 
business for the six States directly affected. Though it eliminates 
eligibility for only a small number of individuals, it would require 
the affected States to accomplish duplicative income documentation for 
all Medicaid recipients applying for WIC. It would have the unintended 
consequence of potentially discouraging otherwise WIC eligible mothers 
and children from applying if they feel that they may not be eligible, 
undermining the preventative impact of WIC and adding unnecessary 
administrative burden.
    Although this proposal is not included in the fiscal year 2007 
budget request for WIC, the President has signaled his intention in the 
Administration's fiscal year 2007 budget request to recommend in fiscal 
year 2008 a required State match of 20 percent for nutrition services 
(NSA) funds. NWA urges Subcommittee members to oppose this 
recommendation. Based on USDA data, adjusted for inflation, in fiscal 
year 2008, should States fail to provide a match, more than 1.5 million 
mothers and children would be at risk of losing critical nutrition 
services benefits!
    It is inconceivable that State legislatures and governors would be 
willing to provide matching funds. This proposal would be disastrous 
for the future of WIC, leading to a significant deterioration in 
services and State and local agencies closing down clinics, even entire 
programs. WIC food benefits cannot be prescribed or provided, nor can 
program integrity be maintained without adequate NSA resources.
    A matching grant would undermine or even eliminate current 
effective collaborative relationships due to reduced resources. 
Collaboration is already jeopardized with some programs that have 
limited resources as a result of Federal and State funding cuts.
    A national priority for 32 years, WIC ensures healthy pregnancies, 
babies and children. To make WIC anything less than a national priority 
runs the risk of increased infant mortality and increased numbers of 
low birth weight infants. WIC must remain a national priority.
    Finally, NWA has sought changes in the WIC Food Packages since 
2000, attempting to bring them in line with current dietary science. 
The Association has encouraged USDA/FNS to publish a proposed rule 
transforming the WIC food packages by adding fresh, frozen and canned 
fruits and vegetables, among other changes proposed by the National 
Academy of Sciences Institutes of Medicine. NWA urges the Subcommittee 
to continue to press USDA/FNS for immediate publication of a proposed 
rule, reflecting the IOM's recommendations, with a minimum 90-day 
public comment period. The time for change in the WIC food packages is 
now if we are to continue to meet the challenges of ensuring healthy 
children and preventing obesity in low-income populations.
    NWA urges the Subcommittee to fully fund WIC for the fiscal year 
2007 at $5.388 billion, oppose the NSA and Medicaid caps, fund MIS at 
$30 million, fund breastfeeding initiatives at $15 million, fund 
infrastructure needs at $14 million, fully restore the WIC contingency 
fund to $125 million, continue the moratorium on new WIC-Only stores 
until State agencies are in full compliance with the Interim Final Rule 
on Vendor Cost Containment, and fund WIC health outcomes research at $3 
million.
    WIC is a short-term intervention program designed to influence 
lifetime nutrition behaviors and lifelong health outcomes in a 
targeted, high-risk population. It has an extraordinary, nearly 31-year 
record of preventing children's health problems and improving their 
health, growth and development. WIC children enter school ready to 
learn. They show better cognitive performance. It would be tragic to 
undo 32 years of success and reverse the President's own multi-year 
commitment to the families WIC serves.
                                 ______
                                 

              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the Subcommittee, I appreciate this 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2007 appropriations for Agriculture, Rural Development, 
Food and Drug Administration and Related Agencies. My name is Jimmie 
Powell and I am the Director of Government Relations at the 
Conservancy.
    The Nature Conservancy is an international, nonprofit organization 
dedicated to the conservation of biological diversity. Our mission is 
to preserve the plants, animals and natural communities that represent 
the diversity of life on Earth by protecting the lands and waters they 
need to survive. Our on-the-ground conservation work is carried out in 
all 50 states and in 27 foreign countries and is supported by 
approximately one million individual members. We have helped conserve 
nearly 15 million acres of land in the United States and Canada and 
more than 102 million acres with local partner organizations globally.
    Much of my testimony today will concern the pests, pathogens and 
other invasive species that threaten natural landscapes and working 
lands all across our Nation. These threats are urgent and it is most 
important that the federal government provide leadership now in 
addressing this growing threat to our economy and to the wildlife and 
plants of our continent.
    Asian Longhorned Beetle.--The Asian Longhorned Beetle kills a wide 
variety of hardwood trees, particularly sugar maple. ALB threatens to 
devastate forests reaching from New England to the Great Lakes. 
Currently the beetle is found primarily in New York City and New 
Jersey. APHIS, working with state, and local officials, is succeeding 
in a 10-year program to eradicate ALB. The President has proposed 
funding of $19.927 million in fiscal year 2007 as compared to the 
$19.859 million appropriated (after recision) in fiscal year 2006. We 
urge the Subcommittee to fund ALB at $30 million in fiscal year 2007, 
so that the ongoing efforts to eradicate this pest will succeed. 
Failure to eradicate the ALB exposes both urban and rural areas of 
northern states to substantial risk. If not stopped, ALB could kill 30 
percent of the Nation's urban trees at a compensatory value of $669 
billion. If it is unchecked, the New England maple syrup industry is 
threatened as well as autumn foliage tourism which generates $1 billion 
in revenue in New England every year.
    Cactus Moth.--The cactus moth kills prickly pear cacti. First found 
in Florida, the moth is rapidly moving along the Gulf Coast (currently 
it has traveled as far as Alabama). APHIS has bred a sterile cactus 
moth that may help control the spread of this pest. Control of the 
cactus moth before it disperses around the Gulf Coast would protect the 
vast diversity of prickly pear cacti in the southwestern United States 
and Mexico. There are 31 likely host prickly pear species (opuntia) for 
the moth across the United States (9 found nowhere else in the world), 
including the federally endangered Opuntia treleasei, and 56 in Mexico 
(38 found nowhere else in the world). Control would also protect 
agricultural interests. Horticultural production of prickly pears 
occurs in Arizona, California, Nevada, New Mexico, and Texas. Annual 
revenues for Arizona alone are estimated at $14 million. In drought 
years, ranchers in Texas have burned the spines off opuntias and fed 
them to cattle. Thus, the cactus moth presents both a critical 
ecological and agricultural threat. We urge you to fund eradication 
efforts at $1.5 million in fiscal year 2007 for a full sterile release 
program.
    Emerald Ash Borer.--The Emerald Ash Borer (EAB), an Asian native, 
was detected in 2002. Control programs began in 2003. The quarantine 
area now covers nearly 20,000 square miles in Michigan's Lower 
Peninsula and nearby areas in Indiana, Ohio, with additional areas in 
Ontario. At present, spread of the emerald ash borer to the Upper 
Peninsula, Illinois, and Wisconsin is partially prevented by the Great 
Lakes. However, if eradication efforts are not sufficiently aggressive, 
EAB will spread further south into Ohio and Indiana, and be carried to 
other vulnerable areas in the East and Midwest. Seven billion ash trees 
are at risk across the Nation, at an estimated cost of $282 billion. We 
urge the Subcommittee to provide APHIS with $55 million to contain the 
Emerald Ash Borer in fiscal year 2007. In fiscal year 2006, APHIS is 
spending only $9.93 million in appropriated funds. We support the 
efforts of Governors and other partners to obtain urgently needed 
emergency funds drawn from the Commodity Credit Corporation (CCC) to 
contain this beetle. Since funding must continue at this higher level 
for the program to succeed, it is important that the Congress 
appropriate $55 million in fiscal year 2007 and beyond.
    Sudden Oak Death.--Since 2000, APHIS has worked with California, 
Oregon, and other states to prevent the spread of Sudden Oak Death 
(SOD). This disease infects at least 40 native tree, shrub and herb 
species. The disease kills a variety of western and eastern oak trees. 
SOD has already killed one hundred thousand tanoaks, live oaks and 
black oaks in California. If SOD spreads into Oregon and Washington, it 
could severely disrupt production and movement of Douglas-fir seedlings 
used in replanting. If SOD spreads to the East, it is likely to kill 
large numbers of red oaks. Collectively the red and white oaks comprise 
38 percent of the Nation's total hardwood saw-timber volume.
    Containing Sudden Oak Death has become more challenging as the 
number of host plants has grown. The situation became a crisis in 2004 
when officials discovered that infected nursery plants had been shipped 
to more than 200 nurseries across the country. APHIS adopted highly 
restrictive regulations to prevent a recurrence of the 2004 crisis that 
are proving effective: in 2005, inspectors detected infected plants in 
56 nurseries, only 8 of which were not on the West Coast. In fiscal 
year 2007, at least $9 million is needed to ensure the continued 
efficacy of these regulations and curb the spread of this disease.
    Sirex Woodwasp.--This wood-boring insect native to Europe, Asia, 
and North Africa has been introduced into pine plantations in several 
countries in the Southern Hemisphere where it caused serious damage 
before the release of a biological control agent reduced the problem. 
The wasp has now become established in New York and Ontario. According 
to the USDA Forest Service, if the Sirex woodwasp is allowed to spread, 
within 55 years it could cause damage ranging from $3 billion to $17 
billion to U.S. pine timber and pulp production, primarily in the 
South. To forestall these damages, APHIS must implement regulations to 
prevent movement of infested material while expediting the safety 
review required before any release in North America of the biological 
control agent. We anticipate that APHIS will need several million 
dollars for this new activity.
    USDA Agriculture Research Service.--The Conservancy urges the 
Subcommittee to provide funding for the Agricultural Research Service 
(ARS) to study possible biological control agents targeting two insects 
that threaten the unique cycad forests of Guam. The Asian cycad scale 
and cycad blue butterfly--both individually and together--are on track 
to destroy these forests. ARS staff at the Ft. Pierce, Florida 
laboratory should receive funds to identify and test possible 
biological control agents targeting these two harmful insects. 
Additional funds are needed for staff on Guam.
    Noxious Weed Control and Eradication Act.--We respectfully request 
$15 million to fully implement the Noxious Weed Control and Eradication 
Act of 2004, enacted by the 108th Congress. As control and management 
of invasive species are important for agriculture, natural areas, 
forestry, and rangeland, this effort has strong bipartisan support. 
This issue is vital to the health of the Nation's economy and 
ecosystems. Funding for this program now will save money in the long-
term.
    Pest and Disease Management Programs.--APHIS provides technical and 
financial support to help control or eradicate a variety of threats to 
our agricultural and natural systems. In an attempt to further combat 
pest and disease outbreaks and problems the Administration has proposed 
a $10 million pilot competitive-bid program to award grants to private 
groups who can respond to invasive species with innovative 
methodologies. It has been noted that a major obstacle to APHIS' 
ability to rapidly respond to infestations is that there is no national 
system that addresses all types of invasive species infestations--those 
affecting aquatic areas, rangelands, and forests as well as crops and 
livestock. With this pilot program the agency may be able to increase 
its effectiveness with invasive species by including the early 
involvement of on the ground groups who recognize the urgent need for 
rapid response, active involvement, and can bring with them pioneering 
and resourceful tactics.
    Wetlands Reserve Program.--America's wetlands are the habitat for 
thousands of species of wildlife, and up to half of all North American 
bird species nest or feed in wetlands and about half of all threatened 
and endangered species use wetlands. In addition, our wetlands help to 
trap pollution, reduce the impact of floods, stabilize shore areas, and 
provide recreational opportunities. President Bush has committed to 
increasing the number of wetland acres in the United States and has 
requested full funding for the Wetlands Reserve Program (WRP) in his 
fiscal year 2007 budget request. Full funding of WRP would allow for 
enrollment of 250,000 acres in 2007, the full yearly authorized amount 
in the 2002 Farm Bill. WRP is the key component in meeting the 
president's promise to create, improve and protect at least 3 million 
wetland acres over a 5-year period that ends in 2009.
    Another very effective program administered under WRP, is the 
Wetlands Reserve Enhancement Program (WREP), which uses existing 
authority to enhance the delivery of WRP. Specifically, WREP provides 
an avenue for NRCS to form special partnerships with States, local 
governments, and non-profit organizations to improve and expand the 
delivery of WRP through easement acquisition and activities associated 
with wetland restoration, creation, or enhancement. We are pleased to 
see NRCS using this tool to direct funding to locally initiated and led 
projects that achieve maximum environmental benefits while remaining 
cost-effective and leveraging non-Federal funds. We fully support the 
expanded use of this program and propose that with an increased funding 
level for WRP, NRCS be encouraged to expand its financial assistance 
available for WREP.
    Wildlife Habitat Incentive Program.--The Wildlife Habitat Incentive 
Program (WHIP) is a highly-effective and widely-accepted program across 
the country. WHIP is able to target wildlife habitat projects on all 
lands and aquatic areas, and provides assistance to conservation-minded 
landowners to develop and improve wildlife habitat on their lands. We 
recommend that the committee support the President's program request 
for an increase of $12 million over the 2006 level. The Conservancy 
supports the NRCS proposal to target $10 million to improve migratory 
fish habitats by removing obstructions from rivers, such as small 
private dams and water diversions. This focus will help to create 
incentives to protect streamside areas, repair instream habitat, 
improve water flows and water quality, or initiate watershed management 
and planning in areas where streams are in a degraded condition due to 
past practices.
    Conservation Reserve Program.--The Conservancy has been a strong 
supporter of USDA's Conservation Reserve Program (CRP) and supports the 
full authorized enrollment of 39 million acres. Roughly 35 million 
acres across the country are under short term CRP rental agreements, 
and beginning in 2007, contracts representing over 22 million acres 
will expire, over 62 percent of those acres. USDA's Farm Service Agency 
(FSA) is currently deciding how to handle this large number of expiring 
contracts and additional acres, as well.
    Few environmental programs have matched the scope and achievement 
of CRP. Since its inception in 1986, the program has been responsible 
for reducing soil erosion by nearly 40 percent and restoring the 
grassland and wetland communities of the Great Plains. However, there 
is still so much more that the program could accomplish. We urge the 
committee to direct USDA to increase CRP's environmental benefits by: 
(1) better targeting CRP enrollments; (2) enhancing the management of 
CRP lands; and (3) assuring that inappropriate cover plantings are not 
encouraged by the program. In order to achieve these higher 
environmental benefits, FSA will need to update and improve the 
Environmental Benefits Index (EBI). Proper management of CRP lands and 
improved targeting of CRP contracts to attain the highest conservation 
goals will require increased funding for the agency as it prepares for 
huge reenrollment that it now faces.
                                 ______
                                 

   Prepared Statement of the New Mexico Interstate Stream Commission

                                SUMMARY

    This Statement is submitted in support of appropriations for the 
U.S. Department of Agriculture's Environmental Quality Incentives 
Program (EQIP) and the Colorado River Basin Salinity Control Program. 
Prior to the enactment of the Farm Security and Rural Investment Act 
(FSRIA) in 2002, the salinity control program had not been funded at 
the level necessary to control salinity with respect to water quality 
standards since the enactment of the Federal Agriculture Improvement 
and Reform Act (FAIRA) of 1996. Inadequate funding of the salinity 
control program also negatively impacts the quality of water delivered 
to Mexico pursuant to Minute 242 of the International Boundary and 
Water Commission. Adequate funding for EQIP, from which the U.S. 
Department of Agriculture (USDA) funds the salinity program, is needed 
to implement salinity control measures. The President's budget for 
fiscal year 2007 requests an appropriation of $1 billion for EQIP. I 
urge the Subcommittee to support an appropriation of at least $1 
billion to be appropriated for EQIP. I request that the Subcommittee 
designate 2.5 percent, but no less than $20 million, of the EQIP 
appropriation for the Colorado River Basin salinity control program. I 
request that adequate funds be appropriated for technical assistance 
and education activities directed to salinity control program 
participants.

                               STATEMENT

    The seven Colorado River Basin States, in response to the salinity 
issues addressed by Clean Water Act of 1972, formed the Colorado River 
Basin Salinity Control Forum (Forum). Comprised of gubernatorial 
appointees from the seven Basin States, the Forum was created to 
provide for interstate cooperation in response to the Clean Water Act, 
and to provide the States with information to comply with Sections 
303(a) and (b) of the Act. The Forum has become the primary means for 
the seven Basin States to coordinate with Federal agencies and Congress 
to support the implementation of the Salinity control program.
    Congress authorized the Colorado River Basin salinity control 
program in the Colorado River Basin Salinity Control Act of 1974. 
Congress amended the Act in 1984 to give new responsibilities to the 
USDA. While retaining the Department of the Interior as the lead 
coordinator for the salinity control program, the amended Act 
recognized the importance of the USDA operating under its authorities 
to meet the objectives of the salinity control program. Many of the 
most cost-effective projects undertaken by the salinity control program 
to date have occurred since implementation of the USDA's authorization 
for the program.
    Bureau of Reclamation studies show that damages from the Colorado 
River to United States water users are about $330,000,000 per year. 
Damages are estimated at $75,000,000 per year for every additional 
increase of 30 milligrams per liter in salinity of the Colorado River. 
It is essential to the cost-effectiveness of the salinity control 
program that USDA salinity control projects be funded for timely 
implementation to protect the quality of Colorado River Basin water 
delivered to the Lower Basin States and Mexico.
    Congress concluded, with the enactment FAIRA in 1996, that the 
salinity control program could be most effectively implemented as a 
component of EQIP. However, until 2004, the salinity control program 
since the enactment of FAIRA was not funded at an adequate level to 
protect the Basin State-adopted and Environmental Protection Agency 
approved water quality standards for salinity in the Colorado River. 
Appropriations for EQIP prior to 2004 were insufficient to adequately 
control salinity impacts from water delivered to the downstream States, 
and hampered the required quality of water delivered to Mexico pursuant 
to Minute No. 242 of the International Boundary and Water Commission, 
United States and Mexico.
    EQIP subsumed the salinity control program without giving adequate 
recognition to the responsibilities of the USDA to implement salinity 
control measures per Section 202(c) of the Colorado River Basin 
Salinity Control Act. The EQIP evaluation and project ranking criteria 
target small watershed improvements which do not recognize that water 
users hundreds of miles downstream are significant beneficiaries of the 
salinity control program. Proposals for EQIP funding are ranked in the 
States of Utah, Wyoming and Colorado under the direction of the 
respective State Conservationists without consideration of those 
downstream, particularly out-of-state, benefits.
    Following recommendations of the Basin States to address the 
funding problem, the USDA's Natural Resources Conservation Service 
(NRCS) designated the Colorado River Basin an ``area of special 
interest'' including earmarked funds for the salinity control program. 
The NRCS concluded that the salinity control program is different from 
the small watershed approach of EQIP. The watershed for the salinity 
control program stretches almost 1,200 miles from the headwaters of the 
river through the salt-laden soils of the Upper Basin to the river's 
termination at the Gulf of California in Mexico. NRCS is to be 
commended for its efforts to comply with the USDA's responsibilities 
under the Colorado River Basin Salinity Control Act, as amended. 
Irrigated agriculture in the Upper Basin realizes significant local 
benefits of improved irrigation practices, and agricultural producers 
have succeeded in submitting cost-effective proposals to NRCS.
    Years of inadequate Federal funding for EQIP since the 1996 
enactment of FAIRA and prior to 2004 resulted in the Forum finding that 
the salinity control program needs acceleration to maintain the water 
quality criteria of the Colorado River Water Quality Standards for 
Salinity. Since the enactment of FSRIA in 2002, an opportunity to 
adequately fund the salinity control program now exists. The 
President's budget request of $1 billion accomplishes the needed 
acceleration of the NRCS salinity control program if the USDA continues 
its practice of designating 2.5 percent of the EQIP funds appropriated. 
The requested funding of 2.5 percent, but no less than $20 million, of 
the EQIP funding will continue to be needed each year for at least the 
next few fiscal years.
    State and local cost-sharing is triggered by and indexed to the 
Federal appropriation. Federal funding for the NRCS salinity control 
program of about $19.5 million for fiscal year 2006 has generated about 
$15.8 million in cost-sharing from the Colorado River Basin States and 
agricultural producers, or more than an 80 percent match of the Federal 
funds appropriated for the fiscal year.
    USDA salinity control projects have proven to be a most cost-
effective component of the salinity control program. USDA has indicated 
that a more adequately funded EQIP program would result in more funds 
being allocated to the salinity program. The Basin States have cost-
sharing dollars available to participate in on-farm salinity control 
efforts. The agricultural producers in the Upper Basin are willing to 
cost-share their portion and are awaiting funding for their 
applications to be considered.
    The Basin States expend 40 percent of the state funds allocated for 
the program for essential NRCS technical assistance and education 
activities. Previously, the Federal part of the salinity control 
program funded through EQIP failed to adequately fund NRCS for these 
activities, which has been shown to be a severe impediment to 
accomplishing successful implementation of the salinity control 
program. Recent acknowledgement by the Administration that technical 
assistance and education activities must be better funded has 
encouraged the Basin States and local producers that cost-share with 
the EQIP funding for implementation of the essential salinity control 
work. I request that adequate funds be appropriated to NRCS technical 
assistance and education activities directed to the salinity control 
program participants (producers).
    I urge the Congress to appropriate at least $1 billion in fiscal 
year 2007 for EQIP. Also, I request that Congress designate 2.5 
percent, but no less than $20 million, of the EQIP appropriation for 
the Colorado River Basin salinity control program.
                                 ______
                                 

     Prepared Statement of the US Marine Shrimp Farming Consortium

    Mr. Chairman, we greatly appreciate the opportunity to provide 
testimony to you and the Subcommittee, to thank you for your past 
support, and to discuss the achievements and opportunities of the US 
Marine Shrimp Farming Consortium(USMSFC), funded under the Federal 
initiative, Shrimp Aquaculture.
    We bring to your attention the success of the US Marine Shrimp 
Farming Consortium and its value to the Nation. The Consortium consists 
of institutions from 7 States: the University of Southern Mississippi/
Gulf Coast Marine Laboratory, Mississippi; the Oceanic Institute, 
Hawaii; Tufts University, Massachusetts; Texas Agricultural Experiment 
Station, Texas A&M University, Texas; Waddell Mariculture Center, South 
Carolina; the University of Arizona, Arizona; and Nicholls State 
University, Louisiana. These institutions, which oversee the USMSFC, 
have made major advances in technology development and services to 
support the U.S. shrimp farming industry. The USDA in its 2004 program 
review recognized the program's excellent scientific performance, 
output, and multi-state collaborative efforts. The Consortium is at the 
crossroads of contributing to major growth of the U.S. shrimp farming 
industry, consolidating its competitive advantages, and satisfying 
consumer's demands for safe and wholesome seafood products. Shrimp is 
the number one consumed seafood product in the United States, yet 
contributes to a $3.6 billion trade deficit, second only to the import 
of oil for the deficit contributed by natural resource products.
Accomplishments
    The Consortium, in cooperation with private industry, industry 
associations, and government agencies has generated new technologies 
for producing safe and premium quality marine shrimp at competitive 
prices. To date, the program has: (1) established the world's first and 
currently most advanced breeding and genetic selection program for 
marine shrimp; (2) completed pioneering research and development of 
advanced diagnostic tools for disease screening and control; (3) 
described the etiology of shrimp diseases associated with viral 
pathogens; (4) fostered shrimp production at near-shore, inland/rural 
farm and even desert sites; (5) served a lead role in the Joint 
Subcommittee on Aquaculture's efforts to assess the threat of globally 
transported shrimp pathogens; (6) served on the Office of International 
Epizootics, recommending country-of-origin labeling of imported shrimp 
products to combat the spread of exotic disease pathogens, subsequently 
adopted by the USDA in its 2002 Farm Bill; (7) supplied the United 
States industry with selectively bred and disease-resistant shrimp 
stocks; (8) developed advanced technology for biosecure shrimp 
production systems to protect both cultured and native wild stocks from 
disease; and (9) developed new feed formulations to minimize waste 
generation and enhance the use of domestic grains and oilseed products. 
These substantial accomplishments advance the continued growth of the 
domestic industry place an important emphasis on environmental 
sustainability, address concerns for the safety and quality of our 
seafood supply, and increase market competitiveness.
    Judging from the State of the industry today, USMSFC efforts 
continue to have measurable positive effect. Coastal farming continues 
to lead in the production of cultured shrimp in the United States, 
inland farming has added new dimensions and growth to the industry, and 
super-intensive production approaches are gaining momentum. 
Improvements in farm management practices coupled with the widespread 
use of disease-resistant stocks have resulted in bumper crops for the 
industry over the last several years.
    With reliable production in place, we have also seen a commensurate 
geographic expansion of the industry within the United States from 
three to seven States in the last 10 years. A broader industry base, 
while increasing production through the addition of new farms, also 
provides additional protection to the industry by geographically 
isolating different regional sectors in the event of disease outbreaks 
or natural disaster. Significant amounts of shrimp are now being 
produced in Texas, South Carolina, Florida, Hawaii, Arizona, Alabama, 
and Arkansas. Several other States are now beginning to explore 
production with the newer, super-intensive technologies being 
developed.
    In addition, the recent and growing worldwide switch to use of 
specific pathogen free (SPF) L. vannamei has created tremendous 
opportunity for U.S. shrimp broodstock suppliers. This switch has been 
caused by diseases overseas which have affected wild broodstock 
animals, lowering overall yield and profitability. The SPF concept for 
shrimp, pioneered by the USMSFC, has now been accepted worldwide and 
U.S. broodstock suppliers are being overwhelmed by orders for their 
stocks. For instance, in 2004, the State of Hawaii gave its exporter of 
the year award to a local company specializing in shrimp broodstock. 
Estimates are the world market for SPF stocks can reach near $90 
million yearly.
Industry Vulnerability
    While exceptional progress has been made, this emerging industry is 
continually confronted with new challenges. The industry depends on the 
USMSFC for leadership and innovative technology development. As a 
result of development of high-health and improved stocks, disease 
diagnosis, new feeds, and new production technologies and farming 
approaches, the domestic industry has maintained relative stability, 
while other countries have had major losses in their production due to 
diseases and environmental problems. Disease losses due to exotic 
viruses in Asia and Latin America during the past 6 years have 
approached $6 billion USD.
    Diseases present in imported commodity shrimp products threaten not 
only the emerging domestic shrimp farming industry, but also the 
Nation's native shrimp stocks. During 2004, limited disease outbreaks 
did occur in Texas and Hawaii that were caused by a breakdown in 
biosecurity protocols against imported shrimp products. A quick 
response of the USMSFP, working in concert with the USDA's Animal and 
Plant Health Inspection Services and other agencies in the State of 
Texas, helped identify and isolate these outbreaks, limit the spread, 
and minimize the loss in production nationwide. There were no 
reoccurrences or outbreaks of other disease in 2005.
    While significant progress has been made in risk assessment and 
risk management with visible success, the industry and the USMSFC must 
remain constantly vigilant and proactive to further improve global 
competitiveness. In addition to providing significant input on the 
development of national and international regulatory standards for 
shrimp farmers, important service work for governmental agencies and 
NGOs keeps us continuously apprised of new developments pertaining to 
emerging regulations so that USMSFC research plans can be kept 
proactively responsive to dynamic shifts in industry needs.
    The overwhelming threat facing the U.S. marine shrimp farming 
industry today is the significant decline in market prices for domestic 
shrimp due to a surge of foreign imports over the last 3 years. The 
decline has also seriously threatened the domestic shrimp harvest 
industry. Average U.S. farm gate prices have fallen 40 percent since 
then, constraining profitability and plans for industry expansion. 
Anti-dumping tariffs imposed in February 2005 have not nor are 
forecasted to stem the tide of rising imports, or improve domestic 
shrimp prices as intended. Affected buyers and distributors have 
largely absorbed those costs or producers have switched to product 
forms not covered by the tariffs. Moreover, other countries not named 
on the order have filled any voids with increased imports into the 
United States.
    Concerns also have been heightened over food safety issues 
associated with unregulated use of antibiotics and fecal-borne 
contaminants due to questionable production practices in certain 
countries. Further, due to disease outbreaks worldwide, several foreign 
countries have switched production to the dominant species in the 
United States, eroding a previous competitive advantage. While it is 
important that a level playing field be created through reexamination 
of trade and food safety issues, more technologically advanced and 
innovative approaches are now critically needed to leverage U.S. 
industry gains, create competitive advantage, and improve 
profitability. Innovative ways need to be sought to offset low prices 
and to distinguish and add value to the domestic product to provide a 
competitive edge in the marketplace and to ensure the safety of the 
domestic seafood supply.
Industry Independence
    In fact, despite recent price and profitability trends, investor 
confidence is rising as a result of the work of the Consortium. New 
farms are emerging utilizing new and improved technologies, while 
others are working in cooperation with the Consortium on more advanced 
approaches that are nearing fruition. In addition to supporting today's 
industry, our advanced, high-density biosecure shrimp production 
systems are now developed to the point for further expansion of shrimp 
farming into near-shore, inland/rural and desert sites away from the 
environmentally sensitive coastal zone. We now have in place the 
economic models that will appropriately direct research to ensure 
economic viability, taking in consideration all associated biological, 
regional, and economic risk factors. Importantly, these new production 
technologies produce the highest quality and safest shrimp, utilize 
U.S. grain and oilseed products for feed production, and do not pose 
any threat to the environment. These important traits of an evolving 
domestic industry can be exploited to gain competitive edge, offset 
declining prices, and ensure the quality and safety of shrimp for the 
consumer. Clearly, the U.S. shrimp farming industry has emerged solid 
from near collapse in the early 1990s, and appears well poised for a 
new phase of growth, provided the technologies and innovations are in 
place to support a larger, more diverse, and more competitive domestic 
industry for the new millennium.
    To support existing efforts and technology transfer and plans for 
new dimensions to the research to address recent profitability issues, 
an increase in the current funding level from $4.158 million to $6 
million is requested. The increase will be used to: strengthen the 
Consortium's biotechnology and molecular capabilities and activities to 
support rapid and more advanced disease monitoring and genetic 
selection efforts; accelerate the development of new genetic lines for 
market advantage; advance high-density production prototypes to 
commercial-scale testing; determine the mechanisms of disease immunity 
in shrimp for protection of both farmed and wild shrimp stocks; and 
address niche market technologies for competitive advantage. In 
addition to these needed technological innovations, increased funding 
will support new efforts to promote institutional innovations that will 
enable expansion and vertical integration of the domestic industry, 
including examination of regulatory impediments to shrimp aquaculture; 
the effect of farm insurance; development of cooperatives; and the 
socioeconomics of existing and advanced, high-density production 
systems.
    Mr. Chairman, the U.S. shrimp farming industry and our Consortium 
deeply appreciate the support of the Committee and respectfully ask for 
a favorable consideration of this request.
                                 ______
                                 

  Prepared Statement of the Organic Farming Research Foundation (OFRF)

    The Organic Farming Research Foundation (OFRF) has received support 
from the following federal grants and contracts during the period 
October 1, 2002 to present.
environmental protection agency (epa) strategic agriculture initiative 
       (sai) grants under the food quality protection act (fqpa)
REGION 9
    Grant Agreement: X-97901601-0
    Project Title: Organic Farming Research for Alternative Weed and 
Pest Management
    Project Period: 10/01/2001--12/31/2003 amended to 6/30/2005
    This assistance agreement provided full Environmental Protection 
Agency (EPA) funding in the amount of $84,000. The project supported 
limited research in EPA Regions 8, 9 and 10 that investigated pest and 
weed management in organic farming systems to develop alternative 
approaches for managing pests and weeds without relying on agricultural 
chemicals.

    Grant Agreement: X-97935601-0
    Project Title: Pest and Weed Management
    Project Period: 11/01/2001--12/31/2004
    This assistance agreement provided full Environmental Protection 
Agency (EPA) funding in the amount of $10,430. The project supported 
investigation and development of pest and weed management methods in 
organic farming systems for a variety of crops in EPA Region 9 to 
develop alternatives to synthetic agricultural chemicals.

REGION 5
    Grant Agreement: X8-96562001-0
    Project Title: Organic Farming Research Foundation
    Project Period: 10/01/2004--9/30/2006
    Environmental Protection Agency (EPA) funds in the amount of 
$30,000 would be distributed through a competitive grants program for 
projects that investigate organic pest control alternatives to 
chemicals being reviewed under the Food Quality Protection Act. The 
Organic Farming Research Foundation proposed to use EPA funding to 
support research on organic farming practices for weed and insect pest 
management in IL, IN, MI, MN, OH, and WI and tribal Nations.

    Grant Agreement: X8-96562001-1
    Project Title: Organic Farming Research Foundation
    Project Period: 10/01/2004--9/30/2006
    Environmental Protection Agency (EPA) funds in the amount of 
$30,000 would be distributed through a competitive grants program for 
projects that investigate organic pest control alternatives to 
chemicals being reviewed under the Food Quality Protection Act. The 
Organic Farming Research Foundation proposed to use EPA funding to 
support research on organic farming practices for weed and insect pest 
management in IL, IN, MI, MN, OH, and WI and tribal Nations.
REGION 8
    Grant Agreement: X8-97815401-0
    Project Title: Surveys, Studies, Investigations
    Project Period: 10/01/2004--9/30/2006
    Environmental Protection Agency (EPA) funds in the amount of 
$40,000 support research on organic farming practices for weed and 
insect pest management in CO, MT, ND, SD, UT, WY, and 27 Tribal 
Nations. Funds are channeled through OFRF's competitive grants program 
for projects that investigate organic pest control alternatives to 
chemicals being reviewed under the Food Quality Protection Act.
 united states department of agriculture (usda)/initiative for future 
                  agriculture and food systems (ifafs)
    Subcontract RF740050 under the USDA/IFAFS Award Number: 00-52101-
9691
    Project Title: Revitalizing Small and Mid-Sized Farms: Organic 
Research, Education, and Extension
    Project Period: 9/15/2000--9/30/2004 amended to 9/30/2005
    USDA/IFAFS funding in the amount of $221,038 to establish a 
consortium of universities, non-profit and grassroots farmers 
organizations that will revitalize small and mid-sized family farms by 
integrating multidisciplinary research, education, and extension of 
organic agriculture. The goal is to catalyze new opportunities for 
farmers including niche marketing of high-value horticultural and 
agronomic crops by expanding existing organic agriculture programs at 
three land grant institutions.
    I, Brise Tencer, am submitting this testimony on behalf of the 
Board of Directors of the Organic Farming Research Foundation (OFRF) to 
detail our recommendations and requests for funding of several USDA 
marketing, research, and conservation programs of importance to organic 
agriculture.
    The Organic Farming Research Foundation is a non-profit whose 
mission is to sponsor research related to organic farming practices, to 
disseminate research results to organic farmers and to growers 
interested in adopting organic production systems, and to educate the 
public and decision-makers about organic farming issues.
    As you prepare your appropriations priorities for the fiscal year 
2007 Agriculture, Rural Development and Related Agencies Appropriations 
bill, we request your support for the following organic programs. 
Development of organic production effectively serves USDA strategic 
objectives for environmental quality, human health and nutrition, and 
agricultural trade. Organic agriculture has experienced extraordinary 
growth over the last decade; the International Trade Center (UNCTAD/
WTO) estimates that organic products represent 2-2.5 percent of total 
U.S. retail food sales. Because organic production improves 
profitability and market access, it is a desirable alternative for many 
producers and represents an important opportunity for growth in U.S. 
agriculture. The organic sector is extremely diverse in scale, 
technology, and market chains. Both ends of the scale spectrum are 
experiencing vibrant growth. The modest funding levels requested below 
will help these trends continue while providing a cost effective way to 
create positive returns for the environment and our economy.
                   usda agricultural research service
$10 Million for Strategic Regional Programming for Organic Agricultural 
        Research
    In 2005, USDA-ARS spent about $3.5 million on organic-specific 
projects, or about .35 percent of $1 billion fiscal year 2005 ARS 
expenditures. Under a 2 percent ``fair share'' framework, the ARS would 
have generated about $20 million for organic research in its budget. 
The 2004 and 2005 appropriations omnibus bills contained language 
urging ARS to direct an increased amount of resources to organic. This 
report language was not a mandate and no significant increases in 
organic expenditures have been seen over the last several years.
    For fiscal year 2007, OFRF recommends $10 million for Strategic 
Regional Programming for Organic Agricultural Research. This funding 
would be part of an overall package of $10 million total that would be 
distributed among the 8 Regional Areas (and the National Agricultural 
Library). Regional distribution of funds would provide flexibility to 
address the needs and opportunities of the organic production and 
processing sector. This approach would make progress towards the ``fair 
share'' goal and provide a bridge to the evolution of a national 
program for organic research. Funding will be allocated by the Area 
Directors (with stakeholder input) to (1) Maintain and enhance existing 
CRIS projects, scientists and technicians whose objectives are specific 
to organic production and processing; and (2) Provide support to 
integrate organic agriculture objectives into other projects and 
partnerships, where such capacity exists and when the objectives meet 
priority needs (e.g., as identified by the ARS National Organic 
Workshop held January, 2005 in Austin, Texas). The attached addendum to 
this request provides additional information about regional needs.
    usda cooperative state research education and extension service
Organic Transitions Program: $5 million
    Over the last few years the Organic Transition research program has 
become one of the most competitive of the USDA CSREES integrated grant 
programs. Because of the high level of interest in this program, only 
about 10 percent of qualified applicants have been able to receive 
funding (compared to 19-29 percent of qualified applicants that receive 
funding in comparable grants programs at the USDA CSREES). We expect 
interest in this program to continue to grow. Expansion of this program 
should focus on a higher number of smaller grants. Also, it is 
important that this program keeps its own identity and not be 
incorporated into the National Research Initiative (NRI). We ask the 
committee to increase funding for Organic Transition program to $5 
million in 2007 and for it to remain as part of the Integrated Organic 
Program, distinct from the National Research Initiative.
National Research Institute (NRI): 30 percent directed to goals of the 
        Initiative for Future Food and Agricultural Systems (IFAFS)
    The IFAFS program has provided an important source of research 
funds for projects relevant to organic growers. The appropriation bills 
between fiscal year 2003 to fiscal year 2006 each prohibit USDA from 
spending money for IFAFS, but directed the Department to spend a 20 
percent subset of the National Research Initiative competitive grants 
program ``under the same terms and conditions'' as IFAFS. For fiscal 
year 2007 we support the President's request that 30 percent of NRI be 
directed to IFAFS goals. Additionally, we request the Committee include 
report language directing the USDA CSREES to direct a significant 
portion of these funds to organic research (including trade and 
economic policy topics) within the following program areas: Managed 
Ecosystems and Small and Mid sized Farm Viability and Rural 
Entrepreneurship through inclusion of language soliciting applications 
on organic research topics in the NRI requests for applications.
Sustainable Agriculture Research and Education (SARE): Chapter 1: $15 
        million, Chapter 3: $5 million
    SARE funds farmer-driven research and outreach on profitable, 
environmentally sound farming practices, including organic production. 
SARE's solid track record, regional structure, and close links between 
research and outreach mean that farmers nationwide get reliable 
information they need on how to stay in business while being 
environmentally responsible. In 2005 the SARE program was funded at 
Chap 1: $9.2 million, Chap 3: $3.8 million. For 2007 we seek $15 
million, $5 million for Chapters 1 and 3, respectively.

                     USDA ECONOMIC RESEARCH SERVICE

Organic Production and Marketing Data Collection: $750,000
    Because increased ability to conduct economic analysis for the 
organic farming sector is greatly needed, we request $750,000 be 
appropriated to the USDA Economic Research Service to implement the 
``Organic Production and Market Data Initiative'' included in Section 
7407 of the 2002 farm bill.

          USDA NATIONAL AGRICULTURE STATISTICS SERVICE (NASS)

Census follow up--Organic Grower Survey: $1 million
    Unlike other sectors of agriculture, the organic industry has 
suffered from a lack of data collection and analysis, which has limited 
producers' ability to respond to market trends. The USDA NASS is 
currently in the process of developing the 2007 agricultural census. 
Although they are making an effort to expand the quantity of organic 
questions in the census, they will need to conduct a follow up survey 
in order to collect more in-depth information on acreage, yield/
production, inventory, production practices, sales and expenses, 
marketing channels, and demographics. We request $1 million be 
appropriated to the USDA National Agriculture Statistics Service for 
collection of organic price information, authorized by the ``Organic 
Production and Market Data Initiative'' included in Section 7407 of the 
2002 farm bill.

                  USDA AGRICULTURAL MARKETING SERVICE

Organic Price Collection: $1 million
    Wholesale and retail price information is critical to farmers and 
ranchers, but organic producers have fewer resources for price 
information than conventional producers. Organic price information is 
particularly important for insuring that organic producers receive 
appropriate payment from Federal crop insurance when they incur a loss. 
We request $1 million be appropriated to the USDA Agricultural 
Marketing Service for collection of organic price information, 
authorized by the ``Organic Production and Market Data Initiative'' 
included in Section 7407 of the 2002 farm bill.
Organic Certification Cost Sharer: $1.5 million
    For small to medium scale producers and handlers, the cost of 
organic certification can be a significant impediment to entry into the 
USDA Organic Program. The cost of the program are not confined to 
initial certification, in fact many small and medium sized producers 
often cite the ongoing annual cost burden of maintaining organic 
certification as an obstacle to staying in the USDA National Organic 
Program. The Organic Certification Cost Share Program was created to 
ease the cost burden of certification by providing up to 75 percent (to 
a maximum of $500) of certification costs, but the $5 million provided 
in the 2002 Farm Bill has now been expended at the Federal level 
(although a few states have some residual funding which they are still 
in the process of dispersing to producers or handlers). We urge the 
committee to direct $1.5 million in funds of the Commodity Credit 
Corporation as a stopgap measure to continue the National Organic 
Certification Cost Share Program authorized in Section 10606 of the 
2002 Farm Bill.
Organic Standards: $3.13 million
    The national organic standards, which have been in effect since 
October 31, 2002, provide a uniform national standard for the term 
``organic'' that ensures consumer confidence in American organic 
products. The rules, however, will have little effect unless it is 
properly enforced thereby protecting both consumers and producers of 
organic products. Additional funding is needed to investigate 
complaints, on-site auditing of certifiers (for accreditation 
purposes), and certifier training programs. In fiscal year 2005, 
Congress appropriated $2 million to AMS for Organic Standards. For 
2007, we support the President's request of $3.13 million to expand 
enforcement and compliance of the National organic standards. 
Additionally, we request the following report language be included: 
``The Committee is encouraged that the Agency has hired an Executive 
Director for the National Organic Standards Board (NOSB), as well as a 
new Director for the National Organic Program. The Committee also notes 
that the audits performed by the American National Standards Institute 
(ANSI) in 2004 and by the USDA Office of Inspector General (OIG) in 
2005 made strong recommendations about changes needed in the 
administration of the National Organic Program. The Committee expects 
the Agency to take the necessary actions to comply with these 
recommendations, and to provide a written report to the Committee by 
December of 2006 regarding the progress in implementing these 
recommendations. In addition, the Committee expects to be kept abreast 
of the complaints that the NOP has received about violations of the 
organic standards, and the progress of the Agency in investigating and 
responding to those complaints. Finally, the Committee expects the NOP 
to work closely with the NOSB to implement the Peer Review Panel 
requirements of OPFA and USDA's organic regulations.''

              USDA NATURAL RESOURCES CONSERVATION SERVICE

Conservation Security Program (Csp): Full Funding
    The Conservation Security Program is a comprehensive stewardship 
incentives program that provides financial and technical assistance to 
farmers and ranchers nationwide to reward them for creating public 
benefits such as clean water, clean air, wildlife habitat, and long-
term carbon storage. Such assistance is of particular importance to the 
organic producers, many of whom already implement practices outlined in 
this program. We seek full funding for the CSP as a nationwide 
conservation entitlement program.
Environmental Quality Incentives Program (Equip): Language supporting 
        incentive payments for transitioning to organic production
    The Environmental Quality Incentives Program (EQIP) is a voluntary 
conservation program for farmers and ranchers that promotes 
agricultural production and environmental quality as compatible 
national goals. EQIP offers financial and technical help to assist 
eligible participants install or implement structural and management 
practices on eligible agricultural land.
    Incentive payments may be provided for up to three years to 
encourage producers to carry out management practices they may not 
otherwise use without the incentive. Some states, including 
Massachusetts, Montana, and Minnesota have used incentive payments to 
support producers transitioning to organic production. These transition 
incentives payment programs assist farmers who choose to convert new 
acreage to organic production. To qualify, farmers must apply at their 
local NRCS offices, file organic system plans, and be inspected by a 
USDA-accredited certifying agent. We urge the Committee to encourage 
more states to make such programs available by adding language that 
says: ``funds may be used for incentive payments for transition to 
organic production''.

                USDA RURAL BUSINESS-COOPERATIVE SERVICE

Appropriate Technology Transfer for Rural Areas (ATTRA): $3.9 million
    ATTRA, is a national sustainable agriculture information service 
managed by the National Center for Appropriate Technology. It provides 
information and other technical assistance to farmers, ranchers, 
Extension agents, educators, and others involved in sustainable 
agriculture in the United States. The ATTRA website receives hundreds 
of thousands of visitors annually. Often written in response to 
questions from organic farmers, the ATTRA publications cover specific 
issues about the most widely produced organic crops. With the continued 
rapid growth of the organic industry, we anticipate an increase in 
demand for ATTRA services in the coming year. Because ATTRA 
specifically provides accurate and up-to-date technical information 
relating to organic agricultural practices we request that it be funded 
at $3.9 million.
    Thank you for your consideration of these requests. Supporting 
organic agriculture, by appropriating adequate funding for these 
programs provides critical, cost-effective benefits for U.S. producers 
and consumers.
                                 ______
                                 

     Prepared Statement of the Organization for the Promotion and 
           Advancement of Small Telecommunications Companies

                           SUMMARY OF REQUEST

    The Organization for the Promotion and Advancement of Small 
Telecommunications Companies (OPASTCO) seeks the Subcommittee's support 
for fiscal year 2007 loan levels for the telecommunications loans 
program administered by the Rural Utilities Service (RUS) in the 
following amounts:

                          [Millions of dollars]
------------------------------------------------------------------------

------------------------------------------------------------------------
5 percent hardship loans................................             145
Treasury rate loans.....................................             250
Guaranteed loans........................................         \1\ 300
------------------------------------------------------------------------
\1\ Note: The $300 million requested for guaranteed loans includes $175
  million in funding that was previously available through the Rural
  Telephone Bank (RTB). The dissolution of the RTB necessitates
  additional funds for RUS telecommunications loans in order to maintain
  the level of funds available to rural telecommunications borrowers.

    In addition, OPASTCO requests that the distance learning, 
telemedicine, and broadband program be funded at sufficient levels.
    OPASTCO is a national trade association of approximately 550 small 
telecommunications carriers serving primarily rural areas of the United 
States. Its members, which include both commercial companies and 
cooperatives, together serve over 3.5 million customers in 47 States.
    Perhaps at no time since the inception of the RUS (formerly the 
REA) has the telecommunications loans program been so vital to the 
future of rural America. The telecommunications industry is at a 
crossroads, both in terms of technology and public policy. Rapid 
advances in telecommunications technology in recent years have begun to 
deliver on the promise of a new ``information age.'' Both federal and 
state policymakers have made deployment of advanced communications 
services a top priority. However, without continued support of RUS's 
telecommunications loans program, rural telephone companies will be 
hard pressed to continue building the infrastructure necessary to bring 
their communities into this new age and achieve policymakers' 
objectives.
    Contrary to the belief of some critics, RUS's job is not finished. 
Actually, in a sense, it has just begun. We have entered a time when 
advanced services and technology--such as fiber-to-the-home, high-speed 
packet and digital switching equipment, and digital subscriber line 
technology--are expected by customers in all areas of the country, both 
urban and rural. Moreover, the ability of consumers to use increasingly 
popular Voice over Internet Protocol (VoIP) services requires that they 
first have a broadband connection from a facilities-based carrier. 
Unfortunately, the inherently higher costs of upgrading the rural 
wireline network, both for voice and data communications, has not 
abated.
    Rural telecommunications continues to be more capital intensive and 
involves fewer paying customers than its urban counterpart. In the 
FCC's September 2004 report on the deployment of advanced 
telecommunications capability, the Commission correctly noted that 
``[r]ural areas are typically characterized by sparse and disperse 
populations, great distances between the customer and the service 
provider, and difficult terrain. These factors present a unique set of 
difficulties for providers attempting to deploy broadband services.'' 
Thus, in order for rural telephone companies to continue modernizing 
their networks and providing consumers with advanced services at 
reasonable rates, they must have access to reliable low-cost financing.
    The relative isolation of rural areas increases the value of 
telecommunications for these citizens. Telecommunications enables 
applications such as high-speed Internet connectivity, distance 
learning, and telemedicine that can alleviate or eliminate some rural 
disadvantages. A modern telecommunications infrastructure can also make 
rural areas attractive for some businesses and result in revitalization 
of the rural economy. For example, businesses such as telemarketing and 
tourism can thrive in rural areas, and telecommuting can become a 
realistic employment option. Certainly, telecommunications plays a 
major role in any rural community's economic development strategy, with 
the existence of modern and advanced telecommunications infrastructure 
being a major enabling factor in the development of small business and 
manufacturing enterprises in rural areas.
    While it has been said many times before, it bears repeating that 
RUS's telecommunications loans program is not a grant program. The 
funds loaned by RUS are used to leverage substantial private capital, 
creating public/private partnerships. For a very small cost, the 
government is encouraging tremendous amounts of private investment in 
rural telecommunications infrastructure. Most importantly, the program 
is tremendously successful. Borrowers actually build the infrastructure 
and the government is reimbursed with interest.
    In addition to RUS's telecommunications loans program, OPASTCO 
supports adequate funding of the distance learning, telemedicine, and 
broadband program. Through distance learning, rural students gain 
access to advanced classes which will help them prepare for college and 
jobs of the future. Telemedicine provides rural residents with access 
to quality health care services without traveling great distances to 
urban hospitals. Furthermore, funding that is targeted to finance the 
installation of broadband transmission capacity will allow more rural 
communities to gain high-speed access to the Internet and receive other 
advanced services. In light of the Telecommunications Act's purpose of 
encouraging deployment of advanced technologies and services to all 
Americans--including schools and health care providers--sufficient 
targeted funding for these purposes is essential in fiscal year 2007.

                               CONCLUSION

    The development of the nationwide telecommunications network into 
an information superhighway, as envisioned by policymakers, will help 
rural America survive and prosper in any market--whether local, 
regional, national, or global. However, without the availability of 
low-cost RUS funds, building the information superhighway in 
communities that are isolated and thinly populated will be untenable. 
By supporting the RUS telecommunications programs at the requested 
levels, the Subcommittee will be making a significant contribution to 
the future of rural America.
                                 ______
                                 

      Prepared Statement of the Pickle Packers International, Inc.

    The pickled vegetable industry strongly supports and encourages 
your committee in its work of maintaining and guiding the Agricultural 
Research Service. To accomplish the goal of improved health and quality 
of life for the American people, the health action agencies of this 
country continue to encourage increased consumption of fruits and 
vegetables in our diets. Accumulating evidence from the epidemiology 
and biochemistry of heart disease, cancer and diabetes supports this 
policy. Vitamins (particularly A, C, and folic acid) and a variety of 
antioxidant phytochemicals in plant foods are thought to be the basis 
for correlation's between high fruit and vegetable consumption and 
reduced incidence of these debilitating and deadly diseases. The 
problem is that many Americans choose not to consume the variety and 
quantities of fruits and vegetables that are needed for better health.
    As an association representing processors that produce over 85 
percent of the tonnage of pickled vegetables in North America, it is 
our goal to produce new products that increase the competitiveness of 
U.S. agriculture as well as meet the demands of an increasingly diverse 
U.S. population. The profit margins of growers continue to be narrowed 
by foreign competition. Likewise, the people of this country represent 
an ever-broadening array of expectations, tastes and preferences 
derived from many cultural backgrounds. Everyone, however, faces the 
common dilemma that food costs should remain stable and preparation 
time continues to be squeezed by the other demands of life. This 
industry can grow by meeting these expectations and demands with 
reasonably priced products of good texture and flavor that are high in 
nutritional value, low in negative environmental impacts, and produced 
with assured safety from pathogenic microorganisms and from those who 
would use food as a vehicle for terror. With strong research to back us 
up, we believe our industry can make a greater contribution toward 
reducing product costs and improving human diets and health.
    Many small to medium sized growers and processing operations are 
involved in the pickled vegetable industry. We grow and process a group 
of vegetable crops, including cucumbers, peppers, carrots, onions, 
garlic, cauliflower, cabbage (Sauerkraut) and Brussels sprouts, which 
are referred to as minor' crops. None of these crops is in any 
``commodity program'' and as such, do not rely upon taxpayer subsidies. 
However, current farm value for just cucumbers, onions and garlic is 
$2.3 billion with an estimated processed value of $5.8 billion. These 
crops represent important sources of income to farmers, and the 
processing operations are important employers in rural communities 
around the United States. Growers, processing plant employees and 
employees of suppliers to this industry reside in all 50 States. To 
realize its potential in the rapidly changing American economy, this 
industry will rely upon a growing stream of appropriately directed 
basic and applied research from four important research programs within 
the Agricultural Research Service.

        VEGETABLE CROPS RESEARCH LABORATORY, MADISON, WISCONSIN

    The USDA/ARS Vegetable Crops Research Lab at the University of 
Wisconsin is the only USDA research unit dedicated to the genetic 
improvement of cucumbers, carrots, onions and garlic. Three scientists 
in this unit account for approximately half of the total U.S. public 
breeding and genetics research on these crops. Their past efforts have 
yielded cucumber, carrot and onion cultivars and breeding stocks that 
are widely used by the U.S. vegetable industry (i.e., growers, 
processors, and seed companies). These varieties account for over half 
of the farm yield produced by these crops today. All U.S. seed 
companies rely upon this program for developing new varieties, because 
ARS programs seek to introduce economically important traits (e.g., 
virus and nematode resistance) not available in commercial varieties 
using long-term high risk research efforts. The U.S. vegetable seed 
industry develops new varieties of cucumbers, carrots, onions, and 
garlic and over twenty other vegetables used by thousands of vegetable 
growers. The U.S. vegetable seed, grower, and processing industry, 
relies upon the USDA/ARS Vegetable Crops Research Lab for unique 
genetic stocks to improve varieties in the same way the U.S. health 
care and pharmaceutical industries depend on fundamental research from 
the National Institutes of Health. Their innovations meet long-term 
needs and bring innovations in these crops for the United States and 
export markets, for which the United States has successfully competed. 
Past accomplishments by this USDA group have been cornerstones for the 
U.S. vegetable industry that have resulted in increased profitability, 
and improved product nutrition and quality.
    Both consumers and the vegetable production and processing industry 
would like to see fewer pesticides applied to food and into the 
environment in a cost-effective manner. Scientists in this unit have 
developed a genetic resistance for many major vegetable diseases that 
are perhaps the most important threat to sustained production of a 
marketable crop for all vegetables. Genetic resistance assures 
sustainable crop production for growers and reduces pesticide residues 
in our food and environment. Value of this genetic resistance developed 
by the vegetable crops unit is estimated at $670 million per year in 
increased crop production, not to mention environmental benefits due to 
reduction in pesticide use. New research progress initiated in the 
1990s and continuing today in Madison has resulted in cucumbers with 
improved disease resistance, pickling quality and suitability for 
machine harvesting. New sources of genetic resistance to viral and 
fungal diseases, environmental stress resistance like heat and cold, 
and higher yield have recently been mapped on cucumber chromosomes to 
provide a ready tool for our seed industry to significantly accelerate 
the development of resistant cultivars for U.S. growers. Nematodes in 
the soil deform carrot roots to reduce yield from 10 percent to over 70 
percent in major production areas. A new genetic resistance to nematode 
attack was recently discovered and found to almost completely protect 
the carrot crop from one major nematode. This group improved both 
consumer quality and processing quality of vegetables with a resulting 
increase in production efficiency and consumer appeal. This product was 
founded on carrot germplasm developed in Madison, Wisconsin. Carrots 
provide approximately 30 percent of the U.S. dietary vitamin A. With 
new carrots that have been developed, nutritional value of this crop 
has tripled, including the development of nutrient-rich cucumbers with 
increased levels of provitamin A. Using new biotechnological methods, a 
system for rapidly and simply identifying seed production ability in 
onions has been developed that reduces the breeding process up to 6 
years! A genetic map of onion flavor and nutrition will be used to 
develop onions that are more appealing and healthy for consumers. 
Garlic is a crop familiar to all consumers, but it has not been 
possible to breed new garlic varieties until a new technique for garlic 
seed production was recently developed and is now being bred like other 
crops.
    There are still serious vegetable production problems which need 
attention. For example, losses of cucumbers, onions, and carrots in the 
field due to attack by pathogens and pests remains high, nutritional 
quality needs to be significantly improved and U.S. production value 
and export markets could certainly be enhanced. Genetic improvement of 
all the attributes of these valuable crops are at hand through the 
unique USDA lines and populations (i.e., germplasm) that are available 
and the new biotechnological methodologies that are being developed by 
the group. The achievement of these goals will involve the utilization 
of a wide range of biological diversity available in the germplasm 
collections for these crops. Classical plant breeding methods combined 
with bio-technological tools such as DNA marker-assisted selection and 
genome maps of cucumber, carrot and onion will be the methods to 
implement these genetic improvements. With this, new high-value 
vegetable products based upon genetic improvements developed by our 
USDA laboratories can offer vegetable processors and growers expanded 
economic opportunities for United States and export markets.

       U.S. FOOD FERMENTATION LABORATORY, RALEIGH, NORTH CAROLINA

    The USDA/ARS Food Fermentation Laboratory in Raleigh, NC is the 
major public laboratory that this industry looks to as a source for new 
scientific information on the safety of our products and development of 
new processing technologies related to fermented and acidified 
vegetables. Over the years this laboratory has been a source for 
innovations, which have helped industry remain competitive in the 
current global trade environment. We expect the research done in this 
laboratory to lead to new processing and product ideas that will 
increase the economic value of this industry and provide consumers with 
safe, high quality, healthful vegetable products.
    To maintain the current level of research we request that Congress 
restore the funding increases provided in the fiscal year 2004 
($270,000) and fiscal year 2005 ($100,000) budgets. It is very 
important that Congress restore the full $370,000 in the fiscal year 
2007 budget, since the funds were not included in the budget sent to 
the Congress.
    We seek additional funding to support two new research directions 
for this laboratory that have substantial economic potential for our 
industry and health benefits for the American public. These are: (1) 
Preservation of a variety of high nutrient/high antioxidant vegetables 
using fermentation or acidification techniques so as to maintain the 
natural levels of beneficial phyotochemicals in convenient to use 
value-added products; (2) development of techniques to deliver living 
pro-biotic microorganisms to consumers in fermented or acidified 
vegetable products.
    Certain vitamins and beneficial phytochemicals in vegetables are 
stabilized by the low pH in acidified and fermented foods. In addition, 
low pH makes it possible to preserve vegetables with low heat or, 
ideally, no heat. While many high nutrient/high antioxidant vegetables 
are pickled to a very limited extent, traditional processes typically 
include steps that lose many of the health-promoting components that 
diet authorities emphasize when they urge people to increase their 
consumption of fruits and vegetables. The objective will be develop new 
acid preservation techniques for broccoli, Brussel sprouts, sweet 
potato, cauliflower, and peppers that will provide high levels of 
vitamin C, folic acid, carotenoids, glucosinolates, and phenolic 
compounds to maximize the health benefits of these vegetables in 
products that are convenient and attractive to consumers.
    Most of what we hear about bacteria in foods concerns the pathogens 
that cause disease. However, lactic acid bacteria are intentionally 
grown in fermented foods because they are needed to give foods like 
sauerkraut, yoghurt, cheeses, and fermented salami the characteristic 
flavors and textures that we desire. There is a growing body of 
research to indicate that certain living lactic acid bacteria are pro-
biotic' and can improve human health by remaining in the intestinal 
tract after they are consumed. Fermented or acidified vegetables may be 
a good way to deliver such pro-biotic bacteria to consumers. The 
objective will be to identify pro-biotic lactic acid bacteria that can 
survive in high numbers in selected vegetable products and investigate 
the potential for using vegetables as healthful delivery vehicles for 
pro-biotic organisms.

       SUGAR BEET AND BEAN RESEARCH UNIT, EAST LANSING, MICHIGAN

    The USDA/ARS cucumber post harvest engineering research at East 
Lansing, Michigan, is the only federally funded program that is devoted 
to developing new and/or improved engineering methods and technology 
for assessing, retaining, and assuring post harvest quality, 
marketability, and wholesomeness of pickling cucumbers and other 
vegetable products. The cucumber post harvest engineering research is 
one component of the post harvest engineering research program within 
the Sugar Beet and Bean Research Unit in East Lansing, Michigan. The 
post harvest engineering research program currently has a full-time 
research agricultural engineer whose primary research is to develop 
methods and technology for assessing and assuring post harvest quality 
of tree fruits. Because of severe under-funding, the location's 
cucumber post harvest engineering research has not been carried out at 
the full scope it would have been expected. A postdoctoral research 
associate has been hired to conduct research on developing 
nondestructive technology for assessing and grading pickling cucumbers 
and other vegetables. The ARS East Lansing location has been 
internationally recognized for developing innovative, practical 
engineering methods and techniques to improve harvest and post harvest 
handling systems for vegetables and tree fruits. The location recently 
developed a new laser-based multi-spectral imaging technology for 
grading and sorting fruit for texture and soluble solids content. The 
technology has the potential for inspecting a variety of vegetable 
crops including cucumbers. The location also developed an advanced 
hyper-spectral imaging system for automated detection of defects and 
quality attributes of fruit, which could be used for pickling cucumber 
inspection.
    Today, consumers have increasing choices of foods and they are 
demanding for better, consistent safe products. Defective and inferior 
cucumbers/vegetables will lead to poor quality, inconsistent pickled 
products and can cause significant economic losses to growers and 
processors. An effective quality control and assurance system 
throughout the handling steps between harvest and retail is required 
for the pickling industry to provide consistent, superior products to 
the marketplace. Methods currently available for measuring and grading 
quality of cucumbers and other vegetables are either ineffective or 
time consuming. New and/or improved technologies are needed to assess, 
inspect and grade fresh cucumbers rapidly and accurately for various 
internal and external quality characteristics so that raw products can 
be directed to, or removed from, appropriate processing or marketing 
avenues. This will minimize post harvest losses of food that has 
already been produced and ensure high quality, consistent final product 
and end-user satisfaction. Current research at East Lansing is focused 
on developing rapid inspection techniques for detecting and segregating 
defective cucumbers to assure the keeping and processing quality of 
pickling cucumbers. The research will lead to new inspection and 
grading technology that will help the pickling industry in delivering 
high-quality safe products to the marketplace. To enhance research on 
the development of engineering methods and technology for assuring post 
harvest quality and marketability of pickled and vegetable products, a 
full-time research scientist (engineering) will be needed for the ARS 
East Lansing research program.

         U.S. VEGETABLE LABORATORY, CHARLESTON, SOUTH CAROLINA

    The research program at the USDA/ARS Vegetable Laboratory in 
Charleston, South Carolina, addresses national problems in vegetable 
crop production and protection with emphasis on the southeastern United 
States. This research program is internationally recognized for its 
accomplishments, which have resulted in development of over 150 new 
vegetable varieties and lines along with the development of many new 
and improved disease and pest management practices. This laboratory's 
program currently addresses 14 vegetable crops including those in the 
cabbage, cucumber, and pepper families, which are of major importance 
to the pickling industry. The mission of the laboratory is to (a) 
develop disease and pest resistant vegetable crops and (b) develop new, 
reliable, environmentally sound disease and pest management programs 
that do not rely on conventional pesticides.
    Continued expansion of the Charleston program is crucial. Vegetable 
growers depend heavily on synthetic pesticides to control diseases and 
pests. Cancellation and/or restrictions on the use of many effective 
pesticide compounds are having a considerable influence on the future 
of vegetable crop production. Without the use of certain pesticides, 
growers will experience crop failures unless other effective, non-
pesticide control methods are found quickly. The research on improved, 
more efficient and environmentally compatible vegetable production 
practices and genetically resistant varieties at the U.S. Vegetable 
Laboratory continues to be absolutely essential. This gives U.S. 
growers the competitive edge they must have to sustain and keep this 
important industry and allow it to expand in the face of increasing 
foreign competition.

                      FUNDING NEEDS FOR THE FUTURE

    It remains critical that funding continues the forward momentum in 
pickled vegetable research that the United States now enjoys and to 
increase funding levels as warranted by planned expansion of research 
projects to maintain U.S. competitiveness. We also understand that 
discretionary funds are now used to meet the rising fixed costs 
associated with each location. Additional funding is needed at the 
Wisconsin and South Carolina programs for genetic improvement of crops 
essential to the pickled vegetable industry, and at North Carolina and 
Michigan for development of environmentally-sensitive technologies for 
improved safety and value to the consumer of our products. The 
fermented and acidified vegetable industry is receptive to capital 
investment in order to remain competitive, but only if that investment 
is economically justified. The research needed to justify such capital 
investment involves both short term (6-24 months) and long term (2-10 
years or longer) commitments. The diverse array of companies making up 
our industry assumes responsibility for short-term research, but the 
expense and risk are too great for individual companies to commit to 
the long-term research needed to insure future competitiveness. The 
pickled vegetable industry currently supports research efforts at 
Wisconsin and North Carolina and anticipates funding work at South 
Carolina and Michigan as scientists are put in place. Donations of 
supplies and processing equipment from processors and affiliated 
industries have continued for many years.
U.S. Vegetable Laboratory, Charleston, South Carolina
    The newly constructed laboratory-office building at the U.S. 
Vegetable Laboratory was occupied in April 2003. Design of the 
accompanying greenhouse and head house using the funds appropriated for 
this purpose in fiscal year 2003 was completed in July 2004. In fiscal 
year 2004, construction of the head house component of this project was 
funded. The head house component of the project is now under 
construction with an expected completion in late spring 2006. In fiscal 
year 2005, $2.976 million was appropriated for construction of 
greenhouses. In fiscal year 2006, an additional $1.980 million was 
appropriated for construction of greenhouses, but $7.169 million is 
still needed for the planned $12.125 million greenhouse complex. This 
new facility replaces and consolidates outmoded laboratory areas that 
were housed in 1930s-era buildings and trailers. Completion of the 
total research complex will provide for the effective continuation and 
expansion of the excellent vegetable crops research program that has 
been conducted by the Agricultural Research Service at Charleston for 
over 60 years. It is most critical to the mission of the U.S. Vegetable 
Laboratory that the fiscal year 2002, fiscal year 2003, and fiscal year 
2004 appropriated funds for expansion of the Charleston research staff 
is maintained in fiscal year 2007. In addition, new funds are still 
needed to hire additional scientists to expand the research program. An 
Entomologist is needed to facilitate development of host resistance and 
new management approaches to a wider range of established insect pests 
of vegetable crops; a Molecular Biologist is needed to develop and 
utilize molecular techniques for pathogen and pest population studies 
necessary to development of new management approaches and resistant 
genetic stocks. Both of these new scientific positions will greatly 
contribute to the accomplishment of research that will provide for the 
effective protection of vegetable crops from disease and pests without 
the use of conventional pesticides. Each of these positions requires a 
funding level of $400,000 for their establishment.

------------------------------------------------------------------------
                                                            Gross funds
        Appropriations to restore           Fiscal year      impacted
------------------------------------------------------------------------
Minor Use Pesticides (IR-4).............  ..............          $5,335
U.S. Vegetable Laboratory...............            2003         484,969
U.S. Vegetable Laboratory...............            2004         263,597
                                                         ---------------
      Total funds to restore............  ..............         753,901
------------------------------------------------------------------------


------------------------------------------------------------------------
                                                             New Funds
    New Scientific Staff Needed        Current Status         Needed
------------------------------------------------------------------------
Entomologist......................  Needed..............        $400,000
Molecular Biologist...............  Needed..............         400,000
                                                         ---------------
      New funds needed............  ....................         800,000
------------------------------------------------------------------------

Food Fermentation Laboratory, Raleigh, North Carolina
    The current funding for the laboratory is $1,274,000. This includes 
the new funds provided in fiscal year 2004 ($270,000) and in fiscal 
year 2005 ($100,000) that are not in the fiscal year 2007 budget 
proposal that was sent to the Congress. We request that the additional 
funding provided by the Congress in fiscal year 2004 and fiscal year 
2005 be restored in the fiscal year 2007 budget.
    To initiate and then increase the research initiatives to preserve 
high nutrient/high antioxidant vegetables to maximize healthful 
components and to determine how to deliver living pro-biotic lactic 
acid bacteria in acidified and fermented vegetable products, we request 
additional support for the Food Fermentation Laboratory of $100,000 in 
fiscal year 2007 with the expectation that an additional $100,000 be 
added each year from fiscal year 2008 through fiscal year 2011. This 
will provide an ability to have an orderly growth of research effort in 
these areas by supporting Post-Doctoral or Pre-Doctoral research 
associates initially and then hiring a permanent scientist in the third 
or fourth year to provide a long term research capability in the most 
productive research areas.

------------------------------------------------------------------------
         Scientific staff              Current status      Funds needed
------------------------------------------------------------------------
Microbiologist....................  Active..............        $318,500
Chemist...........................  Active..............         318,500
Food technologist/biochemist......  Active..............         318,500
Microbial Physiologist............  Active..............         318,500
Fiscal year 2007 post-doctoral or   Needed..............         100,000
 predoctoral research associates.
                                                         ---------------
      Total funding required......  ....................       1,374,000
                                                         ===============
Presidential Budget (fiscal year    ....................         912,195
 2007).
Appropriations to restore.........  ....................         361,805
New funds needed..................  ....................         100,000
------------------------------------------------------------------------

Vegetable Crops Research Laboratory Unit, Madison, Wisconsin
    Current base funding for three scientists is $835,900, of which 
$200,000 was added in fiscal year 2002. An additional $64,100 is needed 
to fully fund the scientists and support staff, including graduate 
students and post-doctorates.

------------------------------------------------------------------------
     Scientific staff in place         Current status      Funds needed
------------------------------------------------------------------------
Geneticist........................  Active..............        $300,000
Horticulturist....................  Active..............         300,000
Geneticist........................  Active..............         300,000
                                                         ---------------
      Total funding required......  ....................         900,000
                                                         ===============
Presidential Budget (fiscal year    ....................         641,911
 2007).
Appropriations to restore.........  ....................         193,989
New funds needed..................  ....................          64,100
------------------------------------------------------------------------

    A temporary addition of $200,000 was provided to enhance the 
research effort of this program in fiscal year 2002, and we greatly 
appreciate that additional support, but that addition is being proposed 
for reduction in fiscal year 2007. Thus, the restoration of the funds 
proposed for reduction, is urgently requested. We request a $258,089 
permanent addition this year to sustain the long-term research of this 
group.
Sugar Beet and Bean Research Unit, East Lansing, Michigan
    The location urgently needs to hire a full-time research engineer 
to develop a comprehensive research program on nondestructive 
inspection, sorting and grading of pickling cucumbers and other 
vegetable crops to assure the processing and keeping quality of pickled 
products. The current base funding for the cucumber engineering 
research is $200,000. An increase of $100,000 in the current base 
funding level would be needed to fund the research engineer position.

------------------------------------------------------------------------
     Scientific staff in place         Current status      Funds needed
------------------------------------------------------------------------
Postdoctoral Research Associate...  Active..............        $200,000
Research Engineer.................  Needed..............         100,000
                                                         ---------------
      Total funding required......  ....................         300,000
                                                         ===============
Current Funding...................  ....................         200,000
New funds needed..................  ....................         100,000
------------------------------------------------------------------------

    Thank you for your consideration and expression of support for the 
USDA/ARS.
                                 ______
                                 

         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the Committee, I am Wayne Dowd, and I 
am pleased to represent the Red River Valley Association as its 
President. Our organization was founded in 1925 with the express 
purpose of uniting the citizens of Arkansas, Louisiana, Oklahoma and 
Texas to develop the land and water resources of the Red River Basin. 
(Enclosure 1)
    The Resolutions contained herein were adopted by the Association 
during its 81st Annual Meeting in Bossier City, Louisiana on February 
24, 2006, and represent the combined concerns of the citizens of the 
Red River Basin Area as they pertain to the goals of the Association. 
(Enclosure 2)
    As an organization that knows the value of our precious water 
resources we support the most beneficial water and land conservation 
programs administered through the Natural Resources Conservation 
Service (NRCS). We understand that attention and resources must be 
given to our national security and the war in Iraq; however, we cannot 
sacrifice what has been accomplished on our Nation's lands. NRCS 
programs are a model of how conservation programs should be 
administered and our testimony will address the needs of the Nation as 
well as our region.
    The President's fiscal year 2007 budget for NRCS indicates a 
decrease of $216.4 million (21.5 percent decrease) from what Congress 
appropriated in fiscal year 2006. In addition, the Administration 
eliminated two crucial watershed programs: Watershed & Flood Prevention 
Operations and Watershed Survey & Planning. Along with drastic 
reductions in the other programs, NRCS manpower for fiscal year 2007 
would have to decrease by over 1,500 staff years, if the President's 
budget is implemented. This is unacceptable.
    This means that NRCS assistance to landowners will not be 
adequately funded, to the detriment of the Nation and our natural 
resources. We would like to address several of the programs 
administered by NRCS. Failure to adequately fund these initiatives 
would reduce assistance to those who want it and the resources that 
need protection.
    Conservation Operations.--This account has been in steady decline, 
in real dollars, over the past several years. The President's budget 
included $745 million, which is a decrease of $94.5 million from what 
you appropriated in fiscal year 2006. Mandated increases in pay and 
benefits, continuing increases in the cost of doing business' and 
budget reductions greatly reduces the effective work that can be 
accomplished in this account. Allocations should be increased not 
decreased.
    We request a total of $930 million be appropriated for Conservation 
Operations for NRCS to meet the demands it faces today.
    Conservation Technical Assistance is the foundation of technical 
support and a sound, scientific delivery system for voluntary 
conservation to the private users and owners of lands in the United 
States. It is imperative that we provide assistance to all working 
lands' not just those fortunate few who are able to enroll in a Federal 
program. Working lands are not just crops and pasture (commodity 
staples) but includes forests, wildlife habitat and coastal marshes. 
The problem is that NRCS personnel funded from mandatory programs' can 
only provide technical assistance to those enrolled in these programs, 
leaving the majority of the agricultural community without technical 
assistance. We recommend that adequate funding be placed in 
'Conservation Technical Assistance', and allow NRCS to provide 
assistance to all who are in need of assistance.
    It is our understanding that the Technical Service Providers (TSP) 
program has not lived up to its expectations. Experience indicates 
landowners are hesitant to use the program. This program funds projects 
at a level estimated if NRCS conducted the work. Usually the TSP cost 
exceeds this estimate and the landowner is responsible for the 
difference, effectively making the landowner cost share. We believe 
that TSPs should be used only after NRCS staffing is brought up to 
levels commensurate with the increase in workload caused by the Farm 
Bill, not to replace NRCS staffing.
    Watershed and Flood Prevention Operations (Public Law 566 & 534).--
We are greatly disappointed that the President's Budget provided no 
funding for watershed operations. There is no doubt that this is a 
Federal responsibility, in conjunction with a local sponsor. This 
program addresses all watershed needs to include: flood protection, 
water quality, water supply and the ecosystem. There is no Corps of 
Engineer, Bureau of Reclamation or FEMA program to address small 
watershed needs, before disaster strikes. We recommend that Congress 
continue to hold oversight hearings to understand the importance and 
hear how popular this program is to our communities.
    These projects have developed a $15 billion infrastructure that is 
providing $1.5 billion in annual benefits to over 48 million people. It 
is not a Federal program, but a Federally assisted program. This 
partnership between local communities, State agencies and NRCS has been 
successful for over 50 years. It would take $1.6 billion to fund the 
existing Federal commitment to local project sponsors. This cost only 
increases every year if adequate funding is not provided.
    If you allow this program to end, all ongoing contracts will be 
terminated. This will ultimately lead to lawsuits and tort claims filed 
by both sponsors and contractors, due to the Federal government not 
fulfilling its contractual obligation.
    We are very appreciative for the funding level of $75 million 
enacted in fiscal year 2006. It is reassuring to know that both the 
House and Senate realize the importance of this program to the 
agricultural community. For every $1 spent, the Nation realizes $2 in 
benefits.
    There are many new projects, which are awaiting funds for 
construction under this program. We strongly recommend that a funding 
level of $190 million be appropriated for Watershed Operations 
Programs, Public Law 534 ($20 million) and Public Law 566 ($170 
million).
    The Red River has proven, through studies and existing irrigation, 
to be a great water source for supplemental' irrigation. The two 
projects mentioned below, will use existing, natural bayous to deliver 
water for landowners to draw from. The majority of expense will be for 
the pump system to take water from the Red River to the bayous. These 
projects will provide the ability to move from ground water dependency 
to surface water, an effort encouraged throughout the Nation. Both will 
enhance the environmental quality and economic vitality of the small 
communities adjacent to the projects.
  --Walnut Bayou Irrigation Project, AR.--Plans and specifications have 
        been completed and it is ready to proceed into the construction 
        phase. An irrigation district has been formed and they are 
        prepared to take on the responsibility to generate the income 
        for the O&M required to support this project. We request that 
        $4,000,000 be appropriated for these projects in fiscal year 
        2007.
  --Red Bayou Irrigation Project, LA.--The plans and specifications 
        have been completed, making this project ready for construction 
        in fiscal year 2007. An irrigation district has been formed and 
        is prepared to collect funds to support the O&M for this 
        proposed system. We request that $2,500,000 be specifically 
        appropriated to begin construction in fiscal year 2007.
    Watershed Rehabilitation.--More than 10,400 individual watershed 
structures have been installed nationally, with approximately one-third 
in the Red River Valley. They have contributed greatly to conservation, 
environmental protection and enhancement, economic development and the 
social well being of our communities. More than half of these 
structures are over 30 years old and several hundred are approaching 
their 50-year life expectancy. Today you hear a lot about the watershed 
approach to resource management. They protect more people and 
communities from flooding now than when they were first constructed. 
The benefit to cost ratio for this program has been evaluated to be 
2.2:1. What other Federal program can claim such success?
    In the next 5 years over 900 watershed structures will require over 
$570 million for rehabilitation. Each year this number increases as 
more dams reach their 50-year life. There is no questioning the value 
of this program. The cost of losing this infrastructure exceeds the 
cost to reinvest in our existing watersheds. Without repairing and 
upgrading the safety of existing structures, we miss the opportunity to 
keep our communities alive and prosperous. It would be irresponsible to 
dismantle a program that has demonstrated such great return and is 
supported by our citizens. We cannot wait for a catastrophe to occur, 
where life is lost, to decide to take on this important work.
    The President's budget neglects the safety and well being of our 
community needs by allocating only $15 million for this program. This 
is drastically lower than the levels authorized in the 2002 Farm Bill, 
which authorized $600 million for rehabilitation for 2003-2007.
    We request that $65 million be appropriated to provide financial 
and technical assistance to those watershed projects where sponsors are 
prepared (35 percent cost share) to commence rehabilitation.
    Watershed Survey and Planning.--In fiscal year 2006, $6.1 million 
was appropriated to support this extremely important community program. 
NRCS has become a facilitator for the different community interest 
groups, State and Federal agencies. In our States such studies are 
helping identify resource needs and solutions where populations are 
encroaching into rural areas. The Administration decided to eliminate 
this program. We disagree with this and ask Congress to fund this 
program at the appropriate level.
    Proper planning and cooperative efforts can prevent problems and 
insure that water resource issues are addressed. Zeroing out the 
planning process assumes the economy will not grow and there is no need 
for future projects. We do not believe anyone supports or believes 
this. Another serious outcome is that NRCS will lose its planning 
expertise, which is invaluable.
    We request this program be funded at a level of $35 million.
    We request that the following two studies be specifically 
identified and funded in the fiscal year 2007 appropriation bill.
  --Maniece Bayou Irrigation Project, AR.--This is a project in its 
        initial stage of planning. An irrigation district is being 
        formed to be the local sponsor. This project transfers water 
        from the Red River into Maniece Bayou where landowners would 
        draw water for supplemental irrigation. We request that 
        $200,000 be appropriated to initiate the plans and 
        specifications.
  --Lower Cane River Irrigation Project, LA.--The transfer of water 
        from the Red River to the Lower Cane River will provide 
        opportunities for irrigation and economic development. Funds 
        are needed to initiate a Cooperative River Basin Study. We 
        request that $250,000 be appropriated for this study.
    Resource Conservation and Development (RC&D).--This has 
traditionally been a well-received program by the Administration, not 
this year. Their budget proposal only had $27 million, far short of 
national needs. This program leverages its resources at 4 to 1, with 
communities, local sponsors and non-government organizations. The 
benefits are realized at over 14 to 1, average per project. What other 
Federal program can claim such a return on investment?
    We request that $51 million be appropriated for this program, at 
the same level as in fiscal year 2006.
    Mandatory Accounts (CCC) Technical Assistance (TA).--Request for 
assistance through the CCC programs has been overwhelming. Requests far 
exceed the available funds and place an additional workload on NRCS's 
delivery system. Adequate funding for TA must be provided at the full 
cost for program delivery. This includes program administration, 
conservation planning and contracting with each applicant. Congress, in 
the 2002 Farm Bill, wisely increased conservation programs each year. 
This increased investment, with the multi-year CCC programs, will 
increase the NRCS workload. It is imperative that NRCS receive the TA 
funding levels required to administer these programs. If they do not 
receive full funding these programs will not realize their full 
capability.
    It has been mandated that a set percent of TA, from the CCC 
Program, must be used for TSPs, approximately $40 million. This is 
equivalent to losing 600 staff years from NRCS manpower. This is 
another unacceptable policy, which will reduce the effectiveness of 
NRCS. This mandate must be eliminated.
    Over 70 percent of our land is privately owned. This is important 
in order to understand the need for NRCS programs and technical 
assistance. Their presence is vital to ensuring sound technical 
standards are met in conservation. These programs not only address 
agricultural production, but sound natural resource management. Without 
these programs and NRCS properly staffed to implement them, many 
private landowners will not be served adequately to apply conservation 
measures needed to sustain our natural resources for future 
generations. Technical Assistance cannot be contracted out to private 
companies.
    We are all aware of the issue with TMDL levels in our waterways. If 
our Nation is to seriously address this we must look at the impacts 
from our farmlands. Assistance for land treatment plans and plan 
implementation is exactly what the NRCS Watershed programs are intended 
to address. Watershed programs should be receiving an increase in 
funds, not zeroed out!
    With these new clean water initiatives why do we ignore the agency 
that has a proven record for implementing watershed conservation 
programs? Congress must decide; will NRCS continue to provide the 
leadership within our communities to build upon the partnerships 
already established? It is up to Congress to insure NRCS is properly 
funded and staffed to provide the needed assistance to our taxpayers 
for conservation programs.
    These NRCS studies and watershed projects are an example of true 
``cooperative conservation'' initiatives. There is an interface with 
communities and local sponsors at each step of the process and local 
sponsors do cost share at the levels expected of them.
    All these programs apply to the citizens in the Red River Valley 
and their future is our concern. The RRVA is dedicated to work toward 
the programs that will benefit our citizens and provide for high 
quality of life standards. We therefore request that you appropriate 
the requested funding within these individual programs, to insure our 
Nation's conservation needs are met.
    I thank you for the opportunity to present this testimony on behalf 
of the members of the Red River Valley Association and we pledge our 
support to assist you in the appropriation process.

               ENCLOSURE 1.--RED RIVER VALLEY ASSOCIATION

    The Red River Valley Association is a voluntary group of citizens 
bonded together to advance the economic development and future well 
being of the citizens of the four State Red River Basin area in 
Arkansas, Louisiana, Oklahoma and Texas.
    For the past 80 years, the Association has done notable work in the 
support and advancement of programs to develop the land and water 
resources of the Valley to the beneficial use of all the people. To 
this end, the Red River Valley Association offers its full support and 
assistance to the various Port Authorities, Chambers of Commerce, 
Economic Development Districts, Municipalities and other local 
governmental entities in developing the area along the Red River.
    The Resolutions contained herein were adopted by the Association 
during its 80th Annual Meeting in Bossier City, Louisiana on February 
24, 2005, and represent the combined concerns of the citizens of the 
Red River Basin area as they pertain to the goals of the Association, 
specifically:
  --Economic and Community Development
  --Environmental Restoration
  --Flood Control
  --Irrigation
  --Bank Stabilization
  --A Clean Water Supply for Municipal, Industrial and Agricultural 
        Uses
  --Hydroelectric Power Generation
  --Recreation
  --Navigation
    The Red River Valley Association is aware of the constraints on the 
Federal budget, and has kept those constraints in mind as these 
Resolutions were adopted. Therefore, and because of the far-reaching 
regional and national benefits addressed by the various projects 
covered in the Resolutions, we urge the members of Congress to review 
the materials contained herein and give serious consideration to 
funding the projects at the levels requested.

   ENCLOSURE 2.--RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2007 APPROPRIATIONS--NATURAL RESOURCES CONSERVATION
                                                 SERVICE (NRCS)
                                             [Thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Pres. 2007
                     Discretionary accounts                        2006 approp.    2007 request       budget
----------------------------------------------------------------------------------------------------------------
Conservation Operations.........................................         839,519         930,000         745,000
Watershed & Flood Prevention Operations.........................          75,000         190,000  ..............
    Walnut Bayou Irrigation Project, AR.........................  ..............           4,000  ..............
    Red Bayou Irrigation Project, LA............................  ..............           1,600  ..............
Watershed Rehabilitation........................................          31,516          65,000          15,000
Watershed Survey & Planning.....................................           6,083          35,000  ..............
    Maniece Bayou Irrigation Project, AR........................  ..............             200  ..............
    North Wallace Lake Watershed, LA............................  ..............             250  ..............
Resource Conservation & Development (RC&D)......................          51,300          51,000          27,000
Healthy Forest Reserve Program..................................           2,475           5,000           2,475
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 

  Prepared Statement of the Society for Animal Protection Legislation

$1.5 Million for the Animal Welfare Information Center (AWIC) at the 
        National Agricultural Library
    The Animal Welfare Information Center was established by the 
Improved Standards for Laboratory Animals Act (the 1985 amendment to 
the Animal Welfare Act) to serve as a clearinghouse, training center 
and educational resource for institutions using animals in research, 
testing and teaching. A primary purpose of the Center is to help 
research laboratories comply with the requirements of the Federal law. 
The Center provides data on alleviating or reducing pain and distress 
in experimental animals (including anesthetic and analgesic 
procedures), reducing the number of animals who must be used for 
research where possible, and identifying alternatives to the use of 
animals for specific research projects. The AWIC was also charged with 
providing information to prevent the unintended duplication of animal 
experiments.
    We greatly appreciate the past support Congress has provided to the 
AWIC to carry out its programs: $750,000 and an add-on of $400,000. It 
is essential to maintain the existing level of support therefore a 
minimum base of $1.15 million is needed on an annual basis. We are 
respectfully requesting an additional $350,000 for desperately needed 
expansion in fiscal year 2007 including increased educational workshops 
and exhibits presented throughout the United States, increased 
production and printing of educational material and increased staffing 
to meet the demand for services.
    There is general consensus between the biomedical research industry 
and the animal welfare community about the need for increased funding. 
In fact, myriad individuals representing these disparate interests have 
agreed on the need for $1.5 million in funding for the Animal Welfare 
Information Center (see attached letter). The AWIC is able to help 
improve the conduct of research, including the care provided to the 
animals who are used, thereby ensuring a reduction in variables which 
might skew the research. Better science is the end result.
    The $1,500,000 would be used as follows: staff salary and benefits 
($1,073,000), exhibitions conducted at major scientific conferences 
($53,600), preparation and conduct of educational workshops across the 
country ($16,800), educational workshops conducted at the Center 
($4,100), printing and reproduction of paper and electronic material 
($29,200), training for the NAL staff ($13,900), acquisition of, 
including electronic access to, data ($38,000), internet services 
($20,400), office supplies including hardware and software ($26,000) 
and the overhead that must be provided to the Agricultural Research 
Service and the National Agricultural Library (at least $225,000).
    The Center's mandate necessitates the collection and dissemination 
of material on humane housing and husbandry, the functions and 
responsibilities of Institutional Animal Care and Use Committees 
(IACUCs), animal behavior, improved methodologies, psychological well-
being of primates and exercise for dogs. The AWIC has expanded to 
include the broader industry regulated under the Animal Welfare Act: 
animal dealers, carriers and handlers, zoos and other exhibitors. Other 
topics covered by the Center include animal diseases, animal models, 
animal training and environmental enrichment for all species. USDA 
Animal Care's veterinary medical officers and animal care inspectors 
are able to utilize the full range of services provided by the AWIC to 
better fulfill their responsibilities.
    The AWIC is the single most important resource for helping research 
facility personnel meet their responsibilities under the Animal Welfare 
Act. There are more than 1,200 research facilities nationwide, and the 
services of the AWIC are available to all individuals at these 
institutions including the cage washers, animal technicians, research 
investigators, attending veterinarians, IACUC representatives including 
the nonaffiliated member, and the Institutional Official. The Office of 
Inspector General (OIG) audit titled ``APHIS Animal Care Program 
Inspection and Enforcement Activities'' cited an increase in apparent 
violations of the AWA by research facilities over the past few years. 
There appears to be a significant problem with the oversight provided 
IACUCs and training for IACUC members is encouraged. In response to 
this need, we are requesting funds to allow--for the first time--AWIC 
to conduct workshops at locations around the country rather than being 
limited to conducting them only from the Center's base in Maryland.
    The AWIC website (http:www.nal.usda.gov/awic) received more than 27 
million hits in fiscal year 2005 (one of the most accessed sites at the 
NAL). 300,000 documents were distributed via the web and more than 
12,000 hard copies were distributed as well. Exhibitions and/or 
presentations were provided at the following venues: American 
Association for Laboratory Animal Science (AALAS) annual meeting, 
National Capital Area Branch AALAS, Tribranch AALAS, Society of 
Neuroscience, New Jersey Association for Biomedical Research, American 
Veterinary Medical Association, Combined Animal Science meeting, 
International Conference on Environmental Enrichment, American 
Association for the Advancement of Science and the 5th World Congress 
on the Use of Animals in the Life Sciences, Scientists Center for 
Animal Welfare meetings and the Public Responsibility in Medicine and 
Research annual meeting.
    The AWIC works closely with both APHIS Animal Care and with 
Emergency Veterinary Services on emerging crises such as the highly 
pathogenic Avian Influenza. The Center is focused on transmissible 
spongiform encephalopathy, exotic Avian Newcastle disease, 
tuberculosis, West Nile Virus and micro-bacterial diseases too.
    A proposal was made to create a ``Center for Excellence'' within 
Animal Care, but we oppose this effort as an enormous misuse of funds. 
There is no need to pay for a site and hire new staff because much of 
the work proposed for such a Center for Excellence is already covered 
effectively and efficiently by the AWIC. We would, however, support 
further expansion of the AWIC at its current location within the 
National Agricultural Library. The AWIC has a record spanning nearly 
two decades that demonstrates its abilities to serve.
$19.143 Million for APHIS/Animal Care's Enforcement of the Animal 
        Welfare Act
    The Animal Welfare Act (AWA) is the chief Federal law for the 
protection of animals. The USDA seeks compliance with its minimum 
standards for the care and treatment of animals during transportation 
and at the nearly 13,000 sites of dealers, research, testing and 
teaching facilities, zoos, aquariums, circuses, carriers (airlines, 
motor freight lines and other shipping businesses) and handlers (ground 
freight handlers). There are a mere 101 Veterinary Medical Officers 
(VMOs) and Animal Care Inspectors (ACIs) conducting searches, pre-
licensing inspections and enforcement inspections across the country.
    In fiscal year 2005, 575 cases were brought regarding violations of 
the AWA and more than $1.1 million dollars was received in fines and 
stipulations. These enforcement actions help ensure the protection of 
both animals and people as evidenced by the OIG Audit released this 
fall.
    We support the President's request for $19.143 million for 
enforcement of the AWA. We hope the additional funds will permit USDA 
to hire 15 additional inspectors and to conduct a national meeting 
(with all inspectors in attendance). There were insufficient funds for 
USDA to conduct a workshop this fiscal year, and a national meeting 
must be held next year; it is vital as it provides proper training of 
inspectors and ensures a high and equal standard of enforcement is 
being implemented by the field inspectors nationwide. The cost for a 
national meeting is expected to be $150,000.
    In 1966 the Laboratory Animal Welfare Act (later renamed the Animal 
Welfare Act) was adopted in an effort to prevent the sale of lost or 
stolen pets into research. Nevertheless, this has continued to be a 
serious problem. Sound enforcement by USDA has reduced the number of 
random source dealers in live dogs and cats to 10. More than half of 
these are currently under investigation by USDA for their failure to 
comply with the law. A recent Home Box Office documentary film, Dealing 
Dogs, highlighted the problems that plague this cottage industry. The 
committee could save Animal Care significant resources and aggravation 
if it brought an end to this illicit trade by including report language 
prohibiting the sale of dogs and cats to research by random source 
dealers. Animals needed for research purposes can be obtained from 
other sources including licensed breeders. This would ensure integrity 
in the supply of dogs and cats for research purposes.
$750,000 for APHIS/Animal Care's Enforcement of the Horse Protection 
        Act
    More than thirty years have passed since the Horse Protection Act 
was adopted by Congress, yet soring of Tennessee Walking Horses 
continues to be a widespread problem. Soring is defined by APHIS as 
``the application of any chemical or mechanical agent used on any limb 
of a horse or any practice inflicted upon the horse that can be 
expected to cause it physical pain or distress when moving.'' Horses 
are sored to produce an exaggerated gait.
    The most effective method of reducing the showing of horses who 
have been sored is to have Animal Care (AC) inspectors present at the 
shows. Oftentimes, as soon as an AC inspector arrives at a show, there 
is a rush to put horses back into trailers and haul them away. If the 
likelihood that an AC inspector will show up increases significantly, 
this will have a huge deterrent effect on those who routinely sore 
their horses.
    AC was only able to attend 32 events in fiscal year 2004 out of a 
total of approximately 865 shows. $750,000 ($500,000 plus a $250,000 
add-on) must be provided to enable AC to attend even a modest number of 
events.
    Unfortunately, the amount of penalties assessed for violations of 
the law have dropped to a negligible amount. In addition to increasing 
the presence of inspectors, USDA must increase the penalties which are 
assessed or the industry will continue to defy the law with impunity.
    Lack of financial support has made it necessary for Animal Care to 
rely heavily on the industry to assume responsibility for enforcement 
of the law. This is the same industry that has turned a blind eye to 
compliance with the law since 1970! ``Designated Qualified Persons'' 
(DQPs) are the ``inspectors'' from industry who are supposed to assist 
AC in identifying sore horses and pursuing action against the 
individuals who are responsible. The history of the DQPs reveals their 
failure to achieve the level of enforcement of the unbiased, well-
trained, professional inspectors who work for AC. Following is data for 
horses shown with pads on their front feet to accentuate their gait: in 
calendar year 2001 (the most recent year for which such information is 
available from USDA); the average rate at which DQPs identified 
violations for soring was 3.4 per 1,000 horses inspected. The rate of 
violations reported when government inspectors were present to oversee 
the activities of the DQPs was more than 5 times higher--19 per 1,000 
horses inspected.
    We have few current figures on enforcement, however, we recently 
learned from USDA that in 2005 of the samples taken by a gas 
chromatography machine (used to test for use of illegal substances to 
sore horses) at the Kentucky Celebration horse show, 100 percent 
indicated the presence of diesel fuel or another similar fuel plus 
numbing agents. Clearly the law is not being taken seriously by the 
industry.
    An appropriation of at least $750,000 is essential to permit AC to 
maintain a modest level of compliance with the Horse Protection Act by 
trained AC professionals.
Strengthened Enforcement of Humane Slaughter Act by FSIS
    When President Eisenhower signed the Humane Slaughter Act (HSA) 
into law he noted that if he went by his mail he would think Americans 
were interested in no other issue. The concern about HSA enforcement 
continues today and is as broad now as it was then. Over the past few 
years the Congress has generously provided additional appropriations to 
the Food Safety and Inspection Service (FSIS) to improve enforcement of 
the Humane Slaughter Act, however, problems persist. A big part of the 
problem is that the vast majority of animals currently slaughtered at 
the approximately 900 federally inspected plants are not observed by 
FSIS until after they are already dead.
    In addition, FSIS inspectors are discouraged from enforcing the 
law. Inspectors are supposed to be able to stop the slaughter line if 
violations are seen. However, stopping the line will markedly reduce 
the plant's financial profits, thus there is intense pressure for the 
inspector not to take action. The situation at plants appears to be 
cozy for people, meanwhile the animals are suffering. For example, the 
Office of the Inspector General conducted an investigation of a large 
plant in Iowa, issuing a report on April 25, 2005, which concluded 
that: ``employees of AGRI had engaged in acts of inhumane slaughter. It 
was also determined that FSIS employees observed the acts of inhumane 
slaughter and did nothing to stop the practice. Additionally, the 
investigation revealed that FSIS inspectors accepted meat products from 
AGRI employees and that FSIS employees engaged in other acts of 
misconduct.''
    FSIS has attempted a variety of machinations in an effort to dupe 
Congress into believing that enforcement efforts have increased 
dramatically. This is mere window dressing, and inspectors who are in 
the plants have confirmed that little has changed--and abuses are rife. 
The situation at Agriprocessors, described above is but one example 
(http://awionline.org/pubs/Quarterly/05_54_1/541p7a.htm). Because of 
this, we vehemently oppose increased resources for FSIS. The agency 
hasn't demonstrated its resolve to strongly enforce the law.
     Bill language should direct FSIS to hire no fewer than 50 
individual inspectors (as opposed to FTE's) to serve as permanent 
fixtures in each of the largest slaughter plants to observe the 
handling, stunning and slaughter of animals for compliance with the 
law. When inspectors are not present, line speeds are increased and the 
operations are conducted in a completely different (and horrific) 
manner. A full-time presence is the only way to ensure compliance. FSIS 
should report the results of this effort to the Committee and evaluate 
the effectiveness of having full-time (not full time equivalent) 
enforcement of the humane slaughter requirements following a year of 
diligence. All inspectors who engage in HSA enforcement must receive 
adequate training about the law and, more importantly, must receive a 
strict mandate from the Secretary of Agriculture to take strong, 
immediate action against any violators of the HSA. This would be a 
modest step toward protecting the millions of animals who are killed 
for food from unnecessary suffering.
Congress Needs to Provide Increased Oversight of Wildlife Services 
        Operations and Research
    Wildlife Services (WS) needs to utilize a variety of tools for 
management of wildlife under its purview. However, it is essential that 
these tools are effective and publicly acceptable. As improved tools 
are developed through research, operations must make use of this data 
and shift methods accordingly.
    WS needs to phase out of use of steel jaw leghold traps. WS' own 
research demonstrates the archaic nature of certain leghold traps; 
these should be prohibited immediately. Leghold traps slam shut with 
bone-crushing force on the limbs of their victims, tearing ligaments 
and tendons, severing toes and causing excruciating pain. These traps, 
opposed by the vast majority of Americans, have been condemned as 
``inhumane'' by the American Veterinary Medical Association, the 
American Animal Hospital Association, the World Veterinary Association 
and the National Animal Control Association.
    The European Union (E.U.) banned use of the barbaric steel jaw 
leghold trap so that 88 countries now prohibit their use. Nobly, the EU 
went a step further; the EU law also prohibits import of furs from 
countries that use steel jaw traps. On December 11, 1997, in response 
to this European law, the U.S. Trade Representative reached an 
``Understanding'' with the E.U. in which the United States agreed to 
end use of ``all jaw-type leghold restraining traps'' by 2002 on 
muskrat and nutria and to phase out use of ``conventional steel-jawed 
leghold restraining traps'' by 2004. WS has the responsibility of 
complying with this United States obligation by ending its use of these 
barbaric devices.
    WS should pursue no further testing of leghold traps as this would 
be an extremely wasteful and cruel use of taxpayer money. Previously, 
funds designated for trap research were merely passed on to a 
nongovernmental organization to utilize as it saw fit, without 
involvement from WS. If funds are allocated for trap testing, WS should 
conduct the research since the agency has the appropriate technical 
expertise.
    Further, WS should adopt a policy of checking all restraining traps 
within a 24-hour period. A wealth of scientific studies documents the 
fact that the longer an animal is in a restraining trap, the greater 
the injury. For this reason, the majority of States have a daily trap 
check requirement. Animals should not be subjected to long-drawn out 
pain because of a failure to assume the responsibility of carefully 
checking traps every day. This policy will help reduce the trauma 
experienced by non-target animals, too, ensuring that more of these 
animals will be able to be released alive.
    Thank you very much for the opportunity to submit testimony. We 
would be happy to provide any additional information that might be of 
interest.
                                 ______
                                 

   Prepared Statement of the Society for Women's Health Research and 
                   Women's Health Research Coalition

    On the behalf of the Society for Women's Health Research and the 
Women's Health Research Coalition, we are pleased to submit testimony 
in support of increased funding for biomedical research, and more 
specifically women's health research.
    The Society is the only national non-profit women's health 
organization whose mission is to improve the health of women through 
research, education, and advocacy. Founded in 1990, the Society brought 
to national attention the need for the appropriate inclusion of women 
in major medical research studies and the need for more information 
about conditions affecting women disproportionately, predominately, or 
differently than men.
    The Coalition was created by the Society in 1999 to give a voice to 
scientists and researchers from across the country who are concerned 
and committed to improving women's health research. The Coalition now 
has more than 620 members, including leaders within the scientific 
community and medical researchers from many of the country's leading 
universities and medical centers, directors from various Centers of 
Excellence on Women's Health.
    The Society and the Coalition are committed to advancing the health 
status of women through the discovery of new and useful scientific 
knowledge. We believe that sustained funding for the women's health 
research programs that are conducted and supported across the Federal 
research agencies is necessary if we are to accommodate the health 
needs of the population and advance the Nation's research capability. 
Therefore, we urge your support for the Food and Drug Administration's 
(FDA) Office of Women's Health and request funding of $5 million in 
order that it may meet its program goals.
         food and drug administration office of women's health
    The Office of Women's Health (OWH) role at FDA is critical to 
women's health, both within and outside the agency and to research into 
sex and gender-differences, areas in which the Society long has been a 
proponent. The office aims to provide scientific and policy expertise 
on gender sensitive regulatory and oversight issues; to correct gender 
disparities in the areas for which the FDA is responsible--drugs, 
devices, and biologics and to monitor women's health priorities, 
providing leadership and an integrated approach across the agency. The 
OHW accomplishes its admirable work, despite inadequate budgets that 
prevent it from fully accomplishing its mission.
    Since its inception, OWH has funded high quality scientific 
research to serve as the foundation for agency activities that improve 
women's health. To date, OWH has distributed $12 million in funding for 
over 100 research projects. OWH has recently funded research to fully 
understand heart disease in women. Despite being the number one killer, 
women with heart disease face misdiagnosis, delayed diagnosis, under-
treatment, and mistreatment due to the under-representation in heart-
related research studies. Extramural research funded by OWH is looking 
into the use of coronary stents in women and problems with breast 
interference in interpreting heart catherization studies.
    We would encourage OWH to expand its research focus to further 
address the discrepancies in heart disease treatment for women. The 
Society in conjunction with WomenHeart: the National Coalition for 
Women with Heart Disease compiled a list of ten questions that must be 
answered if women are to receive optimal cardiovascular care and 
treatment. The ten unanswered research questions are:
  --Why do women receive significantly fewer referrals for advanced 
        diagnostic testing and treatments for heart disease than men, 
        and how can the referral rate for women be increased?
  --What are the best tools and methods for assessing women's risk of 
        heart disease?
  --What are the best strategies for preventing heart disease in women?
  --What treatments for heart disease work best for women?
  --What are the most effective methods and treatments for diastolic 
        heart failure, which is the most common form of congestive 
        heart failure in women?
  --How can the heart disease diagnosis and care disparities between 
        white women and women of color be eliminated?
  --What are the biological differences between men and women in the 
        location, type, and heart disease risk level associated with 
        fat deposits, and what determines these differences?
  --How do sex differences in the regulation of heart rhythm affect 
        risk of heart disease and response to treatment?
  --What is the role of inflammation in heart disease in women?
  --Why are women ages 50 and younger more likely to die following a 
        heart attack than men of the same age?
    As part of its educational outreach efforts to consumers, OWH 
worked closely with women's advocacy and health professional 
organizations to address some of the confusing issues related to the 
findings of the Women's Health Initiative Study. As a result of this 
OWH initiative, an informational fact sheet about menopause and 
hormones and a purse-size questionnaire for women to review with their 
doctor were distributed to national and local print, radio, and 
Internet advertisements. The FDA website received over 3 million hits 
to download campaign materials.
    In 2001, the Society submitted testimony on behalf of the OWH and 
in support of a centralized database at the FDA to coordinate clinical 
trial oversight, monitor the inclusion of women in clinical trials, 
oversee the parameters of informed consent, and identify training needs 
for all scientific agency staff who analyze human clinical trials. Due 
to Society efforts and this Committee's commitment, in 2002 Congress 
provided the OWH at the FDA with funds to develop an agency-wide 
database focused on women's health activities to include demographic 
data on clinical trials. The FDA has been developing this database now 
known as the ``Demographic Information and Data Repository'' to review 
clinical studies, enhance product labeling, identify knowledge gaps, 
and coordinate data collection.
    While progress has been made, the database is far from up and 
running. Currently, the FDA receives large volumes of information in 
applications from drug manufacturers for review and evaluation. The FDA 
reviewers must comb through the submitted drug trial reports and 
digital data in as many as twelve formats in order to evaluate a new 
drug's safety and effectiveness. With no uniform system or database, 
reviewers must handpick gender, age, and ethnicity information from 
stacks of reports and craft their own data comparisons. This is time 
consuming, makes the review process less efficient, and delays access 
to important information. Scientific and medical advances are occurring 
rapidly and the public needs and deserves access to the most recent and 
accurate information regarding their health. Therefore, in order to 
fully capitalize on the potential of the data warehouse and the 
resulting wealth of information, we urge Congress to commit $1 million 
for the Demographic Information and Data Repository.
    Scientists have long known of the anatomical differences between 
men and women, but only within the past decade have they begun to 
uncover significant biological and physiological differences. Sex 
differences have been found everywhere from the composition of bone 
matter and the experience of pain to the metabolism of certain drugs 
and the rate of neurotransmitter synthesis in the brain. Sex-based 
biology, the study of biological and physiological differences between 
men and women, has revolutionized the way that the scientific community 
views the sexes, with even more information forthcoming as a result of 
the recent sequencing of the human X chromosome. The evidence is 
overwhelming, and as researchers continue to find more and complex 
biological differences, they are gaining a greater understanding of the 
biological and physiological composition of both sexes.
    The Society has long recognized that the inclusion of women in 
study populations by itself was insufficient to address the inequities 
in our knowledge of human biology and medicine, and that only by the 
careful study of sex differences at all levels, from genes to behavior, 
would science achieve the goal of optimal health care for both men and 
women.
    The differences between men and women are important in disease 
susceptibility, prevalence, time of onset and severity and are evident 
in cancer, obesity, coronary heart disease, autoimmune, mental health 
disorders, and other illnesses. Physiological and hormonal fluctuations 
may also play a role in the rate of drug metabolism and effectiveness 
of response in females and males. This research must be both encouraged 
and supported.
    In addition, the Society encourages the establishment of drug-
labeling requirements that ensure labels include language about 
differences experienced by women and men. Furthermore, we advocate for 
research on the comparative effectiveness of drugs with specific 
emphasis on data analysis by sex. When available, this information 
should also be specified on drug labels.
    Our country's drug development process has succeeded in providing 
new and improved medications to ensure the health of both women and 
men. However, there is no mandated requirement that the data acquired 
during research of a new drug's safety and efficacy be analyzed as a 
function of sex, to evaluate potentially important differences in 
females versus males. Similarly, there are no requirements that 
information regarding the action of drugs in various populations (e.g., 
women requiring a lower dosage because of different rates of absorption 
or chemical breakdown) be included in prescription drug labeling or 
other patient educational and instructional materials. In order for 
patients to be an informed participant in their own care, they should 
have access to all available pertinent information.
    Proper drug labeling may not always provide the complete solution. 
If the drug is not one newly approved or if sex-specific information is 
detected only in post-marketing studies, the drug label will not convey 
the sex-specific information discovered to the prescribing physician, 
and it may be difficult to get such new information incorporated into 
physicians' prescribing habits.
    The Society believes the opportunity is now before us to 
communicate the sex differences data discovered from clinical trials to 
the medical community and to consumers through drug labeling and 
packaging inserts, and other forms of alerts. As part of advancing the 
analysis and reporting of sex-based effects, the Society encourages the 
FDA to continue addressing the need for accurate drug labeling to 
identify important sex and gender differences, as well as to ensure 
that appropriate data analysis of post-market surveillance reporting 
for these differences is placed in the hands of physicians and 
ultimately the patient.
    To ensure adequate analysis and recording of sex and gender 
disparities in drugs, devices and biologics, and to provide for 
appropriate regulatory policy and accurate drug labeling, we believe 
that the OWH at the FDA should be funded at a total of $5 million so 
that this Office can create, implement, and coordinate gender sensitive 
programs vital to women and men throughout the Nation.
    In conclusion, Mr. Chairman, we thank you and this Committee for 
its strong record of support for women's health. We look forward to 
continuing to work with you to build a healthier future for all 
Americans.
                                 ______
                                 

   Prepared Statement of the Society of American Foresters, National 
 Association of State Foresters, The Nature Conservancy, and National 
            Association of State Departments of Agriculture

    Dear Mr. Chairman/Ranking Member: The Society of American 
Foresters, National Association of State Foresters, The Nature 
Conservancy, and the National Association of State Departments of 
Agriculture urge the Subcommittee on Agriculture, Rural Development, 
and Related Agencies to increase funding substantially for the USDA 
Animal and Plant Health Inspection Service (APHIS) Emerging Plant Pests 
program. A sharp increase in funding is necessary in order to ensure 
adequate funding for eradication and control efforts targeting the 
emerald ash borer, Asian longhorned beetle, and sudden oak death. All 
three introduced organisms threaten forest and amenity trees and 
related economic activities worth hundreds of billions of dollars.
    This statement of common goals supplements individual letters to 
the Subcommittee submitted by several of these organizations. These 
individual letters address additional issues which we do not include 
here.
    We seek an appropriation of $55 million for fiscal year 2007 to 
contain the emerald ash borer. The emerald ash borer threatens twelve 
species of ash across the continent, especially in the upper Midwest 
and Southeast. At risk are the $25 billion ash timber industry in the 
Northeast and street trees across the Nation valued at $20 to $60 
billion. The emerald ash borer outbreak is large, but the core of the 
infestation remains in the lower peninsula of Michigan--where it is 
largely contained by the Great Lakes. It is absolutely essential that 
APHIS receive adequate funding in fiscal year 2007 to enable affected 
states to eradicate the limited and isolated outbreaks found in Ohio, 
Indiana, and Michigan's Upper Peninsula. It is also crucial that APHIS 
and its partners carry forward detection surveys and regulatory and 
educational programs aimed at preventing movement of infested firewood, 
nursery stock, and other materials that spread the insect. Once the 
outlying outbreaks are eradicated, officials can begin efforts to quash 
the core outbreak in Michigan.
    We seek an appropriation of $30 million for fiscal year 2007 to 
carry forward eradication of the sole remaining populations of the 
Asian longhorned beetle. The Asian longhorned beetle poses an alarming 
threat to hardwood forests reaching from New England into Minnesota and 
in the West, and to the hardwood timber, maple syrup, and autumn 
foliage tourism industries dependent on these forests. Also at risk are 
street trees across the Nation valued at $600 billion. Eradication has 
been successful in Chicago, proving the efficacy of this approach. 
Beetle populations in New Jersey are well on track for eradication. 
Only the populations in New York persist--and that is because funding 
for the New York effort has been reduced in past years to focus the 
inadequate overall resources on Illinois and New Jersey. It is 
essential to provide sufficient funding now and in coming years to 
complete eradication in New York.
    We seek $9 million in appropriations for fiscal year 2007 to 
contain a third damaging forest pest, sudden oak death (also called the 
phytophthora leaf and stem blight). If sudden oak death does escape 
confinement, it threatens oaks in forests in Oregon and Washington as 
well as throughout the Appalachians, Ozarks, and even into southern New 
England. This disease is also a major threat to the Nation's nursery 
industry as it readily attacks species such as rhododendron and other 
species used in the garden nursery business. Spread of sudden oak death 
is thus of enormous consequence to both native forests and the garden 
nursery business. In its impact on the oak species, it has the 
potential to devastate critical forage for many wildlife species as 
well.
    Additional forest pests introduced into the United States and 
recently identified are currently being reviewed by scientific experts 
convened by APHIS and the USDA Forest Service. The most prominent 
example is the Sirex wood wasp, now present in New York, which 
threatens valuable pine timber resources, including those of the 
Southeast and eastern United States. The scientists' conclusions 
regarding the wood wasp and other species might result in additional 
funding needs.
    The Society of American Foresters, National Association of State 
Foresters, The Nature Conservancy, and the National Association of 
State Departments of Agriculture strongly support the Congress' 
numerous statements urging the Administration to release emergency 
funds from the Commodity Credit Corporation sufficient to enable full 
implementation of management plans for the exotic threats to our forest 
resources.
    Action now at the funding level requested would help ensure that 
these forest pests do not reach populations so large as to threaten 
forest, amenity trees, garden nursery stock, and related economic 
activities worth hundreds of billions of dollars.
                                 ______
                                 

         Prepared Statement the Wyoming State Engineer's Office

    Dear Chairman Bennett and Ranking Member Kohl: This letter is sent 
in support of the designation of 2.5 percent of the fiscal year 2007 
Environmental Quality Incentive Program (EQIP) funding for the 
Department of Agriculture's Colorado River Salinity Control (CRSC) 
Program. Pursuant to Public Law 104-127, the USDA's CRSC Program is a 
component program within EQIP. Wyoming views the inclusion of the CRSC 
Program in EQIP as a direct recognition on the part of Congress of the 
Federal commitment to maintenance of the water quality standards for 
salinity in the Colorado River--and that the Secretary of Agriculture 
has a vital role in meeting that commitment.
    The State of Wyoming is a member State of the seven-State Colorado 
River Basin Salinity Control Forum. Established in 1973 to coordinate 
with the Federal Government on the maintenance of the basin-wide Water 
Quality Standards for Salinity in the Colorado River System, the Forum 
is composed of gubernatorial representatives and serves as a liaison 
between the seven States and the Secretaries of the Interior and 
Agriculture and the Administrator of the Environmental Protection 
Agency. The Forum advises the Federal agencies on the progress of 
efforts to control the salinity of the Colorado River and annually 
makes funding recommendations, including the amount believed necessary 
to be expended by the USDA for its on-farm CRSC Program. Overall, the 
combined efforts of the Basin States, the Bureau of Reclamation and the 
Department of Agriculture have resulted in one of the nation's most 
successful non-point source control programs.
    The Colorado River provides municipal and industrial water for 27 
million people and irrigation water to nearly 4 million acres of land 
in the United States. The River is also the water source for some 2.3 
million people and 500,000 acres in Mexico. Limitations on users' 
abilities to make the greatest use of that water supply due to the 
River's high concentration of total dissolved solids (hereafter 
referred to as the salinity of the water) are a major concern in both 
the United States and Mexico. Salinity in the water source especially 
affects agricultural, municipal, and industrial water users. While 
economic detriments and damages in Mexico are unquantified, the Bureau 
of Reclamation presently estimates salinity-related damages in the 
United States to amount to $330 million per year. The River's high salt 
content is in almost equal part due to naturally occurring geologic 
features that include subsurface salt formations and discharging saline 
springs; and the resultant concentrating effects of our users man's 
storage, use and reuse of the waters of the River system. Over-
application of irrigation water by agriculture is a large contributor 
of salt to the Colorado River as irrigation water moves below the crop 
root zone, seeps through saline soils and then returns to the river 
system.
    In close cooperation with the EPA and pursuant to requirements of 
the Clean Water Act, every three years the Forum prepares a formal 
report analyzing the salinity of the Colorado River, anticipated future 
salinity, and the program elements necessary to keep the salinity 
concentrations (measured at Total Dissolved Solids--TDS) at or below 
the levels measured in the river system in 1972 at Imperial Dam, and 
below Parker and Hoover Dams. In setting water quality standards for 
the Colorado River system, the salinity concentrations at these three 
locations have been identified as the numeric criteria. The plan 
necessary for controlling salinity and reducing downstream damages has 
been captioned the ``Plan of Implementation.'' The 2005 Review of water 
quality standards includes an updated Plan of Implementation. In order 
to eliminate the shortfall in salinity control resulting from 
inadequate Federal funding for the last several years from the USDA, 
the Forum has determined that implementation of the Program needs to be 
accelerated. The level of appropriation requested in this testimony is 
in keeping with the agreed upon plan.
    The Department of Agriculture's CRSC Program is an important proven 
and cost-effective tool in improving irrigation water application and 
thus reducing salt loading into the Colorado River system. For the past 
22 years, the seven-State Colorado River Basin Salinity Control Forum 
has actively assisted the U.S. Department of Agriculture in 
implementing its unique, collaborative and important program. With the 
enactment of the Federal Agriculture Improvement and Reform Act of 1996 
(FAIRA), the Congress directed that the Program should be implemented 
as one of the components of the Environmental Quality Incentives 
Program (EQIP). Since the enactment of the Farm Security and Rural 
Investment Act (FSRIA) in 2002, there is, for the first time, an 
opportunity to adequately fund the Program within the EQIP. At its 
recent October 2006 meeting, the Forum recommended that the USDA CRSC 
Program should expend 2.5 percent of the Environmental Quality 
Incentive Program funding. In the Forum's judgment, this amount of 
funding is necessary to implement the needed program. ``Catch-up'' 
funding in the future will require expending greater sums of money, 
increase the likelihood that the numeric salinity criteria are 
exceeded, and create undue burdens and difficulties for one of the most 
successful Federal/State cooperative non-point source pollution control 
programs in the United States. The Colorado River Basin Salinity 
Control Advisory Council has taken the position that the funding for 
the salinity control program should not be below $20 million per year. 
Over the last 3 fiscal years, for the first time, funding almost 
reached the needed level. The amount of State and local cost-sharing 
that can be applied in each given fiscal year is driven by the amount 
of Federal appropriations and the EQIP allocation. In fiscal year 2006, 
the participating basin States will cost share with about $8.3 million 
and local agriculture producers will add another $7.5 million. Hence, 
it is anticipated that in fiscal year 2006 the State and local 
contributions will be 45 percent of the total program.
    The State of Wyoming greatly appreciates the Subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
continue to believe this important basin-wide water quality improvement 
program merits support by your Subcommittee. We request that your 
Subcommittee direct the allocation of 2.5 percent of the Environmental 
Quality Incentives Program funding for the USDA's CRSC Program during 
fiscal year 2007. Thank you in advance for your consideration of this 
statement and its inclusion in the formal record for fiscal year 2007 
appropriations.
                                 ______
                                 

            Prepared Statement of the U.S. Apple Association

    The U.S. Apple Association (USApple) appreciates the opportunity to 
provide this testimony on behalf of our nation's apple industry.
    Our testimony will focus on the following areas: the Market Access 
Program (MAP); funding for the Specialty Crop Competitiveness Act, 
Cooperative State Research, Extension and Education Service (CSREES) 
and Agricultural Research Service (ARS) funding, nutrition education 
and expansion of the fruit and vegetable snack program.
    USApple is the national trade association representing all segments 
of the apple industry. Members include 36 State and regional apple 
associations representing the 7,500 apple growers throughout the 
country as well as more than 300 individual firms involved in the apple 
business. Our mission is to provide the means for all segments of the 
U.S. apple industry to join in appropriate collective efforts to 
profitably produce and market apples and apple products.
Market Access Program (MAP)
    USApple encourages Congress to appropriate $200 million in MAP 
funds, the level authorized in the farm bill for fiscal 2007.
    The apple industry receives over $3 million annually in export 
development funds from the U.S. Department of Agriculture's (USDA) 
Market Access Program (MAP). These funds are matched by grower dollars 
to promote apples in more than 20 countries throughout the world. One-
quarter of U.S. fresh apple production is exported, with an annual 
value of approximately $370 million.
    Strong MAP funding is critical to the U.S. apple industry's efforts 
to maintain and expand exports, and to increase grower profitability. 
Congress recognized the importance of MAP by authorizing increased 
funding in the 2002 farm bill. Over the past three years, congressional 
appropriations have kept pace with the farm bill's authorized level.
Food Quality Protection Act (FQPA) Implementation
    USApple urges full funding for the following U.S. Department of 
Agriculture (USDA) administered programs to mitigate the negative 
impact of FQPA implementation on apple growers.
  --$16 million for the Pesticide Data Program, administered by the 
        Agricultural Marketing Service (AMS);
  --$8.0 million for the National Agricultural Statistics Service 
        (NASS) pesticide-usage surveys;
  --$2.0 million for the Office of Pest Management Policy administered 
        by the Agricultural Research Service (ARS);
  --$3.7 million for minor-use registration of crop protection tools 
        (IR-4) administered by ARS;
  --$7.2 million for area-wide IPM research administered by ARS;
  --$13.5 million for the Integrated Pest Management Research Grant 
        Program administered by the Cooperative State Research, 
        Extension and Education Service (CSREES);
  --$10.8 million for minor-use registration of crop protection tools 
        (IR-4) administered by CSREES; and
  --$12.5 million for the Pest Management Alternatives Program, 
        Regional Pest Management Centers, Crops at Risk and Risk 
        Avoidance and Mitigation Program also administered by CSREES.
National Tree Fruit Technology Roadmap
    USApple urges the Committee to support the apple industry's efforts 
to improve its competitiveness by providing increased Federal funding 
for the development and application of new technologies as outlined 
below.
    Codling Moth and Other Lepidoptera Insect Research:
  --$800,000 Agricultural Research Service--Yakima, Washington
  --$800,000 Agricultural Research Service--Kearneysville, West 
        Virginia
    Colonial immigrants introduced the codling moth into the United 
States from Europe, and its presence in apple orchards has plagued 
apple growers for the past 200 years. If uncontrolled, codling moth 
larvae damage apples by burrowing into fruits. This pest causes 
significant production losses and ruins demand. Codling moth is 
presently controlled by pesticide applications or techniques that 
interfere with reproduction. However, these options are insufficient to 
fully meet industry standards for codling moth control. Shortcomings in 
current controls have even led to the closure of the apple industry's 
third largest export market. Other lepidoptera insects such as oriental 
fruit moth and leaf rollers are also significant pests of concern that 
decrease grower profitability.
    The apple industry needs better decision-making techniques, 
improved understanding of secondary pests and the biology of pest 
predators, improved mating disruption techniques, rapid and efficient 
pest detection and instrumentation methods. Geographic differences in 
codling moth control capabilities requires a regional approach to 
research funding.
    Rootstock Breeding and Soil Replant Disease Research:
  --$400,000 Agricultural Research Service--Geneva, New York
  --$400,000 Agricultural Research Service--Wenatchee, Washington
    Rootstocks are important to apple growers because of their 
prominence in determining tree size, tree architecture and disease 
vulnerability. There is a growing interest and demand for hearty 
rootstocks that lend disease resistance and improved tree structures 
that are more efficient and profitable to manage.
    Soil replant disease is a poorly understood phenomenon that reduces 
tree vigor and stunts tree growth in new orchards, which are planted on 
the site of a previously existing orchard. A combination of organisms 
such as bacteria, fungi, nematodes and viruses are suspected to play a 
role in attacking the roots of new apple trees, limiting their growth 
potential. This problem has surfaced as a high priority problem because 
of the scarcity of new orchard sites, the need to replant existing 
orchards, the high per acre cost of planting new orchards and shortage 
of good options to control replant disease. Soil replant disease is a 
problem for all tree fruits including apples, pears, peaches and 
cherries. Genetics and genomics approaches are expected to yield 
significant progress in addressing rootstock related research.
    Research is needed to better understand site-specific drivers 
causing the disease and how the disease causes damage. Research is 
necessary to develop sustainable controls.
    Fruit Quality Research:
  --$750,000 Agricultural Research Service--Albany, California
  --$750,000 Agricultural Research Service--Wenatchee, Washington
    The future of the U.S. apple industry will depend on the ability of 
apple growers to consistently grow and market apples with superior 
quality. Improved fruit quality will not only ensure greater 
international competitiveness, but it will increase consumer demand for 
apples.
    Research is needed on the physical, chemical and genetic 
composition of apples so apple growers can produce apples with superior 
consumer traits, such as texture, aroma, and nutrition and apples with 
superior production traits such as uniform ripening and better storage 
characteristics and systems to deliver better fruit quality to 
consumers through improved defect and quality sorting.
    Automation, Sensors, and Precision Agriculture Research:
  --$4,000,000 Agricultural Research Service--Kearneysville, West 
        Virginia
  --$2,000,000 Agricultural Research Service--East Lansing, Michigan
  --$2,000,000 Agricultural Research Service--Prosser, Washington
    Improving labor productivity is a critically important goal for the 
apple industry as it strives to remain competitive with low-wage 
international competitors. Tree fruit industries must identify and 
incorporate new technologies that will minimize low skill tasks, 
enhance worker productivity and safety, reduce production and handling 
costs, decrease seasonality of labor, and maximize fruit quality 
delivered to consumers.
    Additional research is needed for fruit postharvest technology 
research in a packing line environment to better evaluate internal 
fruit quality characteristics, such as internal defects, sugar content 
and fruit firmness. Improved sensor technology used on packing lines 
will be beneficial in detecting internal defects, lessen that amount of 
labor needed to detect and sort fruit and ensure that all packed fruit 
meets consumer demand for high quality fruit.
    Successful technological innovations must be coupled with novel 
plant genetics, integrated orchard designs, biorational pest and 
predator management systems, and prescriptive plant bioregulators. A 
systems approach will also require the simultaneous development and 
deployment of remote and ground sensing capabilities for real-time 
assessment of micro-environmental variables; tree vigor and orchard 
canopies; pest, pathogen, and predator pressure; water stress, and 
fruit quality. This research would also be applicable to a host of tree 
fruits including cherries, peaches, almonds and apples and pears.
    The need for investment in these new technologies has never been 
greater, but current Federal research to address this need is 
insufficient. Therefore, the tree fruit industry is requesting an 
increase in research funding to meet this great need.
Specialty Crops Competitiveness Act
    USApple urges Congress to fund the block grants authorized under 
the Specialty Crop Competitiveness Act at the full $44.5 million 
authorized under the Act.
    The Specialty Crop Competitiveness Act (SCCA) was introduced in the 
108th Congress by Reps. Cal Dooley (D-CA) and Doug Ose (R-CA) and in 
the Senate by Senators Craig (R-ID) and Stabenow (D-MI). The bill was 
designed to strengthen demand, reduce production costs, and enhance 
production and marketing efficiencies.
    The majority of the funds authorized funds would go toward block 
grants, with each State department of agriculture being guaranteed a 
minimum of $100,000. In fiscal year 2006 Congress appropriated $7 
million for the block grants. USDA's Agriculture Marketing Service is 
now in the process of drafting regulations to implement the program. 
There is a strong need to build on the $7 million authorized for fiscal 
year 2006 and continue this important program.
    USApple urges Congress to increase funding for the Technical 
Assistance for Specialty Crops (TASC) program to $4 million as 
authorized under the Specialty Crop Competitiveness Act.
    This program has been critical over the last 4 years in helping the 
apple industry address specific sanitary and phytosanitary (SPS) non-
tariff trade barriers.
Fresh Fruit and Vegetable Snack Program
    USApple urges Congress to include $36 million in the USDA budget to 
expand the fruit and vegetable snack program to 25 schools in each of 
the 36 remaining States.
    The 2002 farm bill established the Fruit and Vegetable Pilot 
Program to promote consumption of fruits and vegetables among school 
children by providing free produce to schools in 25 schools in each of 
four States (Iowa, Indiana, Michigan, Ohio and one Indian Tribal 
Organization in New Mexico). The Child Nutrition and WIC 
Reauthorization Act of 2004 made the pilot permanent and expanded it to 
25 schools in Mississippi, three additional States (North Carolina, 
Pennsylvania and Washington were chosen by USDA) and two additional 
Indian Reservations. In fiscal year 2006, Congress expanded the program 
to an additional 6 States (Utah, Wisconsin, Texas, Idaho, New Mexico, 
and Connecticut). If Congress is unable to expand the program to the 
entire country, USApple urges that the program be expanded to include 
New York.
    Reports from the original pilot showed that students were 
increasing their consumption of fruits and vegetables, choosing more 
fruits and vegetables for lunch, and asking their parents for fruits 
and vegetables at home. The fruit and vegetable snack program works to 
educate children about the healthy eating habits that will last a 
lifetime. The fruit and vegetable snack program should be expanded to 
25 schools in every State.

                      REINSTATEMENT OF RECESSIONS

Temperate Fruit Fly Research Position--Yakima, Wash.
    USApple requests continued funding of $300,000 to conduct critical 
research at the USDA ARS laboratory in Yakima, Wash. on temperate fruit 
flies, a major pest of apples.
    The Yakima, Wash., USDA ARS facility is conducting research 
critical to the crop protection needs of the apple industry. FQPA 
implementation has reduced the number of pesticides currently available 
to growers for the control of pests, such as cherry fruit fly and apple 
maggot. Left unchecked, these temperate fruit flies can be devastating. 
Thus, research is needed to develop alternative crop protection methods 
as growers struggle to cope with the loss of existing tools. While 
Congress appropriated $300,000 last fiscal year for this critical 
research, the administration's proposed budget for fiscal 2007 rescinds 
this funding.
Post Harvest Quality Research Position--East Lansing, Mich.
    USApple urges Congress to maintain funding of $309,600 in the USDA 
ARS fiscal year 2007 budget for the postharvest quality research 
position in East Lansing, Mich.
    The East Lansing, Mich., USDA ARS facility is conducting research 
critical to the future survival of the apple industry. Using a series 
of new sensing technologies, researchers at this facility are 
developing techniques that would allow apple packers to measure the 
sugar content and firmness of each apple before it is offered to 
consumers. Research indicates consumer purchases will increase when 
products consistently meet their expectations, suggesting consumers 
will eat more apples once this technology is fully developed and 
employed by our industry. While Congress appropriated $309,600 last 
fiscal year for this critical research, the administration's proposed 
budget for fiscal 2007 rescinds this funding.
Genomics, Disease Resistance and Insect Behavior--Kearneysville, W.V.
    USApple urges Congress to maintain funding of $588,900 in the USDA 
ARS 2007 budget for genomics, disease resistance and insect behavior 
research in Kearneysville, W.V.
    This research provides critical information that assists with the 
development of new apple varieties, identification of disease pathways 
and strategies to control devastating insect pests. This research is 
important in developing solutions to problems that reduce fruit quality 
and increase production costs. Apple growers depend on this research 
for economic sustainability and increased international 
competitiveness.
Genetics of Fruit Quality Research--Wenatchee, Wash.
    The Wenatchee, Wash., USDA Agricultural Research (ARS) lab is 
building a genetics and genomics research program that will develop a 
greater understanding of fruit quality attributes that are important to 
consumers, such as flavor, texture, storability and nutrition. This 
research will also provide a clearer understanding of where important 
genes are located within the apple genome and the role those genes play 
in the expression of desirable fruit quality attributes. This 
understanding will provide new tools that can be understood as a 
multiplier effect to propel existing research programs that will be 
able to utilize the genetics and genomics tools related to fruit 
quality and physiological issues.
    USApple urges Congress to maintain baseline funding of $450,000 in 
the USDA Agricultural Research Service's fiscal year 2007 budget for 
the genetics of fruit quality research position in Wenatchee, Wash. 
Laboratory.
                                 ______
                                 

             Prepared Statement of the USA Rice Federation

    Dear Mr. Chairmen: This is to convey the rice industry's request 
for fiscal year 2007 funding for selected programs under the 
jurisdiction of your respective subcommittees. The USA Rice Federation 
appreciates your assistance in making this letter a part of the hearing 
record.
    The USA Rice Federation is the national advocate for all segments 
of the rice industry, conducting activities to influence government 
programs, developing and initiating programs to increase worldwide 
demand for U.S. rice, and providing other services to increase 
profitability for all industry segments. USA Rice members are active in 
all major rice-producing States: Arkansas, California, Florida, 
Louisiana, Mississippi, Missouri, and Texas. The USA Rice Producers' 
Group, the USA Rice Council, the USA Rice Millers' Association, and the 
USA Rice Merchants' Association are members of the USA Rice Federation.
    USA Rice understands the budget constraints the committee faces 
when developing the fiscal year 2007 appropriations bill. We appreciate 
your past support for initiatives that are critical to the rice 
industry and look forward to working with you to meet the continued 
needs of research, food aid and market development in the future.
    A healthy U.S. rice industry is also dependent on the program 
benefits offered by the Farm Security and Rural Investment Act of 2002. 
Therefore, we oppose any attempts to modify the support levels provided 
by this vital legislation through more restrictive payment limitations 
or other means and encourage the committee to resist such efforts 
during the appropriations process.
    A list of the programs the USA Rice Federation supports for 
appropriations in fiscal year 2007 are as follows:
Funding Priorities
            Research and APHIS
    The Dale Bumpers National Rice Research Center should receive 
continued funding at the fiscal year 2006 approved level. This center 
conducts research to help keep the U.S. rice industry competitive in 
the global marketplace by assuring high yields, superior grain quality, 
pest resistance, and stress tolerance. The fiscal year 2007 budget 
proposal from the U.S. Department of Agriculture proposes to rescind 
$270,000 in funding for this key research center, which would severely 
hamper the vital research activities being conducted at this national 
center. We urge you to provide full funding to the Dale Bumpers 
National Rice Research Center.
    In addition, we have attached information outlining the top 
priority research request from the USA Rice Federation; funding for 
aromatic rice variety research at the Dale Bumpers Center. The request 
is for $250,000 for fiscal year 2007 for research to develop domestic, 
high-yielding, high-quality aromatic rice varieties for the U.S. rice 
industry. Further details and specifics of this request are attached.
    Furthermore, we urge the subcommittee to continue to provide full 
funding for the USDA-ARS Rice Research Unit in Beaumont, Texas. The 
fiscal year 2007 budget proposal calls for cuts of $1.4 million, which 
would likely result in the closure of this important rice research 
facility. We ask for your consideration in maintaining funds to keep 
this center in operation for the benefit of the U.S. rice industry.
    The Western Regional Research Center, located in California, should 
receive continued full funding for operating funds. This center 
provides important research activities in support of the California 
rice industry, particularly post-harvest research. This facility has 
undergone recent modernization and upgrades and it is important to 
continue to provide the funds necessary to allow the center to continue 
full operations.
    For APHIS-Wildlife Services, we encourage the committee to fund the 
Louisiana blackbird control project at $333,000. This program annually 
saves rice farmers in Southwest Louisiana over $4,000 per farm, or $2.9 
million total. No increases have been provided to the program since 
1994 and inflation is reducing the overall impact. An increase from the 
$150,000 baseline is justified.
Market Access
    Exports are critical to the U.S. rice industry. Historically, 40-50 
percent of annual U.S. rice production has been shipped overseas. Thus, 
building healthy export demand for U.S. rice is a high priority.
    The Foreign Market Development Program (FMD) allows USA Rice to 
focus on importer, foodservice, and other non-retail promotion 
activities around the world. For fiscal year 2007, FMD should be fully 
funded at $34.5 million, consistent with the President's Budget 
request.
    The Market Access Program (MAP) allows USA Rice to concentrate on 
consumer promotion and other activities for market expansion around the 
world. For fiscal year 2007, MAP should be funded at $200 million as 
authorized by the Farm Security and Rural Investment Act of 2002, which 
restores MAP funding to its authorized level. This is $100 million 
above the President's budget request.
    In addition, the Foreign Agricultural Service should be funded to 
the fullest degree possible to ensure adequate support for trade policy 
initiatives and oversight of export programs. These programs are 
critical for the economic health of the U.S. rice industry.
Food Aid
    We encourage the committee to fund Public Law 480 Title I at a 
minimum level of $100 million, an increase from fiscal year 2006 
levels. This program is our top food-aid priority and we support 
continued funding in order to meet international demand. Food-aid sales 
historically account for a significant portion of U.S. rice exports.
    For Public Law 480 Title II we support funding for fiscal year 2007 
at $1.335 billion, equal to the fiscal year 2006 level. We encourage 
the committee to fund Title II at a level to ensure consistent tonnage 
amounts for the rice industry. We oppose any shifting of funds, as all 
Title II funds have traditionally been contained within USDA's budget. 
We believe all food-aid funds should continue to be used for food-aid 
purchases of rice and other commodities from only U.S. origin.
    USA Rice supports continued funding at fiscal year 2006 levels for 
Food for Progress. Funding for this program is important to improve 
food security for food deficit nations.
    The Global Food for Education Initiative is a proven success and it 
is important to provide steady, reliable funding for multi-year 
programming. USA Rice supports the $103 million request in the 
President's fiscal year 2007 budget for this education initiative 
because it efficiently delivers food to its targeted group, children, 
while also encouraging education, a primary stepping-stone for 
populations to improve economic conditions.
Other
    Farm Service Agency.--We encourage the Committee to provide 
adequate funding so the agency can deliver essential programs and 
services. The Agency has been hard hit by staff reductions and our 
members fear a reduction in service if sufficient funds are not 
allocated.
    Please feel free to contact us if you would like further 
information about the programs we have listed. Additional background 
information is available for all of the programs we have referenced, 
however, we understand the volume of requests the committee receives 
and have restricted our comments accordingly.
    Thank you for your consideration of our recommendations.
    Attachment:

                 FISCAL YEAR 2007 FUNDING REQUEST FORM

    Agency.--U.S. Department of Agriculture
    Account.--USDA/ARS: The Dale Bumpers National Rice Research Center, 
Stuttgart, AR
    Project Name.--Research to develop domestic, high yield, high 
quality aromatic rice varieties at the USDA/ARS Dale Bumpers National 
Rice Research Center
    Priority.--High.
    New Project.--Yes.
    Project Description.--Aromatic rice imports have grown dramatically 
in the United States in the past 15 years and now total about 450,000 
MT per year or 15 percent of total consumption. The United States does 
not have an aromatic rice variety that has the yield, milling quality, 
and flavor to compete with the imported products. The research will 
enable the U.S. rice industry to compete effectively in a timely manner 
in the U.S. market with imported aromatic rice.
    The Dale Bumpers National Rice Research Center conducts research in 
rice genetics, quality, and pests' resistance to help keep the U.S. 
rice industry competitive in the global marketplace. The Center 
directly serves the needs of the U.S. industry in Arkansas, California, 
Mississippi, Louisiana, Missouri, and Texas. One of its major emphases 
is the genetic improvement of rice through the use of cutting-edge 
genomic tools and a multidisciplinary research approach.
    Aromatic rice has a flavor and aroma similar to roasted nuts or 
popcorn. This is a natural compound that is found in several plants 
like corn and rice but is present in much higher concentrations as a 
result of breeding and development of aromatic rice varieties.
What is the anticipated benefit and/or impact of the project?
    Developing high-yielding domestic aromatic rice varieties with the 
grain quality traits needed is essential for the U.S. rice industry to 
compete in this market and meet domestic consumer demand. In addition, 
developing a new understanding of the various chemical compounds that 
result in aromatic flavors and smells, along with developing genetic 
markers that can be used by breeders to improve grain chemistry and 
grain appearance traits, will help the U.S. rice industry to have a 
competitive edge in this value-added market.
    Previous Funding: Fiscal Year 2002-06 And Amount.--Zero.
    Fiscal Year 2007 Request.--$250,000; one full-time staff position 
for 1 year.
    Fiscal Year 2007 Share.--Fiscal year 2007 funding is for 1 year of 
research, with development of a multi-year project pending the findings 
of the 2007 research.
    Local Share.--Availability of matching funds is being explored at 
this time.
Request Description
    ARS Account: Dale Bumpers National Rice Research Center, Stuttgart, 
AR
    Dale Bumpers National Rice Research Center, Stuttgart, AR
    Domestic Aromatic Rice Varieties Research
    The Committee provides $250,000 toward development of domestic 
aromatic rice varieties to enable the U.S. rice industry to compete 
effectively in a timely manner in the U.S. market.
                                 ______
                                 

 Prepared Statement of the University of Southern Mississippi and the 
                     Mississippi Polymer Institute

    Mr. Chairman, distinguished Members of the Subcommittee, I thank 
you for this opportunity to provide testimony describing ongoing 
research and commercializing efforts of The University of Southern 
Mississippi (USM) and the Mississippi Polymer Institute. I am very 
grateful to the Subcommittee for its leadership and the continued 
support of the Institute and its work. This testimony will include a 
summary of the Institute's research progress since my testimony of 
approximately 1 year ago.
    Research efforts over the last year have focused on developing 
agricultural-based, environmentally responsible derivatives for use in 
coatings and composites to replace petroleum derivatives. Novel 
monomers for emulsion polymerization have eliminated the previously 
required complicated synthesis procedures while allowing higher levels 
of vegetable oil macromonomer (VOMM) incorporation. The resulting latex 
polymers facilitate the formulation of architectural coatings with 
gloss levels rivaling solvent-based coatings and zero volatile organic 
compound (VOC) content. Performance and storage stability optimization 
continues across a wide range of novel VOMMs. We are excited about the 
continued progress as we believe the agriculturally-derived monomers 
have the potential to improve performance while reducing environmental 
hazards.
    Last year, we reported the successful production of lab-scale soy-
based adhesive, formaldehyde-free particleboards that exceeded all 
commercial specifications. We have confirmed that the adhesive can be 
scaled up to 30 L batches that produce superior boards compared to the 
conventional formaldehyde-based boards. Moreover, the soy-based 
particleboards degrade faster than commercial particleboards as 
evidenced in soil burial tests. To the best of our knowledge, this is 
the only soy protein-based adhesive that can be formulated into 
particleboards without the use of formaldehyde-releasing resins that 
meets and exceeds commercial particleboard performance. Pilot plant 
testing confirmed laboratory performance. It defined the limits of 
conventional production and suggested areas requiring further research 
to prepare it for commercial manufacturing.
    Through our continued research, the U.S. farmer is better 
positioned to grow and supply the sustainable raw materials required to 
produce environmentally responsible products and reduce our dependency 
on imported petroleum products. Coupled with the reduction in air 
pollution, a carbon neutral technology, and the absence of 
formaldehyde, our research is a valuable strategic component to 
America's long-term success and aid in maintaining a higher standard of 
living. To date, our technology has resulted in a total of 25 patents 
and patent applications, both United States and foreign. Additional 
patent applications will be submitted during the upcoming months. With 
adequate funding, facilities, and commitment, ag-based research will 
continue to the betterment of our society. We are most appreciative of 
your support and will continue to push for full commercialization of 
technological advances utilizing agricultural intermediates while 
training scientists for careers in the next generation of 
agriculturally-oriented polymer science.
    The design and synthesis of novel vegetable oil macromonomers 
(VOMMs) using soy oil, linseed oil, and tung oil are being 
investigated. Continued research has increased the utility for new 
monomers at higher levels of incorporation. Tailored synthesis methods 
with the new monomers have increased the VOMM content in latexes to 80 
percent of the monomers by weight, a 30 percent increase over last year 
(based on solids). The monomers that permit the polymer chain to form a 
smooth film also provide a mechanism for crosslinking through auto-
oxidation. Successful incorporation of a variety of VOMM levels allows 
our research to advance to the optimization of unsaturation, comonomer 
ratios, and coating performance. Long-term storage stability and 
coatings performance continue to be investigated.
    Surfmers or VOMMs that act as the stabilizing surfactant and a 
participating monomer in emulsions continue to be investigated. 
Neutralized soybean acrylated monomer (nSAM) functions well as a 
surfmer and performs similar to commercial surfactants with good 
polymerizability. Last year, we synthesized stable styrene emulsion 
copolymers containing 44 weight percent VOMM-based surfmers. This year, 
we have successfully synthesized 100 percent VOMM-based latexes that 
yielded high gloss films without added plasticizers or solvents, 
forming films at 0C.
    Solvent-free nail polishes and waterborne industrial coatings based 
on VOMMs were studied in comparison with commercial products. VOMM-
based nail polishes provided high gloss levels and improved adhesion on 
plastic (ABS) and human nails. Research will continue to improve the 
water resistance. Industrial coatings formulated with VOMM-based 
latexes performed similar or superior to the control coatings when 
crosslinked with melamine or aziridine crosslinkers, respectively. 
VOMM-based latexes formulated into paper coatings have exhibited 
performance properties similar to those of styrene-acrylic commercial 
controls. VOMM coating properties continue to be evaluated and 
optimized using various comonomer compositions.
    Particleboard composites based solely upon soy protein adhesives 
were scaled from the 1-4 L range to 30 L and proved that board 
performance and storage stability are achievable. Additionally, the 30 
L batch of adhesive produced quality composites after long-term 
storage. Our research produced particleboards that have met or exceeded 
each of the industry performance requirements as defined by ANSI 
standards for M1, M2, M3, and M-S grade boards. The two primary 
barriers to market entry/commercialization are solids content/viscosity 
and cost. This year, the practical adhesive solids content was 
increased from 20 weight percent to 29 weight percent. Commercial 
formaldehyde-based resins are supplied at 65 percent or greater in 
solids content. The low solids content of our adhesive necessitates 
removal of large quantities of water during the commercial 
manufacturing process which is influenced by various factors such as 
temperature, time, and platen type and size. Current research efforts 
are focused on improving the solids content/viscosity balance through 
understanding the protein interactions in water that generate a viscous 
solution. Soy protein isolate (SPI) is a high purity protein (90 
percent) and therefore is more expensive than other forms of soy 
protein such as defatted soy flour (DSF) at 53 percent protein content. 
Particleboards manufactured with DSF as the sole replacement for SPI 
exceeded MS and M1 specifications, but did not meet M2 and M3 
performance requirements. Since SPI-based particleboards exceed the 
commercial performance requirements of formaldehyde-based 
particleboards in that it delivers superior moisture resistance and 
improved structural integrity even after 24 hours of water immersion, 
we believe the environmentally responsible and sustainable goals 
warrant further research. In addition to the performance attributes, 
SPI-based particleboards degrade more rapidly than commercial 
particleboards during soil burial tests.
    The Mississippi Polymer Institute is charged with promoting and 
supporting Mississippi's polymer industry by providing workforce 
development, technical service, product development, and assistance 
with economic development activities. In the area of workforce 
development, the Institute provides industry training in injection 
molding, extrusion, blow molding, and lean manufacturing. In 2004-2005, 
MPI trained 192 employees and in 2005-2006 MPI provided training for an 
additional 152 employees. The Institute has implemented polymer 
technology programs in high schools throughout the State of 
Mississippi. Currently, MPI supports four high school polymer 
technology programs in Petal, Moss Point, Columbia, and Corinth. There 
are 74 students enrolled in these programs. Implementing similar 
programs throughout the State will build a skilled workforce in polymer 
science for Mississippi.
    The faculty, the University, and the State of Mississippi are 
strongly supportive of the Mississippi Polymer Institute and its close 
ties with industry. Most faculty maintain at least one industrial 
contract as an important part of extramural research efforts. Polymers 
which include fibers, plastics, composites, coatings, adhesives, inks, 
and elastomers play a key role in the materials industry. They are 
ubiquitous in industrialized societies and across all industries 
including textiles, aerospace, transportation, energy, packaging, 
architecture and construction, medicine, sports and sporting goods, 
composites, and defense related materials. Critical for many of the 
technologies is a combination of controlled performance, weight 
reduction, and high strength performance. Unfortunately, our strategic 
position resembles the natural rubber supply situation during WWII 
which was controlled by potentially unreliable sources affecting our 
Nation's security.
    Our agriculturally focused research continues to create innovative 
natural product derivatives across several technology platforms 
targeting commercialization in coatings, adhesives, composites, and 
polymers in general. America is presently at a critical point in 
history as our standard of living is tied directly to technological 
advancements and innovation demanding high energy usage and the need 
for scientists and engineers. Since petroleum reserves are being 
depleted at an accelerating rate and other countries are competing on 
price and innovation, timing is critical. Our youth are no longer 
choosing careers in science and engineering which will cause us to lose 
our competitive edge, and in turn, affect the standard of living within 
the next decade. Our greatest achievements can be accomplished through 
the development of high performance materials based upon carbon neutral 
sustainable raw material resources. Almost every technological 
development over the past decade was dependent upon polymeric 
materials. Since the polymer industry is the largest single consumer of 
petroleum chemical intermediates in the world, our reality is clear in 
that we must develop agriculture as the industry of the future. 
Fortunately, many scientists are beginning to harness agricultural 
feedstocks and natural products. For example, a scientific literature 
search using the term biomimetic (defined as copying nature's methods 
or designs) revealed only 125 peer reviewed publications and patents in 
1990, whereas over 1,100 publications and patents in 2005, followed 
nature's lead for energy-related products, coatings protection, 
composites, adhesives, environmentally friendly antibacterial/
antimicrobial agents, and improved medicines. A similar search using 
the word polymer provides over 70,000 publications and patents for 
2005. Our research and commercialization efforts encompass many 
important facets including training scientists that will continue to 
innovate and develop technology that is critical for the maintenance of 
our quality of life and national stability. We, as a Nation, can 
improve our environment, reduce our dependence on imported petroleum, 
keep America's farmlands in production, and continue to be the World's 
technology leader. Your support is necessary to continue our research 
efforts to accomplish the goals set forth.
    As a polymer scientist, I am intrigued by the vast opportunities 
offered by American agriculture. As a professor, however, I continue to 
be disappointed that few of our science and business students receive 
training in the polymer-agricultural discipline despite its enormous 
potential. The School of Polymers and High Performance Materials and 
the Mississippi Polymer Institute at USM are attempting to make a 
difference by showing others what can be accomplished if appropriate 
time, energy, and resources are devoted to the understanding of ag-
based products. I became involved in the polymer field more than 40 
years ago, and have watched its evolution where almost each new product 
offered the opportunity for many more. Although polymer science as a 
discipline has experienced expansion and a degree of public acceptance, 
alternative agricultural materials in the polymer industry continue to 
be an underutilized national treasure. Today, society displays less 
acceptance of petroleum-derived materials than ever before, and 
consequently, the timing is ideal for agricultural materials to make 
significant inroads as environmentally responsible, biodegradable, and 
renewable feedstocks. Agricultural materials have always been available 
for our use, and the scientific community often grasps the real 
potential for renewable materials, unfortunately, society continues to 
ignore their potential.
    U.S. agriculture has made the transition from the fields to the 
kitchen tables, but America's industrial community continues to be 
frightfully slow in adopting ag-based industrial materials. The prior 
sentence was included in several of my previous testimonies and rings 
true again. We are making progress and must continue to aggressively 
pursue these opportunities and in doing so:
  --Intensify U.S. efforts to commercialize alternative crops and 
        dramatically reduce atmospheric VOC emissions and odor. The 
        result will be much cleaner and less noxious air for all 
        Americans.
  -- Reduce U.S. reliance on imported petroleum.
  -- Maintain a healthy and prosperous farm economy with unlimited 
        sustainability.
  -- Foster new cooperative opportunities between American farmers and 
        American industry.
  --Create advanced polymer technology-based manufacturing jobs that 
        can not be easily exported to other countries.
    Mr. Chairman, your leadership and support are deeply appreciated by 
the entire USM community. While I can greatly appreciate the financial 
restraints facing your Subcommittee, I feel confident that further 
support of the Mississippi Polymer Institute will continue to pay 
dividends of increasing commercialization opportunities of agricultural 
materials in the American industry and training scientists required for 
America's continued prosperity. Advances in polymer research are 
crucial to food, energy, transportation, housing, medical, and defense 
industries. Our work has clearly established the value of ag-products 
as industrial raw materials, and we must move it from the laboratories 
to the industrial manufacturing sector. Only then can the United States 
enjoy the cleaner and safer environment that these technologies offer, 
as well as new jobs, and expanded opportunities for the U.S. farmer and 
scientists. We are most grateful for the support you have provided in 
the past. The funding you have provided has supported fundamental 
research as well as pilot commercial manufacturing and testing. 
However, additional funds are needed to further advance these 
technologies.
    Since our testimony last year, we have continued to research, 
understand, and develop, agricultural-based materials for 
commercialization. We are in need of additional and consistent 
resources to advance these infant technologies to the market place, and 
to continue our research and development of other exciting 
technologies. We therefore respectfully request $2 million in federal 
funding to more fully exploit the potential of commercializing the 
technologies described herein. We have shown that we can be successful, 
yet we need additional resources in order to ultimately utilize the 
potential of this technology. Next year's research and 
commercialization plan is aggressive, knowing that our Nation requires 
technology to survive and that our efforts will be recognized as 
instrumental in developing a ``process'' for the commercialization of 
new ag-based products. The development of this process, and to show it 
is successful, is extremely important to all entrepreneurs who believe 
in and support ag-based products. Thank you, Mr. Chairman and Members 
of the Subcommittee, for your support and consideration.
                                 ______
                                 

  Prepared Statement of the Upper Mississippi River Basin Association

    The Upper Mississippi River Basin Association (UMRBA) is the 
organization created in 1981 by the Governors of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin to serve as a forum for coordinating 
the five States' river-related programs and policies and for 
collaborating with Federal agencies on regional water resource issues. 
As such, the UMRBA has an interest in the budget for the U.S. 
Department of Agriculture's conservation programs and technical 
assistance.
    Of particular importance to the UMRBA is funding for the 
Conservation Reserve Program (CRP), Wetlands Reserve Program (WRP), 
Environmental Quality Incentives Program (EQIP), and Conservation 
Security Program (CSP). Taken together, these four Commodity Credit 
Corporation-funded programs provide an invaluable means for the USDA to 
work with landowners, local conservation districts, and the states to 
maintain agricultural productivity while protecting the Nation's soil 
and water resources. Moreover, they do this in a voluntary, non-
regulatory fashion. CRP, WRP, EQIP, and CSP will be key non-regulatory 
elements in the States' efforts to address agricultural sources of 
water quality impairment through the Total Maximum Daily Load program. 
Successful application of conservation programs to this region's water 
quality problems will also help address the growing national concern 
with hypoxia in the Gulf of Mexico, which has been linked to nutrient 
loads from agriculture and other sources. As stewards of some of the 
Nation's most productive agricultural lands and important water 
resources, the five States of the Upper Mississippi River Basin believe 
these programs are vital.
Conservation Reserve Program
    The UMRBA supports President Bush's fiscal year 2007 budget request 
of $2.09 billion for the Conservation Reserve Program, a 5 percent 
increase over fiscal year 2006. This increase is testament to the 
strong landowner interest and high environmental benefits resulting 
from enrollment of fragile cropland acres in CRP. Through CRP, farmers 
and ranchers can voluntarily establish long term conservation 
practices, such as filter strips and riparian buffers, on highly 
erodible and environmentally sensitive cropland.
    In the UMRBA States (Illinois, Iowa, Minnesota, Missouri, and 
Wisconsin), total CRP enrollment is currently 7.0 million acres, or 
approximately 19 percent of the national CRP acreage. Yet the five 
States' CRP enrollment represents 41 percent of the total number of CRP 
contracts, 40 percent of the total number of farms enrolled nationwide 
in the CRP, and 32 percent of the total annual CRP rental payments.
    In 2007, nearly 39,000 CRP contracts in the five UMRBA States will 
expire, representing 29 percent of the CRP acres currently enrolled in 
these States. To determine which expiring contracts will be eligible 
for re-enrollment, USDA used an Environmental Benefits Index. As a 
result, 99.7 percent of the contracts expiring in 2007 in the five 
States will be offered re-enrollment.
    All five UMRBA States also have active Conservation Reserve 
Enhancement Programs tailored to meet their priority conservation 
needs. Current CREP enrollment in the five States is nearly 243,000 
acres, or 31 percent of the national total. These rates of 
participation clearly demonstrate the importance of the CRP and CREP in 
the Nation's agricultural heartland and reflect the compatibility of 
these programs with agricultural productivity.
Wetlands Reserve Program
    The President's fiscal year 2007 budget proposes $403 million for 
the Wetlands Reserve Program, an increase of 60 percent over fiscal 
year 2006 funding. UMRBA applauds this substantial increase and urges 
Congress to provide sufficient funding to meet WRP's 2007 enrollment 
goal of 250,000 acres, which is 100,000 acres more than the 2006 
estimate.
    Since the WRP was established in 1996, its easements have proven to 
be important tools for restoring and protecting wetlands in 
agricultural areas. This is clearly evident from the overwhelming 
landowner response and the resulting improvements to water quality and 
habitat. Through fiscal year 2004, WRP enrollment in Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin totaled more than 309,000 acres, or 
19 percent of the national total. In fiscal year 2005, landowners in 
the five States enrolled an additional 28,000 acres in the WRP. 
However, there were 1,217 eligible, but unfunded, applications to 
enroll another 134,000 acres from the five States in fiscal year 2005. 
This represents 38 percent of the total national backlog of 
applications for that year.
Environmental Quality Incentives Program
    In contrast to conservation programs that protect land and water 
resources by curtailing production on sensitive lands, the 
Environmental Quality Incentives Program supports conservation on 
working lands. Promoting agricultural production and environmental 
quality as compatible goals is particularly important in the Midwest 
agricultural heartland.
    The 2002 Farm Bill provides $1.3 billion of budget authority for 
the EQIP in fiscal year 2007. However, the President is proposing to 
fund EQIP at only $1.0 billion. The UMRBA urges Congress to fund EQIP 
at its full authorized level. Like many other conservation programs, 
EQIP funding has not kept pace with demand. Even at full funding, there 
will likely be significant numbers of unfunded EQIP applications. In 
fiscal year 2006, the EQIP allocation to the States of Illinois, Iowa, 
Minnesota, Missouri, and Wisconsin totals $118 million, only slightly 
more than the $114 million provided in fiscal year 2004, a year when 
there was an additional $180 million in unmet requests for EQIP 
assistance.
Conservation Security Program
    The President's fiscal year 2007 budget request of $342 million for 
the Conservation Security Program reflects a 32 percent increase over 
fiscal year 2006 for this popular voluntary program, which provides 
financial and technical assistance to agricultural producers who 
implement conservation measures on working lands.
    In fiscal year 2005, CSP contracts were offered to farmers and 
ranchers in 220 watersheds across the country. Twenty-two of those 
watersheds were in the five States of the Upper Mississippi River 
Basin. In those 22 watersheds, NRCS approved payments totaling $37.6 
million, which was 26 percent of the total CSP contract payments that 
year.
    In fiscal year 2006, CSP will be offered in 60 different watersheds 
nationwide, including one or two in each UMRBA State. It is too early 
to judge the demand for CSP in fiscal year 2006. The fiscal year 2006 
sign-up opened February 13, 2006 and is scheduled to close March 31, 
2006. It remains to be seen what the ultimate level of landowner 
interest will be in the CSP, as eligible watersheds change each year. 
But the UMRBA is encouraged that CSP is continuing to expand and 
funding levels are increasing.
Conservation Technical Assistance
    Through the Conservation Technical Assistance program, NRCS 
provides the technical capability that helps people plan and apply 
conservation on the land. NRCS works through and in partnership with 
conservation districts to assist individuals and groups in assessing 
conservation needs and planning, designing, and installing conservation 
practices. In addition, the CTA program assists in preparing landowners 
to participate in USDA conservation financial assistance and easement 
programs, provides emergency disaster technical assistance, and enables 
NRCS to coordinate with other programs such as U.S. EPA's nonpoint 
source management program and U.S. Fish and Wildlife Service's Partners 
for Wildlife. Approximately $92.8 million in CTA funding will be 
allocated to the five UMRBA States (Illinois, Iowa, Minnesota, 
Missouri, and Wisconsin) in fiscal year 2006. Yet that is an 8.6 
percent decrease from funding levels just 2 years ago.
    Given that CTA is the foundation for much of the Nation's private 
lands conservation assistance, it is disappointing that the President's 
fiscal year 2007 budget proposes a $62 million, or 9 percent, decrease 
in the CTA account. The UMRBA urges that, at a minimum, funding for CTA 
be maintained at the fiscal year 2006 level.
Watershed Programs
    The UMRBA is concerned that the President is proposing deep cuts to 
NRCS's watershed programs, including total elimination of the Watershed 
and Flood Prevention Operations program, which funds Public Law 566 and 
Public Law 534 projects. Funding for Watershed Operations has declined 
substantially over the past 20 years, from an historical high of $199 
million in fiscal year 1994 to only $74 million in fiscal year 2006. 
And yet this program provides significant local, regional, and national 
benefits, by addressing watershed protection, flood prevention, erosion 
and sediment control, water supply, water quality, water conservation, 
agricultural drought problems, rural development, municipal and 
industrial water needs, upstream flood damages, fish and wildlife 
habitat enhancement, and wetland creation and restoration. In May 2005 
there were $1.89 billion of unfunded Federal commitments to Public Law 
566 and Public Law 534 projects nationwide, with nearly $243 million of 
that in the States of Illinois, Iowa, Minnesota, and Missouri. Despite 
the fact that Public Law 566 and Public Law 534 projects in the five 
States were allocated nearly 27 percent of the total national funding 
in fiscal year 2005, that amount ($19.1 million) was far less than the 
$243 million backlog. In fiscal year 2006, although there is only $74 
million available for watershed protection and flood prevention 
operations nationwide, there are funding requests totaling over $174 
million, $44 million of which are in the five UMRBA States. Rather than 
eliminating this important program, UMRBA urges that it be funded at 
least equal to the fiscal year 2006 level of $74 million.
    In addition to continuing to invest in watershed and flood 
prevention projects, the rehabilitation of aging flood control dams 
must also be addressed. Of the 11,000 Public Law 534 and Public Law 566 
dams nationwide, more than 3,000 will reach the end of their design 
life by 2013. Recognizing this fact, Congress authorized the Watershed 
Rehabilitation Program in 2000 and authorized significant new funding 
for the program in the 2002 Farm Bill. In particular, $60 million is 
authorized for the Watershed Rehabilitation Program in fiscal year 
2007. Yet the President's fiscal year 2007 budget request is only $15 
million, a 52 percent decrease over the fiscal year 2006 funding level. 
In fiscal year 2005, when $27.3 million was appropriated for the 
Watershed Rehabilitation Program, only 60 percent of the $46 million in 
project requests was met for the year. Rehabilitation of aging dams, 
which could become a threat to public health and safety, is extremely 
important and UMRBA thus urges Congress to fund the Watershed 
Rehabilitation Program at least equal to its fiscal year 2006 level.
                                 ______
                                 

             Prepared Statement of West Virginia University

    Chairman Bennett and Members of the Subcommittee: Thank you for the 
opportunity to offer testimony to the Subcommittee on Agriculture, 
Rural Development, and Related Agencies. We request funding in the 
amount of $1,000,000 in the USDA budget for fiscal year 2007 to 
initiate a program called SCIPS, the Small Community Infrastructure 
Protection and Sustainability program. Discussion regarding our request 
is offered below.
Introduction
    My name is Richard Bajura, and I serve as Director of the National 
Research Center for Coal and Energy at West Virginia University in 
Morgantown, West Virginia. We have a long history of working with small 
and rural communities on projects in drinking water, wastewater, solid 
waste management, security for small community water systems, and 
emergency preparedness. We offer a resource of information and 
specialized technical assistance and training services to small 
communities and to those professionals that serve small communities and 
rural areas.
    Currently in the United States, there are no comprehensive regional 
or national centers dedicated to helping a small community to prepare 
for, respond to, and recover from natural or man-made emergencies or 
terrorist acts which affect a community's water infrastructure. This 
testimony outlines a model concept called Small Community 
Infrastructure Protection and Sustainability (SCIPS) which addresses 
this national need. Benefits to be gained by small communities include 
improved emergency preparedness and reduced costs for restoring 
infrastructure and services.
Need
    In the last 5 years, the Federal Emergency Management 
Administration (FEMA) has responded to more than 300 declared disasters 
including natural events such as earthquakes, hurricanes, tornadoes, 
and floods and man-made perils such as major fires, dispersal of 
hazardous materials, and acts of terrorism. Floods are the most common 
and widespread of all natural disasters except fires. The devastation 
caused by hurricanes such as Katrina or Rita is widely publicized and 
impinges on our consciousness. During major disasters, much of the 
Nation's attention is focused on large population centers, but nearly 
one-third of all Americans live in small, rural communities. Early 
reports on Hurricane Katrina's aftermath indicated that nearly 1,000 
drinking water and sewer systems were damaged and non-functional. Most 
of the impacted systems were in sparsely populated rural communities, 
lacking in emergency communications, and typically last in line for 
assistance as responders bypassed them on the way to the bigger cities.
    Advance preparation before an emergency is essential since federal 
protocols require that communities should be able to manage with their 
own resources for at least 24 to 72 hours before national programs 
provide assistance. But many small communities lack the expertise, 
information, and resources to install and operate appropriate water and 
wastewater systems, prepare the mandated emergency response plans, 
respond to emergencies when they occur, and recover afterwards. Small, 
and even medium-sized communities, are the least able to afford 
security and emergency preparedness enhancements to their water 
infrastructure or to obtain such expertise. These communities require 
assistance in all phases of preparing for and responding to 
emergencies.
SCIPS Model
    States and their respective small communities would benefit from 
access to a national resource dedicated to providing comprehensive 
water and wastewater assistance in all phases of emergency management. 
The SCIPS model program can assist small communities nationwide to 
maintain, protect, and replace water infrastructure resources damaged 
during emergency events. A service organization, or center, based on 
the SCIPS model draws upon experts in technology, public health, public 
administration, law, and policy to make the best environmentally and 
economically sound options available to small communities. SCIPS can 
serve as a comprehensive, one-stop resource for regulatory and public 
officials, assistance providers, utility operators/managers, and 
homeowners who want unbiased and timely information on water and 
wastewater infrastructure selection, maintenance, and replacement.
    Community Preparation.--During non-emergency periods, the SCIPS 
center focuses on community preparedness. Preparedness includes 
development and dissemination of short- and long-term strategies 
addressing threats to, and fostering the sustainability of, small 
community water and wastewater infrastructure. SCIPS personnel will 
provide customized training and education, technical assistance, and 
R&D throughout the Nation. These services will promote and facilitate 
asset management practices and emergency protocols as an integral part 
of infrastructure protection and sustainability. The SCIPS center 
increases the knowledge base of community officials, policy makers, 
scientists, engineers, and others through a research, education, and 
awareness campaign.
    Disaster Response.--During a disaster, the SCIPS center is a 
specialized resource that can be drawn upon at the request of national 
and local officials for timely assistance. The SCIPS center has core 
capabilities as an information center and technical assistance provider 
through its extensive knowledge of the network of public and private 
service providers across the Nation. SCIPS personnel are available to 
answer questions via hotline phone and internet facilities, serve as a 
communications resource among responders, and provide specialized 
assistance by arranging for technology experts to visit the affected 
communities. The SCIPS center assists communities in quickly restoring 
services as effectively as possible based on the extent of the 
disaster.
    Recovery.--During the post-emergency recovery phase, the SCIPS 
center assists communities in assessing damage, evaluating options for 
infrastructure replacement, and providing technical services for the 
replacement, installation and/or repair of infrastructure damaged 
during the emergency. The SCIPS center provides communities access to 
local, regional, and national experts. The Center offers a 
comprehensive spectrum of assistance to small communities for recovery 
of services, which enables a return of economic productivity to the 
community in addition to restoring essential services and ensuring 
public health.
Benefits
    The benefits to small and rural communities and to the Nation from 
establishing the SCIPS program include:
  --Implementation of viable security improvements for water and 
        wastewater infrastructure, systems ``hardened'' to withstand 
        disaster and prevent damage from terrorism acts, and quicker 
        recovery of essential systems and services after catastrophic 
        events;
  --Small communities that are better informed about preparing and 
        implementing water and wastewater emergency procedures;
  --Communications plans for small community water and wastewater 
        treatment systems in coordination with other community 
        organizations;
  --Improved rural community public health and a protected environment; 
        and,
  --Cost savings at the Federal, State and local levels realized by 
        implementing infrastructure sustainability measures which 
        reduce economic losses during catastrophic events.
West Virginia University
    West Virginia University is uniquely qualified to undertake 
implementation of the SCIPS model. As a comprehensive land grant, 
research extensive university, West Virginia University has the 
necessary faculty expertise to address the spectrum of legal, health, 
policy, research, and service requirements of the SCIPS model. Its 
National Environmental Services Center has more than 26 years of 
service to the Nation's small communities in the areas of drinking 
water, waste water, homeland security, and educational and training 
programs. The Center also has working relationships with relevant 
Federal agencies, State offices, and technology experts through out the 
country who would participate in response teams addressing emergencies 
in their respective regions.
Recommendation
    The lessons learned from the effects of Hurricane Katrina 
demonstrate the need for assistance to small communities in the 
protecting drinking water and wastewater infrastructure. We recommend 
establishing a national center to provide the services outlined under 
the SCIPS model.
    The following language is suggested for the Subcommittee Report: 
``The Managers provide $1 million for the Small Community 
Infrastructure Protection and Sustainability program.'' We have not 
received funding for this program previously.
                                 ______
                                 

    Prepared Statement of the National Drinking Water Clearinghouse

    Chairman Bennett and Members of the Subcommittee: Thank you for the 
opportunity to offer testimony to the Subcommittee on Agriculture, 
Rural Development and Related Agencies. We request an appropriation of 
$2 million for fiscal year 2007 to continue the programs of the 
National Drinking Water Clearinghouse [NDWC] under the Rural Community 
Advancement Program [RCAP] in the USDA budget.
Introduction
    My name is Richard Bajura, and I represent the National Drinking 
Water Clearinghouse, which is located at West Virginia University in 
Morgantown, West Virginia. My unit is home to a specialized suite of 
programs that address the environmental needs of small and rural 
communities. Our staff members have expertise in drinking water, 
wastewater, solid waste management, security systems for small 
community infrastructure, and emergency preparedness. We offer a 
resource of information and specialized technical assistance and 
training services to small communities and to those professionals that 
serve small communities and rural areas. This testimony focuses on our 
programs in drinking water infrastructure that are funded under RCAP.
Need for Federal Programs
    Clean, safe drinking water and the effective treatment of 
wastewater are critical to public and environmental health. For most of 
us, it's easy to take water for granted. However, not that long ago, 
most people didn't have indoor plumbing. According to U.S. Census 
Bureau data, half of American homes in 1940 lacked complete plumbing 
facilities (defined as hot and cold piped water, a bathtub or shower, 
and a flush toilet). By 2002, EPA found that the number of homes having 
complete plumbing facilities increased to 91 percent. Much of this 
improvement can be attributed to Federal infrastructure investment. The 
U.S. Department of Agriculture's Rural Utilities Service [RUS] has 
provided more than $20 billion for water and wastewater projects since 
1947. In spite of these improvements, however, 670,000 households (with 
nearly 2 million people) lack access to water, sanitation, or both. 
Safe, affordable water infrastructure is an investment in the economic 
viability and public health of rural America.
Water Infrastructure Challenges
    Over 50,000 water treatment systems serve the U.S. population, with 
86 percent of these systems being classified as ``small'' systems 
(serving fewer than 3,300 customers) and ``very small'' systems 
(serving fewer than 500 customers). Because smaller systems have lower 
revenues and fewer resources, they are more likely to have difficulty 
meeting an increasing number of environmental regulations. Very small 
systems are 50 percent more likely to incur violations than all other 
system sizes. When the Safe Drinking Water Act was passed in 1974, 18 
contaminants were regulated. By 2004, that number had grown to 86. 
Another eight will be added by 2008.
    While significant progress has been made, a number of challenges 
confront communities as they try to safeguard public health. The very 
nature of rural/small town America works against easy solutions to 
providing essential water service. The cost of providing basic water 
service (and other infrastructure) is often prohibitive because of 
geographic isolation, low population density, social and cultural 
diversity, and a lack of proper information. Twenty-five percent of our 
Nation's drinking water utilities have insufficient revenues to fund 
the full cost of providing service to customers. An equal percentage of 
utilities have deferred maintenance due to insufficient funding. 
Estimates show that during 2000-2019, the operation and maintenance 
funding gap for our Nation's drinking water utilities could be as high 
as $495 billion, and the capital funding gap could be as high as $267 
billion.
    In many communities, water distribution systems and wastewater 
collection systems are 40 to 50 years old, with many dating back more 
than a century. According to the American Society of Civil Engineers 
(ASCE), U.S. drinking water systems are responsible for maintaining an 
estimated 800,000 miles of water delivery pipelines. In the 2002 report 
titled Clean Water and Drinking Water Infrastructure Gap Analysis, EPA 
estimated that we need to invest $265 billion for drinking water 
systems infrastructure through 2022. In the 2003 update to ASCE's 
Report Card for America's Infrastructure, both drinking water and 
wastewater were given a grade of ``D.'' The report suggests that, 
without new investment, the progress made over the last 30 years is 
threatened.
    As a partial solution to addressing these challenges, the Technical 
Assistance and Training [TAT] grants program under the USDA Rural 
Community Advancement Program make it possible for small communities to 
maximize their investments in water infrastructure through the use of 
appropriate technology and sound management practices. The next 
sections of this testimony focus on programs of the National Drinking 
Water Clearinghouse which provide needed assistance to these 
communities.
Information and Technical Assistance Services of the NDWC
    For 15 years, the National Drinking Water Clearinghouse has helped 
small and rural communities with their water infrastructure management 
and utility security issues. The NDWC's services enable small 
communities to provide clean water to their citizens and prevent 
pollution. In this way the NDWC helps small and rural communities to 
protect their public health, increase economic opportunity, and improve 
their quality of life through providing adequate, safe, and economical 
drinking water to their citizens.
    The NDWC accomplishes its mission through a three-pronged approach. 
First, the NDWC provides targeted assistance and quality information 
for meeting regulatory compliance requirements and for optimizing 
community water services. Second, the NDWC provides assistance and 
strategic information to small communities to enable them to develop 
sustainable water services that facilitate economic development. Third, 
the National Drinking Water Clearinghouse provides information for 
public awareness and increased stewardship of water resources to 
educate community officials (who usually are part-time administrators) 
and the general public.
    The NDWC performs a range of assistance activities for small 
communities. Telephone callers can obtain toll-free technical 
assistance from our staff of certified operators, engineers, and 
scientists. Our quarterly publication ``On Tap,'' a magazine about 
drinking water treatment, financing, and management options helps 
communities and small water systems to operate, manage and maintain 
their facilities while keeping them financially viable. A comprehensive 
Web site and databases with thousands of entries provide around the 
clock access to contemporary information on small water systems. 
Training sessions customized for small and rural areas, 
teleconferences, and more than 400 free and low-cost educational 
products provide people the instruction and tools they need to address 
their most pressing drinking water issues.
    These services are well received by small community officials and 
service providers and should be continued. Unless the services of the 
National Drinking Water Clearinghouse are available to provide 
assistance to these communities regarding alternative technologies, 
preparing grant proposals, and training the community officials and 
service providers, the health of these communities will be jeopardized 
and opportunities for economic development will be severely hampered.
    We plan to use $1.5 million of our request to continue NDWC's 
Information and Technical Assistance Services in fiscal year 2007. This 
program receives funding from proposals submitted to the Technical 
Assistance and Training [TAT] Grants Program in the RCAP budget line.
Special Services to Small Communities
    In addition to the National Drinking Water Clearinghouse's 
knowledge base and technical support, the NDWC is expanding its 
assistance to small ``underserved'' communities through technical field 
support. ``Underserved'' is a term that is used to characterize those 
small and rural communities that, due to size and economic constraints, 
have great difficulty assessing their environmental problems and 
competing for funding. Examples would be communities such as we have in 
West Virginia, Alaska, the sprawling Colonias bordering Mexico, Indian 
reservations, and small communities in California, New York, and the 
New England States.
    The NDWC's funding under the Technical Assistance and Training 
Grants program currently does not provide for direct ``on the ground'' 
services to underserved communities. A portion of our funding will be 
used to develop a pilot program to honor requests for site-specific 
technical support from underserved communities. This support gives 
small and very small communities assistance through site assessments 
and feasibility studies that they might not otherwise be able to access 
for planning needed infrastructure improvements, their financing, and 
management.
    Communities often ask for help in assessing their water and 
wastewater needs and options prior to contacting and retaining the 
services of a private consulting firm. Through the pilot program, the 
NDWC will be able to conduct site assessments and offer information and 
education on technology options. In addition, NDWC staff will attend 
and make presentations at community meetings concerning best technology 
and management practices. Pre-engineering assessments conducted by NDWC 
will enable communities to have a thorough knowledge of their water and 
wastewater treatment needs and options, prior to retaining engineering 
services. In this way they will be positioned to select technologies 
that they can afford, and will be able to manage and maintain.
    Funding for the special services to small communities programs will 
enable assistance to be provided on location in communities throughout 
the United States. We will use $500,000 of our appropriation for 
special services to small communities.
    For the past several years, the Managers of this Subcommittee have 
inserted language in the committee report for Agriculture 
Appropriations budget bill that recommended increases in our annual 
funding to provide special services to underserved communities. 
However, no specific amount of funding was earmarked through this 
language, and, consequently, the National Drinking Water Clearinghouse 
has not received funding from USDA to initiate the special services 
program.
Request
    In the Conference Report for the USDA appropriations for fiscal 
year 2006 [H.R. 109-255], the Conference Managers directed spending in 
the amount of $18,250,000 for the Technical Assistance and Training 
[TAT] Grants Program in the RCAP budget line. For fiscal year 2007, we 
request that the TAT program receive sufficient funding to maintain the 
NDWC program and that of the total amount provided for fiscal year 
2007, $2 million should be specifically earmarked for the programs of 
the NDWC.
    The following language is suggested for the USDA Subcommittee 
Report: ``The Mangers provide $2 million to the National Drinking Water 
Clearinghouse for information, technical assistance and special 
services to small communities.''
    A summary of our recent awards history is provided for reference.

    FUNDING AWARDED TO THE NATIONAL DRINKING WATER CLEARINGHOUSE FOR
    TECHNICAL ASSISTANCE AND TRAINING (TAT) PROJECTS UNDER THE RURAL
         COMMUNITY ADVANCEMENT PROGRAM (RCAP) OF THE USDA BUDGET
------------------------------------------------------------------------
                                          Federal fiscal
           USDA funded grants                   year       Award amount
                                           appropriated
------------------------------------------------------------------------
National Drinking Water Clearinghouse...            2006         ( \1\ )
National Drinking Water Clearinghouse...            2005      $1,200,000
National Drinking Water Clearinghouse...            2004       1,157,000
National Drinking Water Clearinghouse...            2003       1,336,000
Technical Assistance for Rural                      2003         510,000
 Wastewater Management Entities (Project
 II)....................................
National Drinking Water Clearinghouse...            2002       1,336,000
Technical Assistance for Rural                      2002         500,000
 Wastewater Management Entities (Project
 II)....................................
                                          ..............      6,039,000
------------------------------------------------------------------------
\1\ Amount pending.
Fiscal year 2007 Request: $2 million ($1.5 million for Information and
  Technical Assistance Services and $0.5 million for Special Services to
  Small Communities).

                                 ______
                                 

               Prepared Statement of The Wildlife Society

    The Wildlife Society appreciates the opportunity to submit 
testimony concerning the fiscal year 2007 budgets for the Natural 
Resources Conservation Service (NRCS), Animal Plant Health Inspection 
Service (APHIS), and Cooperative State Research, Education and 
Extension Services (CSREES). The Wildlife Society is the association of 
almost 8,000 professional wildlife biologists and managers dedicated to 
sound wildlife stewardship through science and education. The Wildlife 
Society is committed to strengthening all Federal programs that benefit 
wildlife and their habitats on agricultural and other private land.
Natural Resources Conservation Service
    Wildlife Habitat Incentives Program (WHIP).--WHIP is a voluntary 
program that provides technical and financial support to farmers and 
ranchers to create high quality wildlife habitat. The Wildlife Society 
recommends funding WHIP at $85 million in fiscal year 2007, the full 
amount authorized by the 2002 Farm Bill.
    Wetland Reserve Program (WRP).--WRP is a valuable program designed 
to assist farmers and ranchers in protecting and restoring wetland 
habitat. The Wildlife Society appreciates the continued targeting of 
200,000 acres annually for enrollment in WRP. However, we recognize 
that if the authorized level of 250,000 acres is not enrolled every 
year, then enrollment must increase in future years to reach the 
authorized level of 2,275,000 acres. Full WRP enrollment is needed if 
the Administration intends to achieve the President's goal of no-net-
loss of wetlands. The Wildlife Society supports an enrollment target of 
250,000 acres in fiscal year 2007.
Animal and Plant Heath Inspection Service
    Wildlife Services.--Wildlife Services (WS), a unit of APHIS, is 
responsible for controlling wildlife damage to agriculture, 
aquaculture, forest, range, and other natural resources, for 
controlling wildlife-borne diseases, and for controlling wildlife at 
airports. Its activities are based on the principles of wildlife 
management and integrated damage management, and are carried out 
cooperatively with State fish and wildlife agencies.
    The Wildlife Society is concerned by the Administration's proposal 
to decrease funding in key activity areas for WS. The President's 
fiscal year 2007 proposed budget directs an increase of $9,750,000 to 
the WS Operations line item, while requesting $12,539,000 in deceases 
to offset the proposed increases, for a net decrease of $2,789,000. In 
essence, $9,750,000 is being redirected from existing activities to 
support airport safety and assistance ($3,000,000), the oral rabies 
vaccination program ($1,750,000), and wildlife disease monitoring and 
surveillance ($5,000,000). While we are pleased that these activities 
have gained presidential support, these new mandates, along with the 
net decrease to the WS operational budget, will effect a $12,539,000 
overall reduction to key activity areas. The Wildlife Society strongly 
recommends that Congress restore, as an add-on, the proposed decrease 
of $2,789,000 and provide increased funding of $9,750,000 for WS to 
continue local program operations, as well as to support the airport 
safety, rabies, and wildlife disease activities without redirecting 
funds from other needed activities.
    We understand the importance of safeguarding our Nation against 
highly pathogenic avian influenza and applaud the added fiscal 
resources to address this critical issue. The President's fiscal year 
2007 budget proposal redirects $3.2 million for avian influenza 
research as it relates to migratory birds. The Wildlife Society 
recommends that Congress provide additional money to adequately fund 
this and other important and associated research. Redirection of funds 
for this program would have serious and, in many cases, terminal 
effects on existing projects.
    This program is also short $2.2 million because of previously 
directed unfunded earmarks. These directed programs leave important 
programs under-funded, like the Jack Berryman Institute for Wildlife 
Damage Management at Utah and Mississippi State Universities; the 
Logan, Utah Predator Research Station; the newly-established Texas A&M 
University-Kingsville Research Field Station; important reproduction 
inhibition research; and the National Trap Standards Development and 
Testing Project.
    Veterinary Services.--The Wildlife Society is deeply troubled by 
the proposed cuts in several line-item budgets of USDA-APHIS-Veterinary 
Services (VS). The protection of wildlife, livestock, and humans from 
the threat of intentional and/or accidental introduction of disease 
pathogens is very real and increases daily. The occurrence of Highly 
Pathogenic Avian Influenza H5N1 in Asia, Europe, Africa, and the Middle 
East, the introduction of Monkey Pox in 2003, the Exotic Newcastle 
Disease event in California and other States in 2003-2004, and the 
national spread of West Nile Virus starting in 1999 all indicate that 
the introduction of diseases is rapidly increasing with no signs of 
abating. In time of concern about national security and the need to 
protect the citizens of the United States. from the introduction of 
exotic diseases, it is imperative that funding for the agencies 
responsible for detecting and prohibiting disease introductions be 
adequately funded. The reemergence of several diseases, such as bovine 
TB, Brucellosis, and others indicate that the efforts to control and 
eradicate these diseases are not complete and APHIS must continue to 
address the threats they pose to livestock, wildlife, and humans. 
Additionally, VS continues to identify some diseases, such as 
pseudorabies in feral pigs, as important economic drains on the economy 
while sister agencies in USDA-APHIS propose to cut research into feral 
hog control programs. The Wildlife Society strongly recommends that all 
branches of USDA-APHIS coordinate budgets and activities for livestock 
and wildlife disease surveillance, research, and control.
    The Wildlife Society is very concerned about the proposed $1.405 
million reduction in the Brucellosis Program budget. This appears ill-
advised given the fact that three States--Texas, Wyoming, and Idaho--
currently are without their brucellosis class-free status because of 
recent outbreaks in domestic cattle herds. Because of its presence in 
wild elk and bison, brucellosis in the Greater Yellowstone Area will be 
especially difficult to eliminate and will require more, not less, 
fiscal resources to accomplish. We recommend Congress restore 
brucellosis funding to $11 million in fiscal year 2007, and that USDA-
APHIS-Veterinary Services continue to utilize the authorities and 
expertise of the Greater Yellowstone Interagency Brucellosis Committee 
to address domestic livestock interactions with wild elk and bison in 
the region.
    The Wildlife Society commends APHIS-Veterinary Services for 
providing funding to state wildlife management agencies for Chronic 
Wasting Disease (CWD) surveillance and management in free-ranging deer 
and elk. Additionally, The Wildlife Society strongly supports APHIS' 
efforts to eliminate CWD from captive cervids in order to eliminate the 
risk of spread of the disease from these animals to free-ranging deer 
and elk. The surveillance and monitoring efforts conducted by all 50 
States during 2004 and 2005 would not have been possible without this 
cooperative funding. Additionally, knowledge of the presence and 
prevalence of CWD has been enhanced by this program. Without continued 
funding, States will be unable to maintain the level of CWD 
surveillance necessary to track the disease. The National CWD Plan 
calls for additional management efforts to prevent the spread of CWD in 
the United States. The finding of CWD in three additional States in 
2005 (New York, West Virginia, and Kansas) emphasizes the need for 
continued surveillance and monitoring. Without the State cooperative 
agreement funding from Veterinary Services, this surveillance and 
monitoring would not be possible. With additional States finding CWD or 
bordering States with CWD, the amount of funding available will be 
spread thinner, while the need for this activity increases. The 
Wildlife Society strongly recommends Congress increase CWD funding to a 
total of $30 million in fiscal year 2007, with $20 million designated 
for cooperative agreements with the States for surveillance and 
management of CWD in free-ranging cervids.
    The Wildlife Society is encouraged by the additional funding 
proposed in fiscal year 2007 for both low pathogenic and high 
pathogenic avian influenza work. The potential for this disease to 
spread to the North American continent and severely impact wildlife, 
domestic poultry, and humans highlights the importance of continued 
surveillance and monitoring of all zoonotic diseases. The fiscal year 
2006 supplemental appropriation provided funding needed to begin to 
address the avian influenza issue, both in the United States and 
elsewhere. This effort must continue to ensure that America's citizens 
and resources are protected. The Wildlife Society strongly supports the 
proposed funding for low pathogenic avian influenza at $3.05 million 
and for high pathogenic avian influenza at $51.7 million.
Cooperative State Research, Education, and Extension Service
    Renewable Resources Extension Act.--RREA provides an expanded, 
comprehensive extension program for forest and rangeland renewable 
resources. The RREA funds, which are apportioned to State Extension 
Services, effectively leverage cooperative partnerships at an average 
of four to one, with a focus on private landowners. The need for RREA 
educational programs is greater today than ever because of continuing 
fragmentation of ownership, urbanization, the diversity of landowners 
needing assistance and increasing societal concerns about land use and 
the impact on natural resources including soil, water, air, wildlife 
and other environmental factors. The Wildlife Society recommends that 
the Renewable Resources Extension Act be funded at $30 million as 
authorized in the 2002 Farm Bill.
    McIntire-Stennis.--The proposed budget for fiscal year 2007 
reflects a stable funding level for the McIntire-Stennis Cooperative 
Forestry program. An alternative approach to the research formula base 
programs would redirect 45 percent of both the Hatch Act and the 
McIntire-Stennis Cooperative Forestry program funds to nationally 
competitively awarded multi-state/multi-institutional projects. This 
represents a significant departure from prior years. These funds are 
essential to the future of resource management on non-industrial 
private forestlands, as forest products are produced while conserving 
natural resources, including fish and wildlife. As demand for forest 
products grow, private-land forests will increasingly be needed to 
supplement supplies, but trees suitable for harvest take decades to 
produce (versus the single year in which crops such as corn and 
soybeans can be harvested). In the absence of long-term and on-going 
research, such as provided through McIntire-Stennis, the Nation could 
easily become ill-suited to meet future forest-product needs. 
Replacement of McIntire-Stennis funding with competitive grants will 
leave long-term and stable forest research to chance. The Wildlife 
Society strongly believes that the reasons for continuing the McIntire-
Stennis Cooperative Forestry program into the future are compelling and 
urges Congress to increase the fiscal year 2007 budget to $25 million, 
an amount more consistent with historic levels.
    National Research Initiative.--National Research Initiative 
Competitive Grants (NRI) are open to academic institutions, Federal 
agencies, and private organizations to fund research on improving 
agricultural practices, particularly production systems that are 
sustainable both environmentally and economically, and to develop 
methods for protecting natural resources and wildlife. Innovative grant 
programs such as NRI help broaden approaches to land management, such 
as integrating timber and wildlife management on private lands. The 
Wildlife Society supports the administration request of $247 million 
for National Research Initiative Competitive Grants.
    Thank you for considering the views of wildlife professionals. We 
look forward to working with you and your staff to ensure adequate 
funding for wildlife conservation.

</pre></body></html>
